<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona
 JOE SKEEN, New Mexico
 CHARLES H. TAYLOR, North Carolina
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     NORMAN D. DICKS, Washington
                                    JOHN P. MURTHA, Pennsylvania
                                    JAMES P. MORAN, Virginia
                                    ROBERT E. ``BUD'' CRAMER, Jr., 
                                    Alabama
                                    MAURICE D. HINCHEY, New York

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Public Witnesses for Natural Resource Programs...................    1
 Additional Written Testimony.....................................  334
 Public Witnesses for Energy and Other Programs...................  473
 Additional Written Testimony--Energy.............................  790
 Additional Written Testimony--Arts and Humanities................  874
 Additional Written Testimony--Mineral and Other Programs.........  896

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-753                     WASHINGTON : 1999

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio
 JERRY LEWIS, California
 JOHN EDWARD PORTER, Illinois
 HAROLD ROGERS, Kentucky
 JOE SKEEN, New Mexico
 FRANK R. WOLF, Virginia
 TOM DeLAY, Texas
 JIM KOLBE, Arizona
 RON PACKARD, California
 SONNY CALLAHAN, Alabama
 JAMES T. WALSH, New York
 CHARLES H. TAYLOR, North Carolina
 DAVID L. HOBSON, Ohio
 ERNEST J. ISTOOK, Jr., Oklahoma
 HENRY BONILLA, Texas
 JOE KNOLLENBERG, Michigan
 DAN MILLER, Florida
 JAY DICKEY, Arkansas
 JACK KINGSTON, Georgia
 RODNEY P. FRELINGHUYSEN, New Jersey
 ROGER F. WICKER, Mississippi
 MICHAEL P. FORBES, New York
 GEORGE R. NETHERCUTT, Jr., 
Washington
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     DAVID R. OBEY, Wisconsin
                                    JOHN P. MURTHA, Pennsylvania
                                    NORMAN D. DICKS, Washington
                                    MARTIN OLAV SABO, Minnesota
                                    JULIAN C. DIXON, California
                                    STENY H. HOYER, Maryland
                                    ALAN B. MOLLOHAN, West Virginia
                                    MARCY KAPTUR, Ohio
                                    NANCY PELOSI, California
                                    PETER J. VISCLOSKY, Indiana
                                    NITA M. LOWEY, New York
                                    JOSE E. SERRANO, New York
                                    ROSA L. DeLAURO, Connecticut
                                    JAMES P. MORAN, Virginia
                                    JOHN W. OLVER, Massachusetts
                                    ED PASTOR, Arizona
                                    CARRIE P. MEEK, Florida
                                    DAVID E. PRICE, North Carolina
                                    CHET EDWARDS, Texas
                                    ROBERT E. ``BUD'' CRAMER, Jr., 
                                    Alabama
                                    JAMES E. CLYBURN, South Carolina
                                    MAURICE D. HINCHEY, New York
                                    LUCILLE ROYBAL-ALLARD, California
                                    SAM FARR, California
                                    JESSE L. JACKSON, Jr., Illinois
                                    CAROLYN C. KILPATRICK, Michigan
                                    ALLEN BOYD, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 13, 1999.

                     NATIONAL PARK SERVICE AND IMLS

                               WITNESSES

JAY GOLAN, DIRECTOR OF DEVELOPMENT AND PLANNING, CARNEGIE HALL
JAMES BONKOVSKY, DIRECTOR OF GOVERNMENT RELATIONS, CARNEGIE HALL
    Mr. Regula [presiding]. We will get the committee hearing 
started.
    Our first witness, Jay Golan, Director of Development, 
Carnegie Hall, welcome. You may summarize your remarks. For all 
of you, we will put your remarks in total in the record, but 
please summarize, because five minutes is not very long.
    Mr. Golan. Yes, sir. Mr. Chairman, I would like to thank 
the subcommittee for allowing me the opportunity to testify 
today, and, as you say, the written statement will be submitted 
for the record. I would also like to introduce James Bonkovsky, 
the Director of Government Relations at Carnegie Hall, my 
associate here.
    The testimony I have submitted outlines in detail Carnegie 
Hall's proposal for a third stage campaign to take the lower 
level of Carnegie Hall and refigure it as a third performance 
hall which it has not been since the early, early days of the 
hall's history in the 1890's.
    I would like to diverge a little from that written 
testimony and just talk a little bit in broader terms the 
importance of historic preservation to an institution like 
Carnegie. Carnegie Hall was founded in 1891 by Andrew Carnegie. 
For over 100 years we have been recognized for our ability to 
present the world's finest musicians on our stage. The 
president of Carnegie Hall is Isaac Stern and, as he says, an 
appearance on the Carnegie Hall stage means that any musician 
has truly made it. It is a global symbol of excellence and 
performance, and we have continued to preserve this mission 
despite the many physical changes which the hall has undergone.
    You probably know that by the middle of this century 
Carnegie Hall was deeply affected by age and deterioration. The 
private interests that then owned it were prepared to tear it 
down, put up an office tower in 1960. This institution was 
thankfully rescued by a combination of public and private 
initiative. The City and State of New York combined to help buy 
the building and turn over its oversight to a non-profit 
organization set up for the purpose. The hall was saved; it has 
been on a renaissance ever since 1960; it was designated a 
national historic landmark in 1964.
    Mr. Regula. Is it federally-owned?
    Mr. Golan. No, no; it is city-owned.
    Mr. Regula. Why would the Federal Government fund it, if it 
is a city property?
    Mr. Golan. Federal Government was not involved in saving.
    Mr. Regula. Yes, I understand, but why would the Federal 
Government have any responsibility for providing funding for it 
if it is not a Federal property?
    Mr. Golan. Well, as I hope my testimony would indicate, it 
is a national and global symbol of excellence; it stands for 
America in the performing arts.
    Obviously, knowing this history, since 1964 we have been 
restoring it; we have been building it up; the hall has 
undergone substantial recapturing of its initial grandeur to 
ensure its existence well into the next century. Knowing this 
history, the subcommittee will recognize Carnegie Hall really 
is a staunch proponent of historic restoration projects. We 
have done them as much as we could with every bit of resources 
at our disposal. Millions of Americans come every year to 
experience and enjoy this hall.
    We believe that Congress should give full consideration to 
the President's budget request for both the National Park 
Service Historic Preservation Fund and the Save America's 
Treasures Programs. These programs ensure that future 
generations will be able to experience and appreciate the 
grandeur of this country's history or the historic documents, 
objects, or architecture. We were very pleased to learn that 
Congress was able to provide Save America's Treasures Program 
with $30 million in Fiscal Year 1999. Carnegie Hall has applied 
to that program for a small grant to help restore the 7th 
Avenue facade to its original structure and design through Save 
America's Treasures.
    So, we encourage the subcommittee to fully fund that and 
the National Historic Preservation Fund in Fiscal Year 2000. We 
all know that the subcommittee faces significant constraints 
caused by caps on the domestic discretionary, but we do ask 
that you consider historic preservation a high priority within 
these constraints.
    Thank you. I would be pleased to answer any questions you 
or any other members have.
    Mr. Regula. You have applied to the Save America's 
Treasures Program?
    Mr. Golan. Yes, we have.
    Mr. Regula. The problem there also is that it has to be 
federally-owned properties which is going to limit you and many 
others. I think the legislation requires the recipients to be 
federally-owned--is that right, Debbie? Well, yes, they are 
raising private money.
    Mr. Bonkovsky. Through the National Endowment for the Arts, 
they are able to fund, and there are three agencies that were--
--
    Mr. Regula. Have you applied to NEA?
    Mr. Bonkovsky. Yes, we applied through the NEA for this 
program, and publicly- or privately-owned buildings were 
allowed to submit.
    Mr. Golan. And we did receive an NEA approval to go into 
the hopper there, one of their approved projects.
    Mr. Bonkovsky. And they see that the technology for the 
third stage really brings our education and other programs to a 
national level like none other has before, and I think this is 
the real reason the National Endowment for the Arts is 
particularly interested at the national level and why we are 
turning to Congress at this point.
    Mr. Regula. Okay, thank you for coming.
    Mr. Bonkovsky. Thank you.
    [The statement of Jay Golan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

CHINCOTEAGUE REFUGE EDUCATION AND ADMINISTRATIVE CENTER

                               WITNESSES

WANDA THORNTON, ISLAND SUPERVISOR, ACCOMACK COUNTY, VIRGINIA
DONNA LEONARD
MICHAEL COLOPY
    Mr. Regula. Next is the Committee for Chincoteague Refuge 
Education, et cetera, et cetera.
    Ms. Thornton. Good morning.
    Mr. Regula. Good morning. Okay, you have five minutes.
    Ms. Thornton. I have five minutes. I will try to make it 
brief, Mr. Chairman.
    Mr. Regula. You have one statement, right?
    Ms. Thornton. Yes, sir.
    Mr. Regula. We will put it in the record.
    Ms. Thornton. I turned my 20 copies in outside.
    Mr. Regula. Right.
    Ms. Thornton. My name is Wanda Thornton. I am a member of 
the Accomack County Board of Supervisors, and I am here today 
testifying on behalf of the Committee for the Chincoteague 
Refuge Education and Administrative Center. I want to thank you 
for giving us this opportunity to testify here today. We are 
very appreciative of it; we have traveled some distance to be 
here, and we would like to ask your support for the 900K in 
planning money that is currently in the Fiscal Year 2000 
budget, and, more importantly, we would like to ask your 
continued support for this project which will cost between $8 
million and $10 million, and hopefully we could have it 
constructed and open the doors in 2003 to the 1.4 million 
visitors that are coming to Chincoteague presently. That will 
be the 100th year anniversary of the refuge system.
    I recognize that a visitor center is certainly not a 
popular facility----
    Mr. Regula. It is just a matter of money.
    Ms. Thornton. I understand that, but there are centers 
being funded. We feel like our need is very desperate at this 
point. I agree with your assertion that we need to end the 
maintenance backlog on refuges, and if this facility was built 
today, we would eliminate $1 million in backlog maintenance, 
replacing the five inadequate structures that have been----
    Mr. Regula. Do you have some sort of a visitor program now? 
I assume you do.
    Ms. Thornton. We do. We have a small, makeshift--what we 
call a makeshift--visitor center. It is extremely small; we 
receive 150,000 visits a year. We could accommodate much more 
if we had the facilities in which to do it. We feel like that 
here are some of the examples of the other refuges, and it 
shows us with the volume of visitors we have and this is----
    Mr. Regula. What are the unique features about this refuge 
that attracts the visitors?
    Ms. Thornton [continuing]. This is the contact station. 
Through the refuge?
    Mr. Regula. Yes.
    Ms. Thornton. Well, the refuge, certainly, for refuge-
oriented activities--bird watching and related activities.
    Mr. Regula. Do you get school groups?
    Ms. Thornton. We get many, many school groups, but we have 
to turn as many away as we receive, because we simply do not 
have the facilities to do it. If there is an educational 
program, we have to house them in a converted garage that has 
no running water, no bathroom facilities, no windows.
    Mr. Regula. So, when you say house, do you have students 
who come for a period of time?
    Ms. Thornton. Well, no, I do not mean house, excuse me; I 
mean for interpretive programs.
    Mr. Regula. So, these are like your classrooms.
    Ms. Thornton. That is correct. That is what we have to use; 
it is a converted garage; it was built in the sixties, and it 
has no----
    Ms. Leonard. It is the auditorium that is used for the 
public that is converted to education during the spring of the 
year when many of them are taking day trips.
    Mr. Regula. Are you getting any of the fees under the 
recreation fee demonstration programs?
    Ms. Thornton. Well, that changed, as you well know, several 
years ago, and they are getting----
    Mr. Regula. Yes we started it.
    Ms. Thornton. Well, congratulations, because that was one 
of my pet peeves.
    Mr. Regula. Well, it was one of my initiatives, so that is 
why I mentioned it.
    Ms. Thornton. Well, I certainly appreciate that, because 
one of the pet peeves I had, we had 1.5 million visitors a 
year, or 1.4, and we were giving all the money back to the 
refuge system and not being able to----
    Mr. Regula. Giving it to the Treasury is what you were 
doing, actually.
    Ms. Thornton. Well, but we were not----
    Mr. Regula. You were not keeping it, no, I know. We changed 
that so you get to keep it.
    Ms. Thornton. Locally, we were not receiving----
    Mr. Regula. Right, I understand.
    Ms. Thornton. And consequently, we are in a unique 
situation in that we have a national wildlife refuge and a 
national seashore together.
    Mr. Regula. But are you collecting fees now?
    Ms. Thornton. Yes, sir.
    Mr. Regula. Is it working well?
    Ms. Thornton. Yes, the fee structure is working very well, 
but it certainly will not----
    Mr. Regula. No, I understand that, and we did not intend 
for it to replace the base budget but rather to allow you to--
--
    Ms. Thornton. Supplement.
    Mr. Regula. Supplement, or maybe the better word to 
supplant things, but to do things that you ordinarily would not 
be able to do.
    Ms. Thornton. Right, but I think one of the constraints put 
on by Congress was the fact that we could not use any of that 
money to build or plan these new facilities.
    Mr. Regula. No, I understand, because we felt that was a 
responsibility, provided we had the money, of Congress, and we 
have tried to get the fees to enhance the visitors' experience. 
So, how are you using yours? What are you doing with it?
    Ms. Thornton. Well, he is using it for other things on the 
refuge that is in dire need of--I mean, we are so--it is just 
so inadequate.
    Mr. Regula. So, it does get into your educational programs.
    Ms. Thornton. We are overwhelmed with the amount of 
visitors we have.
    Mr. Regula. Yes, I can understand that.
    Ms. Thornton. We have a tremendous amount of elder hostels 
that is coming there now off-season because of the Green 
Science Consortium and the Oyster Maritime Museum sponsors 
them, and a lot of them go over there and work on the refuge as 
volunteers while they are there through a program.
    Mr. Regula. Is that right?
    Ms. Thornton. Yes, and it really has enhanced their 
awareness of the refuge, and they certainly are supportive. We 
have many, many people who are supporting this effort. Just 
locally, this effort has only been underway a short time, and 
we have collected $10,000 in local donations.
    Mr. Regula. Well, I am sure this is a very worthwhile 
program. Our problem, of course is money; that is why we have 
had a moratorium on visitor centers, because we just have not 
had the resources to do it.
    Ms. Thornton. Well, this is an administrative and visitor 
center complex.
    Ms. Leonard. It would be replacing this administrative 
office.
    Mr. Regula. Yes, I understand.
    Mr. Colopy. Mr. Chairman, one key thing: if you take the 
Fish and Wildlife Service figures for visitation, if you take 
out three refuges that have a highway through them, we are the 
most visited point of destination in the entire refuge system, 
but we have among the lowest standard facilities in the entire 
refuge system, and that is the problem.
    Mr. Regula. Thank you for coming. I wish we had more time.
    Mr. Colopy. Thank you, Mr. Chairman.
    Ms. Leonard. Thank you.
    Mr. Regula. Okay, Gwen Marshall----
    Ms. Thornton. Thank you, Mr. Chairman. We would like to 
invite you, if your schedule permits, to come and look at our 
facility so you could see for yourself firsthand. We would be 
happy for you to be our guest.
    Mr. Regula. Okay, thank you.
    Ms. Leonard. Do you want to keep these for your records?
    Mr. Regula. Thank you for making the trip. I know it is a 
burden, and I wish we had more time.
    [The statement of Ms. Thornton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                 FISCAL YEAR 2000 FOREST SERVICE BUDGET


                                WITNESS

GWEN MARSHALL, VOLUNTEER
    Ms. Marshall. Promise me everything, and we will get this 
done quick and get you back on schedule.
    Mr. Regula. Well, either that or promise you nothing.
    Ms. Marshall. You have done that.
    Mr. Regula. Either way, you get five minutes. [Laughter.]
    Ms. Marshall. I am not feeling very creative this year. I 
normally come in with some sort of cutesy prop, but it was my 
school district that was hit by that tornado on Friday. The 
building where I normally work is the one that was turned into 
the Red Cross Relief Center. It kind of puts things in 
perspective but also reminds you about urgency of things 
needing to be done.
    I have two items in my written testimony; I am not going to 
cover the second one at all, because we have done that.
    Mr. Regula. It will be in the record.
    Ms. Marshall. I know, but we have also talked about it. I 
just wanted it in the record.
    Last year I reported about the Forest Service's main 
commodity programs; that the cost for the Timber Program was 
somewhere between 3 and 6 times what it brought in; the cost 
for the Grazing Program was somewhere around 9.5 times what it 
brings in, and the cost for the Mining Program about 1.7 times 
of what it brought in. I did not do the same figures this year. 
I figured, well, it has not changed that much, and that is not 
my job. I think the Forest Service should be telling us what 
these things cost.
    So, I have prepared written testimony, and this is the part 
from the budget that corresponds it. I thought it would help 
you for your reference, and I have highlighted it, because I 
know your staff gets all this stuff, but this is the good stuff 
in terms of this is their proposed reforms and also their 
highlights, and I thought in particular that way you would know 
what it is that I am concerned with.
    My bottom line is we need an honest bookkeeping system and 
also my concern that what they have proposed in terms of 
bookkeeping would only make it more convoluted than what we 
already have which does not seem possible, but I am sure it 
could be done. And one in particular example was under public 
benefits. They have got mining, grazing, timber, land 
ownership, and law enforcement--one budget item. This should be 
much cleaner. We should know what the commodity programs are 
costing; what the commodity programs are bringing in, so that 
Congress and the public can work in making business-type 
decisions.
    Mr. Regula. Do you think there is any spill-off in terms of 
the public recreation usage? In other words, if you build a 
road to harvest timber----
    Ms. Marshall. Actually, recreation is also in on that.
    Mr. Regula [continuing]. You are going to use it for 
recreation also.
    Ms. Marshall. No, the roads are in a whole different 
section in their proposed budget, and that is why I gave you 
that packet, because it shows you their proposed cross-walk, 
and, actually, they were planning to combine all the roads 
together according to what they are telling us in the packet 
that they gave us.
    So, actually, it looked like they were trying to do the 
outcome- based, bookkeeping-type stuff which is the same kind 
of garbage in education 20 years ago which I did not think had 
any potential for making sense then either, and it would 
basically be that they would say what they planned to do, like 
treat so many acres, and then they would report back, ``We have 
treated these acres,'' without telling you what the results 
are; what they would have been without. It is just a way to 
throw a bunch of numbers at you without giving you any 
information for making sound decisions.
    Mr. Regula. Why would the Forest Service want to sell the 
timber if it costs them nine times as much as they receive?
    Ms. Marshall. Because they get to keep the money from the 
sales, and the Federal Government pays for the cost, so it 
makes good sense. They get to keep it; they have not been 
returning money to the Treasury. They have got all these 
wonderful slush funds--KV, Salvage, and, in fact, one of their 
proposals is to create a green salvage fund, basically.
    Mr. Regula. So, you are saying they use the Federal money 
to generate the----
    Ms. Marshall. Money for themselves.
    Mr. Regula. Money for the K-V and the other funds.
    Ms. Marshall. Which they keep.
    Mr. Regula. Yes, I understand.
    Ms. Marshall. I mean, the whole purpose of their operation 
is to generate funds for themselves using Government money, and 
that is why it is so convoluted and confusing as to what they 
are actually doing, and it makes it very hard for anyone to 
make a decision, because you are not getting the facts.
    Mr. Regula. Okay, is there any other point you want to 
make? We are out of time.
    Ms. Marshall. Yes, one quick point. Congress has already 
told them they want the bookkeeping system cleaned up, and they 
said, ``We will get to it by the year 2002,'' and I have seen 
this before; in fact, I have seen this as long as I have been 
coming in; Congress keeps giving them demands, and they keep 
coming back saying we need more money. I would suggest you do 
it the other way around: ``You do what we ask or you do not get 
the money,'' and I think your results would be ready by next 
year with a bookkeeping system that is honest and readable. I 
think any five people could sit down and devise it, and it does 
not take a whole agency to make convoluted mess by the year 
2002, and I think Congress should really tell this agency to do 
it. I mean, they are out of compliance, and they are driving 
Government oversight nuts; they have got something where they 
explode the budget--that is the actual words they use. They 
need your help to get it fixed; Government oversight cannot do 
it; you guys have the money.
    Mr. Regula. Okay, thank you.
    Ms. Marshall. That is how you get stuff done; I ought to 
know.
    Mr. Regula. We have tried.
    [The statement of Ms. Marshall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

        WEST EUGENE WETLAND PROJECT OF BUREAU OF LAND MANAGEMENT


                                WITNESS

STEVE GORDON, PRINCIPAL PLANNER, LANE COUNCIL OF GOVERNMENTS
    Mr. Regula. Land Council of Governments.
    Mr. Gordon. Good morning, Mr. Chairman and committee 
members.
    Mr. Regula. Good morning.
    Mr. Gordon. Thank you for the opportunity to testify before 
you today about a unique BLM project, the West Eugene Wetland 
Project in Eugene, Oregon, the Beaver State. My name is Steve 
Gordon. I am a project coordinator for a multi-agency wetland 
project. I am here to request $3 million to complete the BLM 
acquisition on this project. If we get this $3 million, we will 
not come back next year for more. I know that we are in the 
President's budget for $0.5 million this year. If we receive 
the $3 million, BLM would be able to complete its 3,500-acre 
acquisition program.
    As you are aware Eugene has been working with BLM and the 
Nature Conservancy and other partners since 1987 on this 
project. Since 1992, the district has managed $8 million in 
land and water conservation funds to purchase 73 parcels 
covering 1,200 acres. With the money that was appropriated last 
year, they are negotiating on an additional 660 acres valued at 
$3.2 million. BLM anticipates being able to spend that 
appropriation and to use the final $3 million in a timely and 
responsible fashion.
    Other partners also own land in West Eugene; over 800 acres 
owned by the city, the Nature Conservancy, and others. The 
Nature Conservancy and the city are planning to buy an 
additional 300 acres in negotiations that are currently under 
way. In addition to ownership, the partners are funding 
restoration through the city's mitigation bank and are sharing 
in administrative and operational costs of the program. Of the 
total capital costs we have spent on this project to date, BLM 
shares about 37 percent; of the current staffing to manage the 
project, BLM shares about 30 percent.
    These are wonderful wetlands of national significance. They 
contain a rare Willamette Valley prairie that is very scarce; 
it contains several listed plants and a butterfly on the 
Federal endangered species list. This habitat is right on the 
edge of the city of Eugene, Oregon's second largest 
metropolitan area; it is in danger of urban and agricultural 
conversion.
    During the eight years we have been seeking funds from 
Congress, our urban land values have doubled, and the 
agricultural land values have tripled in our region. These 
acquisitions are complex because of the fragmented property 
ownerships--yes, sir?
    Mr. Regula. You have one minute.
    Mr. Gordon. Because the property is fragmented, it is not 
like buying land from one single rancher or timber holder. Our 
community and Oregon delegation supports this program. We thank 
you for your continued support and share in the pride of this 
program. It is a gem in the Willamette Valley where the 
population is expected to double in the next 50 years.
    I want to assure you, Mr. Chairman, that we did not bring 
the beavers to the tidal basin, and we invite you to come visit 
our wetland the next time you are in Oregon.
    Mr. Regula. Thank you. It sounds like a good partnership. 
Mr. Dicks.
    Mr. Dicks. No, I have no questions. I know that Congressman 
Peter DeFazio has been very supportive of this program.
    Mr. Gordon. Ex-county commissioner from Lane County.
    Mr. Dicks. Right.
    Mr. Regula. Well, we like that you pay 63 percent. 
[Laughter.]
    We would like more projects like that. Thank you.
    Mr. Gordon. Thank you, Mr. Chairman.
    [The statement of Mr. Gordon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                        KLAMATH NATIONAL FOREST


                                WITNESS

KYLE HAINES, FOREST PROTECTION COORDINATOR, KLAMATH FOREST ALLIANCE
    Mr. Regula. Klamath Forest Alliance.
    Mr. Haines. Hi, Chairman Regula; nice to meet you. My name 
is Kyle Haines. I am the forest protection coordinator for the 
Klamath Forest Alliance, and I am one of the newbies coming 
from California out to Washington, so it is my first time.
    I wanted to talk to you--well, actually, let me explain our 
organization first. We are a rural-based, environmental 
organization, so appropriations means a lot to us. There is 
Federal land all around us, so the implications of things that 
go on with appropriations have a direct bearing on our rural 
communities.
    I want to share with you a study that was done by the 
Forest Water Alliance, an environmental coalition of 13 groups 
that looked at the Northwest Forest Plan and analyzed it since 
its inception, and we found through our study of different 
timber sales that entry into roadless areas, cutting of 
riparian reserves, inappropriate fuel programs were costing up 
to a $102 billion, and----
    Mr. Regula. Well, your bottom line is we are spending more 
than we are getting.
    Mr. Haines. Yes, and that has been said earlier; probably 
be said again today.
    Mr. Regula. Yes.
    Mr. Haines. So, I want to give you a little more concrete 
example and focus on roads, because on the Klamath we had a 
storm that came New Year's Day of 1997, and it was a rain on 
snow event on--it was tropical storm, and it rained down on 
over 6,000 miles of roads, and, as a result of that, $30 
million worth of damage occurred on the forest--I do not know 
if you have heard that--but the Forest Service went out and did 
an assessment of the flood, and they have done phase I of a 
three-phase assessment, and there is some interesting 
statistics here that give you a concrete example of the damage 
that roads can do. They found 1,100 landslides as a result of 
that storm; 72 percent of those were new slides.
    Mr. Regula. Are you saying the slides resulted from the 
roads?
    Mr. Haines. Well, either from new harvest or road-building 
activities. There is a lot of steep terrain in the Klamath 
National Forest and a lot of granitic-type soils that wash----
    Mr. Regula. Is this from clear-cutting?
    Mr. Haines. In many cases it was, because there is older 
clear cuts in that forest.
    Mr. Regula. Are they still doing clear cuts?
    Mr. Haines. No, they call them regeneration harvests. They 
are similar but technically different than that. There are 
still a lot of trees removed; up to 15 percent is all that is 
left in some cases.
    Landslides were 27 times more likely at road sites as 
compared to undisturbed lands and 11 times more likely on 
previously logged land as compared to roadless areas and 
wilderness which would be your baseline. So, my point here is 
that we have too many roads. The Forest Service, nationally, 
can only afford to maintain 18 percent of their roads.
    Mr. Regula. Do recreation users use the roads?
    Mr. Haines. Actually----
    Mr. Regula. The public?
    Mr. Haines. Yes, they do, but the statistics I found that 
75 percent of the recreating public uses facilities a quarter-
mile of a lake or a river. So, we have got numerous roads into 
logging areas on high slopes, switchback-type roads, and those 
do not really qualify for the kind of areas that the public 
normally recreates in. They usually go in a trailhead or 
rivers----
    Mr. Regula. You are proposing to reduce the cutting.
    Mr. Haines. We are proposing a $90 million reduction in 
incentives for road construction and reconstruction as part of 
the environmental initiative.
    To counter that, we would like to see more money 
appropriated to restoration work and road decommissioning. In 
our area, the tribes are doing some heavy equipment training 
for----
    Mr. Regula. Indian tribes?
    Mr. Haines. Yes.
    Mr. Regula. Is that what you are saying?
    Mr. Haines. Yes, the Karuk Tribe and the Yurok Tribe.
    Mr. Regula. Is this on their lands or on Forest Service 
land?
    Mr. Haines. It would be for contracting on forest land and 
also on their lands too.
    Mr. Regula. Mr. Dicks, do you have any questions?
    Mr. Dicks. No, no, Mr. Chairman. I think I understand what 
the gentleman is proposing.
    Mr. Haines. So, we see opportunity----
    Mr. Regula. Please take half a minute to wrap up.
    Mr. Haines [continuing]. Economic opportunity for tribes 
and for the community in road decommissioning, so we would like 
to see money appropriated for restoration work, including an 
increase from $1 million to $3 million for salmon fisheries and 
also for monitoring for fish and wildlife and----
    Mr. Regula. You know, we have reduced the allowable cut 
substantially in the last four years.
    Mr. Haines. Yes.
    Mr. Regula. From 11 billion to 3 billion board feet.
    Mr. Haines. Yes. Well, it is not just logging; we are 
saying there are roads out there that are from the past that 
are blowing out and causing landslides. So, that is what we 
want closed; not all roads, just the ones that wash out.
    Mr. Regula. Thank you.
    [The statement of Mr. Haines follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

       BUREAU OF LAND MANAGEMENT PROJECTS: ESCALANTE, NEW MEXICO


                               WITNESSES

JOE JUDD, COMMISSIONER, KANE COUNTY, UTAH
KAREN ALVEY, MAYOR, KANAB, UTAH
JOY JORDAN, MAYOR, FREDONIA, ARIZONA
    Mr. Regula. Kane County; Joe Judd, Commissioner. These are 
Mr. Hansen and Mr. Cannon's areas, is that correct?
    Mr. Judd. That is correct. Good morning, Mr. Chairman. I 
would like to introduce the two mayors: Mayor Karen Alvey from 
Kanab, Utah and Mayor Joy Jordan from Fredonia, Arizona.
    Mr. Regula. So, you are in the Grand Staircase area; I 
think you have been here before. [Laughter.]
    Mr. Judd. Yes, we have.
    Mr. Regula. Okay, go ahead.
    Mr. Judd. I would like to tell you that you are part of 
success story. We have been here and been treated well by staff 
and the congressional delegation and all who have been 
involved, especially Secretary Babbitt and those who have been 
in his staff who are willing to help us. We have really created 
a partnership, as you might see, that the two mayors who are 
with me are my partners; they are both the city, and I am the 
county, but we all are involved in the Staircase project 
together across borders.
    We are asking for money to complete the project for 
$250,000; not an awful lot of money, but it will help I think 
with the momentum that we have already created.
    Mr. Regula. Now, when you say the project, do you mean the 
Grand Staircase Escalante project?
    Mr. Judd. No, no, just the planning project. The $250,000 
will complete the partnership planning project that we will 
complete this year.
    Mr. Regula. Planning for what?
    Mr. Judd. For its use and for all of the things that we 
will be able to do within the Staircase.
    Mr. Regula. In other words, the impacts that it will have 
on you as public officials----
    Mr. Judd. That is correct.
    Mr. Regula [continuing]. Fire, safety, that type of thing, 
am I correct?
    Mr. Judd. That type of thing and how it will affect two 
mayors that are on either side. We are also are very proud of 
the fact that we have formed a partnership with four counties 
in Arizona and in Utah, both, where we have a partnership 
program that is looking for an economic development situation 
where we can be self-sustaining--don't you love words like 
that?
    We would like not to come back, as much as we appreciate 
seeing Deborah and Joel and speaking to you, Mr. Chairman. You 
would probably like not to ever see us again asking for money 
and----
    Mr. Regula. Well, for $250,000, I would probably rather see 
you than some of the more expensive ones. [Laughter.]
    Mr. Judd. We would like to come here as visitors do 
occasionally and be able to partake in the things that are here 
without having to come in with our hands out asking for money, 
but we are trying as best we can to be self-sustaining, and the 
program that the Secretary of theInterior has helped us with--
and I will leave this with you; it is not part of the record--
is a program that Secretary Babbitt funded that allowed the 
Sonoran Institute to look at these four counties and meet with 
officials and determine what it is that we are going to need 
to----
    Mr. Regula. Are you able to cope with the visitors that you 
are getting at the present time?
    Mr. Judd. Yes, we are. Yes, we are. We are on the increase 
and beginning to find what the situations are that would 
require additional funding, and that is part of our proposition 
here today, and we also realize that because of those things 
that have occurred in the monument and the chance that there 
may be another one in Arizona--and if you have not looked at 
history, then you need to understand you are going to repeat 
it--we would like the next one, if it occurs, to be a little 
easier accomplished.
    Mr. Regula. Are you getting more visitors to the Grand 
Staircase annually?
    Mr. Judd. Yes, we are.
    Mr. Regula. And your cities are sort of a point of entry, I 
assume.
    Mr. Judd. That is correct; we are gateway communities.
    Mr. Regula. Right. Mr. Dicks?
    Mr. Dicks. No questions, Mr. Chairman.
    Mr. Judd. And I would like both the mayors to have the 
opportunity to tell you their side of it.
    Mr. Regula. We have about a minute left.
    Mayor Alvey. Okay, thank you for allowing me the 
opportunity to testify on behalf of Knab City. I would like to 
extend our thanks for the support of our proposal last year 
that we construct headquarters and visitor center for the Grand 
Staircase Escalante National Monument and lease those 
facilities back to the BLM.
    The language in the Fiscal Year 1999 bill would allow us to 
build a very innovative Government center. There is little 
upfront cost; that is the good news to the agency. Because of 
the unique requirements of education and----
    Mr. Regula. So, the city pays for it and leases it to BLM.
    Mayor Alvey. Back to the BLM, yes. But because of the 
unique requirements of the educational and the interpretive 
services, there will be some additional design costs that will 
be shared 50-50 by the Bureau and Kanab City. $300,000 would be 
the additional services to the Bureau which is not a lot of 
money evidently. Thank you again for your continued support. I 
know that we will be receiving it, and we appreciate you and 
your staff.
    Mr. Regula. Thank you. You have half a minute to go.
    Mayor Jordan. I wanted to testify regarding the needs for 
facilities on the Forest Service's North Kivab Ranger District. 
They are presently working with about 35 to 100 people in the 
summertime in about 4 trailers that are band-aided with a small 
office building----
    Mr. Regula. So, this is separate from the Grand Staircase.
    Mayor Jordan. Yes, this is separate, but we were in line to 
get the truck haul from the Staircase Coal Mine, and, 
therefore, we are trying our best to become self-sufficient, 
and we would like--this is what we like some help with; to help 
us build this--we would like to do the same thing as Kanab is 
doing and build a facility for them----
    Mr. Regula. To lease back.
    Mayor Jordan. To lease back.
    Mr. Regula. Do we have your testimony?
    Mayor Jordan. Yes.
    Mr. Regula. Okay. Well, we will look at it. It is going to 
be a challenging year.
    Mr. Judd. Yes, it is; you are very gracious. Thank you.
    Mayor Jordan. Thank you.
    Mayor Alvey. Thank you.
    Mr. Regula. You know as public officials how your budget 
works too.
    Mayor Alvey. We invite you to come out and visit us at the 
Grand Staircase.
    Mr. Regula. Thank you.
    Mr. Judd. Come again, Deborah.
    [The statements of Mr. Judd, Mayor Alvey, and Mayor Jordan 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

      FISH AND WILDLIFE SERVICE: BACK BAY NATIONAL WILDLIFE REFUGE


                                WITNESS

MOLLY BROWN, PRESIDENT, FRIENDS OF BACK BAY
    Mr. Regula. Okay, Friends of Back Bay. Good morning.
    Mr. Pickett. Good morning, Mr. Chairman. It is good to be 
with you. You may remember Molly Brown who is the spokesperson 
for the Friends of Back Bay in support of the Back Bay National 
Wildlife Refuge in Virginia and specifically Virginia Beach. 
Molly?
    Ms. Brown. Good morning, Mr. Chairman. I am Molly Brown, 
and I am president of Friends of Back Bay. We are an all-
volunteer group, and we want to thank you for the support that 
Congress has given us. Our project is 60 percent completed 
since 1990 where 3,700 acres have been purchased of the 6,300-
acre expansion.
    We continue with success stories. In 1993, land that was 
purchased, the eagles nested in Back Bay for the first time in 
30 years, and they have returned now for 5 years, and we are 
starting to see their young return, and hopefully they will 
nest.
    With money in 1997, an environmental education center was 
purchased--right here is a picture.
    Mr. Regula. This is part of the $3.5 million?
    Ms. Brown. Not yet. I am just telling you the success of 
what has happened. This was a 30-acre farm that was purchased 
and has now been turned into an environmental education center. 
It has been done through volunteers working with them putting 
in a canoe and fishing launch area and also an environmental 
learning center.
    Mr. Regula. Do you get school groups?
    Ms. Brown. Yes, we do. We have a visitor center in the 
original Back Bay Wildlife Refuge, but because the area is so 
large, it is just overwhelmed. So now we have a new 
environmental education center on the west side of the Bay 
which is really kind of 40 minutes closer, so it makes it nicer 
for the students.
    In addition to that, the city of Virginia Beach is forming 
a partnership with the Fish and Wildlife Service to expand the 
facility more.
    Mr. Regula. So, you are getting local support.
    Ms. Brown. Yes, we are getting local support. In addition, 
another wildlife refuge, Mackie Island, uses the facility too. 
So, this has been the success; thank you for the money that you 
have given us.
    This year, I have a map--you have a map on the back of my 
testimony. This sort of shows the history of our project. This 
is the original refuge, and everything that you see in green is 
land that has been purchased since 1990. The property you see 
right here in the red is the $3.5 million that we are trying to 
get this year, and it is 73 acres, and we have a willing 
seller, and it is zoned--the reason it is expensive is because 
it is zoned commercial which means that a mall or marina--I 
think you probably know what could be built on it--and we see 
this as an opportunity, because it is within one-fourth mile of 
the entrance to the refuge, and we would like to be able to 
have that property.
    Mr. Regula. How much is that?
    Ms. Brown. Three and half million dollars. It has an 
existing marina and a structure on it----
    Mr. Regula. Is this the appraisal or hasn't it been 
appraised yet?
    Ms. Brown. There have been two appraisals done by the 
property owner, and he has given those to the Fish and Wildlife 
Service, and they are now looking at it to see if that is--what 
it will appraise to. He is a willing seller at this point, and 
so we are hopeful that we can get that property----
    Mr. Regula. Is there any place you can get any matching 
money?
    Ms. Brown. At this point, I am not sure. I think the State, 
after it is acquired, wants to work on some sort of public 
facility, another educational facility, so the public can come 
in and use the area.
    Mr. Regula. Do you get volunteers?
    Ms. Brown. We have tremendous volunteers. The whole 
environmental education center I just told you about was all 
done with volunteer work and funding.
    Mr. Regula. Do you have volunteers helping with operations?
    Ms. Brown. Yes, we do. They put in all the trails, the 
canoe launches; they run the--our group and several groups do 
the environmental education programs, so we cover a vast number 
of students in the area.
    Mr. Dicks. What is this blue area down here?
    Ms. Brown. The blue area is the original wildlife refuge 
that was established in 1938, and then what is in green is what 
has been completed by the project; what is in pink are willing 
sellers; we have over 900 willing sellers--I mean, 900 acres of 
willing sellers. We always have more willing sellers than we 
have money for.
    Mr. Dicks. Why is that?
    Ms. Brown. Because we never get enough funding [Laughter.]
    Mr. Dicks. Well, I know that, but why are they willing to 
sell? It looks like a very beautiful area right on the coast.
    Ms. Brown. Why do they want to sell? Because I think that 
the owner right now would like to sell, and he sees this as an 
opportunity to do something good for the community that he 
lives in, and I think he has--the Fish and Wildlife Service 
have been very fair in their work with willing sellers.
    Mr. Regula. Do you have anything you want to say?
    Mr. Pickett. No, Mr. Chairman; just appreciate your 
indulgence, and it is always good to be back with you, and I 
hope you can accommodate and provide for this--
    Mr. Regula. You know, it is not in the President's budget 
this year.
    Ms. Brown. I know; we were last year but not this year.
    Mr. Regula. I know, and we have a really tough problem, but 
that is nothing new.
    Ms. Brown. Well, last year was the first year we were ever 
in it, and we have been able to get funding.
    I have one more thing, and I know you like adventures. This 
is called a terragator, and this is a beach monster--is what 
the kids call it--and this is how they transport students from 
the wildlife refuge to the State park which is to the south of 
the refuge, and it is a new vehicle that they are testing this 
year. It has proved very successful; the students love it, and 
we would love for you to come----
    Mr. Regula. I bet the kids love that.
    Ms. Brown. Yes, and we would love for you to come down and 
take a ride yourself.
    Mr. Regula. Okay, well, thank you very much.
    [The statement of Ms. Brown follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

 LAND AND WATER CONSERVATION FUND: SANTA ROSA MOUNTAINS NATURAL SCENIC 
                                  AREA


                               WITNESSES

SHARON APFELBAUM, GOVERNING BOARD MEMBER, COACHELLA VALLEY MOUNTAINS 
    CONSERVANCY
JIM VENABLE, THIRD DISTRICT, RIVERSIDE COUNTY, CALIFORNIA
    Mr. Regula. Coachella Valley Mountains Conservancy. Good 
morning.
    Ms. Apfelbaum. Good morning, Mr. Chairman. Hello, Debbie 
Weatherly again; good to see you, and we thank you for having 
us here.
    I am a member of the Governing Board of the Coachella 
Valley Mountains Conservancy. My name is Sharon Apfelbaum. The 
conservancy was established in 1991 by the California State 
legislature to hold open space in trust in the mountainous 
lands surrounding the Coachella Valley and to provide for the 
public's enjoyment and use of those lands consistent with the 
protection of cultural, scientific, scenic, and wildlife 
resources. I appreciate this opportunity to ask for your 
support for a $5 million appropriation to the BLM acquisitions 
in the Santa Rosa Mountains Natural Scenic Area.
    Scenic Area is the mountain range that forms the backdrop 
of the Coachella Valley cities, including Palm Springs, 
Cathedral City, Rancho Mirage, Palm Desert, Indian Wells, and 
La Quinta. The mountains rise steeply from the desert floor to 
an alpine environment atop Mt. San Jacinto at 10,800 feet.
    The resource values in the mountains run the gamut from 
scenic and wildlife to cultural and recreational. The Scenic 
Area is of great importance to the Coachella Valley's economy, 
and hundreds of thousands of people will come to the desert 
each year for vacation, enjoy our mountains, and, in so doing, 
contribute to the local economy.
    We have made some important partnerships. The first, the 
local, state, and Federal partnership that has been working for 
years to protect the National Scenic Area. There is a chart 
showing that the State of California has provided over $20 
million for acquisition; local communities, nearly $10 million, 
including $3.9 million----
    Mr. Regula. This is an HCP, right?
    Ms. Apfelbaum. Yes.
    Mr. Regula. That is a good way to approach things.
    Ms. Apfelbaum. Just last January, BLM contributed money to 
protect our Scenic Area in Snow Creek Canyon which is the 
gateway to Palm Springs and the desert resorts. With the 
listing of the peninsula bighorn sheep as an endangered species 
last year, we are in ever greater need of acquisition funding 
to protect the National Scenic Area which is home to this 
bighorn sheep. Land acquisition activities are accelerating in 
an effort to avert conflicts over the bighorn sheep and enhance 
protection of the species.
    Land and Water Conservation Fund money has been well spent 
in the Santa Rosa Mountains National Scenic Area. The money is 
an investment in more than land. It is an investment in a model 
of local, State, and Federal agencies working successfully 
together and with diverse private sector groups. The Coachella 
Valley has an excellent history of such cooperative efforts in 
land conservation and in preparing successful plans to deal 
with endangered species issues. That cooperation is alive and 
well today and healthier than ever.
    The second partnership is the southern California NCCP 
Cooperative Effort. Here, representatives from five counties 
comprise the core of a bioregional conservation plan for all of 
southern California. This is certainly one of, if not the most, 
comprehensive and proactive planning efforts in the Nation.
    We also request your support for the funding needs of our 
NCCP partners, namely, $10 million in acquisition for the San 
Diego Wildlife Refuge, $2 million in acquisition funds for Otay 
Mountain, $2 million in planning funds for NCCP. To meet other 
needs in the area, as well as other areas of the country, we 
support the $80 million Cooperative Endangered Species Act 
funding and full funding for Land and Water Conservation Fund, 
and to show you just how cooperative we are in Riverside 
County, I am yielding the rest of my time to----
    Mr. Regula. We only have about a minute left. [Laughter.]
    Ms. Apfelbaum. Sorry, Jim.
    Mr. Venable. I can do it in a minute. Good morning, Mr. 
Chairman and members of the subcommittee. My name is Jim 
Venable. I represent the third district of the County of 
Riverside in the State of California. I am here on behalf of my 
constituents and the Board of Supervisors of Riverside County. 
We are pleased to have this opportunity to ask for your 
continued support of appropriations for habitat conservation 
planning efforts in Riverside and for our partners in the 
southern California region.
    Riverside County has perhaps the most lengthy record of 
complying with the Endangered Species Act of any single 
jurisdiction in the United States. In 1987, we completed only 
the second habitat conservation plan ever attempted under 
section 10 of the Endangered Species Act with the Coachella 
Valley fringe-toad lizard. Around the same time, we began the 
third ACP for the Stevens kangaroo rat. That plan was completed 
in 1995 and resulted in protection of several thousand acres of 
important habitat in western Riverside County with permits to 
develop other habitats. Neither ACP was easy; in fact, they 
were long, arduous, and expensive, but going through them 
taught us at least two important things: first, that planning 
for one species just is not enough to give us the regulatory 
certainty we need for substantial, economic growth. Riverside 
is currently experiencing one of the biggest building booms in 
its history. At the same time, we have at least a half dozen 
listed species to contend with and at least a dozen more that 
will be listed in the near future.
    We have come to realize that we need to comprehensibly plan 
for our landscape, both for people and for species in order to 
resolve these issues for the long term. In fact, Riverside 
County is so committed to creating a long-term solution that we 
are combining our current Multi-Species Conservation Planning 
Program with our comprehensive transportation planning and a 
general land-use update; all three at the same time.
    Mr. Regula. Okay. Well, we are out of time, thank you.
    Mr. Venable. Thank you very, very much.
    Mr. Regula. Yes, we are familiar with it. It is a good 
program.
    [The statement of Ms. Apfelbaum and Mr. Venable follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         NATIONAL PARK SERVICE


                               WITNESSES

GLORIA J. HIGHTOWER, CO-FOUNDER AND PRESIDENT, FRIENDS OF CARTER BARRON 
    AMPHITHEATRE
JAMES JACKSON, COUNSEL, FRIENDS OF CARTER BARRON AMPHITHEATRE
JOHN FANNING, COMMUNITY LIAISON, FRIENDS OF CARTER BARRON AMPHITHEATRE
JUNE HIRSH, DIRECTOR OF CONSTITUENT SERVICES, COUNCILMEMBER JACK EVANS' 
    OFFICE
    Mr. Regula. Okay, Friends of Carter Brown Foundation.
    Mr. Dicks. Carter Barron.
    Mr. Regula. I am sorry, Carter Barron.
    Mr. Dicks. We all think of Carter Brown. [Laughter.]
    Mr. Regula. Yes.
    Mr. Dicks. He is a good man.
    Mr. Regula. Yes, he is.
    Ms. Hightower. Good morning, Mr. Chairman and other 
Congress of the Subcommittee of the Interior. I am Gloria 
Hightower, the co-founder and president of the Friends of 
Carter Barron Foundation of the Performing Arts.
    Mr. Jackson. Good morning, Mr. Chairman and members of the 
subcommittee. I am James Jackson, counsel for the Friends of 
Carter Barron Amphitheatre.
    Mr. Fanning. Good morning, Mr. Chairman and members of the 
committee. My name is John Fanning, and I am the community 
liaison for Friends of Carter Barron to the National Park 
Service.
    Ms. Hirsh. Good morning. I am very pleased to be here. I am 
June Hirsh, director of constituent services for Councilmember 
Jack Evans' Office.
    Mr. Regula. It is in his area, I presume.
    Ms. Hirsh. Yes.
    Mr. Regula. Okay. Your testimony will be made a part of the 
record. Summarize for us, please.
    Mr. Jackson. Mr. Chairman, you have before you a community 
situation that I strongly doubt you encounter very often if at 
all. This is an organization that is asking for no money. The 
Friends of Carter Barron are simply asking to help--help 
restore D.C.'s only outdoor amphitheatre and provide a 
children's art institution for D.C. inner-city children. And 
the National Park Service has continued to refuse this offer of 
help. The Friends of Carter Barron is a 501(c)(3), non-profit, 
D.C. community-based organization.
    Ms. Hightower, who is seated to my left, was very 
instrumental in saving the Carter Barron Amphitheatre from 
being bulldozed back in 1989.
    Mr. Regula. Who started it to begin with? You say you saved 
it; who put it there to begin with?
    Mr. Jackson. President Harry Truman back in the forties 
mandated the creation of the Carter Barron Amphitheatre in 
celebration of D.C.'s 150th anniversary as the Nation's 
capital. So, back in 1989 when Ms. Hightower discovered that 
the then superintendent of Rock Creek Park, Mr. Ron Rye, was 
internally and unknown to the D.C. community proposing to 
demolish the amphitheatre, Gloria quickly passed on this 
information to the city.
    Mr. Dicks. Can you tell us how that happened?
    Ms. Hightower. Sir, I happened to find out about this 
internal recommendation of the previous superintendent, Mr. Ron 
Rye, in terms of bulldozing or bidding out the amphitheatre. 
So, I began to explore issues as to what was the historical 
information in relation to its being sanctioned; how is it to 
serve, and then when I found out the information about the 
President sanctioning it for celebration of the District, I 
began then to meet with councilmembers of the District of 
Columbia to ask about who was in charge of the Park Service; 
how could I meet with the respected officials, and what would 
be the best strategy to preserve our national landmark. That is 
what I did.
    Mr. Regula. And how do you fund it? How has it been funded 
since you preserved it?
    Ms. Hightower. Okay, we have not preserved. We have been 
working to encourage the Park Service to preserve it.
    Mr. Regula. Well, in any event, is it being used?
    Ms. Hightower. Yes, it is being used, but it is a structure 
that is falling.
    Mr. Regula. Have you raised any money aside from Federal 
money?
    Ms. Hightower. We have not raised Federal money until we 
get the authority from the Park Service to tell us to raise, 
sir.
    Mr. Regula. So, you have not gone to the private sector at 
all?
    Ms. Hightower. Yes, we have. We have proposed, Jim----
    Mr. Jackson. We have gotten some private sector. For 
example, we have about $25,000 of free architectural services 
that have been already provided to us in the form of 
preliminary sketches by a very well known and respected 
architect in D.C. which is a--I do not know if you know much 
about architecture, but the preliminary walk-through in the 
assessment was done by this architect. We have the sketches 
here for the proposed renovation of the Carter Barron.
    Mr. Regula. But you would want the Park Service to 
cooperate with you on renovating it. Is that what you are 
saying?
    Ms. Hightower. Yes, we do, sir.
    Mr. Regula. You are asking us to put pressure on the Park 
Service.
    Ms. Hightower. Yes, we are, sir.
    Mr. Regula. Okay. Well, we will talk to the Park Service.
    Mr. Jackson. Twice before, Congress has passed resolutions 
instructing the Park Service to cooperate with us; I have 
copies of both of them here. One is a House resolution passed 
in----
    Ms. Hightower. 1995.
    Mr. Jackson. 1995, I believe; the other one----
    Mr. Regula. What are you talking about in costs?
    Ms. Hightower. The costs, according to Mr. Arthur Moore who 
is on our advisory committee, he has estimated it to be at $3 
million. And, sir, we also had proposed as the counsel here, 
Mr. Jim Jackson, is to provide an art institute that would 
reach out to inner-city children in the field of art education. 
Currently, the Friends of Carter Barron is partnering with the 
National Symphony Orchestra; we are partnering with the D.C. 
Humanities Council, and we will partner with any other art 
institution to reach out in the field of art education at our 
expense. We are not asking for the Park Service--we just want 
them to partner with us and allow us to make a difference in 
this city, and that is why we try to----
    Mr. Regula. But you are asking them to help you pay for----
    Ms. Hightower. No, we are not.
    Mr. Dicks. Can I just ask one quick, brief question?
    Ms. Hightower. Yes, sir.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Why does the Park Service want to shut down 
Carter Barron?
    Ms. Hightower. Well, at this time, they----
    Mr. Dicks. Do they or do they not?
    Mr. Jackson. At this time----
    Ms. Hightower. They have changed.
    Mr. Jackson [continuing]. They have changed their minds. At 
this time, no. At this time, they are contending they have 
gotten some funding finally to start renovating the Carter 
Barron. They had a memorandum of agreement with us since 1991 
which has suddenly terminated last summer, and that is one 
reason why we are here; we would like to get that memorandum 
agreement reinstated or a new agreement reinstated to work with 
us as these congressional resolutions have, in the past, 
directed.
    One of the services we provide to the D.C. community is 
every summer we have a summer youth program that teaches 100 
D.C. inner-city youths the performing arts. We have professors 
and instructors from Howard University come over and teach them 
the performing arts and pre-employment skills and so on and so 
forth; that has been every single summer for the last five 
summers. We do that all by ourselves; we get no funds from the 
National Park Service other than the general support of 
allowing to use the their stage and the sound and lights and 
stuff like that.
    Mr. Regula. Okay, well, we are out of time. Thank you for 
bringing this to our attention.
    Mr. Fanning. Thank you.
    Mr. Regula. We will look at it.
    Ms. Hightower. Okay.
    [The statement of Ms. Hightower follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Yes?
    Ms. Hightower. We were just wondering whether or not--I 
know that after you finish looking over it and making a 
constructive decision, whether or not the subcommittee would 
provide us with an approximate time when they could anticipate 
a response time?
    Mr. Regula. Well, I cannot promise anything like that.
    Ms. Hightower. Okay, thank you.
                              ----------                              

                                           Tuesday, April 13, 1999.

                         NATIONAL PARK SERVICE


                       FISH AND WILDLIFE SERVICE


                        OFFICE OF SURFACE MINING


                                WITNESS

JUSTIN HAYES, ASSOCIATE DIRECTOR OF PUBLIC POLICY, AMERICAN RIVERS
    Mr. Regula. American Rivers. Good morning, Mr. Hinchey, 
sir. I hope you brought your checkbook. You will need one. 
[Laughter.]
    Mr. Hinchey--not Mr. Hinchey, Mr. Hayes.
    Mr. Hayes. Thank you for the promotion; I appreciate it. 
[Laughter.]
    Mr. Chairman, Congressman Dicks, Congressman Hinchey, thank 
you very much for giving me the opportunity to testify today. I 
work for American Rivers; I am the associate director of public 
policy there. My testimony today also reflects the support of 
over 50 organizations around the country that work on river 
conservation efforts.
    Specifically, I would like to talk about three shining 
stars in the Department of Interior. There are many, many 
innovative programs that are deserving of support. We have 
chosen to highlight just three of the small ticket items that 
frequently skip along under the radar screen. We would like to 
highlight them, and bring them to your attention, and let you 
know that there is a strong constituency for them.
    Specifically, I would like to recommend an appropriation of 
$12 million for the River Trails Conservation Assistance 
Program or the RTCA Program within the Park Service. It is a 
very innovative program where local communities and 
organizations approach the Park Service's RTCA staff; develop 
partnerships with them, and work with them to develop 
consensus-based management plans for rivers, trails, wetlands, 
wildlife areas in local communities. It is an excellent 
program, and I would like to bring it to your attention. Over 
430 communities applied to the RTCA to participate with them 
last year. Unfortunately, due to the lack of funds, almost 50 
percent of them had to be turned away.
    I would also like to bring your attention to the 
Partnership for Fish and Wildlife Program within the Fish and 
Wildlife Service. This program is an excellent opportunity for 
local, private landowners to work with the experts in the 
Federal agencies to have technical expertise and some funding 
to partner with them and help to restore private lands that are 
ecologically sensitive or important wildlife and fishery 
habitats. We are urging an appropriation of $33 million for 
this program this year.
    The final program I would like to highlight to you is 
another excellent example of a Federal program that works at 
the local level building strong partnerships and working with 
local communities, and that is the Appalachian Clean Streams 
Initiative Program. This program is available to the 12 
Appalachian States and it specifically identifies acid mine 
drainage. The EPA tells us that acid mine drainage is the most 
insidious problem facing water quality and fisheries habitat in 
Appalachia. We are hoping that you will appropriate $10 million 
for this program this year.
    Those are the three programs that I would like to highlight 
and stand for questions.
    Mr. Regula. Thank you. Any questions from members?
    Mr. Dicks. Did you have anything to do with the 10 most 
threatened rivers?
    Mr. Hayes. Yes, sir. That is a report that our organization 
puts out annually in cooperation with a number of other 
organizations from across the country.
    Mr. Dicks. I was very disappointed that the Hanford Reach 
on the Columbia River was not mentioned when last year it was 
the number one priority of American rivers.
    Mr. Hayes. It was the number one priority for us, and it is 
still a very important issue for us. We did not list it on the 
list this year, because with the introduction of your bill and 
the bill in the Senate, we felt that enough progress was being 
moved forward that we could be relatively certain that we were 
not going to be facing the same sorts of problems. And, 
fortunately, the Secretary of Energy did step forward and do a 
management transfer which----
    Mr. Dicks. I would suggest that after legislation is 
enacted might be a more appropriate time. [Laughter.]
    But we appreciate your good work.
    Mr. Hayes. We appreciate your good work, sir.
    Mr. Regula. Thank you.
    Mr. Dicks. Signed by the President, okay?
    Mr. Hayes. We will look forward to that too. Thank you.
    [The statement of Mr. Hayes follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                            VARIOUS PROGRAMS


                                WITNESS

DANIEL P. BEARD, VICE PRESIDENT, PUBLIC POLICY, NATIONAL AUDUBON 
    SOCIETY
    Mr. Regula. National Audubon Society, Mr. Beard.
    Mr. Beard. Mr. Chairman, how are you? Mr. Dicks, Mr. 
Hinchey. I want to thank the subcommittee for all of your 
support over the past few years. It really has been terrific, 
and I recognize the challenge that you face this year. You have 
very difficult budget numbers, and it is going to take a very 
interesting high-wire act.
    I thought what I would try to do today is give you three, I 
think, ways in which you can look at this budget to try to be 
able to work yourself through it. The first is that there are a 
series of investments we can make today that will prevent long-
term costs. The Land and Water Conservation Fund is one 
example. The administration has sent up significant--have 
requested an increase; we think it is a unique opportunity; we 
strongly support, and we hope you will seize the moment. Your 
support of the CARE Group and our operation and maintenance 
funding for the refuge system has really been terrific. It is 
preventive maintenance; it prevents long-term costs down the 
road. It is the same with Everglades--if we can get the land 
acquisition taken care of as quickly as possible, we can 
prevent long-term costs, and it is also the small program that 
is mentioned in my testimony, the Office of Migratory Birds. We 
believe that small investments in this program can prevent 
long-term costs associated with endangered species down the 
road, so we would hope that making these investments today will 
help us prevent long-term costs.
    The second way to look at it, I think, there are a series 
of accounts in here where small investments leverage larger 
funds and larger activity. A good example is the Everglades 
where, Mr. Chairman, you have been really great, and we thank 
you very much for your efforts to make sure that we continue to 
have a 50-50 cost sharing for the land acquisition outside of 
the park in the transition area. But that is a good example of 
where we can--investment of Federal dollars is going to recoup 
additional funds by somebody else.
    Mr. Regula. You are confident the State will come through?
    Mr. Beard. Well, you have been a big help, and we are 
lobbying now in the legislature to try to make sure that they 
do.
    Mr. Regula. They have legislation in right now?
    Mr. Beard. They do have legislation, and we are doing our 
best, and your words to the governor were very helpful.
    Leveraging dollars is fundamentally important, and that is 
why we strongly support the National Fish and Wildlife 
Foundation in funding them at the $13 million level, because 
that leads to leverage dollars as does the North American 
Wetland Conservation Fund and the Partners for Wildlife 
Program.
    The final way to look at this, and I think this is one of 
the more important aspects here for small dollars, is that 
volunteers count. The Fish and Wildlife Service has been very 
reluctant or cool to having volunteers work on their lands. We 
had to go to the authorizing committee and get many of the 
excuses that they had brushed aside. We did that last year when 
two pieces of legislation went through, and we really believe 
for small amounts, we have got thousands of people who are 
willing, able, and ready to go to work to help out on those 
lands, and so we believe that we can make a difference through 
volunteerism.
    The final thing I want to bring to your attention is that 
you will be seeing a proposal that will come to you from Debs 
Park in Los Angeles which is a very unique audubon center that 
we are creating there with the local community. We would hope 
that you will look upon that with favor. It will be coming from 
a number of the Congressmen and Senators that are in the Los 
Angeles area.
    Mr. Regula. Thank you.
    Mr. Beard. That is it.
    Mr. Regula. Questions?
    Mr. Dicks. No questions.
    Mr. Regula. Thank you.
    Mr. Beard. Thank you very much.
    [The statement of Mr. Beard follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         NATIONAL PARK SERVICE


                                WITNESS

KAY POWELL, EXECUTIVE DIRECTOR, ALICE FERGUSON FOUNDATION, INC.
    Mr. Regula. Alice Ferguson Foundation. Good morning, your 
testimony will be made part of the record.
    Ms. Powell. Good morning. Thank you for inviting me or 
allowing me to come and testify. My name is Kay Powell. I am 
the executive director of the Alice Ferguson Foundation, and I 
will say hello again----
    Mr. Regula. Where is it located?
    Ms. Powell. We are in Accokeek, Maryland. We are right 
across the river from Mt. Vernon, on the Potomac, 10 miles 
south in a National Park called Piscataway Park.
    Mr. Regula. Okay.
    Ms. Powell. Okay? I have come to talk about a little known 
kind of silent partnership we have had with the Park Service 
for 30 years. The partnership started in 1963 when we donated 
all of our riverfront land to help establish the park--over the 
2.5 miles of shoreline and 80 acres of prime farmland. We have 
been preserving the view for Mt. Vernon and offering an 
educational program to schoolchildren for that period of time 
with little or no assistance from the Park Service and happily 
doing that.
    We serve 10,000 students a year with our on-site program, 
and they come to an operating farm, a real working farm, and 
learn about real things, and I think our students can best tell 
you how that happens, because we ask them a question, and I am 
going to give you some of their answers. We asked, ``What did 
you learn today that you did not think that you would have 
learned?'' And the answers are ``that eggs are warm; that 
sawmills are noisy; that I got oil on my hand when I touched 
the sheep; that I did not expect to walk in mud, and when the 
calf was born, the mother ate the afterbirth.'' Well, they are 
kind of shocking, but they are real part of life, and they are 
real parts of farms. We also share the Potomac River with 
canoes and adventures in dip-netting and discovering what lives 
there. That is just our on-site program.
    Off-site we do things to help the Park Service preserve the 
parks along the Potomac, and I want to share what some of those 
are. We developed this activity called ``Who Polluted the 
Potomac?'' We have gone to great effort to raise funds to have 
this published; we have 10,000 copies, and we are happy to 
share as many of them as you need. It is now not only who 
polluted the Potomac, but who dirtied the Delaware; who messed 
up the Mississippi? And it is probably the story of your river 
in your community also. So, if you have a nature center or 
National Park, we welcome you to ask for copies of this, so 
that we could pass it along.
    With the 30 years of experience we have had in education, 
we have learned what makes programs work, because we know how 
to link schools to the National Parks where learning is real 
and where students can learn about preservation, and we are 
doing that now with a program called Bridging the Watershed. We 
have actually designed a curriculum that is a three-year 
project with the National Park Foundation, and this is going to 
go into five National Parks from the Potomac with the potential 
to be a national model. It is one of five such programs in the 
whole United States.
    The final thing that we do is we, for the past 11 years, 
have provided a service of coordinating the clean-up of the 
whole, entire Potomac River, and this is all the way from the 
headwaters in West Virginia to the mouth down in St. Mary's 
County. We are happy to do this, and we have touched more than 
30 National Park sites.
    Now, we have done something that is kind of unusual from 
evidently what I have heard just sitting in the background. We 
have built all our buildings; we have given our land, not sold 
it; we have developed our program, and we have staffed it, and 
the Park Service came to our aid in 1992 and gave us some 
recurring funding of about $92,000 a year. We keep working and 
seeing ways that we can assist the Park Service by developing 
model programs; by training rangers; by teaching preservation, 
and we are asking for an increase.
    Mr. Regula. Does the Alice Ferguson Foundation devote all 
of its income to this project?
    Ms. Powell. Yes, it does. Our operating budget is about 
$600,000, and we raise about 80 percent of that money for all 
of these projects and programs.
    Mr. Regula. From the foundations.
    Ms. Powell. From the foundations, assets, and from grants 
that we solicit from corporate contributions.
    We would like to ask for your support in the Fiscal Year 
2000 budget.
    Mr. Regula. Thank you. Questions?
    Mr. Dicks. No, it sounds like a very good program, though; 
very supported.
    Mr. Hinchey. I would say the same, Mr. Chairman; it is a 
very good program. I know a little bit about what you do, and 
you do a great many things, but if you did not do anything more 
than just protect the views from Mt. Vernon the way you do, you 
would be making a very substantial contribution, but of course 
you do a lot more than that.
    Mr. Dicks. The educational part of this is truly 
outstanding.
    Ms. Powell. Thank you.
    Mr. Regula. I gather you have a friendly audience.
    Ms. Powell. Thank you, this is very pleasant. Come see us 
on the farm; I will let you milk our cow.
    [The statement of Ms. Powell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

          FISH AND WILDLIFE SERVICE BUREAU OF LAND MANAGEMENT


                                WITNESS

WAYNE PACELLE, SENIOR VICE PRESIDENT, COMMUNICATIONS & GOVERNMENT 
    AFFAIRS, THE HUMANE SOCIETY OF THE UNITED STATES
    Mr. Regula. Okay, the Humane Society of the United States. 
Mr. Pacelle?
    Mr. Pacelle. Yes.
    Mr. Regula. Okay.
    Mr. Pacelle. Thank you, Mr. Chairman, Representative Dicks, 
Representative Hinchey, Representative Kingston. My name is 
Wayne Pacelle, and I am senior vice president for the Humane 
Society of the United States, representing 6.7 million members 
and constituents in the United States.
    I am going to delve into two issues. Just before I do that, 
I just want to express our support for administration requests 
for Endangered Species Act implementation; for Rhino and Tiger 
Conservation Act, African Elephant Conservation Act, and Asian 
Elephant Conservation Act funding. Also, I want to note a 
request for an increase in funding for the Law Enforcement 
Division for the U.S. Fish and Wildlife Service. These are 
folks who do a tremendous amount of good work of course, and we 
have so many good laws, and they need to be enforced. The Land 
and Water Conservation Act Fund, we also support the 
administration request in that area.
    The two programs I want to highlight are the Wild Horse and 
Burro Program--I have spoken about this in past years, Mr. 
Chairman. We do support the $19.97 million request for 
implementation of the Wild Horse and Burro Program. We do have 
a couple of strong suggestions. We recommend that $400,000 be 
shifted from the Adoption Program to on-the-ground management 
of horses and their range. The BLM currently spends $1,100 to 
round up horses and get them through the adoption process, and 
we think that there is too many round-ups going on; they are 
not scientifically justified, and the American public supports 
horses on the range in reasonable numbers, and we are just 
troubled by the excess----
    Mr. Regula. You do not think there are unreasonable numbers 
on the ranges now?
    Mr. Pacelle. Well, there may be in particular areas; we 
would just like it to be science-based, and the Congress, by 
passing the act, called for preservation of herds in 1971, and 
some of the herds are being rounded up, we think, excessively. 
If there is damage, we do support active management, and that 
leads me to the second point which is contraception, fertility 
control, and we have invested literally millions of dollars in 
this project for a variety of species. We think by putting 
$350,000 for Fiscal Year 2000 to support further research and 
also on-the-ground management, that is going to be a good cost 
savings for the Government, because, again, $1,100 for each 
horse that has to be rounded up and sent through the process. 
If we can control them on the range and prevent foals from 
being born, that is going to be important. This committee has 
been excellent in supporting contraception research, and my 
testimony details how the research has paid excellent dividends 
thus far.
    The second issue I want to highlight is animal control on 
native reservations. Mr. Chairman, other members of the 
committee, I do not know if you are aware, but there are very 
few facilities on the ground in infrastructure for a canine 
control on Indian reservations, and some people may scoff at 
this, but dog bites are one of the public health and safety 
risks in the United States, especially for children. There are 
4.7 million dog bites in the U.S. every year, and the problem 
is particularly acute on Indian reservations where there is 
little animal care and control. We have invested hundreds of 
thousands of dollars in helping Native American communities do 
spaying and neutering, do vaccinations, and the like. We are 
requesting in our written comments to you $750,000 of the 
Bureau of Indian Affairs law enforcement initiative money for a 
project to improve animal control services on Native American 
reservations. This is a pilot program; this obviously does not 
cover the wide range of reservations across the country, but we 
think it is a good start.
    Your $310,000 is to provide a mobile clinic for services 
throughout the Nation for spaying and neutering and 
vaccinations, $270,000 to help establish animal control 
programs and facilities so they can then be self-sustaining in 
the future, $100,000 for equipment. Again, this is not just a 
humane treatment of animals issue--although we, of course, 
support it for that reason--it is also an issue of public 
health and safety for people on Native American reservations 
and on these nations, and we think that this is going to pay 
great dividends in assuring public health and safety.
    Mr. Regula. Thank you. Questions?
    Mr. Kingston. Mr. Chairman?
    Mr. Regula. Mr. Kingston?
    Mr. Kingston. Let me ask you on your burro policy, are you 
all involving State properties as well?
    Mr. Pacelle. State properties in terms of managing horses?
    Mr. Kingston. Yes, and burros.
    Mr. Pacelle. Not particularly. We sit on the National 
Advisory Board and we are active when particular controversies 
erupt, but we do work with the BLM on an ongoing basis.
    Mr. Kingston. But if it is a State property, is the Humane 
Society involved? I know you are testifying on national 
property now, but does the Humane Society----
    Mr. Pacelle. We are interested. Most of the horses are on 
Federal lands, but we would be interested, of course, in 
assuring humane treatment of the animals wherever they are, 
whether it is Federal land or State land.
    Mr. Kingston. Now, in terms of burros being an invasive 
species, what is the Humane Society's position on invasive 
species?
    Mr. Pacelle. Well, obviously, we do not want to see any new 
invasive species set out into other landscape, and we are well 
aware that invasive species can do great damage to the 
environment and to other species. The Wild Horse and Free 
Roaming Burro Act was passed in 1971, and the Congress declared 
these animals a national treasure, and as long as they are 
appropriately managed and their numbers are contained and not 
doing significant damage to the range, we think they have a 
place, and we think that Congress has affirmed that place. 
Livestock obviously do much greater damage to the range in the 
West than wild horses and burros. They are just a few 10,000 of 
these animals; I do not have the most reliable population 
estimates, whether it is 30,000--there are more than 4 million 
livestock on the public lands in the range in the West.
    Mr. Kingston. Okay, I have some State property that has 
burros on it that I want to talk to you about, because I do not 
believe that the round up of them is scientifically conducted, 
and I would like to know what your opinion is of what defines 
that. Now, do you have a similar position on feral hogs?
    Mr. Pacelle. Well, we have not--feral hogs are a much more 
difficult species to manage because of their behavior patterns 
and not as much as research has gone into fertility control. 
These distinct herds of burros and horses can be contracepted, 
so fertility control is an excellent option. With wild pigs, 
they have a hyper-reproductive capability, and they can 
reproduce awfully fast, probably at a greater pace than any 
fertility control program would be able to respond to.
    Mr. Kingston. Let me ask you one other question: do you 
support a bounty on wild dogs?
    Mr. Pacelle. A bounty on wild dogs? No, we support 
responsible pet ownership, and we support animal control 
agencies and picking up animals that are roaming at large, but 
a bounty program would be anathema to our principle.
    Mr. Kingston. Okay.
    Mr. Regula. Thank you.
    Mr. Dicks. Thank you for all your help on the Olympic 
Peninsula.
    Mr. Pacelle. Thank you very much.
    [The statement of Mr. Pacelle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

STEVE HOLMER, CAMPAIGN COORDINATOR, AMERICAN LANDS
    Mr. Regula. American Lands. Your statement will be made 
part of the record.
    Mr. Holmer. Thank you.
    Mr. Regula. If you will summarize, it will be helpful.
    Mr. Holmer. Thank you, Mr. Chairman. I appreciate this 
opportunity to testify, Representatives Dicks and Hinchey and 
Kingston. This is the third year in a row that we have 
presented a Forest appropriations initiative which is 
essentially an alternative Forest Service budget. In the view 
of American Lands, which represents a real broad coalition of 
grassroots forest activists, the Forest Service budget 
priorities are actually harming the environment and do not 
actually make any economic sense either, and the reason for 
that is that logging is being emphasized at the expense of 
other activities.
    Mr. Regula. Well, we have de-emphasized logging; we are 
down from 11 billion to 3 billion board feet.
    Mr. Holmer. Well, I would argue that there is still 
substantial problems with the Timber Program, and, again, we 
believe the National Forests have a higher economic benefit to 
society if they are not logged.
    Mr. Regula. Do you think there ought to be any logging?
    Mr. Holmer. No, we do not support the Timber Sale Program. 
We think the Federal lands are better used for other purposes.
    Mr. Regula. So, your policy would be no logging on Federal 
lands, is that right?
    Mr. Holmer. That is right. We believe the money would be 
better spent on a restoration program, and that is the basic 
thrust of the initiative.
    Mr. Regula. How about salvage?
    Mr. Holmer. We do not believe salvage logging has 
environmental benefit. In fact, the Forest Service has admitted 
salvage is only done for economic reasons.
    Mr. Dicks. What about thinning and pruning?
    Mr. Holmer. We believe thinning could be done if it was 
done on a contracted basis using appropriated dollars. We have 
seen a real problem when they have done thinning as a 
commercial sale, because there is an incentive to cut larger 
trees, and so if you really want to serve the ecological 
benefit, we think appropriated dollars through contracting 
would be the way to accomplish thinning on Federal lands.
    I would like to point out that there is a new economic 
analysis that has been put forward by economist Karen Moskowitz 
which shows that the non-timber values far exceed logging 
values on the National Forest. Clean water is the single 
highest value off our forests; after that, other ecosystem 
services like carbon sequestration, but in just dollars and 
sense terms, fish and wildlife and recreation far outweigh 
logging, and when you go out and log the National Forest, it 
directly diminishes those other benefits, and so I think that 
is a very important thing to note.
    Also, we have serious problems with the Timber Sale Program 
as it is being carried out. The Inspector General recently 
carried out an analysis of 12 timber sales, and in 12 out of 12 
cases they failed to comply with our environmental laws or the 
environmental mitigation called for in the timber sale 
contract.
    Mr. Regula. When you say they, I would assume the Forest 
Service----
    Mr. Holmer. You are exactly right.
    Mr. Regula [continuing]. Would require these standards, am 
I correct?
    Mr. Holmer. Yes, they are failing to comply with the law. 
In the Pacific Northwest, there are a number of lawsuits 
pending right now for their failure to comply with the terms of 
the Northwest Forest Plan, and we continue to see logging of 
old growth, logging of roadless areas, logging in critical 
salmon habitat that we are trying to restore.
    So, we think a better, more common sense approach will be 
to redirect those funds, take the money out of the road 
building and Timber Program and put it into restoration. We 
think this would be a net benefit for the economy. It could 
also support a diversification and stabilization of rural 
communities that have been buffeted by the boom and bust of 
timber economies. Also, things like recycling are hurt when we 
subsidize virgin material production, so we think that we would 
like to level the playing field; take the subsidies out.
    In our testimony on the back page there is a budget chart 
which shows that we are proposing about $286 million in cuts. 
We have actually found more increases that need to take place 
than cuts, about $398 million in increases is what we are 
proposing.
    We would like to see more money for land acquisition. There 
is a serious problem with inequitable land exchanges right now 
in the National Forest, and we think acquisition is one way to 
solve some of those issues.
    The bottom line is we need to change this budget's 
priority, and I would appreciate your support for any 
amendments that are offered this year that would redirect money 
out of the timber and roads programs into a restoration program 
for the National Forest.
    Mr. Regula. Mr. Dicks, you are our Forest Service expert.
    Mr. Dicks. No questions, Mr. Chairman.
    Mr. Regula. Any other questions? Thank you very much.
    Mr. Holmer. Sir, I will leave these for you, thank you.
    [The statement of Mr. Holmer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

MICHAEL GOERGEN, DIRECTOR, FOREST POLICY, SOCIETY OF AMERICAN FORESTERS
    Mr. Regula. Society of American Foresters.
    Mr. Goergen. Good morning, Mr. Chairman; it is a pleasure 
to be here, members of the subcommittee. I assume that my 
statement will be made part of the record, and I will keep my 
remarks very brief today.
    I would like to talk you about a couple of programs within 
the Forest Service and the BLM that are important to the 
Society of American Foresters. Our number one priority this 
year is really the Forest Inventory and Analysis Program. The 
FIA Program is one program that I think is supported by a broad 
group of publics. It is the only program that provides 
accurate, comparable data across all forest lands of the United 
States, and we believe this program is critical, and we know 
this subcommittee has recognized that in the past, and we do 
appreciate it.
    In reviewing the administration's Fiscal Year 2000 budget 
proposal for FIA, we are concerned that the 1998 legislative 
mandate for an annualized inventory program with timely 
reporting will not become reality, especially when the 
administration states in its Fiscal Year 2000 budget 
justification that the inventory cycle will remain at an 
average level of 11 years. The proposed FIA budget of $25.8 
million is 11 percent of the Forest Service's research budget 
and 0.9 percent of the agency's total proposed budget.
    In addition to a general funding increase, we are 
interested in seeing a separate line item in the Forest Service 
research budget devoted expressly to FIA.
    In addition to the overall funding program, we would like 
to see a separate line item in the National Forest System 
budget as well to enable collection of FIA's data from NFS 
lands. In the past, that money has been generously given by 
this subcommittee to that program, however, the NFS has not 
really conducted that type of research on their lands. I 
understand that they have other priorities, but we must make 
sure that we get that data from the National Forest System.
    Mr. Chairman, you are well aware of the ecological backlogs 
that the Forest Service faces on its lands right now. You are 
the champion of backlog issues in this Congress. We believe 
there is an ecological infrastructure backlog on the National 
Forests, very similar to the facilities backlog that we have 
discussed time and time again.
    Mr. Regula. What about maintenance?
    Mr. Goergen. Maintenance of the ecosystems as opposed to 
maintenance of the facilities, exactly.
    Mr. Regula. Great, great.
    Mr. Goergen. We would like to see the Forest Service 
develop plans to deal with priority issues, not just funding 
roads, not just funding forest health, but the priority issues 
at a localized level, and we would like to see Congress hold 
them accountable.
    Mr. Dicks. Isn't the maintenance of roads a key issue?
    Mr. Goergen. Absolutely, that is one thing that we are very 
interested in. What we are concerned about is to make sure that 
we fund the most important issues, because the backlog is so 
huge. We have seen estimates that are just enormous, and we 
know that Congress cannot fully fund all of the backlogs that 
they face. So, let us take care of the most important things 
first, and hold the Forest Service accountable.
    Additionally, we are interested in working forests as well, 
working private forests. They maintain a good part of our 
economic base in this country. The forest industry is important 
all across about 26 States where it is one of the leading 
economic generators. We are particularly interested in funding 
for cooperative fire protection programs, because fire does not 
respect political boundaries, and we would like to see support 
for legacy economic action programs and other programs within 
the State and private forest budget line items.
    Finally, I would like to talk about BLM briefly. We believe 
there is a real need for increased personnel in the Public 
Domain Forestry Program. This subcommittee has recognized that 
they need inventive tools in the BLM, and you have given 
authority to have an Ecosystem Restoration Fund. Unfortunately, 
they do not have the personnel to carry out that funding, and 
we would like to see an increase for personnel. Thank you, Mr. 
Chairman.
    Mr. Regula. Thank you.
    Mr. Dicks. Thank you.
    [The statement of Mr. Goergen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       FISH AND WILDLIFE SERVICE


                       BUREAU OF LAND MANAGEMENT


                             FOREST SERVICE


                                WITNESS

NEAL SIGMON, SENIOR ADVISOR FOR CONSERVATION POLICY NATIONAL FISH AND 
    WILDLIFE FOUNDATION
    Mr. Regula. Our next witness is the National Fish and 
Wildlife Foundation and our friend, Neal Sigmon, who is now on 
the other side of the table.
    Mr. Sigmon. That is right.
    Mr. Regula. We are happy to welcome you.
    Mr. Sigmon. I hope it is comfortable over here. [Laughter.]
    Well, Mr. Chairman and Mr. Dicks, I know you know the 
Foundation pretty well, and it is a pleasure for me to be here 
on this side of the table to present testimony on behalf of the 
National Fish and Wildlife Foundation. Our board of directors, 
our staff, and our grantees all appreciate very much the work 
that you all have done on behalf of the Foundation in this past 
and all the years past. Your appropriations to the Foundation 
are really the basis for everything the Foundation does. 
Without you, we would be lost.
    As I am sure you have come to appreciate, the Foundation is 
a curious organization. It derives strength from its place 
between the public and private sectors. The Foundation is a 
creature of Congress yet it is not a Government agency and in 
most respects behaves as a business. As such, it is able to 
bridge the gap between the public and private sectors in the 
effort to conserve fish, wildlife, and plants.
    The Foundation succeeds because it brings varied interests 
together to solve difficult conservation problems. Timber and 
oil companies and cattlemen are all entities that the 
Foundation works with. For example, we have nearly 100 
agreements with timber companies to address the declining the 
habitat for migratory birds and the declining number of salmon 
in both the Northeast and Northwest.
    What is the formula that makes the Foundation work? It is 
the Challenge Grant Program that insists on local involvement 
and provides the opportunity for partnerships to develop. Our 
challenge grants use your appropriated dollars as the carrot to 
entice the private sector and provide it opportunities to 
explore ways to carry out business activities while respecting 
fish and wildlife values.
    The Federal dollars that come to the Foundation are matched 
on a 2 to 1 basis. This means that for every dollar you 
appropriate to the Foundation, $3 dollars hit the ground for 
fish, wildlife, and plants. The Foundation is a good 
investment.
    This year we have four specific requests. I know that your 
money is tight, but I think we can help you stretch what money 
you do have.
    Mr. Regula. Well, you have one new one in here, the $15 
million----
    Mr. Sigmon. Yes, sir.
    Mr. Regula [continuing]. For the State and private forestry 
program. Why is that? Why did you need this new one?
    Mr. Goergen. There exists now a unique opportunity to 
conserve about 750,000 acres in northern Maine, the northern 
forests, and another 18,000 acres in New Hampshire. This could 
be the largest, single, private conservation effort in United 
States history. What we are looking for--we have been asked by 
the New England Forest Foundation to accept money, seed money, 
from the Congress up to $15 million that we would raise private 
money to match to bring an additional $30 million to the table, 
so that these conservation easements could be purchased, and 
this property could be maintained for fish and wildlife habitat 
value. These are privately-owned lands of the Penegree family. 
They are eager and willing to work with the private sector and 
with the Foundation on this project.
    Mr. Regula. Okay, Mr. Dicks?
    Mr. Dicks. Let me just ask one quick thing. We have had 
some discussions about the need for flexibility. Can you give 
us a quick explanation of that and how that would help the 
Foundation do its work?
    Mr. Sigmon. Right now, we have lots of flexibility with the 
Fish and Wildlife Service.
    Mr. Dicks. Right.
    Mr. Sigmon. They are excellent to work with. With BLM and 
the Forest Service and some agencies outside of this 
subcommittee's jurisdiction, there are lots of----
    Mr. Dicks. But the Forest Service and BLM is within our 
jurisdiction.
    Mr. Sigmon. That is true; the Forest Service and BLM are 
definitely here in this jurisdiction. We do not have the 
flexibility always to select the projects that we believe could 
attract the best partners and a more variety of partners and 
bigger bucks. We are restrained sometimes in the size of the 
grant that we can get, because these agencies are wanting their 
money to go to a lot of different places, and so what we would 
like to do is have more flexibility to have a greater role in 
the selection process so that we could choose projects of 
greater value that would be on a landscape basis as opposed to 
a nickel here and a dime there.
    Mr. Dicks. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Mr. Sigmon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       FISH AND WILDLIFE SERVICE


                                WITNESS

CHRISTINE STEVENS, EXECUTIVE SECRETARY, SOCIETY FOR ANIMAL PROTECTIVE 
    LEGISLATION
    Mr. Regula. The Society for Animal Protective Legislation. 
We are pleased to welcome you again.
    Ms. Stevens. Thank you very much, Mr. Chairman, and I am 
here to say a lot of the same things you heard me say before, 
because we have been working to increase the funding for the 
Law Enforcement Division of the U.S. Fish and Wildlife Service, 
and the criminal element in the smuggling and poaching of 
wildlife increases, and now it is even more global than it ever 
was before. So, they really, really, need to have a generous 
amount--I am not asking for anything what I think they really 
ought to have, but what I put here is $12,764,000. The reason 
is because has gotten so it pays so well; that is a terrible 
thing. It used to be sort of a risk when people stole and 
smuggled and poached, but it hardly is a risk anymore 
especially since they are so well organized, so that is my 
strong appeal, to be generous. It is in the interest of the 
whole United States Government. In other words, they are 
stealing from the tax rolls also, and the animals suffer and 
die; the Government does not actually suffer and die, but it is 
losing money that should be coming in because of the crook.
    Now, I would like to start with listing some of the high 
technological improvements that are needed by the Clark R. 
Bavine Wildlife Forensics Laboratory, and you have this before 
you, and I gather you said you did not want people reading 
their testimony.
    Mr. Regula. No, just summarize for us because five minutes 
does not give you much time.
    Ms. Stevens. No, but here you see this one, Triple 
Quadrupolar Mass Spectrometer, and now we get into something 
less spectacular and that is simply to have good computers for 
the wildlife inspectors so that they can get directly in touch 
and not always got to do the snail mail business in letting the 
dishonest people get way ahead of them. So, that will really 
help.
    And, or course, there needs to be far more special agents, 
far more inspectors. The more you increase, the more you decide 
to make the law enforcement effective--well, I would like to 
give you--I can give you two if you would like them. This is 
our companion organization, the Animal Welfare Institute. The 
very brief information on the reasons why--well, the United 
States does lead the world, that is what its title is, and you 
look through the headings, you see medical and agricultural 
benefits preserving the endangered species in many parts of the 
world, and we are losing them already. One of the well known 
items are plants that disappeared between being discovered by 
scientists; one very important cancer-curing drug and another 
HIV drug that would help. So, there is every selfish reason 
too--when I say selfish, selfish for human beings.
    Mr. Regula. Preserve.
    Ms. Stevens. Right, to like keep them. So, you see, right 
now, there is only 252 special agents and 93 wildlife 
inspectors, and they have to cover the whole entire world, 
because we are probably the biggest consumer of endangered 
species of any country, and they come in to the port, so 
especially Miami, New York, and Los Angeles; that is where they 
need an awful lot more. Now am I already talking more than I 
should?
    Mr. Regula. Well, we are about at the end of your five 
minutes.
    Ms. Stevens. Yes, so maybe I ought to give you a chance to 
ask me any questions that you have.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, I just appreciate your long history. I 
used to work for Senator Magnuson, and I can remember the days 
when you came into see him, and I have a life of great 
accomplishments in these areas, and we very much appreciate 
your continued work.
    Ms. Stevens. Well, thank you very much. I think we all 
appreciate Senator Magnuson's marvelous work. So, anyway, I 
hope you will do equally----
    Mr. Dicks. We will do our best.
    Mr. Regula. He does very well. [Laughter.]
    Particularly, some of Magnuson's traits. [Laughter.]
    Mr. Dicks. All the good ones.
    [The statement of Ms. Stevens follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       FISH AND WILDLIFE SERVICE


                         NATIONAL PARK SERVICE


                       BUREAU OF LAND MANAGEMENT


                         U.S. GEOLOGICAL SURVEY


                             FOREST SERVICE


                                WITNESS

MARY BETH BEETHAM, SENIOR ASSOCIATE, DEFENDERS OF WILDLIFE
    Mr. Regula. Okay, Defenders of Wildlife.
    Ms. Beetham. Good morning, Mr. Chairman. I am Mary Beth 
Beetham, and on behalf of Defenders and our 300,000 members and 
supporters, we thank you for the opportunity to testify.
    The first thing I want to do is note that we are 
unfortunately painfully aware of the constraints that your 
subcommittee is facing with the current budget resolution and 
pending 302(b) allocation, and I just want you to know that you 
probably would not know it if you look at the current budget 
resolution, but we have been working diligently to try to draw 
attention to the needs of the subcommittee. The Public Land 
Funding Initiative Coalition of more than 100 groups has been 
working all through the budget process, and we are going to 
continue to do so very diligently.
    Mr. Dicks. Do you feel our pain?
    Ms. Beetham. Yes, we do. [Laughter.]
    Because we know it is our pain, unfortunately.
    Mr. Dicks. You share this pain.
    Ms. Beetham. And I want to briefly highlight five funding 
priorities of Defenders even though we have others that we 
mention in our testimony. First stop is the National Wildlife 
Refuge System operations and maintenance. We want to thank you 
and your staff for your continued leadership and support in 
providing these increases, and many refuge supporters 
especially loved your speech last year at the reception where 
you talked about being missionaries and spreading the word 
about the Refuge System which is what we are trying to do also. 
Of course, as you know, continued increases will be needed to 
bring the Refuge System into a State of health by its 100th 
anniversary in the year 2003 and especially for the operations 
side of the equation as well.
    The second priority of Defenders is Fish and Wildlife 
Service's Endangered Species Program. The four main accounts 
and the Cooperative Endangered Species Fund. This is another 
program that has been very underfunded, and we know that you 
have tried to get some modest increases, and we really 
appreciate that. Unfortunately, it remains grossly underfunded, 
and with the increase the President's requested, which we 
support this year, the Service can do a variety of important 
things, like new Canada Conservation Agreements to avert the 
need for listing; move forward to address recovery needs, such 
as the 300 species that do not currently have recovery plans; 
deal with the consultation workload which is now 40,000 
consultations expected in Fiscal Year 2000 and about 500 new 
and ongoing habitat conservation plans also expected.
    The third priority for Defenders, a very high priority this 
year, are actually two areas under Forest Service that support 
the stewardship of threatened, endangered, and sensitive 
species. Under forest and rangeland research, the Wildlife, 
Fish, Water, and Air Program has requested a $10 million 
increase for threatened, endangered, and sensitive species 
research. This program is currently so grossly underfunded that 
70 percent of current funds are spent on fewer than 10 listed 
species or groups of species, and only 54 of 2,500 sensitive 
species on Forest Service lands, and so there is a vast 
information gap for all of these species.
    And also under Forest Service, the Habitat Management 
Program for threatened, endangered, and sensitive species which 
comes under the Wildlife and Fish Management Program.
    Mr. Regula. Okay, what are the others you have there?
    Ms. Beetham. The other two priorities?
    Mr. Regula. Yes.
    Ms. Beetham. The USGS Biological Resources Division. We 
believe that they have never recovered from the funding cuts, 
although we know that you have tried to help the BRD, and so we 
request increases for BRD, and we are concerned--we support the 
recommendation for the move to integrated science in USGS, but 
we are concerned that that funding not come out of the BRD base 
since they are already so grossly underfunded.
    And then, finally, we strongly support the President's 
Lands Legacy Initiative and funding for the Land and Water 
Conservation Fund; it is a very high priority.
    Mr. Regula. Well, you know, there is some inconsistency, 
because if we do that, there is going to be less money for some 
of the other things you would like.
    Ms. Beetham. We know that that is a continuing dilemma. 
That is one of the reasons why we work really very hard on the 
subcommittee's allocation, because we know that you care about 
all these programs----
    Mr. Regula. There is our problem.
    Ms. Beetham [continuing]. And we are trying to make it 
easier for you to do that, but Lands Legacy is a big priority 
for us.
    Mr. Regula. I was interested in your comments and your 
statement about the Everglades.
    Ms. Beetham. Yes.
    Mr. Regula. We are trying to recognize that there are two 
missions there. One, of course, is water, and the other is 
preservation of the ecosystem. I am afraid that the emphasis is 
moving toward the water and away from the ecosystem, and we are 
trying to avoid that. Mr. Dicks?
    Mr. Dicks. We strongly support Defenders. You guys do a 
great job, and we look forward to working with you on all these 
issues.
    Ms. Beetham. Thank you.
    Mr. Dicks. It is going to be a tough year, you know.
    Ms. Beetham. Yes, and we know and appreciate your support 
on the Everglades as well, because we know you have been very 
instrumental and taken a personal interest in that.
    Mr. Regula. Thank you.
    [The statement of Ms. Beetham follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                    LAND AND WATER CONSERVATION FUND


               URBAN PARK AND RECREATION RECOVERY PROGRAM


                                WITNESS

BARRY S. TINDALL, DIRECTOR OF PUBLIC POLICY, NATIONAL RECREATION AND 
    PARK ASSOCIATION
    Mr. Regula. National Recreation and Park Association.
    Mr. Tindall. Good morning, Mr. Chairman. It is always a 
pleasure to be here, and this morning, of course, is no 
exception to that.
    Let me just quickly highlight our prepared remarks, and 
also let me note that we have accompanying that just a summary 
of a quick and dirty, if you will, capital investment survey we 
did starting over the holidays.
    We continue our support for maximum funding for the Land 
and Water Conservation Fund. We hope we, as a Nation, and this 
subcommittee can very soon move to a full funding scenario----
    Mr. Regula. You recognize this would require a substantial 
increase in our allocation to do that.
    Mr. Tindall. We certainly understand that.
    Mr. Regula. Otherwise, it is going to penalize a lot of 
other programs.
    Mr. Tindall. We share, as Mr. Dicks said, your pain on 
that, and I would echo what the Defenders witness, Mary Beth, 
just mentioned to you, we and others are actively involved and 
have been for some time in getting a better allocation to you. 
We know domestic funding has been tremendously reduced over 
some time now and absent a good budget allocation to you, then 
your options are limited, and we think that is unfortunate for 
the country. I would say--and I know you are aware of this--we 
receive no money from the Land and Water Conservation Fund or 
Urban Parks, things like that, so----
    Mr. Regula. No, I understand.
    Mr. Tindall [continuing]. But we are advocates of the 
American people. At minimum, for Fiscal Year 2000, Mr. 
Chairman, we would support the administration's recommendation, 
including the $150 million for State assistance and the $50 
million which they have broken out as sort of a high-grade 
planning.
    Mr. Regula. But, again, the Administration came in with an 
extra $1.2 billion without any source of revenue. I do not know 
where they came up with this $1.2 billion over last year.
    Mr. Tindall. Well, I do not know how the administration, 
particularly OMB, has figured the macro numbers, if you will, 
but----
    Mr. Regula. Well, I don't know either, but----
    Mr. Tindall [continuing]. I am delighted to sit here and at 
least be able to say that the administration seems to have 
found the money versus you asking the National Rec and Park 
Association to dig that up. [Laughter.]
    Mr. Regula. Okay.
    Mr. Tindall. In other areas, the Urban Park and Recreation 
Recovery Program remains in our judgment an important 
conservation tool. We think it is a major conservation 
initiative to save the American city. If we do that, if we keep 
the out-migrations from occurring, we will save more of the 
countryside. It is a pretty straight formula when you look at 
it.
    Finally, Mr. Chairman, we would urge maximum funding for 
the Rivers and Trails Conservation Program. I know you have 
been a strong proponent of that. The administration has--well 
that program is essentially flat-funded while the ONPS accounts 
and others have done reasonably well. Our understanding is that 
the demand is somewhere in the order of $12 million a year. The 
program is presently $7 million; the administration has asked 
for $9 million, but they have sort of co-mingled some things in 
there that are not in effect true aid for trails and river 
conservation. They need assistance to officially manage the 
Land and Water Program; we still have 37,000 plus projects out 
there that need to be looked at.
    And so there is a great deal of work. I know you are 
familiar with all of it, and you from your days with public 
service in the State and here have been fully aware of that and 
have made important personal and political contributions to 
that scenario.
    I would close, Mr. Chairman, by saying again what I know 
you are aware of. You are co-Chair of the Old Americans Caucus, 
I believe; you are fully aware that recreation and physical 
activity contributes to their well-being. I had the 
unfortunate--fortunate in some respects, because it is a nice 
facility--of putting an elderly parent in a nursing home 
recently. I believe that action was delayed, because we tried 
to keep her active, and hike, frankly, on some trails and lands 
and a county park system aided by the Land and Water 
Conservation Fund in New Jersey.
    Mr. Regula. I think it is a great value for seniors.
    Mr. Tindall. So, we need to measure the acres, but we also 
need to look at the cost that we are putting into keeping kids 
out of jail. I list several programs, initiatives, that add up 
probably in total half of what this committee's allocation will 
be, that we are putting into crime programs and things like 
that. So, we have an environmental, we have a social initiative 
here that will be the outcomes of this.
    Mr. Regula. We appreciate all of those things.
    Mr. Tindall. I have a copy of that large capital survey or 
the results of it that I would be happy to share with you. I 
know Debbie is just anxious to read more----
    Mr. Dicks. Records, files. [Laughter.]
    Mr. Regula. Well, we can give that to Mr. Dicks.
    Mr. Tindall. Mr. Dicks and his staff, right? [Laughter.]
    Mr. Dicks. I want you to know we appreciate what you do, 
and we understand these are tough issues, and we just hope you 
understand our situation with these budget caps.
    Mr. Tindall. We certainly do. I should make two more 
observations: we do not favor the administration's proposal to 
go to a national competition, if you will, for whatever monies 
this subcommittee can put into Land and Water Conservation 
Fund. It would be directly opposite everything that this 
Congress has done over the last--the previous Congress has done 
to move decision-making out of Washington. We believe the State 
and local officials and residents can establish priorities 
within federally-established guidelines.
    I would just share with you for your own files copies of a 
recent report we did which show collaboration of police 
recreation agencies.
    Mr. Tindall. Interestingly, the police activities in every 
one of those--there is five or six case studies in there--every 
police activity has Justice Department money in it, and none of 
the recreation collaborators have any Federal money in it. So, 
we are not talking about just coming here and taking Federal 
money.
    Mr. Regula. Right.
    Mr. Tindall. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Mr. Tindall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

DEBORAH GANGLOFF, EXECUTIVE DIRECTOR, AMERICAN FORESTS
    Mr. Regula. American Forests.
    Ms. Gangloff. Hi, I am Deborah Gangloff with American 
Forests. American Forests is the national conservation 
organization for trees and forests, as you probably know. Our 
membership of about 100,000 represents everything from 
scientists to landowners to community activists, and the 
mission of the members of American Forests is to help improve 
the environment with trees.
    We stand for citizen understanding and citizen involvement 
in forest conservation policy and programs. People and their 
communities are a part of the forest ecosystem in both rural 
and urban areas, and so we try to show people all the values 
and benefits of trees and forests on an ecosystem-wide, 
landscape size, and we call that the natural capital of trees 
and forests.
    Trees and forests have social, economic, and environmental 
values and benefits, and we believe that with good information 
and good partnerships between public agencies and local 
organizations, that communities can better plan and implement 
actions to improve the environment as well as the quality of 
life in their towns.
    We believe strongly that Federal agencies and their 
resources should be invested in providing the best science 
through technology transfer, tools and financial resources and 
incentives to leverage community investment through 
partnerships, and to build local capacity for better decision-
making. The agencies also need to commit to long-term 
monitoring of local actions so that we can then build the next 
generation of better science and close that loop on the Federal 
investment.
    This investment we think yields large returns or dividends 
in community leverage about people and resources and can head 
off the very expensive alternatives of regulation and 
enforcement, things we are seeing now in the Puget Sound area 
with the salmon habitat.
    The programs I want to speak to today fulfill this Federal 
investment guideline, so to speak, and especially the 
cooperative forestry programs of the State and private forestry 
budget of the U.S. Forest Service are the ones I want to 
address. First of all, urban and community forestry which I 
have been involved with for 20 years. The urban forests are the 
soil and water and air and vegetation in the areas where we 
live, work, and play, and it is a major environmental, social, 
and economic asset. In 1997, American Forests estimated the 
value of that asset just in storm water, energy conservation, 
and air and water quality alone to be over $400 billion a year.
    We could help local decision-makers better invest in these 
resources and values by giving them information, and we have 
conducted, with the sponsorship of the U.S. Forest Service, 
ecosystem analyses in Atlanta, in the Puget Sound, in the 
Chesapeake Bay, and in the Canton areas. We have found that in 
both the Puget Sound and the Chesapeake Bay, those areas have 
lost over 30 percent of their tree canopy and with that has 
lost billions of dollars in clean air and clean water values. 
These values are very expensive and very painful to offset.
    By supporting these analyses, we think the Forest Service 
has leveraged State and local investments, private investments 
with foundations, et cetera, that will lead to better public 
policy decisions being made at the local level. For instance, 
Atlanta has lost over 60 percent of its tree cover in the last 
25 years, the fastest growing city in the history of the world. 
Each of the counties in the 10 metro area are now developing 
tree ordinances; that is a local investment as a result of what 
the Forest Service----
    Mr. Regula. You are really addressing preservation of trees 
within an urban environment and not the harvesting of them, but 
rather to support communities in expanding their tree 
resources.
    Ms. Gangloff. Yes, on this particular part. I also have a 
couple of other programs to address.
    Mr. Regula. Okay, what are the others?
    Ms. Gangloff. Okay. The other ones are forest fragmentation 
and land developing pressures. How do we deal with those? And 
the Forest Legacy Program of the Forest Service is designed to 
address those, and that is working in the Northwest and the 
Northeast and now elsewhere. Last year, we urged this 
subcommittee to increase the support to $50 million, and we are 
delighted to see that request in the administration's budget 
this year. We think it is an important program.
    Next is forest stewardship and stewardship incentives. That 
enables the Forest Service to help some of the 10 million 
private landowners that own 60 percent of the private lands in 
this country, not only to manage their land better but to see 
it more on an ecosystem-wide scale and design strategies that 
help improve the overall health of the ecosystem, what their 
property does.
    Economic action programs in the Pacific Northwest 
assistance is very important. It helps rural, forest-dependent 
communities leverage their own support and make the investment 
in their communities. It promotes self-sufficiency, leverages 
small grants, builds capacity; people can start local forest-
based businesses and partnerships. And we urge that those 
programs be increased to $25 million for EAP and $10 million 
for the Pacific Northwest.
    And, finally, in terms of BLM, we agree with SAF that their 
Public Domain Forest Management Program has been underutilized 
and underfunded. The Jobs in the Woods and Ecosystem Health and 
Recovery Fund must be funded. They must be able to increase 
their staffing levels and do program implementation. The 
capacity has been diminished quite a bit in the last two 
decades, and we need to see that brought back up to the level 
of funding. Thank you.
    Mr. Regula. Thank you. Mr. Dicks.
    Mr. Dicks. I would very much like to see some of the work 
that you have done in the Puget Sound area. I see your good 
work here on the Chesapeake, and I would like to see it if I 
could.
    Ms. Gangloff. Yes. Here is a copy of the report that we 
conducted.
    Mr. Dicks. Thank you. Thank you very much.
    Ms. Gangloff. And one for you, Mr. Regula.
    Mr. Regula. Thank you.
    [The statement of Ms. Gangloff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                            Tuesday, April 13, 1999

                         HISTORIC PRESERVATION


                                WITNESS

RICHARD MOE, PRESIDENT, NATIONAL TRUST FOR HISTORIC PRESERVATION
    Mr. Regula. Okay, Mr. Moe, National Trust.
    Mr. Moe. Mr. Chairman, Congressman Dicks, thank you for the 
opportunity to appear, and let me, at the outset, thank you for 
the very thoughtful and constructive way in which you and this 
subcommittee have addressed historic preservation issues over 
the last several years.
    As you know, it was nearly four years ago that we mutually 
agreed that the National Trust would no longer seek Federal 
funding, and thanks to your help we had a three-year period in 
which to adjust to that reality. We are now free of Federal 
funding and as fiscally-challenged as this subcommittee is, but 
it is the right thing to do, and we are glad we made that 
decision, and we appreciate your help in bringing us to this 
point. We think, among other things, we will be more effective 
advocates for preservation, generally, doing that.
    I do appreciate all that you have done, particularly, Mr. 
Chairman, to address the backlog in our national parks and the 
other needs of our historic preservation programs, because 
these needs are apparent; they have not been addressed 
consistently over the years--
    Mr. Regula. Well, I assume, on the issue of backlog, part 
of that is historic preservation.
    Mr. Moe. Exactly. Sixty percent of the parks, as you know, 
are historic sites, and they need constant maintenance, and we 
have not been able to bring that help consistently over the 
years, but thanks to your leadership--
    Mr. Regula. Will they use the fees, too, for that purpose?
    Mr. Moe. Yes, the fees increasingly--again, thanks to the 
policies that you have helped adopt--will now stay in the parks 
for maintenance purposes, not just for the historic sites but 
for all the infrastructure and other needs, and that is as it 
should be.
    I do realize the budget constraints you are under, but to 
the extent that you consider full funding for the Land and 
Water Conservation Fund, we hope that you will also consider 
full funding for the Historic Preservation Fund, which is a 
similar fund, similarly constituted and with the same source of 
funding. So, I realize that is a stretch, but we hope that 
those two things can be considered jointly.
    I want to thank you also, Mr. Chairman, for your support in 
past years for the historic black colleges and universities. 
Those needs are great and continue. We listed them on our 
endangered list last year, and there are clear needs out there, 
but thanks to the work of this subcommittee, they are being 
addressed.
    The Millennium Program that you helped initiate last year 
is off to a very good start. It is having the desired effect of 
leveraging private funding in several ways that we discussed, 
and we hope that can be continued.
    Mr. Regula. So, your group is doing part of the private 
side of this.
    Mr. Moe. That is correct. We have been selected as the 
private partner, and we are doing a lot of private fundraising, 
and that is coming along very nicely.
    Mr. Regula. Are you getting a good response?
    Mr. Moe. We are getting a good response from foundations, 
corporations, and individuals and communities. Everybody is 
getting into this and helping to celebrate the millennium by 
honoring their heritage, so it really is working well.
    Mr. Regula. Since we limit our monies to Federal sites, 
what you raise has no constraint.
    Mr. Moe. That is correct.
    Mr. Regula. You can address challenges that are outside the 
Federal ownership.
    Mr. Moe. That is correct; we are doing both. We are 
currently raising funds for Mesa Verde, for example. The First 
Lady will be visiting there in May; we hope to have some major 
gifts to announce then. The Edison Park in New Jersey, we 
raised funds for that. So, it is a combination of public and 
private as it should be.
    I want to put in just a word for the State Historic 
Preservation Offices who you know are carrying out a federally-
mandated function, and their workload has increased 
dramatically, as I think you will hear this afternoon, and 
whatever you can do to increase their funding----
    Mr. Regula. Are the state legislatures forthcoming in 
supporting their programs?
    Mr. Moe. I believe they are, because, as you know, this is 
a matching program, and my impression is that they generally 
are forthcoming, and we certainly encourage them to be 
forthcoming, because the workloads are really increasing there.
    Also, there is a modest request in the administration's 
budget for Montpelier, James and Dolly Madison's home which has 
real need. This has been a troubled presidential site for a 
long time.
    Mr. Regula. How far along are you in the restoration there?
    Mr. Moe. We have stabilized the property. We have put a new 
roof on it, new drainage system; basically, dealt with the 
infrastructure, and this last year, we put a modest 
interpretation in it designed by Ralph Appelbaum, so we can 
tell the Madison story. But we have not begun to restore the 
rooms of Dolly Madison, in particular----
    Mr. Regula. When you restore rooms, are you talking beyond 
wallpaper?
    Mr. Moe. Yes, about reconfiguring it the way it was when 
the Madison's----
    Mr. Regula. And that involves carpentry and masonry?
    Mr. Moe. It does, it does, exactly.
    I would also like to put a word in for the Center for 
Preservation Technology and Training in Natchitoches, part of 
the Park System, which has really made a difference in terms of 
the research that is brought to historic preservation issues 
and to the Advisory Council for Historic Preservation which 
continues to do very good work.
    And, finally, there is a request in the administration's 
budget for land acquisition of Gettysburg which could be used 
to take down the tower and to finally get that abomination off 
that National Park.
    But, in conclusion, I appreciate the constraints that you 
all are under, and we appreciate the work that you are doing, 
and we appreciate the opportunity to work with you to do it. 
Thank you.
    Mr. Regula. Thank you.
    Mr. Dicks. And we appreciate your good work and effort in 
very challenging times, but we appreciate the way you have 
addressed this issue.
    Mr. Moe. Thank you.
    Mr. Regula. Thank you.
    [The statement of Mr. Moe follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

LAND AND WATER CONSERVATION FUND, FOREST SERVICE, NATIONAL PARK SERVICE


                                WITNESS

THOMAS E. STEINBACH, CONSERVATION DIRECTOR, APPALACHIAN MOUNTAIN CLUB
    Mr. Regula. Appalachian Mountain Club.
    Mr. Steinbach. Good morning.
    Mr. Regula. Good morning.
    Mr. Steinbach. I am Tom Steinbach. It is a pleasure to be 
here today. I am here on behalf of the Appalachian Mountain 
Club, and we do conservation and recreation work really from 
Virginia to Maine, and I would like to focus my comments on 
eastern forest issues, especially those confronting the 
northern forests of Maine, Vermont, New Hampshire, and New York 
and the Highlands region of Pennsylvania, New Jersey, New York, 
and Connecticut. I believe that those two regions deserve 
special attention from this committee in the coming year.
    In the case of the northern forests, they are the last, 
great, wild forests east of the Mississippi. In the case of the 
Highlands, it is the region that is on the front lines of 
sprawl and development from populations moving west from cities 
like----
    Mr. Regula. These are now public forests?
    Mr. Steinbach. They are not. They are largely privately-
held lands.
    Mr. Regula. So, you are interested in putting them into the 
public domain.
    Mr. Steinbach. I am interested in having the Federal 
Government work in partnership with the States, yes.
    Mr. Regula. Partners, yes.
    Mr. Steinbach. And I will touch on that a little bit, 
specifically. The Highlands is under incredible development 
pressure, essentially.
    This past year, the northern forest has been a challenging 
one--and I want to share a map with you just to give you some 
sense of what we have been facing. On that map, you see a 
multitude of colors. All of those colors, except the green, 
represent parcels that have gone on the market in the last 
year. If you totaled it up, it is 4 million acres; that is 
larger than the State of Connecticut--all put on the market in 
1998. As you can imagine, sales of this size get the attention 
of people living in the region, and they get concerned both 
about the future for jobs that are forest-dependent and about 
their ability to access the lands for recreation.
    Mr. Regula. I am struck by the fact that a lot of these 
private sector companies are putting their forests on the 
market. Is this because there is no market for their product? 
It is sort of unusual.
    Mr. Steinbach. Unfortunately, it is an ongoing trend. What 
we see in the northern forest region, in particular, is 
cyclical economies, and it is a forest-based economy, largely 
pulp and paper industry, and we are seeing a slow, steady 
decline in that industry in the northern forest region, and the 
companies are----
    Mr. Dicks. Pulp and paper worldwide. The prices are way 
down in the tanks.
    Mr. Steinbach. Yes, and the companies are confronting that 
reality and divesting of some of the lands in the forests.
    Mr. Regula. Oversupply?
    Mr. Dicks. Oversupply, yes.
    Mr. Steinbach. This region, in particular, has not--the 
companies have not really invested in capital investments in 
their----
    Mr. Dicks. In the new plants.
    Mr. Steinbach. In their plants.
    Mr. Dicks. And, therefore, with the oversupply, they are 
forced to close it down. And I assume there must be some 
endangered species issues up there?
    Mr. Steinbach. Absolutely. We have got endangered species 
issues; we have got recreation issues; we have got it all. I 
mean, this is a place that is heavily used both for the economy 
and as a recreational resource.
    Mr. Regula. And the recreation is on the private lands.
    Mr. Steinbach. Yes, for the most part.
    Mr. Regula. Does that return any income for the owners?
    Mr. Steinbach. To some owners it does, and I think new 
owners are looking more and more to diversify how they make 
their money. One of the concerns that we have about that is in 
general it is just a fine trend, but we want to make sure that 
we do not see increasing development, especially of the most 
ecologically sensitive places--the lakeshores, the river 
frontage, the mountains, those kinds of things.
    In any case, this is a huge area. The public in each of the 
four northern forest States has waken up and taken notice. They 
are very, very interested in seeing some action to conserve the 
most special places in this region. They are pushing their 
States to do it, and we are seeing across the board States, 
governors, and legislatures start to step up and investigate 
putting State money behind some conservation activities here. 
In our view, we think that there is an important partner role 
for the Federal Government to be playing, and that really 
should come through Forest Legacy and the Land and Water 
Conservation Fund, in our view.
    Mr. Regula. Okay.
    Mr. Steinbach. What essentially I want to do is urge you--
and I recognize the constraints that the committee is under--to 
fully fund LWCF and to put some money into the stateside, 
because that is the way we are going to be able to get some of 
these projects done here.
    In addition, I would like to see significant funding come 
into the Forest Legacy Program as well as money for programs 
like Rural Development Through Forestry and the Stewardship 
Incentive Program.
    Mr. Regula. Okay, thank you. Mr. Dicks?
    Mr. Dicks. Thank you very much.
    [The statement of Mr. Steinbach follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

E. LYNN JUNGWIRTH, EXECUTIVE DIRECTOR, THE WATERSHED RESEARCH AND 
    TRAINING CENTER
    Mr. Regula. The Watershed Research and Training. Your 
statement will be part of the record.
    Ms. Jungwirth. Good. Well, thanks for letting me come 
today. My name is Lynn Jungwirth. I work in northern California 
in a small, rural, what used to be a timber-dependent 
community; we are now an ecosystem management community. In the 
President's Plan Area, we sit in the middle of the Shasta-
Trinity National Forests. So, my issues are around that kind of 
approach to forest management which has put these rural 
communities in a period of transition, and, after having been 
under the President's plan for five years, we have pretty 
intimate knowledge of what is helping us make that transition 
and to find our new role in ecosystem management on public 
lands.
    I have to tell you that the Northwest Economic Adjustment 
Initiative at first was terribly offensive to us, because we 
were not the kind of people who were ever used to working with 
Government programs, but----
    Mr. Dicks. You like it now, though, don't you?
    Ms. Jungwirth. I like the fact that somebody is trying to 
help us build some tools to live through this. It still does 
not feel very comfortable to tell you the truth, and that is 
why I am here today, because of the success that I have seen in 
northern California, in southern Oregon, in Montana, in eastern 
and western Washington with the Economic Action Program of the 
Forest Service.
    It is critical to this change, and I want to give you some 
sense of the kind of approach that makes us believe that it 
deserves public investment, and here it is: ecosystem 
management says we have to reinvest in public lands for a 
period of time--deferred maintenance; you have got road 
problems; you have got fuel problems; you have got fire 
problems. Fire suppression costs go up every year. We have got 
more anadramous fish problems, because you cannot take care of 
the roads; it is a big mess. So, how are we going to find 
something that will help economically to solve that problem? 
The Federal budget cannot take care of it. The Economic Action 
Program has allowed these little communities to begin 
experimenting and doing the R&D on a small scale to discover 
the solutions.
    So, some of the things that you got out of that. You have 
got people who are working on utilization of small diameter 
material. The big industry cannot make that work right now, 
because big capital is not going to go where there is uncertain 
supply, and you guys hear that ad nauseam. Little capital can 
go where there is uncertain supply. We are finding new markets; 
we are finding new techniques; we are finding ways to do that 
without hurting things.
    Also, through these collaborative processes that are coming 
together, because we have the EAP and the Forest Service will 
let you come in and start working together, we have built new 
partnerships now. You have got State bonds coming in to help 
work on public lands; you have private foundations coming in to 
help do restoration work on public lands; you have local money 
coming in; you have these strange kinds of partnerships which 
are just the future.
    So, what has happened is that the administration has 
basically cut this budget, and then you have got the Senate 
which throws the earmarks on it and kind of sucks the life out 
of it. So, at the time when you need this R&D and these 
communities are actually doing the work of the Nation--yes, 
$6.9 million last year.
    Mr. Dicks. Out of the, what was it, $25 million or $15 
million?
    Ms. Jungwirth. Well, it was $17 million for the EAP, and 
the redirect was $6.9 million, and, unfortunately, it was 
redirect for sometimes hard infrastructure projects. So, what 
happens is this money usually goes out in little chunks, like 
$25,000, maybe $50,000, and it goes to a bunch of small 
communities. This is the little guy money. Well, then people 
put it over in giant infrastructure projects. So, you put $1 
million bucks here and $2 million bucks there, and you have 
just deprived 40 communities of beginning to do their 
reconstruction. It is just an important--it is a critical piece 
of money, and I really appreciate you keeping it in there. I 
hope you can throw some more chunks that way. I know you have a 
problem, because you are in pain. [Laughter.]
    Let me tell you, when the Dwyer Decision shut down our 
forests in 1990, 50 percent in my school system were on free 
and reduced lunches. This year it is 80 percent. So, I know 
about pain, and I know about money, and this money is well 
used.
    Mr. Dicks. Well, I represent the Olympic Peninsula area, 
and we understand exactly what you are talking about. The one 
thing I will say, is that the administration was good enough to 
extend the program. It was supposed to be a five-year program, 
and it has been extended, as you suggest, at a reduced level. 
But I think it has done a lot of good to help these local 
communities with projects to try to come up with other economic 
approaches in these areas, and we will do the very best we can 
to assist you here.
    Ms. Jungwirth. Yes, remember that I am not talking about 
just the Pacific Northwest. I am talking about the whole 
Nation. Forest after forest is falling to ecosystem management, 
and so it is more communities are being impacted, not less, and 
it is the bigger program that I am concerned about here in 
terms of my friends of the forests.
    Mr. Dicks. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of Ms. Jungwirth follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                               WITNESSES

MIKE BRADSHAW, EXECUTIVE DIRECTOR, DALLAS TREES AND PARKS FOUNDATION
SUZANNE PROBART, EXECUTIVE DIRECTOR, TREE NEW MEXICO
    Mr. Regula. Dallas Trees and Parks Foundation. You 
overwhelm us here.
    Mr. Bradshaw. No, no, no; just relax.
    Ms. Probart. Good morning.
    Mr. Regula. Okay, tell us your story.
    Mr. Bradshaw. Mr. Chairman, Mr. Dicks, I have a correction. 
My name is Mike Bradshaw. I am not the president of the ASLA; I 
am the executive director of the Dallas Trees and Parks 
Foundation; a member of the ASLA, but I am here this morning as 
the president of the Alliance for Community Trees. We brought 
2,000 letters of support for urban and community forestry; we 
are not going to leave those with you but wanted you to see the 
campaign that we have been working on.
    I want to introduce Ms. Suzanne Probart who is the Chair of 
our ACT Issues Committee.
    Ms. Probart. Good morning, Mr. Chairman and Mr. Dicks. 
Thank you for the opportunity to testify here this morning; we 
appreciate that. These remarks serve as the official testimony 
of the Alliance for Community Trees Issues Committee.
    My organization, Tree New Mexico, is one of the 35 
organizations, grassroots, non-profit organizations that embody 
the membership of ACT, the national voice of non-profit tree 
planting organizations across the country. Hundreds of 
thousands of individuals have become involved in this tree 
movement through many of our local and statewide programs. 
Although we cannot speak for the entire network of our partners 
and players, many of them are your constituents, and we ask 
that you give our comments serious consideration.
    ACT urges you to support the $40 million Urban and 
Community Forestry budget for the Forest Service Program 
budget. As this successful program has grown and prospered, so 
must the budget that serves this ever-expanding population. Our 
Nation's population has grown significantly, and we ask that 
this very modest budget see those increases as well.
    Over 80 percent of our Nation's population now lives in 
urban areas, both large and small, and--let me find my place 
here--the program has grown as well. These people need our help 
in managing our natural resources. The non-traditional 
partnership approach that we have with the Forest Service, the 
National Association of State Foresters and our grassroots 
organizations are the natural resource team that can bring 
these programs to the local level.
    We have been building our foundation for nine years, and we 
are prepared to move it into the future, into the 21st century. 
It is a very solid program, and we intend to grow with great 
strides. On a local level, as with throughout the Nation, the 
only thing that holds us back in our growth, it literally 
resources and funding. The $40 million budget gives community-
based organizations focused funding to deliver Urban and 
Community Forestry Programs in our local communities. Citizen-
based groups contribute significantly to stable development, 
leveraging millions of private dollars in-kind goods and 
services and volunteer time.
    Thank you. Those are the end of my comments.
    Mr. Bradshaw. Our members represent a cross-section of the 
country and a cross-country section of Urban and Community 
Forestry. We are all unique, and that diversity gives us our 
strength, but we are also very similar in terms of needs. We 
are all----
    Mr. Regula. Basically, you are asking for funding for the 
Urban Forestry Program which in turn supports your efforts.
    Ms. Probart. Yes.
    Mr. Regula. It is then used to generate local funds.
    Ms. Probart. Yes.
    Mr. Regula. Well, I understand, as Mr. Dicks has said, it 
is a problem of money here. We all recognize there are a lot of 
good programs that we just simply do not have the resources to 
fund. Do you get support from the State legislatures and/or the 
local communities?
    Ms. Probart. Yes, we do. We leverage millions of dollars 
this way, and it is true----
    Mr. Regula. In federal tax dollars, but local and State tax 
dollars, as well?
    Ms. Probart. A lot of it is private and State; it is both.
    Mr. Dicks. What is one of your great success stories?
    Mr. Bradshaw. I think our great success stories would be 
the individual success stories of our member groups.
    Mr. Dicks. Tell me one.
    Mr. Bradshaw. The Dallas Trees and Parks Foundation 
developed through Urban and Community Forestry money a 
Shadekeeper Program, a citizen forestry training program that 
trains local citizens to appreciate the benefits of trees; take 
care of trees; leverage through private citizens to support the 
efforts of the local park department, for example. We have 
trained over 300 volunteers through our Shadekeeper Program.
    Mr. Dicks. But you are growing a lot of trees in urban 
areas too, are you not?
    Ms. Probart. Yes.
    Mr. Bradshaw. Yes.
    Ms. Probart. In New Mexico, we plant urban restoration 
riparian zones. As we have the Rio Grande running through the 
city of Albuquerque, we do a lot of pole planting. We have 
planted more than 500,000 trees in the last nine years strictly 
with volunteer labor.
    Mr. Dicks. That is just in New Mexico.
    Ms. Probart. That is just in New Mexico, sir.
    Mr. Dicks. How many have you done nationwide? Do you have 
any idea?
    Ms. Probart. We need a count? Millions.
    Mr. Dicks. That is good.
    Ms. Probart. Yes. I mean, really, a number of millions of 
trees.
    Mr. Bradshaw. In the Dallas area--and I will speak to 
that--we plant between 12,000 and 18,000 trees a year, and all 
of that is planted on public land.
    Mr. Regula. It is one of the great programs to help with 
global warming.
    Ms. Probart. Absolutely, and, you know, our partnership 
goes beyond--with this program, it is the Forest Service and 
the National Association of State Foresters are our primary 
partners, but we also partner with the American Forests, the 
National Arbor Day Foundation, BLM programs, a lot of other 
Federal agencies, the EPA. So, it is a very ever-expanding 
program partnership based on partnerships and collaborative 
efforts, and a lot of people talk about collaborative efforts, 
but we are really, truly doing it, and everything from 
grassroots right up to the Federal Government, and we make 
those connections between citizens and Government.
    Mr. Dicks. Good, thank you very much.
    Mr. Regula. Thank you.
    Ms. Probart. Thank you.
    Mr. Bradshaw. Thank you.
    Mr. Dicks. Sounds like a good program.
    [The statements of Ms. Probart and Mr. Bradshaw follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             HERITAGE AREAS


                                WITNESS

DANIEL M. RICE, EXECUTIVE DIRECTOR, OHIO & ERIE CANAL CORRIDOR 
    COALITION
    Mr. Regula. Mr. Rice. Glad to see you. We get to go to 
lunch after this. [Laughter.]
    Mr. Rice. If you would like, Mr. Chairman, we can just go 
talk about this over lunch, if you like.
    Good morning, Mr. Chairman; good morning, Congressman 
Dicks.
    Mr. Dicks. Good.
    Mr. Rice. Thank you very much for giving me this 
opportunity to share with you some exciting information about 
the Ohio & Erie Canal National Heritage Corridor, a regional 
project in northeast Ohio that is preserving and interpreting 
the natural, historic, and recreational resources. As you well 
know, Mr. Regula, we have had a lot of successes with the 
development of the Towpath Trail, an 87-mile recreational 
linkage that goes to four counties in northeast Ohio, which, 
today, 40 miles of that 87 is either done or under construction 
right now. Down in Stark County, as well, they are restoring 
the St. Helena III, the historic canal boat providing wonderful 
opportunities for children to get out there and learn about the 
Ohio and Erie Canal, educate themselves, and also learn a 
little bit about their history.
    More than anything else, though, we are really leveraging a 
tremendous amount of local, private, and State dollars for the 
project. For every $1 of Federal investment, we are able to 
leverage a minimum of $4 local, private, and State dollars for 
the project. A lot of it actually is coming from the private 
sector; a lot of economic development projects. For instance, 
the city of Akron, they have had at least $30 million of 
private economic development projects spurring up around the 
Ohio & Erie Canal and Towpath Trail. It has been really an 
incredible success story.
    In terms of our priorities, first and foremost, as you well 
know, it is the Towpath Trail. We are 40 miles down; I would 
like to be able to come back next year and say we are 50 miles 
down.
    Mr. Regula. You are not having any problem matching the 
money that we provide?
    Mr. Rice. Not at all.
    Mr. Regula. I know you are president or involved in the 
National Association. Are the other trails having the same kind 
of success?
    Mr. Rice. Absolutely. As a matter of fact, we have done a 
little bit of an informal survey. We are going to be able to do 
a more formal survey in terms of what the other heritage areas 
across the country are doing, and, again, it is a minimum of 4 
to 1 leverage. Some areas, actually, Mr. Regula, are leveraging 
eight local and private State dollars for every $1 dollar of 
Federal investment, so it really, truly is a good example of 
how the Federal Government can have a limited involvement but 
have a tremendous impact at the local level.
    The last two things, just quickly: obviously, we would like 
to see the appropriations for the $1 million for the Ohio & 
Erie Canal Heritage Corridor, because we would like to continue 
that momentum and move that forward.
    Mr. Regula. I think that one will make it.
    Mr. Dicks. I think it will too; such shock.
    Mr. Rice. The second area, actually, is the technical 
assistance that you all have been so generous to provide us 
through the Park Service. We have been able to put on some 
pretty successful workshops and training sessions that the 
omnibus heritage areas have been able to work on, and----
    Mr. Regula. So, it has been helpful all across the country 
where they have the heritage areas.
    Mr. Rice. Absolutely, absolutely, and I believe last year 
it was $879,000, and I believe in the testimony we were 
requesting--
    Mr. Regula. Have they done a good job with working with the 
communities?
    Mr. Rice. We are working with them on that approach.
    Mr. Regula. It could be approved, okay.
    Mr. Rice. Yes, yes. But this year, actually, we are looking 
for an increase to $987,000, because what we are looking to do 
is actually produce some economic development handbooks, so 
that we can basically share that information and share best 
practices amongst the heritage areas. So, thank you very much.
    Mr. Regula. Okay, thank you.
    Mr. Dicks. Thank you very much; good testimony.
    [The statement of Mr. Rice follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Okay, thank you. We will recess until 1:30.
                              ----------                              --
--------

                                           Tuesday, April 13, 1999.

             FOREST SERVICE: COOPERATIVE FORESTRY PROGRAMS


                                WITNESS

DAN'L MARKHAM, EXECUTIVE DIRECTOR, NATIONAL NETWORK OF PRACTITIONERS
    Mr. Wamp [presiding]. I call this hearing to order. The 
first witness is the National Network of Forest Practitioners, 
and I assume you are Mr. Markham.
    Mr. Markham. I am, thank you very much.
    Mr. Wamp. Welcome.
    Mr. Markham. Thank you, and I hope I get a chance to see 
Mr. Dicks, Congressman Dicks; he is from my old neck of the 
woods in Washington State, so it is good to see his name here 
at the table.
    Thank you for the opportunity to testify today. Again, my 
name is Dan'l Markham. I am the executive director of the 
National Network of Forest Practitioners. Most of my life has 
been spent working in the fishing and logging communities of 
the southwestern part of the State of Washington. I am a 
clergyman, a fourth generation Oregon trail pioneer son, a 
former cannery worker and fisherman and later in my life a 
community church pastor, a newspaper editor, and county 
commissioner from Pacific County, Washington where I managed 
county trust timberlands. Additionally, my work includes being 
the former executive director of the Willapa Alliance, a 
community-based, sustainable development non-profit in 
Washington State, and I am proud and pleased to say that I 
represent, today, the National Network of Forest Practitioners 
as its executive director from our national office in Santa Fe, 
New Mexico; proud because I represent hard-working, ingenious 
people engaged in rural economic development and economic 
recovery and forest restoration throughout the United States.
    The NNFP is a national network of businesses and community 
organizations interested in the economic opportunities 
associated with forest health and forest restoration. We have 
some 180 members in 37 States, and, in fact, I believe I just 
had one of my staff people mention to me that the Southern 
Appalachian Forest Coalition has been in contact with your 
office here and also members of the National Network of Forest 
Practitioners.
    I am here to express our support for the Forest Service 
Economic Action Programs, especially the World Community 
Assistant Programs, referred to as RCA, as you probably well 
know, which formed part of the agency's Cooperative Forestry 
Programs. We are extremely appreciative of support you and this 
committee have shown for these programs in the past. The 
demonstrated effectiveness of these programs and rural 
communities across the country has generated a rising interest 
among communities struggling with similar environmental and 
economic ills. For this reason, we respectfully request a 
Fiscal Year 2000 appropriation of $25 million for EAP exclusive 
of any earmarked projects, a modest increase from its Fiscal 
Year 1999 funding level given the immense economic hurdles 
rural communities faced across the country.
    In many communities around the country RCA is the only 
resource of its kind available to struggling rural communities. 
Furthermore, while many communities have benefited from RCA, 
many more across the country have been less fortunate, and as 
the long arm of the Endangered Species Act and related court 
edicts impact more communities in the midwest and east and 
south, increasing numbers of communities will be looking for 
similar assistance to learn from our lessons. This is one of 
the main reasons that we are urging you to increase the EAP 
appropriation for 2000.
    While we have not had numerous examples of successful RCA 
projects that have leveraged 5 to 20 times the amount of money 
contributed by the Federal Government which have invested in 
community infrastructure, building self-reliance, and economic 
certainties, I will follow with only four brief examples. In 
rural western Pennsylvania, the Forest Service worked in 
conjunction with local economic development organizations to 
explore opportunities for manufacturing value-added wood 
products from the byproducts of lumber processing. An initial 
investment of $45,000 RCA dollars eventually yielded a private 
investment of $120 million.
    In Ohio, some $470,000 in RCA funds in the last nine years 
have helped establish such vital community projects as the 
Haydenville Museum Project and the Ohio White Pine Inventory 
Project which identifies more value for trees through a variety 
of new marketing opportunities for landowners and producers.
    In Clallam County, my old home State in Washington, 
$250,000 in RCA monies leveraged $3 million in a textbook win-
win project that combined a renovation of an old mill with the 
restoration of a local estuary. The mill became more 
competitive and added 22 new jobs; chum salmon returned to the 
estuary, and plans are now under way for new commercial 
developments in that project that include a conference center, 
aquarium, and additional retail businesses.
    In South Dakota, RCA helped bring several rural communities 
together to create a 110-mile trail leveraging over $1 million 
in the process.
    In summary, we have found RCA to be instrumental and cost-
effective for these reasons: one, as I mentioned, they leverage 
far more dollars than the initial investment; many projects $5 
to $20 per $1 investment by RCA; two, RCA offers a helping hand 
not a hand-out. Rural community folks are very proud people. 
They do not want hand-outs, just a little assistance to 
leverage other resources to do the work that they are good at. 
It strengthens the capacity of rural communities to solve 
problems, for example, by providing access to technical 
expertise and by building working relationships between 
Federal, State, local, and various other organizations. Three, 
the lasting contribution that the RCA efforts have made to the 
social and economic infrastructure of rural communities will 
lessen their reliance on Federal assistance in the long-term. 
It is a good investment upfront; ``a stitch in time saves 
nine'' kind of investments. Four, as rural communities take 
their first critical steps towards capacity building and 
economic development, RCA is often the only source of funding 
to many of these small communities. Five, RCA starts at the 
community level engaging Forest Service staff, and being a 
former county commissioner, I have to say that emphasis is very 
important to me, and it is what really makes things work, 
because you take the local ingenuity and know-how and you mix 
it with a little bit of capital and some technical expertise, 
and some tremendous projects have resulted. Six, the Forest 
Service is uniquely positioned to administer RCA with branch 
offices in small, rural communities, as I mentioned. Finally, 
seven, while State agencies often function as valuable partners 
for RCA projects, RCA's status as a Federal program offers 
several unique advantages: it affords consistent service 
delivery; draws upon a national pool of expertise, and 
facilitates the transfer of knowledge among rural communities 
nationwide. As RCA monies are not limited to federally-owned 
lands, the program provides a useful tool for bringing together 
multiple ownerships--State, local, private, Federal, and so on.
    Finally, the Forest Service RCA effort has been easy to 
overlook, because it represents such a small percentage of the 
Forest Service budget. Yet, RCA's usefulness and effectiveness 
have built a growing constituency of past and potential 
beneficiaries who want to see the effort flourish. And I have 
come before you today as one representative of this 
constituency to attest to the effectiveness, and, frankly, it 
is an indispensable program, RCA is, for our communities.
    As one of our members put it, cutting this program is like 
cutting a lifeline between rural areas and the rest of the 
world, and this, finally, from the former director, Jim Walls, 
of the 1997 top-ranked resource and conservation development 
district in the country, ``Columbia Pacific RC&D works with 
every Federal economic assistant program available to 
communities. RCA is the most responsive accomplishment-
oriented, least bureaucratic program of them all.''
    Thank you very much.
    Mr. Wamp. Thank you, Mr. Markham. You are to be commended 
for your diversity of experience you bring today, and your full 
statement will be made part of the record. We are grateful for 
your testimony, and we will do our very best to help RCA as we 
mark up the Fiscal Year 2000 bill.
    Mr. Markham. Thank you very much.
    [The statement of Mr. Markham follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

        LAND AND WATER CONSERVATION FUND, FOREST LEGACY PROGRAM


                                WITNESS

ROBERT PERSCHEL, CHAIR, NORTHERN FOREST ALLIANCE
    Mr. Wamp. Next witness is the Northern Forest Alliance, 
Andrea Colnes--no, Robert Perschel. Excuse me, Mr. Perschel, 
welcome.
    Mr. Perschel. Thank you. Thank you very much for having the 
opportunity to come down and to speak to the committee. My name 
is Bob Perschel. I am the Chair of the Northern Forest 
Alliance. My background, I am a professional forester; I have 
worked for forest industry and as a consultant forester. Right 
now, my position is the regional director for the Wilderness 
Society, and in that capacity I also serve as Chair of the 
Northern Forest Alliance which is a 40-member environmental 
group which is trying to protect the forest lands in the 
Northern Forest, 26 million acres sweeping across the norther 
parts of New York, Vermont, New Hampshire, and Maine.
    In the last year, the Northern Forest has gone through an 
extraordinary transition. Suddenly, very, very large land 
ownerships are up for sale. We were aware that this was going 
to happen at some point in time, we just did not know that it 
was going to happen all at once. In a short few months, we have 
seen a million acres, 2 million acres, 330,000 acres, 185,000 
acres, 400,000 acres, 500,000 acres, parcel after parcel of 
immense size go up for sale in the Northern Forest all in the 
space of a few months. In fact, these land sales have totaled 4 
million acres total; 15 percent of the State of Maine is up for 
sale or in the play right now. These are huge parcels; in fact, 
some of these parcels alone or together are larger than some of 
our States like Rhode Island and Connecticut in the Northeast, 
so we are talking about very, very large land parcels.
    These parcels, we believe, are nationally significant for 
several reasons: one is just the sheer size of these parcels; 
as I said, some of them are as big as some of our States; 
number two, is the number of people directly affected by these 
land sales. Seventy million people live within a day's drive of 
these lands that are for sale, and they use them for 
recreation, and they are part of their livelihoods and part of 
their recreation, and generations of families have used this 
land. Number three, they are nationally significant because in 
each portion of our country, in each region, we would like to 
protect a portion of the natural and wild landscape. This is 
our opportunity to do this in this portion of the country. Very 
little of the land in the Northern Forest is now protected in 
some capacity or in public ownership. For instance, only 5 
percent of Maine is in public ownership; that is the lowest 
level of any State in the country. And the fourth reason of 
national significance is this can be a model of land protection 
that can drive forward other protections in other regions of 
the country.
    Congress has supported the Northern Forest Lands Council in 
the early part of the nineties, 1990 through 1994, where 
stakeholders from all over the region got together to try to 
figure out what to do to protect this region, and they came to 
consensus, and out of the consensus was the desire to match 
private and State funding with Federal funding to protect these 
lands. Now that the lands are for sale, we are requesting some 
help in that area.
    As I said, it is sort of a triad--private, State, and 
Federal. Private money has come in, land trusts have come in to 
help buy some of these parcels. Right now, each of the States 
are gathering together to raise bond money to protect some of 
these lands. New York is ahead; the other States are following 
suit and coming together.
    What we would like to see is the Federal Government play a 
larger role than it has played in the past here through the 
Land and Water Conservation Fund and the Forest Legacy Program. 
In the Land and Water Conservation Fund side, we have had help 
on the Federal side of this program before, and we are also 
looking for some help on the State side which I will talk 
about. And also in the Forest Legacy Program, we would like 
more help in that program and have some ideas on how much money 
can be used to help protect some of these lands.
    In the Land and Water Conservation area, what we would like 
to see is full funding of the Federal Program at $900 million 
and an equitable allocation between the Federal and the State 
side. What is very important for the Northern Forest is 
something that is an additional twist to this. What we need is 
a competitive, state-based grants process for projects like the 
ones that are for sale here. These are large projects that are 
of national interest, but the problem is that these States, 
except for New York, the population is so small and the 
economies are so small that they just cannot come up with 
enough money to buy lands of this proportion, and that is where 
the Federal partnership can come in, but we need a provision in 
LWCF to allow for these competitive grants, so that we can 
prove that these are of national interest and receive money 
from this way. It is essential that the Land and Water 
Conservation be changed in this way to help us in the Northern 
Forest.
    Also, the funding for the Forest Legacy Program, we would 
like to see at least $25 million a year go to the Northern 
Forest--that is what the Northern Forest Lands Council 
requested during its deliberations--and at least $50 million 
nationally for the Forest Legacy Program. Additionally, we 
would like to see a revived Urban Parks Recovery Program and 
Historic Preservation Fund at $150 million and funding for 
wildlife conservation at $350 million in permanent annual 
grants to States.
    Specifically, for the Northern Forest, we would like to 
have in the Land and Water Conservation Fund State grants to be 
used for these large--to match State monies for these large 
parcels of $26 million to $51 million. For the Federal side of 
the program to apply additional Federal units, we would like to 
see $9.5 million to $10.3 million. And, as I said, for the 
Forest Legacy Program, a vitally important project in our area, 
$41 million to $67 million.
    In addition, throughout our region, there are two other 
programs that are extremely important, and you have just heard 
testimony for one of them--The Rural Development Through 
Forestry Program. As this region goes through a transition, 
communities need to have some assistance in making it through 
the transition, and we are asking for $5 million for that 
program. The last program is the Stewardship Incentive Program 
to help landowners manage land. As I said, I, in my past, have 
been a consultant, an industrial forester, and have used this 
program personally, and I personally vouch for its 
effectiveness in getting landowners to manage their land in a 
better way, and we are hoping to see that program funded at 
$3.5 million for the Northeast.
    To wrap up, we have an opportunity of unparalleled 
precedence here in the Northern Forest, and it is all coming up 
at us at the same time. The States of the Northern Forest and 
the people of the Northern Forest are ready to make a 
commitment here, and money is being raised and private money is 
coming, and we would like to have the Federal Government join 
us in a large way at this time to make these visions that we 
have of this region a reality. The people of Maine, the people 
of New York, New Hampshire, and Vermont are ready to 
participate, and we are looking forward for your consideration 
of this request. Thank you.
    Mr. Wamp. Thank you, Mr. Perschel, for your testimony. Your 
full statement will be made a part of the permanent record. It 
includes the specific request for the Land and Water 
Conservation Fund and the Forest Legacy Program request, and we 
thank you very much for your testimony; it should be very 
valuable to us.
    Mr. Perschel. Thank you.
    [The statement of Mr. Perschel follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                 NATIONAL CONSTITUTION CENTER'S STATUS


                               WITNESSES

JOHN C. BOGLE, MEMBER, BOARD OF DIRECTORS, NATIONAL CONSTITUTION CENTER
JOSEPH E. TORSELLA, PRESIDENT
    Mr. Wamp. Let us go ahead with one other witness, the 
National Constitution Center, and see if we can do this before 
I will have to recess temporarily and go vote. Are they here? 
Welcome.
    Mr. Bogle. Thank you, sir. Good afternoon, Mr. Chairman, 
and thank you very much for the opportunity to testify here 
today. My name is John Bogle; I am the senior chairman and 
founder of the Vanguard Group of investment companies which is 
the second largest group of mutual funds in the world, managing 
about $480 billion owned by 11 million American citizens, and I 
am also a proud member of the Board of Directors of the 
National Constitution Center, and I am deeply grateful for the 
commitment that this committee has given us in the way of 
support a year ago, and I am here to urge you to continue your 
support for the National Constitution Center, both in our 
construction budget and our statutory aid and appropriations. 
With me is Joseph E. Torsella, on my right here, president of 
the center. We have made tremendous progress in the past year, 
and we are well on the way with the center.
    This afternoon, I just want to briefly review the 
commitments we made a year ago and the progress that we have 
before us. A year ago, we promised to search out the finest 
designers in America, and we have done that. The head architect 
is Harry Cobb of Pei, Cobb, Freed & Partners which has designed 
among other things the East Wing of our National Gallery here 
and the expansion of the Louvre in Paris far away. I have seen 
on the museum model what they have done for us; it is truly 
stunning, and that will be released to the public this summer; 
it is a very exciting stage.
    A year ago, we promised to convene the best scholarly minds 
in America, and we have done that. Our senior advisory panel 
held its inaugural meeting a few weeks ago, and it included 
Supreme Court Justices Scalia, O'Connor, and Breyer, legal 
scholars, journalists, in fact, voices from all over America.
    A year ago, we told you we intended to raise funds from 
sources outside the Federal Government, and we have done that. 
The Commonwealth of Pennsylvania has authorized $30 million; we 
have raised $8 million more in non-Federal funds, and now our 
board of directors, itself, expects to raise $4 million for 
this project.
    A year ago, we told you we intended to manage this project 
responsibly, and we have done that. We are right on budget, 
$130 million, actually, a little bit ahead, and we are right on 
time. We are going to break ground on this Constitution Day in 
September of 2000 and open our doors two years following that.
    A year ago, we told you we would continue to broaden the 
National Constitution Center's national programming, and we 
have done that. We have, among other things, commissioned a 
poll to assess--and this is sort of bad news--knowledge about 
the Constitution among our teenagers compared with their 
knowledge about popular cultures. We found in that survey that 
more teenagers know the names of Three Stooges than know the 
three branches of the Federal Government, a rather shocking 
eventuality. We are trying to improve that awareness--the 
unawareness illustrated there--by providing free lessons plans 
to teachers. We have again celebrated Constitution Week in 
every one of the 50 States. We are planning extensive outreach 
and education activities to foster understanding of the 
Constitution through technology and other means, a virtual 
museum and nationally televised programs and debates from the 
center.
    And, finally, on our progress report, a year ago, we 
outlined a proposal for Federal support to the National 
Constitution Center, and we have not altered or increased our 
proposal. Therefore, I am here today to respectfully urge that 
you consider an additional appropriation of $20 million in this 
year's Park Service budget, representing the second installment 
of a $65 million in capital support over 3 years that we 
outlined to this committee a year ago.
    We also urge you to continue your maintenance with a 
$500,000 amount of statutory aid represented by the 
administration's budget to support our ongoing national 
outreach programs. I do thank you again for your initial 
funding, but I understand that your generous support came with 
a few reservations, and I want to just take a moment here to 
address them squarely and briefly.
    First, I am a dedicated member of the Constitution Center's 
Board, and a vigilant, I believe, member of its audit and 
finance committees, and we take very, very seriously our pledge 
to make only capital requests and that we will be a self- 
sustaining institution. We had Arthur Andersen Consulting study 
our plan, and they have concluded that we will be in a position 
to operate with a moderate surplus year after year, in part 
because our capital plan for the center includes $25 million of 
endowment. We should not be a burden on the Federal Government.
    Second, you urged the city to support the annual operating 
budget, City of Philadelphia, and the city has approved a $5 
million capital contribution for Fiscal Year 2000. In the long 
run, however, we will survive and prosper without that funding.
    Third, it was asked a year ago whether the size of our 
museum might be excessive. We simply do not believe so. Our 
professional planners, consultants believe that our plans are 
adequate but in no way excessive to serve what we expect to be 
a million visitors a year from all over the Nation; about 3 
million come to Independence National Historical Park in 
Philadelphia where the center will be located.
    We regularly review these plans with outside experts and 
the Park Service, itself, and we think we are right in line and 
will not have excessive space or facilities.
    I want to close on a personal note, if I may, sir. I have 
spent my entire business career making difficult choices about 
allocating capital, and I realize this committee has many, many 
competing worthwhile claims on its resources, but the National 
Constitution Center must be a priority for all Americans as a 
Nation. We simply cannot afford to let our United States 
Constitution be ignored or misunderstood. Our mission from the 
outset a decade ago has been to ensure that we, the people, 
will always have a place to turn for information about the 
United States Constitution and the ideals that our Founders 
infused into that great document they produced for what they 
call our posterity, and I guess that is us and ours.
    Vanguard, my little 25-year old upstart of a firm, is now 
the second largest and still the fastest growing mutual fund 
company in the entire world. It is all about making wise 
investments that will meet the test of time, and that is the 
standard that I think--that I will insist the National 
Constitution Center meet. This long-term philosophy accounts 
for much of my firm's success, but it also comes with our 
determination--as all of our shareholders know and see--to 
operate with remarkable efficiency. Now, we are the world's 
lowest cost provider of financial services. It is my own 
expectations that the center will meet highly efficient 
operating standards too.
    Long after all of us are gone, the center will stand as a 
remarkable investment; it has met the test of time, and served 
the people of the United States of America in helping to 
preserve, protect, and defend the ideals of that precious 
document, the Constitution of the United States.
    I thank you, sir, for your past leadership and the 
opportunity to testify today.
    Mr. Wamp. Thank you, Mr. Bogle. I have to run to the Floor 
to vote. We are going to have to stand in recess just for a few 
short minutes. If you want to wait, I will have a question when 
I return. I have already cut you short, and I hate to do that, 
but I will be back just in maybe 5 or 10 minutes, soon as I can 
get there and come right back. We will stand in a short recess.
    Mr. Bogle. We will stay, sir.
    [Recess.]
    Mr. Wamp. Let me reconvene the hearing, and thank you for 
your patience. We did have two votes back-to-back, so I was a 
little longer than I expected. I wanted to see, Mr. Bogle, if 
your executive director had anything to add to your testimony?
    Mr. Torsella. I could not add anything to that, except to 
add my thanks as well for the committee's role in supporting 
funding.
    Mr. Wamp. Mr. Bogle, I have to ask, I had a fraternity 
brother at the University of North Carolina, and I just 
wondered if there was any relation?
    Mr. Bogle. Under this circumstance, sir, I am sorry to say 
it is no kin. [Laughter.]
    Mr. Wamp. Anything else to add? I did not mean to cut you 
short, and I just wanted----
    Mr. Bogle. No, but I appreciate very much your courtesy and 
hospitality as well as your support.
    Mr. Wamp. Your full statement will appear as part of the 
permanent record. It should be very helpful to us as we look at 
the priorities for Fiscal Year 2000, as well as being on the 
majority side, I look forward to visiting Philadelphia, and 
hopefully we will have many other dates along the way. Thank 
you both for your testimony.
    Mr. Bogle. We will welcome you there, Congressman.
    [The statement of Mr. Bogle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                            LAND ACQUISITION


                                WITNESS

JAMES E. WHALEN, PRESIDENT, J. WHALEN ASSOCIATES
    Mr. Wamp. Our next witness is J. Whalen Associates, James 
E. Whalen, president on land acquisition. Mr. Whalen, welcome.
    Mr. Whalen. Good afternoon. Thank you for having me, and it 
is a pleasure to be here. My name is Jim Whalen; I am the 
president of J. Whalen Associates. I represent institutional 
property owners like electric utilities and water districts and 
large developers in San Diego County, and I have been involved 
with a process that you may or may not know the name of called 
the Natural Communities Conservation Planning Program for its 
full life of seven years. I have come out here every year for 
six years, and we have been very grateful for the assistance we 
have received from the Federal Government.
    I just want to talk about a few things and be out of your 
hair. First of all, I would like to give full support for the 
funding of the Land and Water Conservation Fund Program. You 
are going to hear a lot of that from, I am sure, everybody this 
year, and it will be well spent. I wanted to talk to you about 
NCCP and how it has been a success in San Diego County and 
actually in southern California. First of all, every dollar 
that we have received from the Federal Government has bought $3 
or $4 dollars worth of land. We have probably the most 
expensive raw land in the United States. There are places where 
the land goes for $1 million per acre raw, and it really needs 
to be stretched if you are going to have your dollars work 
hard.
    The other thing is--and I am not sure if you know about 
NCCP--but what it was and is a program to return control of 
local land use to jurisdictions, taking it back from the 
Federal Government and from the State government in their 
implementation of the Endangered Species Acts. That has been a 
huge success. It has worked well for everybody to have a set 
rules put together which preserves endangered and threatened 
species while at the same time the needed economic development 
to proceed.
    The Federal Government has kept its hand on the tiller, but 
what has worked best is that local jurisdictions--as in 
politics, everything is local--they are able to balance all the 
needs of their communities, not just that of endangered 
species.
    Why does business care about this? The number one reason is 
the reclamation of local land use controls. The other reason, 
and this is a bigger one, is the assurances package that you 
may have heard of, the no surprises policy; that is what keeps 
us at the table and has kept us at the table. It basically says 
that once we make an agreement with the Federal Government, we 
will stick to that agreement and that if there is any changes 
that need to be made, they will not be on the nickel of the 
business community. That is bankable, and that is probably the 
single most important thing that the Federal Government has 
done in exchanging implementation of the Endangered Species 
Act.
    To make it happen has required some assistance from the 
Federal Government, but you need to know that for let us say 
the $10 million to $20 million that we have received from the 
Federal Government over the last few years, you have gotten 
about $300 million or $400 million worth of land from the 
private sector as their part of contributing to this effort.
    I have one final request which is off the map, if you will. 
I have been working on these programs for quite some time now, 
and I have to say that there is a missing element to this, and 
that is the Fish and Wildlife Service needs a separate career 
path for people who work on these programs. They have very good 
biologists, but they do not have land planners; they do not 
have Government affairs people; they do not have real estate 
development interests, people like that. If you had--and I know 
money is tight, and it would have to come out of somewhere--but 
if you had somewhere within the Fish and Wildlife Service 
organization a group of people who were hired just to work on 
these programs, you would find a lot of the problems being 
solved quicker, cheaper, and better, because, let us just put 
it this way, if you are dealing with a $200 million real 
estate--which is what these really are is they are deals--and 
you have somebody who is 23 years old--no offense to the young 
people here--who just got out of college; has no work 
experience whatsoever, and they are negotiating for the Federal 
Government on your matter? It does not work.
    So, that is the final--I guess it is an off-agenda item, 
but because we are talking about Interior appropriations, I 
would really like to have you folks consider it, and, with 
that, I will take any questions if you have any.
    Mr. Wamp. Mr. Whalen, I have no questions, but I appreciate 
your testimony. It is certainly refreshing, if not 
extraordinary and particularly your perspective during public 
witnesses is appreciated. It lends some balance to the entire 
equation, and I appreciate very much your testimony, and it 
will be made a part of the permanent record and taken into 
consideration as we set the priorities for next year's funding.
    Mr. Whalen. Thank you very much.
    Mr. Wamp. Thank you, Mr. Whalen.
    Mr. Whalen. Good afternoon.
    [The statement of Mr. Whalen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

GARY ERICKSON, PRESIDENT OF POLICY COMMITTEE, INTERMOUNTAIN FOREST 
    INDUSTRY ASSOCIATION
    Mr. Wamp. Next witness, Intermountain Forest Industry 
Association, Rocky Mountain Division. I think Gary Erickson, 
the president of policy is here with us. Mr. Erickson, welcome.
    Mr. Erickson. Thank you. Thanks for the opportunity to 
comment on Forest Service appropriations from the perspective 
of the forest products industry and the Forest Service's Rocky 
Mountain Region which includes Colorado, Nebraska, South 
Dakota, and Wyoming. I am Gary Erickson, and I am the manager 
of Bighorn Lumber Company in Laramie, Wyoming.
    I am most concerned about the precipitous decline of the 
Timber Sale and Vegetation Management Program in the Rocky 
Mountain Region over the last 10 years. The region's timber 
sale offer target has declined from 371 million board feet in 
Fiscal Year 1989 down to 195 million in Fiscal Year 1999. The 
acres treated by timber sales in the region has declined from 
67,000 acres in Fiscal Year 1990 down to 22,000 acres in Fiscal 
Year 1998. The administration Fiscal Year 2000 request would 
decrease the Rocky Mountain Region's Timber Sale Program to 148 
million board feet and less than 15,000 acres. I do not 
understand how the Forest Service's proposed budget can begin 
to address the very issue the Chief had identified as most 
important, the health of the land.
    Many of our forests are experiencing more frequent, more 
widespread, and more intense insect, disease, and fire 
problems. In recognition of those issues, the Rocky Mountain 
Region has developed a strategy to address those potential 
forest health problems that includes increasing the Timber Sale 
Program back to 260 million board feet in our region. Yet, the 
Chief comes to you asking to decrease the management programs 
on the National Forests.
    The Chief has identified water quality as an important 
management goal, but its failure to support the vegetation 
plans of the Rocky Mountain region increases the chances of a 
major water quality problem. An example of that type of 
potential problem facing the region occurred back in May of 
1996. The Buffalo Creek fire just southwest of Denver burned 
nearly 11,000 acres in one afternoon, and it burned primarily 
small, overstocked Ponderosa pine on National Forest land. 
Buffalo Creek happens to be a watershed that feeds the water 
system of Denver. Several weeks after the fire, rain from a 
thunderstorm could not be absorbed by the fire scorched soil 
causing a flood that killed two people. The flood water, soil, 
and debris also washed into Denver water's reservoir which 
created millions of dollars of damage. I believe that Denver 
water has spent on the order of $15 million to $20 million 
cleaning up that flood damage.
    While the local National Forests recognize the need for 
timber management to prevent water quality problems, what is 
the Washington office doing? Proposing to decrease management 
activities on the National Forests with a reduced budget.
    The Rocky Mountain Region has been aggressive in meeting 
their targets; last year, they met 98 percent of their targets. 
If they are given a budget, they have the ability to perform.
    The Chief has also identified a large backlog of road 
maintenance as a high priority. The Rocky Mountain Region does 
not have the expensive maintenance backlog the Chief talks 
about. He talks about a backlog of over $30,000 a mile just to 
bring all the roads back up to maintenance standards. I would 
ask you to please take a hard look at those requests and that 
maintenance backlog. Be skeptical of those total costs.
    I would like to advocate the following positions on behalf 
of our members. We ask that you support funding that would at 
least maintain the National Forest Timber Sale Program at no 
less than the Fiscal Year 1999 level of 3.62 billion feet 
nationally and the region's Timber Sale Program at the Fiscal 
Year 1999 level of 195 million feet. We would like to see the 
Forest Service begin to work towards their own target of 260 
million feet for the Rocky Mountain Region.
    We would ask that you carefully review any changes to the 
KV or Salvage Sale Trust Funds. The Salvage Sale Funds were 
used very well last year to help address a very large blow-down 
that occurred near Steamboat, Colorado. Those funds were used 
to help salvage and manage over 10,000 acres of timber that was 
blown down.
    Finally, I agree with the Chief that National Forests 
should and could be world-class examples of ecologically 
sustainable forests and grasslands management, but in order to 
achieve that goal, we simply have to find a way to make the 
necessary investments in long-term forest health. It means we 
need to find ways to make defensible local decisions and to 
resolve disputes.
    The recent decisions to implement the roads moratorium 
moves things backwards by negating analyses that have been 
completed and decisions that have been made, reopening another 
round of disputes about management of the National Forests. 
From an appropriations perspective, the roads moratorium is 
already increasing the Timber Program workload and raising 
Timber Program costs. Most importantly, the moratorium has 
reduced the number of acres that can be treated to implement 
land management decisions.
    In the chairman's March 10th opening statement, he 
identified none of the same concerns that I have. We do not 
have all the answers, but you have our commitment to work with 
you to find positive solutions that will result in the best 
possible management of the National Forests.
    Mr. Wamp. Thank you, Mr. Erickson. I want to welcome 
Congressman Moran to the hearing. In the need for time, though, 
I am going to just make your full statement a part of the 
permanent record. Thank you for your testimony. You have 
represented the forest industry very well, and your testimony 
is very valuable as we try to strike a balance with the Forest 
Service on this critical issue. Thank you for your testimony.
    [The statement of Mr. Erickson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

  LAND AND WATER CONSERVATION FUND: LOWER RIO GRANDE VALLEY NATIONAL 
                            WILDLIFE REFUGE


                                WITNESS

FAITH THOMPSON CAMPBELL, PH.D., FRONTERA AUDUBON SOCIETY
    Mr. Wamp. Next witness, Frontera Audubon Society. Dr. Faith 
Thompson Campbell is here to testify. Dr. Campbell, welcome.
    Ms. Campbell. Thank you, Mr. Chairman. It is a real 
pleasure to be here, thank you, and, Mr. Moran, who is my 
representative, I am glad you walked in just now, thank you.
    Mr. Moran. Thank you.
    Ms. Campbell. I am Faith Campbell, and I am representing 
Frontera Audubon Society which is based in Texas, and each year 
we come here asking for funds for land acquisition for the 
Lower Rio Grande Valley National Wildlife Refuge which is on 
the U.S.-Mexican border on the far southern end of the Rio 
Grande River. This year, we hope to persuade you to appropriate 
$5 million for land acquisition at that refuge.
    As members of this subcommittee well know, the Lower Rio 
Grande Valley National Wildlife Refuge has the greatest 
diversity of any similar sized region in the country, and this 
provides a lot of biological and economic benefits to the 
people of the Valley and to Americans more generally. Half of 
the bird species that are found in the United States live in or 
migrate through that stretch of the Valley. There are more than 
200 species of mammals, reptiles, amphibians, and fish; 300 
species of butterflies; 1,200 species of plants. This year, 
because of the high biodiversity value, the Lower Rio Grande 
Valley National Wildlife Refuge ranks third on the Fish and 
Wildlife Service's nationwide land acquisition priority list. 
It has always ranked in the top 10 for all 20 years since it 
was founded.
    The Valley is experiencing rapid economic growth. Two of 
the metropolitan areas there are among the top 10 growth rate 
metropolitan areas for the whole country, and this growth 
converts land to uses that would not be of any value to 
wildlife even if they were to be purchased, so it reduces the 
land base for the refuge, and more immediately it raises the 
price of water rights which need to be bought at the same time 
as the land use so that the wetland areas that are sought will 
continue to have water in them when they become part of the 
refuge.
    This rapid growth, however, also presents an opportunity as 
well as a threat, because many farmers in the area are getting 
out of the business, and some of them would like their land to 
be protected in the refuge. Last year, there were some two 
dozen who had made offers to sell their land to the refuge, and 
it is only when funding is adequate that the refuge can take 
advantage of these opportunities which are good both for the 
biodiversity and the farmers who want to get out of the 
business, and, of course, for the economic situation in the 
Valley more generally.
    I say this about the economic situation because tourism is 
a major growing enterprise in Texas, in particular in the 
Valley. Texas is the number one birding destination in the 
United States and the south Texas, the Rio Grande Valley, and 
the coast right there are one of three burning hot spots in 
Texas. They get well over 100,000 tourists a year down there 
for bird watching, and those tourists spend more than $34.5 
million every year, so this is a major part of the economy, and 
it is growing in importance.
    When the refuge is completed, it will represent more than 
half of a 250,000-acre overall package of Federal, State, 
county, and privately-owned lands that will make up a network 
or protected areas in the region. However, we do have about a 
third of the land that has been authorized for the wreckage 
that has not yet been purchased, and that is what we are 
seeking additional funding for. There are, as I said, maybe two 
dozens landowners who have already made offers, but some of 
them have been waiting years for the refuge to be able to get 
back to them because of the low level of funding in past years. 
So, we would hope that with $5 million they could get maybe 
4,000 acres of land in Fiscal Year 2000.
    Thank you for the opportunity and your attention, and if 
you have any questions, I would be happy to answer them.
    Mr. Wamp. Thank you, Dr. Campbell. I will refer to Mr. 
Moran since you are his constituent and see if he has a 
question.
    Mr. Moran. No, I think that we have--that this is worthy of 
our consideration, and we appreciate your testimony, and I am 
glad you are a constituent, Dr. Campbell, and thanks for your 
testimony.
    Ms. Campbell. Well, thank you, and you have been very 
helpful on other issues of this kind, so look forward to it.
    Mr. Wamp. Your full statement will be made part of the 
permanent record, and we thank you for your time today, Dr. 
Campbell.
    [The statement of Ms. Campbell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                            LAND ACQUISITION


                                WITNESS

MICHAEL BECK, SAN DIEGO DIRECTOR, ENDANGERED HABITATS LEAGUE
    Mr. Wamp. Our next witness is the Endangered Habitats 
League, the San Diego director is with us. Good afternoon, Mr. 
Beck.
    Mr. Beck. Good afternoon, Congressman. Good afternoon.
    Mr. Kingston [presiding]. You scared him off.
    Mr. Beck. I must have. Mr. Kingston, I was going to open 
with a comment about how challenging it must be to shift gears 
and follow all of this, the legitimate requests and 
descriptions of projects.
    I am representing an environmental organization that has 
participated in large-scale conservation plans in southern 
California since 1991. The reason that our organization formed 
and the reason that we participate in these programs is that 
without a comprehensive approach to resource protection, there 
is no question that the biodiversity of this, of southern 
California at any rate, will be lost, and from strictly an 
environmental or biological perspective, that is an untenable 
trend. But, in fact, what drove the programs is the regulatory 
angle on it, because these species ultimately become protected 
under the Endangered Species Act, both the Endangered Species 
Act and the State Endangered Species Act, and it just stops 
everything.
    We have so many species that are essentially on the 
conveyor belt of the extinction process, and protection under 
the Federal Endangered Species Act that it drove this program 
in the beginning to find a way to get ahead of the curve, and, 
in doing such, we discovered that the only approach that we 
could do that make economic sense, that made biological sense 
was to do a large-scale, comprehensive program that really was 
stakeholder-driven; that included a partnership between the 
Federal, State, and local governments to return land use 
permitting authority to local governments, and allow the 
jurisdictions to make determinations about where and how land 
use decisions that affect these species will take place but in 
the context of this consensus driven negotiation that resulted 
in these large-scale conservation plans.
    So, prior to my testimony, this committee heard from a 
developer who is in the same game, if you will, that we are and 
working to achieve the objectives of the development community. 
Those objectives are different objectives than ours, and there 
is no confusion about that, frankly. Now, what has become very 
interesting and interestingly apparent is that the goal of the 
program satisfies their needs, satisfies our needs.
    We have, as I mentioned, been operating in a geographic 
area that includes five counties, and the reason is that it is 
an interrelated biological system that is divided by 
jurisdictional boundaries and property ownership boundaries and 
so on, and, in fact, we have discovered that as we develop 
these plans and implement the plans that all of these 
jurisdictions need to talk to each other and coordinate their 
land use decisions with one another, their boundary 
considerations with one another just as we had to do with the 
developing community to try to reconcile our differences. And, 
in fact, we have done that. We have got plans that have been 
adopted, that are contractually obligating the participants to 
fulfill certain obligations including the Federal, State, and 
local government as well as the stakeholders that participate 
in the development of the plan. So, it is something that is 
different. It is a vastly unique different approach to 
conservation and having grown up in southern California I can 
tell you that without some approach such as this we would have 
lost the biodiversity that is there which is extremely high.
    So, you have had a number of people that have come in and 
testified. You had a supervisor from Riverside County earlier 
today, and we have joined and have joined probably about four 
years ago a coalition of the representatives from those five 
counties, including environmental representatives such as 
myself and development representatives and the jurisdictions to 
essentially identify and prioritize targets that are component 
of reaching our biological and program objectives. There is an 
exaction process which brings in hundreds of millions of 
dollars worth of land into the reserve. There is the land use 
process which brings in hundreds of millions of dollars worth 
of land into the reserve. There is the land-use process, which 
requires different reserve design considerations to be 
integrated into the land-use decisionmaking process. And there 
is acquisitions from Federal, State, and local government. So, 
I wanted to speak on behalf of that five-county group, 
representing an environmental perspective on this issue and try 
to reemphasize the fact that you have about as broad a base, a 
coalition of people, making the exact same request. We are 
using the exact same numbers and we are coming with the exact 
same message. And that is: This program really must succeed. We 
are totally committed to doing this. It is now in year eight or 
year nine and the investment is there and the results are 
apparent at this point. We have successes. We have actually 
stopped some of the so-called train wrecks that have been 
looming on the horizon.
    So, with that, my testimony includes the specific request 
from the five-county group. We would also like to add that we 
strongly support, certainly from an environmental perspective 
and also from the program perspective, support full funding for 
land and water. Thank you very much. If there's any questions, 
I will be happy to answer them.
    Mr. Kingston. Mr. Beck, one thing I would like to urge you 
and other people in the conservation effort is to come up with 
a new idea besides government ownership and, you just said, 
this is unique. This is, to me, very repetitive of other things 
that we are seeing, you know, the partnership, the breakdown 
may vary, but the scenario is always the same: Endangered 
Species laws or whatever environmental laws prevent the 
economic development of the land, which is fine.
    But then, inevitably, the developer who has bought it has 
to bail out and wants the taxpayers to pick up the tab. And, 
you know, every year environmental groups want more and more 
land and water conservation funds in there so that the 
government can end up owning more and more land. I would like 
to see some way that private sector can own land and maintain 
it from an environmental standpoint.
    Mr. Beck. Well, what you just described is a very 
significant part of what we are doing. We actually are moving 
as much of this land into the local land trust conservancies, 
local jurisdictions parks departments. There is a very 
significant consideration and it is literally part of the plan 
to identify appropriate recreational uses in the reserves so 
that the public can actually feel an ownership for this 
program. What you are describing is very much a part and parcel 
of our plan and our program and our approach. What you are 
saying is a legitimate issue and it is one that I think we 
addressed.
    Mr. Kingston. Well, I am glad you are moving in that 
direction. I just would like to see it so that private citizens 
own land instead of the government owning everything. But, you 
know, we are going to have to rethink this model at some point 
as a society. I don't think the environmental community has 
reached that level of maturity, frankly, but I think we have 
got to at some point say the Land and Water Conservation Fund 
can't purchase every controversial acre in the United States of 
America. And I don't just mean on the national level or fund 
it, as the President has suggested, at the State level, either.
    I would like to see some creative thinking besides the 
taxpayer picking up the tab.
    Mr. Beck. Well, there is a lot of contributions that go 
into this program beyond the Federal funding, a significant 
amount.
    Mr. Kingston. I appreciate what you do, too. I know your 
area has got tough challenges and loads of growth pressure.
    Mr. Beck. Thank you.
    Mr. Kingston. You may not know this, but Georgia is the 
fourth fastest growing State numerically and the second 
percentagewise. California, Texas, Florida, and Georgia are the 
top four.
    Mr. Beck. Actually, I just read that recently. Something 
about Atlanta and the growth that is going on around there. 
Very similar situation.
    Mr. Kingston. Well, thanks a lot.
    Mr. Beck. Thank you.
    [The statement of Mr. Beck follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

ALAN KIGHTLINGER, NEVADA DIRECTOR, NATIONAL VOLUNTEER FIRE COUNCIL
    Mr. Kingston. Alan Kightlinger, Nevada director of the 
National Volunteer Fire Council.
    Mr. Kightlinger. Mr. Chairman, it is Kightlinger. Not a 
problem.
    Mr. Kingston. I am sorry.
    Mr. Kightlinger. Not a problem. I am----
    Mr. Kingston. I am looking back and you are correct.
    Mr. Kightlinger. Well, thank you for that. I am the Nevada 
director of the National Volunteer Fire Council and deputy fire 
chief for the Elko Fire Department in Elko, Nevada clear up in 
the northeast corner. I have served as a volunteer fire--in 
rural Nevada--fire coordinator for some 27 years and I 
appreciate this opportunity to present the National Volunteer 
Fire Council's mission or plan or funding recommendation for 
the Volunteer Fire Assistance Program which is administered 
under the USDA Forest Service. And this program is absolutely 
essential to the health, safety, and performance of America's 
volunteer firefighters serving America's rural communities. 
And, due to this vital support the Volunteer Assistance Program 
provides, we advocate a $10 million Fiscal Year 2000 funding.
    The NVFC represents the interests of the more than 800,000 
volunteer firefighters in some 28,000 rural fire departments in 
America. These volunteers represent the first line of defense 
with coping with the emergencies in the Nation, natural and 
manmade, as well as wildland and rural/ interface fires. The 
Nation's volunteer firefighters are fighting fires on Federal 
lands every day throughout the Nation.
    A 1991 study commissioned by the National Institute of 
Standards and Technology concluded that it would cost taxpayers 
$36.8 billion each year to convert volunteer firefighters 
positions across the Nation into paid positions. Therefore, in 
addition to being the obvious contribution the volunteer 
firefighters have to their communities, these men and women 
represent a significant cost savings to their communities and 
this Nation. We are here today because we need your help. The 
Volunteer Fire Assistance Program needs an increase in funding 
in order to provide the necessary safety equipment, 
firefighting apparatus, and communications equipment to help 
the volunteer fire service do its job.
    The first question you will probably ask is why is this a 
Federal problem, similar to what you were referring to in the 
previous testimony. The answer is quite simple from two 
standpoints. America's volunteer firefighters are fighting 
fires on the Federal lands. And, secondly, Congress' own study, 
Fire Protection in Rural America: A Challenge for the Future, 
identified that partners need to be made between the State, 
local, and Federal Governments to provide adequate, equipped 
firefighters with personal protective equipment, communications 
equipment, and national-level training standards.
    The Volunteer Fire Assistance Program is a unique Federal 
program that is designed to assist rural communities with cost-
shared grants to rural fire departments to train, equip, and 
help organize in communities of less than 10,000 population. 
This represents a vital contribution to the protection of 
America's resources and America's rural communities. Roughly 90 
percent of the Nation's rural and cities and towns are eligible 
to receive these grants.
    Rural fire departments use Volunteer Assistance funding for 
many projects. A county in Minnesota, for instance, was given 
funding for a pager communication system and it worked with the 
911 that increased the response. In Missouri, 857 fire 
departments, \1/3\ of them, owe their very existence to the 
Volunteer Fire Assistance Program. Fire departments use it to 
upgrade water delivery capabilities, improve training, improve 
radio communications, purchase personal protective equipment. 
In turn, these funds have led to an increase in benefit 
services to the community, a lowering of insurance costs, 
reduced response time to emergencies, and better protected 
Federal and private lands.
    While the benefits of the VFA program are great, there are 
still thousands of rural fire departments not adequately 
equipped or trained to protect themselves. The National Fire 
Protection Association estimates that nearly one-fourth of all 
firefighter deaths at an actual site of a fire occurred in 
uncontrolled wildland fires. All of those who died were 
volunteer firefighters and this study was done in 1992-1993. 
Nearly half of the rural firefighters do not have protective 
clothing for wildland fires.
    State foresters administer the program with the U.S. Forest 
Service oversight. No overhead funds are taken out at the 
Federal level and, by the rule to this, very, very little is 
permitted at the State levels. These dollars go directly to the 
local community where they put in 50 percent grant. It is a 50-
50 grant program. Overall, the meager funding this last several 
years, only $2 million, has rendered the program ineffective 
toward solving any of the problems. And to give you just an 
example, in Georgia, $115,088.00 were applied for. In Georgia, 
there were only $36,000 to spread among the entire State this 
last year--or the last two years, excuse me.
    Mr. Kingston. Does it get a State match?
    Mr. Kightlinger. Yes, sir. Well, in some States, if their 
legislature has authorized it as a State match, otherwise, it 
has to come out of the local volunteer fire funds or their 
local community fire funds. In Nevada, I can tell you that the 
State legislature did away with the law because the State in 
Nevada gets $13,000 and it wasn't worth the legislature's duty 
to even half fund it, so we lost not only that $26,000 in 
buying power, then the other $26,000 that would have been out 
of the communities. And it has devastated us, sir.
    Your very report, your own Challenge to the Future report, 
the National Volunteer Fire Council believes that we can start 
a focus program with this $10 million increase and start 
addressing the personal protective clothing issue, the 
communications issues, and the training issues with this 
increased funding. The unfortunate lower funding in recent 
years for the VFA program has made the chances of receiving a 
grant less and less. This program received annual requests of 
over $24 million for Fiscal Year 1997, which was the last year 
figures are out. 4,468 rural volunteer fire departments have 
applied for the grant, but only 1,700 across the Nation 
received any of that $2 million.
    Mr. Kingston. All right. I think you have about a minute to 
go.
    Mr. Kightlinger. Okay.
    Mr. Kingston. And I have read this. This is good testimony. 
I am protected where I live by volunteer fire departments, so I 
am sensitive.
    Mr. Kightlinger. Okay. Well, then, I will just wrap it up. 
The National Volunteer Fire Council is representing the 800,000 
volunteers out there and we are begging for a little more help 
out of the Volunteer Fire Assistance Program. We will put our 
money where this money is at and we will put it to protecting 
you and everybody else in the Nation, sir.
    Mr. Kingston. Okay. Thank you, Mr. Kightlinger.
    [The statement of Mr. Kightlinger follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

RANDALL D. SNODGRASS, DIRECTOR, GOVERNMENT RELATIONS, WORLD WILDLIFE 
    FUND
    Mr. Kingston. Okay. Randall Snodgrass, World Wildlife Fund, 
director of government relations. And I get to hear you twice 
because you will also appear before Foreign Oops, I think. I 
believe you do.
    Mr. Snodgrass. Good afternoon, Mr. Chairman. I am Randall 
Snodgrass, director of government relations for World Wildlife 
Fund. WWF is an international conservation organization 
committed to protecting the diversity of life on Earth. WWF 
works in more than 100 countries and boasts 1.2 million in the 
United States.
    I appreciate the opportunity to be here today to present 
WWF priorities for the Interior Appropriations bill and I have 
submitted detailed written testimony outlining our priorities. 
I want to highlight today a program we urge the committee and 
the Congress to make a very high priority, the Lands Legacy 
Initiative. The size and scope of this initiative is essential 
if we are to restore the ecological health of our Nation's 
great natural heritage.
    Mr. Chairman, we recognize the subcommittee faces difficult 
decisions in allocating limited resources to many worthwhile 
programs. Conservationists concerned about the loss of 
biodiversity face similar difficult choices in choosing where 
to focus our energy and attention.
    Several years ago, scientists at WWF determined that 
conservationists and policymakers needed a tool to help 
identify priority areas for conservation and restoration 
because, as you know, biodiversity is not evenly distributed or 
equally threatened. With help from scientists, resource 
management specialists, and experts from other conservation 
groups, WWF undertook a status assessment of terrestrial 
ecoregions of North America. The status assessment will be 
published in June, but I have a prepublication draft of the 
report for you, Mr. Chairman. This 500-page document is 
summarized in this map summary.
    Mr. Snodgrass. And I would like to make some key points 
while we look at the maps. The map of North America on the 
front cover depicts 116 ecoregions, defined as large units of 
land or water that share many species, habitats, and 
environmental conditions. Inside the front cover, map one shows 
species richness. The warmest colors depict the highest 
diversity of plant and animal life. The Appalachian Mountains 
and Gulf Coastal region, including the coast of Georgia, harbor 
the largest number of species in North America. The forests of 
the Tennessee and Ohio River watersheds and the Colorado 
Plateau are a close second in species richness.
    Map two shows species endemism, species found in a narrow 
geographic range and nowhere else on Earth. Again, the Gulf 
Coastal plain, coastal Georgia, all of Florida, the 
Appalachians, and the Colorado Plateau stand out.
    Map three depicts ecoregions with a habitat type that is 
globally rare and ecoregions with globally outstanding 
phenomena. Map four integrates data from maps one through three 
to indicate an ecoregion's biological distinctiveness. It is on 
the top of map three there. The red areas are globally 
outstanding.
    Maps five through eight further break down the species 
richness depicted in map one. Map five shows that the highest 
diversity of mammals in North America is found in the Southwest 
and the Colorado Plateau. Map six shows that the Chihuahuan 
Desert in the Southwest has the largest number of reptiles, 
more than 100 species. Only Australia's great sandy desert is 
home to a greater diversity of reptile species.
    Map seven and eight depict plant diversity and endemism. 
Map seven shows that the Klamath-Siskiyou ecoregion of Northern 
California and southern Oregon has the richest concentration of 
conifers on Earth. Map eight illustrates that a few ecoregions 
contain an extraordinary number of endemic plants. For example, 
the Colorado Plateau, in red, boasts the highest concentration 
of endemic plants in North America.
    Map nine is the bottom line and it is sobering. WWF 
scientists found that of 116 ecoregions in North America, 13 
are in critical condition, even more imperiled than the Florida 
Everglades, and many more are threatened and endangered.
    Map 10 depicts the ecoregions that WWF recommends as 
conservation priorities. The purple-shaded areas are globally 
outstanding ecoregions that we believe require immediate 
protection or restoration. For our part, WWF is focusing 
initially on five ecoregions in the U.S.: the Everglades; the 
major rivers in the Southeast; the Chihuahuan Desert; the 
Klamath-Siskiyou; and a marine ecoregion, Alaska's Bering Sea.
    In conclusion, most experts agree that ecoregion-based 
conservation offers an opportunity to address threats to 
species and habitats at the scales at which they operate. The 
next century will be a turning point in our country's struggle 
to conserve biological diversity. We are grateful for your 
support, for this subcommittee's support, for the committee's 
support for restoring ecoregions, such as the Everglades, and 
appreciate your commitment to protecting wildlife in our 
national parks, refuges, and other public lands.
    Maintaining healthy ecosystems and restoring damaged ones 
benefits everyone. But ecological maintenance and restoration 
cannot wait. It only becomes more expensive through delay. This 
is why WWF and others in the conservation community support the 
President's Lands Legacy Initiative. We hope you will fully 
fund the Initiative this year. Thank you.
    Mr. Kingston. Thank you, Mr. Snodgrass. You didn't mention 
anything about amphibian shortage worldwide and I assume you 
have some people in the back room concentrating on that.
    Mr. Snodgrass. We do. And we are very concerned not only 
about the toxins that are entering the environment, but 
endocrine disrupters, chemicals that disrupt the endocrine 
system of human beings as well as wildlife. I am sure you have 
heard some of the horror stories coming out of northern Florida 
with feminized fish and alligators and a lot of this is caused 
by the chemicals that we are putting in the environment. And it 
is, in fact, very underfunded in terms of the EPA and their 
ability to look at these chemicals and the harm that they are 
doing to people, as well as wildlife.
    Mr. Kingston. Okay. Well, we appreciate your testimony and 
thanks for the maps. This is excellent.
    Mr. Snodgrass. Thank you.
    [The statement of Mr. Snodgrass follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                    NATIONAL WILDLIFE REFUGE SYSTEM


                                WITNESS

 DAVID TOBIN, COOPERATIVE ALLIANCE FOR REFUGE ENHANCEMENT
    Mr. Kingston. Cooperative Alliance for Refuge Enhancement, 
David Tobin. And, David, you have five minutes.
    Mr. Tobin. Thank you. Good afternoon. My name is David 
Tobin. I am president and CEO of the National Wildlife Refuge 
Association and I am representing a diverse coalition today of 
18 organizations, including groups as different as The 
Wilderness Society, Defenders of Wildlife, the Safari Club, and 
the National Rifle Association, who have come together as the 
Cooperative Alliance for Refuge Enhancement to advocate for 
increased appropriations for operations and maintenance for the 
National Wildlife Refuge System.
    We testified in 1997 and presented, at that time, a report, 
an earlier version of the report that is being provided today, 
that was based on our independent assessment of a backlog 
plaguing the National Wildlife Refuge System. At that time, we 
presented a plan which hoped to severely decrease the backlog 
crippling the refuge system and called for increases of $55 
million a year, beginning in 1998 and going through the 
anniversary, the centennial of the refuge system in 2003.
    And, for Fiscal Year 1998, this committee responded with an 
increase of $42 million, which was a dramatic, historic gesture 
that generated a great deal of improvement and projects for 
refuges that I will talk about a little bit today. The increase 
provided for Fiscal Year 1999 was somewhat less at $18 million 
but was compensated for somewhat by ISTEA which generates 
approximately $17 million a year for 5 years toward road and 
bridge maintenance on national wildlife refuges.
    Going back to this coalition and our report. We spent many 
hours with representatives of the Fish and Wildlife Service 
poring through an enormous amount of data which they provided 
us describing an operations and maintenance backlog which was a 
little over, at that time, I think, $500 million. We made an 
effort to work through that and come up with a number that we 
thought was realistic, conservative, but would help respond to 
the urgent needs in the refuge system.
    Unfortunately, when we testified for Fiscal Year 1999, we 
weren't able yet to point to specific accomplishments that 
resulted from the 1998 increase, but I am able to do so today 
and I know that the Fish and Wildlife Service is going to be 
providing you, if they haven't already----
    Mr. Kingston. They have.
    Mr. Tobin [continuing]. A great deal of----
    Mr. Kingston. And then we had a real good hearing with them 
on it.
    Mr. Tobin. Good. I will save us a couple of minutes, then, 
and I won't go through some of my examples of projects, but it 
is important to note that there are over 2,000 projects that 
resulted from that increase.
    What I can talk about, though, that the Fish and Wildlife 
Service may not have addressed, has been the work that we have 
done with them on the accountability of the use of these funds. 
The process of taking money appropriated to the service and 
getting it to the ground to individual refuges is a very 
complex one and we have made a real effort to make sure that 
the appropriations increases that have been provided for 
operations and maintenance actually ended up doing so. And I am 
pleased to report--and we provide in more detail in our 
attachment--that, for the most part, the projects that were 
pledged to be done both by the Service and by our coalition 
have been done. That the, by and large, a satisfactory 
proportion of the funding has gone to the ground, specifically 
for these projects.
    Unfortunately, the backlog that was somewhere around $500 
million when we started has now grown to over $1 billion. And 
it has grown for several important reasons. One is passage of 
the Refuge Improvement Act of 1997; the Volunteer and 
Partnership Act of 1998; the growth of the refuge system, that 
is, expansion of refuges or the creation of new refuges. And, 
also, it is worth noting that this backlog, which is made up of 
projects identified by refuge personnel, has grown partly 
because of an increased optimism on the part of those managers 
who, having seen the increase in 1998, are more likely than 
they have been in the past to ask for funding to meet certain 
needs that otherwise they probably wouldn't have bothered to 
raise. So, while the backlog has grown, the increases that have 
been generated have made a significant difference.
    Unfortunately, the legislation that I mentioned a second 
ago has contributed in part to a growth in the operations 
backlog, disproportionate to the growth in maintenance. These 
operational needs are often the hardest things to fund and the 
essential part of my message today is to articulate the real 
dramatic need for us to focus on operations quite heavily, 
which is why our request for Fiscal Year 2000 requests $54 
million for maintenance is the total, but $248 million for 
operations.
    Examples of some of the everyday needs that are going unmet 
now in the operations area are fuel to carry out routine 
maintenance; wildlife management; habitat management 
activities; supplies and materials to allow spot treatment of 
invasive pest plants; preventive maintenance to keep vehicles, 
equipment, and facilities in reliable operating condition; 
gravel, asphalt, and associated materials for project 
rehabilitation; things as basic as brochures and signs and 
informational materials to help visitors.
    These are not the most exotic needs, but they are essential 
and the sorts of things that can result from meeting these 
basic operational needs are things like expanding sea turtle 
research and conservation efforts; conducting surveys of brown 
bear and moose populations in Alaska; controlling invasive 
exotic plants; restoring native grasslands; and expanding 
visitor facilities.
    We are going to continue to work with the Refuge System and 
the Fish and Wildlife Service to make sure that the funding 
provided by this committee goes to where it is supposed to go, 
not only the funding that is provided in any given year, but 
the rollover funding from previous years. Both of these have 
been quite a bit of concern to us. We have met with the 
director on several occasions and we think we are moving in the 
right direction to hold the Service accountable for these 
increases and we are confident that, if we can move forward and 
continue this momentum and not drop the ball on this 
investment, that, by the centennial in 2003, we will see a 
stabilized and relatively healthy 94-plus million acre refuge 
system.
    Mr. Kingston. Well, Mr. Tobin, backlog maintenance is a 
committee priority, in addition to the fee demo program that we 
have done in the past. One thing I wish you and your 
organization would consider: duck stamp money, instead of 
letting Fish and Wildlife always go out and acquire more land, 
which is far more sexy than maintenance. I would love to see 
duck stamp money go to maintenance.
    And I think your group could discuss that on a mature level 
and say, you know, look, maybe you don't need new land if your 
dikes are falling apart and your roads have holes in them and 
so forth. Maybe you need to put some of this money--and as 
somebody who buys a duck stamp every year and has for maybe 15 
years, I would be tickled to death to see some of that. We 
don't have enough money to maintain what we have, but we are 
going to go out and buy new. So I think your organizations 
could actually be very influential in that.
    Mr. Tobin. Well, as you know, we have struggled for some 
time with the question of land acquisition versus maintenance 
of what we have. And, unfortunately, there is such a 
qualitative difference between acquiring land which, if you 
don't acquire it at that particular time, you may never will, 
versus maintaining the land that we have got. But we have 
looked at different alternatives. As you know, some Land and 
Water Conservation funds were directed toward refuge 
maintenance last year. Our group is very diverse, though, and 
it is safe to say there is not a consensus on whether that is 
the way to go in the future. But your suggestion regarding duck 
stamp money is not something that I can recall us discussing 
and I am happy to take it back to the group, then.
    Mr. Kingston. I just think it is typical government. We 
don't have money to maintain, but let us go out and buy new 
land. And I just think it is just the--nowhere else but 
government do we think like that. In the households of America, 
you have to buy new tennis shoes or a new suit or get the drier 
fixed or should I wait for another month to, you know, change 
the oil in my car. But in government anything goes. And it is 
just so sickening. But I think your group, you have got an 
impressive coalition here and you could show some great 
leadership and some balance on that apparently eternal 
question.
    Mr. Tobin. We will explore it.
    Mr. Kingston. Thanks a lot for your testimony.
    Mr. Tobin. Thank you.
    [The statement of Mr. Tobin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       BUREAU OF LAND MANAGEMENT


                                WITNESS

 GEORGE LEA, PRESIDENT, PUBLIC LANDS FOUNDATION
    Mr. Kingston. Mr. George Lea, president of the Public Lands 
Foundation. Mr. Lea.
    Mr. Lea. Thank you, Mr. Chairman. It is a pleasure to be 
here to give you our views on the Fiscal Year 2000 budget 
request of the Bureau of Land Management. The Public Lands 
Foundation is a national nonprofit organization. We are the 
only organization that is totally dedicated to the protection 
and proper use of the BLM lands. We are basically retired BLM 
people who are still dedicated to the proper use of these 
lands. It is important for you to understand that, while we 
support the Bureau, we are not a captive of the agency. We have 
our independent views, based upon our life of experience in 
working with the public lands.
    From an overview standpoint, I think it is important that 
the committee keep in mind that, while the Bureau is asking for 
in their request $1.3 billion, roughly 30 percent of that money 
is pass-through money. PILT, payment-in-lieu-of-taxes, for 
example; the HAZMAT program, the fire suppression program for 
the whole Department of Interior is included in the Bureau's 
budget. So, instead of the $1.3 billion, what we are looking at 
is a budget of roughly $880 million. And I think it is 
important to keep that in mind.
    It is also important that, if you look at the agency, the 
Bureau of Land Management is not the only one the produces an 
excess of receipts that are way above their request for 
appropriations. And it is nearly twice the receipts they bring 
in every year, compared to their budget request.
    We think it is also important that the committee keep in 
mind that the natural resource programs are people-oriented. 
These are not construction programs. They are not grant 
programs, but involves people. And, without people, the 
resource suffers. Some people may assume that if you had fewer 
budgets, then there is less work to be done and less work gets 
done. Well, it is true that less work gets done, but that 
doesn't mean that there is more work that has to be done. It is 
the land and the resource itself that dictates what the budget 
requirements are.
    I would like to just take a few moments and highlight some 
of the programs that we think need to be emphasized. The first 
one is the Bureau's range land restoration program. A recent 
Interior Board of Land Appeals found that the NEPA review of 
the grazing permit that the Bureau were doing was inadequate 
and called for them to make an intensive analysis of each 
grazing permit before they were reissued. This unforeseen 
workload has created quite a critical situation. There are 
roughly 4,600 permits that require this review before they were 
issued in 1999. And just last week, the Idaho court decision 
found that, in the Boise district, for example, 67 permits 
cannot be reissued until this NEPA analysis is done proper. We 
support the need for this, but the Bureau is behind the 
eightball in the way of people and funding to accomplish this 
review.
    Let me also point out to the committee the situation with 
wild horses and burros. The program has suffered a lot of poor 
public relations of late, a lot of it due to just poor press 
coverage. But the fact still remains that there are roughly 
6,000 animals today in corrals waiting to be adopted, the 
expense of which is tremendous.
    And the size of the problem that the Bureau faces can be 
seen if you compare that there is only room for roughly 26,000 
wild horses and burros and they have roughly 45,000 animals at 
the present time. So it is program that you cannot turn your 
back on because the animal population keeps increasing and, 
unfortunately, when animals are in stress, as many of these 
animals are, they have the ability to increase their 
reproductive capabilities and their populations that normally 
increase at 18 percent a year, why they can increase at roughly 
around 25 percent currently. So it is a program that constantly 
needs the attention of the committee.
    Let me also point out to you the recreation program of the 
Bureau. It is a tremendous, fast-growing--it is probably the 
fastest growing use of the public lands in the West to date. 
One of the key elements, as you mentioned earlier, sir, was the 
fee collection. The Bureau is collecting fees at roughly 300 
sites. We think it is a fine program. It should be continued 
and expanded, with the money collected going back into the 
maintenance of the local facility.
    Let me also point out to you the need to reposition, if you 
would, the public lands land pattern. The land pattern of the 
West is a byproduct of chance, of happenstance. And the result 
is, while there are large blocks of public lands, there are a 
lot of public lands that are mixed with private lands. And it 
is to the benefit of the private land owners as well as the 
public land owner to get their lands together in more 
manageable units.
    The Bureau has an extensive exchange program. We would like 
to see that program supported by the committee and that the 
Bureau expand that exchange opportunities or selling lands to 
communities such as Las Vegas Valley where the land is needed 
for development, with the proceeds going into a fund that is 
made available to purchase inholdings to improve the land 
pattern. We think it is an excellent program and probably the 
way to go.
    It doesn't avoid the problem of appraisals that always 
becomes the controversy. You didn't appraise them enough or it 
was windfall to the recipients. But, nevertheless, through 
public sale, at least there is an opportunity to sell the lands 
at a public auction and, thereby, avoid some of the controversy 
about appraisal.
    I think that is the extent of the programs I would like to 
highlight, sir. We appreciate the opportunity and would hope 
that our views are of value to the community.
    Mr. Kingston. I think they are. I think former employees 
are in a very unique position to give great insight so I 
appreciate your testimony. I also want to invite you to hang 
around for a few minutes. We are going to have the Doris Day 
Animal League testify about burros and you might have some 
reaction to that. I don't know. They are up next after Jean 
Frederickson, who is president of The Deep Creek Open Space 
Coalition.
    Mr. Lea. Thank you, sir.
    Mr. Kingston. Thank you, Mr. Lea. I would like to invite 
you and Liz Lyons to debate the burros in a minute. Is Ms. 
Lyons here? You are speaking for her? Great.
    [The statement of Mr. Lea follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                    LAND AND WATER CONSERVATION FUND


                                WITNESS

CAROL SEBASTIAN, VICE PRESIDENT, THE DEEP CREEK OPEN SPACE COALITION
    Mr. Kingston. Ms. Frederickson.
    Ms. Sebastian. No. I am actually Carol Sebastian in the 
place of Jean Frederickson.
    Mr. Kingston. Okay.
    Ms. Sebastian. And I would like to thank you for the 
opportunity to speak before this committee. As I said, my name 
is Carol Sebastian and I serve as the vice president of The 
Deep Creek Open Space Coalition and president of the newly 
formed Rim of the World Trails Association. I am here as an 
unpaid volunteer who strongly believes that the San Bernardino 
National Forest is worthy of greater help from the Land and 
Water Conservation Fund.
    The present needs of the San Bernardino National Forest for 
Fiscal Year 2000 are about $15 million. This sum includes the 
original San Bernardino National Forest request of $7 million 
for an ongoing acquisition project and an addition $8 million 
for a rare opportunity to buy parcels in the Big Bear Lake area 
that came up after the original $7 million was submitted. The 
President's budget has designated $2.5 million for the San 
Bernardino National Forest which, given the unprecedented 
demands on this popular forest is not sufficient to keep pace 
with the available acquisition priorities. We would like to ask 
that this be increased to $5 million.
    If all the visitor data were collected, we believe the 
result would show an overwhelming volume of use for the San 
Bernardino National Forest. 20 million people are within a 2-
hour drive of this forest. There is no sufficient record of the 
millions of people who visit the mountains for winter snow play 
or travel the historic Rim of the World Scenic Highway nor the 
millions of hikers, fishermen, hunters, recreational shooters, 
birders, OHV riders, equestrians, and others who enter and 
leave the forest in the same day. By some estimates, annual 
visits total as high as 40 million per year and, at the turn of 
the century, there was 2 million people recorded coming up to 
the mountains. So it is quite possible that the 40 million are 
currently visiting. Although the San Bernardino National Forest 
does not have the same glamour as Yosemite, Big Sur, or the 
Headwaters, it outperforms these areas in terms of everyday use 
by the public. The San Bernardino National Forest is the work 
horse of the U.S. Forest Service.
    To continue performing at such a high level, it desperately 
needs greater attention and care. The local communities; the 
county; local organizations, both environmental and business; 
the schools; clubs; they have all organized and we have a 600-
strong volunteer structure. The volunteers perform a lot of the 
work on the forest such as building and maintaining trails; 
staffing the visitors centers; keeping the fisheries healthy; 
doing restoration work. We just completed a 3,000-tree planting 
project in which the trees were paid for by the community and 
the work was done by all volunteers.
    The San Bernardino National Forest provides all kinds of 
multiple-use outdoor recreation. It has the only national 
children's forest in the Nation. It also has rare, exceptional 
natural resources, such as 450 species of wildlife and 26 of 
California's endemic plants. Each year, the San Bernardino 
National Forest has from $7 million to $50 million worth of 
available priority acquisitions. Approximately $75 million 
would be needed over the next 10 years to avert the adverse 
fragmentation and to achieve the vital consolidation. As the 
communities are looking for monies other than LWC to help 
provide that $75 million, we believe that the small requests 
that we ask each year are not out of line.
    Acquisition opportunities disappear fast in the competitive 
Southern California real estate market as urbanization 
pressures lead the Nation. The Rim of the World Trails 
Association with the mission of establishing a world-class 
trail system across the forest would like to concentrate on 
enhancing the unique forest experience. Many trail routes and 
connections are impeded by private lands that logically ought 
to be part of the national forest. Land acquisition is the most 
important key to reclaiming the full advantages of the forest 
for the Southern California's massive public.
    In conclusion, we would like you to support the 
legislations that are fully funding the Land and Water 
Conservation Fund and other worthy Federal programs. We would 
especially like to see the State side come back on line as that 
would help our Federal dollars go further. In conclusion, we 
strongly appeal to the Interior's Appropriation Committee to 
give high priority to the San Bernardino National Forest. 
Nowhere else does the Forest Service mission of caring for the 
land and serving the people attain such full measure and 
practical effectiveness.
    A $15 million allocation--which we would really like $5 
million but would love $15 million--is fully commensurate with 
the enormous value and service that this remarkable forest 
provides. I thank you for your generous consideration of this 
important request.
    Mr. Kingston. Okay. Ms. Sebastian, Jerry Lewis is your 
representative?
    Ms. Sebastian. Yes, he is.
    Mr. Kingston. And he is--I saw that. Okay. Thank you very 
much.
    Ms. Sebastian. Thank you.
    Mr. Kingston. I appreciate it.
    [The statement of Ms. Sebastian follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       BUREAU OF LAND MANAGEMENT


                      WILD HORSE AND BURRO PROGRAM


                                WITNESS

HOLLY E. HAZARD, EXECUTIVE DIRECTOR, DORIS DAY ANIMAL LEAGUE
    Mr. Kingston. Okay. Ms. Lyons, with the Holly Hazard Animal 
League. I thought it was Doris Day. Did it change?
    Ms. Hazard. It is Doris Day.
    Mr. Kingston. Okay.
    Ms. Hazard. I am the executive director and Liz is our 
project director.
    Mr. Kingston. Okay.
    Ms. Hazard. But I'll be speaking for Liz.
    Mr. Kingston. So who is Holly Hazard?
    Ms. Hazard. Holly Hazard with the Doris Day Animal League, 
yes.
    Mr. Kingston. Oh, oh, okay. Okay.
    Ms. Hazard. I am, I should say.
    Mr. Kingston. And you are Ms. Lyons?
    Ms. Lyons. Yes, I am.
    Mr. Kingston. Well, you are welcome to sit up here. Are you 
going to testify now or--you are not going to testify? You 
don't want to.
    Ms. Hazard. Not unless you ask me a tough question.
    Mr. Kingston. Okay. Now, Mr. Lea, I don't want you to 
interrupt. [Laughter.]
    Ms. Hazard. I hesitate to say this, but I think we are 
mostly in agreement. And I shouldn't say that before I start.
    Mr. Kingston. Okay. Well, that is good. It was getting to 
be that hour where people are beginning to nod off and----
    [Laughter.]
    Ms. Hazard. I will try to make it interesting. The Doris 
Day Animal League is concerned that the Bureau of Land 
Management is failing to fulfill its mandate to protect wild 
horses and is, instead, engaging in scientifically and 
ecologically questionable practices under the guise of 
multiple-use land management, which heavily favor private 
ranching interests over the protection of our Nation's wild 
horses. Further, we are concerned that the Bureau is aware of 
the program's shortcomings but is unwilling or unable to 
conduct a candid review of its program due to threats of legal 
action from private ranchers who wish to keep their livestock 
on Federal lands.
    While it is true that the Bureau has reduced the amount of 
livestock allowed on some of its lands in recent years, the 
overall picture is one that gives preference to private 
ranching interests. The systematic removal of horses and burros 
from the range over the past several decades has depleted the 
Nation's wild horse herds from 303 to approximately 186. These 
are herds of horses. And the herd areas continue to be, quote, 
``zeroed out,'' end quote. There are millions of cows on our 
public lands and, at best, thousands of horses.
    There has been much debate on the, quote, 
``overpopulation'' of wild horses and burros on Bureau-managed 
lands, particularly in Nevada where the Bureau estimates 21,946 
horses live. Because the, quote, ``appropriate management 
level'' for Nevada has been set at 13,042, the Bureau asserts 
it must round up and remove approximately 8,904 excess horses 
this year. However the, quote, ``appropriate management 
level,'' end quote, is a fundamentally subjective figure 
established in the context of a system which is strongly 
influenced by ranching interests and is used to justify the 
removal of wild horses so that a disproportionately large 
number of privately owned cattle may remain on public lands.
    In fact, one Bureau employee recently admitted that the 
appropriate management level for horses could be increased in 
Nevada without causing damage to the range, but the Bureau will 
not do so for fear of legal retaliation by the ranchers.
    While some claim it would be economically devastating to 
reduce the number of livestock on public lands so that more 
horses could remain and for other reasons, it should be noted 
that less than 3 percent of American beef is produced from 
Federal range lands. Further, livestock grazing on Federal 
lands contributes less than 1 percent annual income in western 
States. In contrast, the highly subsidized grazing permit 
system by which ranchers graze their livestock costs taxpayers 
about $50 million each year.
    Compounding these issues--and this gets to the core of my 
discussion--is the public's lack of trust in the Bureau and its 
policies. At the core of this mistrust is the absence of good 
information and data with which the Bureau might reassure its 
constituents that it is acting in the best interests of all 
involved. Not only has the Bureau been unable to provide 
figures on the numbers of cattle and wild horses on its land, 
but there is even a question as to how many, quote, ``herd 
management areas'' are under the Bureau's jurisdiction.
    And, just as an aside, we find it astounding that the 
Bureau is unable to come up with the numbers of cattle, given 
that they have these monthly allotments for cattle. And one 
would think there would be some tie-in between that and the 
numbers of cattle that are actually grazing. So it doesn't make 
sense to us that they cannot come up with a number.
    The roundup of wild horses are being conducted in the 
absence of current population data and environmental 
assessments and there is a lack of suitable homes for which 
gathered horses may be adopted. And this, we understand, is 
required under the law and yet it is ignored by the Bureau.
    In short, the Bureau is spending millions of taxpayer 
dollars every year on a program which is based on entrenched 
ideologies and arbitrary assumptions, not facts. Such practices 
do not engender the good faith of the American people. Failure 
to regain the public's trust on this issue may ultimately 
result in calls for the program to be released from Federal 
control to the States, a move which would surely lead to the 
demise of the wild horse.
    We are asking for basically four things in this year's 
appropriation. One, that the appropriations be used for herd 
and habitat management, including herd population and 
distribution censuses so that we can get some idea of what 
numbers of animals we are talking about and in what ratios. 
Two, for range assessment and management; for habitat 
restoration and improvement, as Mr. Lea also advocated; and for 
adoption compliance monitoring. We further ask that the 
committee consider that roundup of excess wild horses and 
burros on the range shall be based on data no more than three 
years old and also be subject to the potential availability of 
appropriate homes to which the horses may be adopted.
    As Mr. Lea referenced, there were, at last count, 6,000 
languishing. At one point last year, there were 10,000 in 
corrals with no homes available or in sight, at a cost of I 
think $50 a month. A tremendous amount of money that the 
American taxpayer was being asked to foot the bill for. We ask 
this Congress to ensure that our own government is not 
perpetuating a regulatory system which will ultimately lead to 
the elimination of the very animals it has been charged to 
protect.
    Mr. Kingston. Okay. Ms. Hazard, this is not going to cut 
into your time, but, Mr. Lea, do you want to respond to any of 
that?
    Mr. Lea. Well, just that I agree with much of what she 
said, but I have to disagree with a lot.
    Mr. Kingston. Okay. Could you speak from the mike?
    Mr. Lea. I agree with much of what she says, but there are 
some key parts that I would have to disagree with. But here is 
a classic example of a lot of demand on a limited resource. And 
it is the forage resource we are talking about. It is livestock 
versus horses. It is livestock versus wildlife. It is wildlife 
versus horses. I mean, it has been around for a long time and 
it is finding the right balance is what the effort is. We are 
dealing with one animal, the horse, who has no natural 
predators. This population continues. The only thing that 
limits it is its habitat. They starve themselves to death or 
destroy their habitat in the meantime.
    Mr. Kingston. One of the things the Humane Society 
testified earlier today is that there is an absence of sound 
science. Do you agree with that?
    Ms. Hazard. Absolutely. And one good example of that I 
think is--and I have been to a number of hearings on this issue 
over the course of the last few years--and we have raised the 
point at one of these meetings of El Nino and the effect that 
El Nino had, certainly, with environments throughout the U.S. 
And you would think that that would affect our prairies one way 
or the other. Either there is too much rain and there is a lot 
of forage or not enough rain and not a lot of forage. And what 
we were told by the committee that we were discussing it with 
was that, yes, for the most part, it was a really good year, at 
least in the areas of the country where the wild horses were. 
And, therefore, the herds were up. And, therefore, they had to 
increase the numbers of animals that they were rounding up 
because otherwise they were going to foal and there were going 
to be too many horses.
    And I said to them, well, then, when is the time when you 
are not going to round up? Because we hear from the Bureau at 
times when there is not good forage that we must round them up 
because otherwise they are going to starve. So it seems to us 
there is never going to be a year when the answer--whatever the 
question is--the answer is not going to be we have got to round 
up an excess number of horses.
    And the problem for us is there aren't enough homes. After 
it was set up and the adoption policy was put in place, there 
was not the thought that there were going to be 6,000 horses a 
year that were going to be continuously running through the 
system. The appropriate and suitable homes are just--having a 
wild horse is a difficult proposition, even for people who know 
horses. And so it is not something that can be undertaken 
lightly and there just aren't that many Americans who are 
capable of handling it.
    Mr. Kingston. Do you agree with the BLM figure of 44,000?
    Ms. Hazard. Well, I have no reason to agree or disagree 
with it. I know that people who are out in the West and who are 
really committed to this issue from the wild horse perspective, 
there are many of them who doubt that that is the figure, that 
it is that high. But I don't know anything different.
    Mr. Kingston. How long do they live? 20 years?
    Ms. Hazard. 20 years, about 20, 30 years.
    Mr. Kingston. How long can they reproduce?
    Ms. Hazard. Up until they are 18, maybe. Something like 
that.
    Mr. Kingston. That is a pretty good while.
    Ms. Hazard. Yes.
    Mr. Kingston. Do you feel that the BLM is doing a better 
job than the National Park Service or the Department of 
Interior in general? Are there other agencies that have wild 
horses?
    Ms. Hazard. The National Park Service kills them, so, yes, 
I would say. [Laughter.]
    Mr. Lea. Just the Forest Service and BLM.
    Ms. Hazard. Yes.
    Mr. Kingston. Okay. So you are okay with BLM. You can work 
with them.
    Ms. Hazard. Well, relative to the other options, yes.
    Mr. Kingston. You say the Nation----
    Mr. Lea. Sir. Sir, this is what this discussion points out 
to the committee, is if you look at the history of them and 
look at the money, the money that has been spent on this 
program and what progress has been made and where we are at 
today, the answer is, something has got to be done different.
    Mr. Kingston. Okay. Let me ask you this. Sound science is 
something both of you agree on. And addressing it in general is 
something you agree on. I am curious, though, why you say that 
the National Park Service kills the horses?
    Ms. Hazard. Well, they have recently--some lands have 
recently switched in California from BLM jurisdiction to the 
National Park Service jurisdiction and there is an argument 
going in the National Park Service doesn't view that it is 
within their responsibility or jurisdiction to keep the 
animals.
    Mr. Kingston. They consider them an invasive species?
    Ms. Hazard. Yes.
    Mr. Lea. Not a native species.
    Mr. Kingston. Okay. And I have just been informed that 
there is a new agreement that you might be aware of that BLM is 
going to take care of those horses.
    Ms. Hazard. Wonderful. Great. Great.
    Mr. Kingston. Go back and tell Doris Day you got that done. 
[Laughter.]
    Ms. Hazard. Yes. I will mention that to her. That is in 
California, too. That is great.
    Mr. Kingston. Okay. Do you feel that State governments do a 
poor job, even if they don't have the cattle pressure?
    Ms. Hazard. There isn't a State where there are wild horses 
where there isn't a cattle pressure. I mean the major States--
--
    Mr. Kingston. Wait, I know one.
    Ms. Hazard. You actually you do have one. There is one. 
There is one.
    Mr. Kingston. Yes.
    Ms. Hazard. States can do a good job. Certainly the 
ranching pressure on the Federal Government is sufficient so 
that I am sure representatives here can recognize what that 
pressure is on State governments. And it is particularly 
significant in Nevada and in California in States where there 
isn't the--I am not trying to pick on the cattle ranchers. 
Where there is a countervailing economic interest against any 
wild species, there is going to be a lot of pressure on 
legislators. And where that is not the case, then States might 
be in a position to handle them.
    Mr. Kingston. Okay. Well, this has been very helpful. And I 
appreciate your letting Mr. Lea kind of retestify and I 
appreciate both of you all cooperating. So, thanks a lot. We 
will look forward to working with you.
    Ms. Hazard. Thank you.
    [The statement of Ms. Hazard follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                   RECOMMENDATIONS ON PROPOSED BUDGET


                                WITNESS

ROBERT BENDICK, THE NATURE CONSERVANCY
    Mr. Kingston. Okay. Robert Bendick, The Nature Conservancy.
    Mr. Bendick. Good afternoon. My name is Bob Bendick and I 
am the Florida chapter director and the Southeast division vice 
president of The Nature Conservancy. Mr. Chairman and members 
of the subcommittee, I appreciate this opportunity to present 
The Nature Conservancy's comments on Fiscal Year 2000 
appropriations for the Land and Water Conservation Fund and 
other conservation programs within the jurisdiction of this 
subcommittee. We have provided written testimony for the 
record, but I want to highlight a few points.
    The Nature Conservancy is an international nonprofit 
organization dedicated to preserving habitat for native plants 
and animals. We have more than 900,000 individual members; 
15,000 corporate associates; and programs in all 50 States and 
17 nations. In accomplishing our mission, we work cooperatively 
and in partnership with public and private landowners. We have 
been involved in protecting more than 10.5 million acres in 
this country, including lands in 1,600 of our own preserves. 
Much of the public portion of this work would not have been 
possible without the support of this committee and we thank you 
for that.
    We have now launched an ambitious fundraising campaign to, 
among other things, add to The Conservancy's preserve system, 
we know from our nearly half a century of experience that 
private fundraising will not suffice to protect our Nation's 
natural heritage. Federal investments in conservation through 
Federal land and fish and wildlife programs and as a partner 
with State and local governments and the private sector are 
essential to conserving the Nation's biodiversity.
    From my perspective in the Southeast, I see every day how 
rapid growth and change affect natural habitat and how 
important Federal assistance can be to sustaining the natural 
systems needed to save the highly threatened plants and animals 
of our part of this country. It is a part that's colored purple 
on the World Wildlife Fund map that you saw earlier. It is, 
thus, The Nature Conservancy's recommendation and our hope that 
this committee will fund the 52 specific Federal Land and Water 
land acquisition projects that we have recommended, including 
such projects in my region as the Keekee International Wildlife 
Refuge and the Grand Bay National Wildlife Refuge in Alabama.
    Please note that, although we have listed only those 
projects where we are actively involved, many other projects 
also merit LWCF funding. Also, we think that it is essential to 
provide funding for both the science and the field work 
required to manage Federal land effectively and to assist in 
the protection of species on other lands and waters.
    In addition, our extensive on-the-ground experience in 
Florida and elsewhere has increasingly revealed that creative 
and constructive partnerships and cooperative action among 
public agencies, nonprofit organizations, and landowners can 
have dramatic and lasting conservation benefits. And so we 
support the initiatives before your committee to implement such 
programs, including the U.S. Fish and Wildlife Service's 
request for $114.9 million to administer the Endangered Species 
Act, with emphasis on providing nonregulatory incentives to 
landowners; the $66 million increase for the Fish and Wildlife 
Service's Cooperative Endangered Species Fund; appropriations 
in excess of the administration's request for support by the 
U.S. Fish and Wildlife Service, BLM, and the Forest Service for 
the excellent work of the National Fish and Wildlife 
Foundation; restoration of funding for the State side of the 
Land and Water Conservation Fund. Recent measures evidenced the 
substantial need and demand in many States for land 
acquisition, conservation, and recreation purposes. Enormous 
good can come from leveraging State commitments with Federal 
matching funds.
    Increase funding from $15 million to $20 million for the 
North American Wetlands Conservation Fund; support for the 
administration's request for $50 million for the Forest Legacy 
Program; and support for the U.S. Fish and Wildlife Service 
request for $28 million for the Partners for Fish and Wildlife 
Program.
    And, finally, I would like to emphasize the importance of 
funding for efforts to protect the health and natural character 
of our country's stressed coastal and estuarine areas. We 
support the administration's proposal to increase funding for 
the Fish and Wildlife Service's coastal program to $8.8 
million. The Department's request of $7.2 million for coral 
reef conservation is something of particular importance to 
Florida. And the administration's continuing funding for 
protection and restoration of Florida's Everglades and the 
California Bay Delta.
    The Nature Conservancy is grateful for the work of this 
committee in providing funding for conservation throughout our 
country. I tell you that, across the Southeast, the projects 
made possible by the Land and Water Fund and by the other 
programs discussed here not only protect the lives of animals 
like the key deer and the sand hill crane, but they also enrich 
the lives of people by sustaining the age-old relationship 
between all of us and the natural world.
    Thank you, again, for your good work and the opportunity to 
testify here today.
    Mr. Kingston. Well, Mr. Bendick, thank you very much. I 
appreciate your concise testimony.
    Mr. Bendick. Thank you.
    [The statement of Mr. Bendick follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         NATIONAL TRAILS SYSTEM


                                WITNESS

GARY WERNER, CHAIRMAN, PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM
    Mr. Kingston. Okay, Gary Werner, chairman of the 
Partnership for the National Trails System. Mr. Werner.
    Mr. Werner. Good afternoon, Mr. Chairman. My name is Gary 
Werner. I am here from Wisconsin representing the 16 
organizations that work as direct partners with the National 
Park Service, the U.S. Forest Service, and the Bureau of Land 
Management to manage the 20 designated national, scenic, and 
historic trails. These organizations form a coalition called 
the Partnership for the National Trail System.
    And I am here to report what I think is some good news: 
that the partnerships are working. As you understand, these are 
active partnerships. On the other hand, I have to also say that 
the partnerships need to be strengthened. We do need increased 
Federal funding and, in fact, we need increased Federal 
personnel to play the active role in these partnerships.
    Our organizations in 1998 contributed more than 498,000 
hours of volunteer labor and, additionally, over $4 million 
worth of financial assistance for these 20 trails, a total of 
about $11.3 million dollars of value. In Fiscal Year 1999, the 
3 Federal agencies that administer the trails were appropriated 
$6.8 million for operations. So I feel that our side of the 
partnership is more than upholding our part of the bargain. 
And, in fact, we are here to ask you to increase the 
operational funding for each of the three agencies.
    In the Park Service, for instance, we are asking for about 
$2.8 million more than the administration is requesting. We 
have eight of the national scenic and historic trails 
administered by the Park Service that have less than $100,000 
appropriated per year. In fact, the one that comes right 
through Washington, D.C., here, the Potomac Heritage Trail, 
there are zero dollars appropriated for that trail. And so we 
are asking that about $1.4 million be added to the Park Service 
appropriations to make these trails valuable parts of the 
system. One of those trails is the Trail of Tears, which I know 
it doesn't go through Georgia, but it comes in close to Georgia 
in the Southeastern part of the United States.
    Many of these trails are administered collaboratively among 
the three agencies. And I think the trails that exemplify that 
the most are four trails: the Oregon, California, Pony Express, 
and Mormon Pioneer, that are administered by the National Park 
Service out of Salt Lake City, actually located in the Bureau 
of Land Management Office Building, where you have the three 
agencies working together. However, we don't have enough money 
flowing to the three agencies to allow them to actively manage 
these trails. There are over 10,000 miles, route miles, of 
those 4 trails alone.
    You in the past several years have actually helped get more 
money for the Forest Service and the Bureau of Land Management 
to administer and manage these trails by directing money 
specifically out of their budgets and we appreciate that very 
much, particularly for the Bureau of Land Management. We are 
asking this year for about nearly $2 million more than what the 
administration might be requesting because the administration 
never requests anything specifically for these trails, but this 
is the amount of money we think is needed to properly manage 
the trails. And I have outlined all of this in tables in the 
testimony.
    For the Forest Service, we have active construction 
underway on several of the trails: the Florida National Scenic 
Trail and the Continental Divide National Scenic Trail. And we 
are asking for an increase in construction money for both of 
these trails as well as operational money for the 
administration.
    One of these trails, like the Continental Divide, which 
spans numerous forests, a number of national parks, and other 
areas, is really a massive undertaking to administer and, yet, 
there is no one in the Forest Service that is responsible, as a 
superintendent might be or as a supervisor of a forest, for a 
project that literally stretches, you know, over 3,200 miles 
long. And part of the additional funding we seek would enable 
the Forest Service to have people with that responsibility to 
coordinate the activity on these trails.
    The other thing that I want to call to your attention and 
thank you for is the Challenge Cost Share program of the Park 
Service which I see this year the administration is finally 
asking for an increase in the Challenge Cost Share funding. 
This is a program that we have used very successfully. This 
past year, we have leveraged Federal dollars at the ratio of 
about 2.6 to 1 to benefit the trails in the system. So we 
wholeheartedly support the administration's increase of $2 
million for that program.
    We also, like other people who have spoken to you this 
afternoon, are very strongly supportive of the Land and Water 
Conservation Fund and, in fact, applaud the effort that the 
committee made last year with a larger-than-normal 
appropriation to finish the acquisition to protect the 
Appalachian National Scenic Trail.
    With this appropriation finished, we see the opportunity 
now to turn the attention to several of the other national 
scenic and historic trails which have similar need to protect 
critical resources, particularly the Pacific Crest National 
Scenic Trail in California where there are a number of sites 
that are threatened by development in the southern part of 
California. We are asking $5 million of land and water money 
for that. We are asking money to help purchase several sites on 
the Overmountain Victory Trail in North Carolina and South 
Carolina, key historic sites. And for a site in Utah on the 
California and Pony Express Trails. It is one of the key sites 
along that trail. Also, supporting the administration's request 
for $5 million for the Bureau of Land Management to help 
protect the Upper Missouri Wild and Scenic Riverway.
    And, lastly, I also want to mention that we are asking that 
you appropriate as grants to the States of Florida, Wisconsin, 
New York, Michigan, Minnesota money from Land and Water 
Conservation Fund to assist those States with the purchase of 
rights of way for the Florida Ice Age and North Country 
National Scenic Trails. These would be grants similar to the 
ones that were made several years ago to the States of New York 
and New Jersey for the Sterling Forest acquisition.
    In conclusion, I would simply like to say our organizations 
are dedicated to the proposition that stewardship of public 
resources, that the trails should be a public-private 
partnership. And we will continue to recruit more volunteers, 
to seek more private money to make these trails work the way 
that Congress intended them to. We simply ask that Congress 
recognize that the partnership needs to have strong Federal 
support if it is going to succeed. Thank you very much.
    Mr. Kingston. Okay. Thank you, Mr. Werner. Do you want to 
leave the map?
    Mr. Werner. Sure. Sure.
    Mr. Kingston. Thank you very much.
    [The statement of Mr. Werner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kingston. Vivien Mills, Conservancy for Charles County, 
Inc. Not here. All right.
                              ----------                              

                                           Tuesday, April 13, 1999.

      FOREST SERVICE FOREST LEGACY PROGRAM AND THE LAND AND WATER 
                           CONSERVATION FUND


                                WITNESS

JEAN HOCKER, PRESIDENT, LAND TRUST ALLIANCE
    Mr. Kingston. Jean Hocker, Land Trust Alliance. Ms. Hocker.
    Ms. Hocker. Good afternoon. Thank you very much. Excuse me. 
You have spent a great deal of time listening to testimony this 
afternoon and today and we appreciate that time. We also 
appreciate the juggling that you have to do of all the 
interests that are represented by the people testifying before 
you.
    The Land Trust Alliance is a national service organization 
serving more than 1,200 land trusts. These are nongovernmental 
land conservation organizations and mostly local and regional. 
They work with private landowners and public agencies to 
protect natural areas, wildlife habitat, trails, working farms 
and forests and other open land for the public benefit. They 
mostly serve communities and regions and they accomplish their 
work by acquiring land. They acquire conservation easements and 
use other voluntary methods to help landowners protect open 
space.
    I am here today and I want to urge you to increase funding, 
in most cases, fairly modestly, in the Fiscal Year 2000 budget 
for four programs. They all have a common thread. All of these 
are extraordinary in their ability to leverage the Federal 
investment in land conservation with significant State, local, 
and private money. They all encourage and reward partnerships 
among various levels of government and between public and 
private sectors. The Federal money that goes into these 
programs is a catalyst that brings a great deal of other money 
into these programs.
    These programs are: the Forest Legacy Program of the U.S. 
Forest Service; the North American Wetlands Conservation Fund; 
the National Fish and Wildlife Foundation; and the Land and 
Water Conservation Fund, especially the State Grants Program.
    Let me start with the Forest Legacy Program. We are urging 
you to appropriate $50 million to this very simple, direct, but 
highly innovative and leveraged program. The Forest Legacy 
Program provides money to qualifying States to buy primarily 
permanent conservation easements to protect environmentally 
significant timberlands so these lands won't be converted to 
nonforest uses. As you know, conservation easements don't 
require any public management. The land stays in the hands and 
is managed by private landowners, but certain use restrictions 
are placed on the property by voluntary agreement so that the 
conservation purposes continue in perpetuity.
    The Forest Legacy Program requires at least a 25 percent 
match. In actuality, it has been a lot higher than that. For 
Federal outlays of $21 million over the past few years, have 
purchased easements valued at $34 million because of the local 
and private money that has gone into this program. The demand 
is high. Currently there are 16 States that have entered into 
the program. Georgia is not one of them yet, but I hope Georgia 
will become one. The States that are part of this program have 
identified $90 million in worthy projects. The current year is 
funded at only $7 million but new States are entering all the 
time and we request $50 million for this highly leveraged 
program.
    The second program I want to talk about is the North 
American Wetlands Conservation Fund. We request that you 
appropriate $20 million for this, again, highly leveraged 
program which conserves wetlands that are critical for 
waterfowl and other migratory birds. This is a competitive 
grants program. The proposed projects are reviewed and 
recommended by the North American Wetlands Conservation 
Council, which is appointed by the Secretary of the Interior. 
And the projects are approved by the Migratory Bird Commission, 
which, of course, is comprised of Members of the U.S. Congress.
    As one of the newer members of the council, I have been 
really impressed with the partnerships and the leverage that 
this program brings. Since Fiscal Year 1991, 593 projects in 
Canada and Mexico and the U.S. have been approved. The fund 
contributed $249 million; partners added $517 million to this 
program. So, again, a very good catalytic use of Federal money 
to bring in a lot of partnerships and a lot of private money as 
well as State and local money.
    The third program, the National Fish and Wildlife 
Foundation. We are asking you to appropriate $13 million, $8 
million from the U.S. Fish and Wildlife Service; $3 million 
from the U.S. Forest Service; and $2 million from the BLM. This 
program adds to the public monies private contributions and 
then makes matching grants to help other organizations to help 
meet Federal wildlife management goals. It generates $3.00 of 
investment in conservation projects for every $1.00 of Federal 
money that has been appropriated and it is another excellent 
example of the investment of Federal dollars which brings in a 
lot of other money.
    And, finally, I would like to talk about the Land and Water 
Conservation Fund. We support the President's--the 
administration's--request and particularly hope that you will, 
this year, allocate $150 million for the State side for that 
fund, for grants to States. As you know, this has been a 
crucial program for conservation of the Nation's land and water 
resources and there is particular leverage in the State side of 
that fund where a one-to-one match is required. Again, it 
stimulates State and local investment in conservation. Every 
time a Federal dollar is allocated, at least one more comes to 
conservation.
    In conclusion, I had provided examples in my written 
testimony of how land trusts, particularly, have used these 
programs, including the State side of the fund when there was a 
State side of the fund. But of course nothing has been 
appropriated for that in the last five years, at least. But I 
just want to say, in conclusion, as you know, last November, 
voters passed 124 local and State referenda to provide new 
money for land conservation and I want to give you a synopsis 
of those referenda that were passed that we put together, along 
with some examples of how that money will be spent.
    Many of these were tax increases. People, in other words, 
voted a tax increase for themselves to buy open space and to 
protect open space because of the ravages of sprawl and 
crowding that they see all around them.
    Mr. Kingston. Ms. Hocker, we are over five minutes here, 
but I do want to urge you to also consider something besides 
government acquisition of land, which seems to me, you know, I 
am far more interested in the Forest Legacy Program that has 
conservation easements rather than the Land and Water 
Conservation Fund. I just think that is to me the Model T of 
habitat preservation. I realize that it is a pet sacred cow of 
a lot of environmental community people, but it, to me, is just 
so obsolete as we face a $5.4 trillion debt and I hope somebody 
will look at it.
    Are you familiar with the WHIP 10 Program?
    Ms. Hocker. Yes.
    Mr. Kingston. Do you support that? You like that?
    Ms. Hocker. Yes, it works. Yes, it could work well.
    Mr. Kingston. Is that something that, you know, we do 
support also on that? The Agriculture Committee.
    Ms. Hocker. The Land and Water Fund could be used to 
purchase conservation easements as well and we are very much in 
favor of, on appropriate lands, of conservation easements 
because they do stretch the dollars.
    Mr. Kingston. I think one of the big differences between 
environmental policy and the national historic trust stuff is 
that we have deputized the private sectors to look out for 
historic preservation whereas we are leaning, overleaning, on 
the government to buy any land that is controversial and might 
be developed. And I would like to see a way to rethink that 
model.
    Ms. Hocker. Well, and I would, too, and, in many cases, 
although I think the government plays a strong role in acting 
as a catalyst. You know, the government has long time been a 
catalyst for infrastructure in roads and sewer systems and so 
forth and we would just hope that there would continue to be 
some Federal investment in green infrastructure, but used to 
catalyze.
    Mr. Kingston. Well, remember, one-third of land in the 
country is owned by the government right now, the Federal 
Government.
    Ms. Hocker. Right. Yes.
    Mr. Kingston. You know, I don't think most of the taxpayers 
have no idea that it is that big.
    Ms. Hocker. Much of what land trusts do is to work with 
private landowners to keep land in private ownership, but also 
to provide some protection and some assurance for those 
landowners who want to see that. And that is a lot of what 
Forest Legacy, Land and Water could be used for that. In fact, 
each of these programs.
    Mr. Kingston. Yes. Land and Water, though, so often is a 
sweetheart deal where big business and big landowners, go see 
The Nature Conservancy, and say, ``buy us out.'' I don't know. 
I can tell we are out of time. I have also been asked to limit 
my questions.
    Ms. Hocker. Okay.
    Mr. Kingston. But I appreciate your testimony. And if you 
will consider, you know, some of the thoughts I have offered 
and I will certainly consider everything you have added. 
Congratulate you on your good work.
    Ms. Hocker. Thank you very much. Thank you for your work.
    Mr. Kingston. Thank you.
    [The statement of Ms. Hocker follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       HISTORIC PRESERVATION FUND


                                WITNESS

ERIC HERTFELDER, EXECUTIVE DIRECTOR, NATIONAL CONFERENCE OF STATE 
    HISTORIC PRESERVATION OFFICERS
    Mr. Kingston. Okay. National Conference of State Historic 
Preservation Officers, Eric Hertfelder, executive director.
    Mr. Hertfelder. Good afternoon. My name is Eric Hertfelder 
and I am director of the National Conference of State Historic 
Preservation Officers, or SHPOs, to save a little time. My 
members are the 57 State and territorial preservation officers 
appointed by the governor to both run the State historic 
preservation programs, but, also, they have been deputized, to 
use your word from a minute ago, by the Secretary of the 
Interior under the National Historic Preservation Act, to run 
the National Historic Preservation Program.
    I want to begin by thanking the subcommittee for its 
steadfast support over the years for funding the national 
program administered by the State, tribal, and local 
governments. We believe it remains an extremely successful 
partnership and, also, a great bargain for the Federal 
Government. By our calculations, each historic preservation 
fund dollar in recent years has leveraged an additional $30.00 
from both the public and private sectors to carry out the 
activities of the national program.
    My focus today of my comments is going be on the 1966 
National Historic Preservation Act and its programs funded by 
the Historic Preservation Fund. Our Fiscal Year 2000 request is 
for $150 million. The request begins with the categories and 
amounts requested by the administration, but adds support for 
the partners at the State, tribal, and local government levels 
who administer the Federal program for the Secretary. And also 
funding for Heritage grants for endangered properties 
administered by these same partners for all of the Nation's 
endangered historic properties.
    The Nation's historic preservation program is carried out 
primarily by the States. The ongoing effort to document and 
protect significant properties, the National Register of 
Historic Places, and the delivery of Federal program benefits 
and services to the public are all functions carried out 
chiefly by the States. The National Historic Preservation Act 
and the Historic Preservation Fund were created for preserving 
the 95 percent of the Nation's historic properties which are 
not owned by the Federal Government.
    Recent years have seen, in our opinion, an unbalancing of 
the program. Whereas the Act specifies that--that is the 
National Historic Preservation Act--specifies that no more than 
10 percent of the Historic Preservation Fund monies should be 
retained and distributed at the Federal level, this percentage 
has risen to 60 percent today. The original vision of the 
program and the intended use of the OCS revenues are being 
lost. Instead, we find new categorical and one-time grants 
programs are being created with the net result that there is 
more money available, but for fewer types of properties.
    The original system isn't broken; it is just not being used 
to its full potential. For example, if the committee agrees to 
fund the Save America's Treasures Program, which is part of 
the--for a second year, part of the President's budget, which 
we support, we would recommend that, for Fiscal Year 2000, the 
appropriation be administered through the existing State, 
tribal, and local partnership and be open to all endangered 
properties listed on the National Register of Historic Places.
    There is no question that there is a tremendous national 
need in this area. At the request of the National Park Service, 
the States provided examples of endangered properties last year 
to support the original request by the administration for Save 
America's Treasures. Examining these results, as well as the 
lists of endangered properties that many States produce on an 
annual basis, an amount of $10 million per State would still 
leave a lot of needed work undone. Using the OCS revenues for 
their intended purposes would, thus, be an extremely valuable 
contribution for closing this gap and fulfilling this need.
    Due to public demand, workloads continue to increase in 
these State historic preservation offices, with the number of 
historic rehabilitation tax credits rising by 15 percent a year 
alone. And, as for the Federal Governments activities, whether 
through public works projects or downsizing, the Federal 
Government itself will continue to have a major impact on 
historic properties with 100,000-plus undertakings per year. 
The State historic preservation officers, as one of their 
responsibilities under the Federal legislation, are the primary 
point of contact and assistance for Federal agencies as they 
try to meet their responsibility to avoid harm wherever 
possible to historic properties.
    Conservation is a continuous responsibility. A nation that 
would preserve its heritage must commit steady and substantial 
funds for the long haul. We thank Congress for its steady 
support for the National Historic Preservation Program, but we 
urge the committee to consider increasing that support to 
utilize all of the current income to the Historic Preservation 
Fund and to make sure that help is made available to all of the 
Nation's historic properties and for everyone's heritage.
    Mr. Kingston. Mr. Hertfelder, I notice on this list you 
have the State Capitol of Colorado on here for $1 million.
    Mr. Hertfelder. That is one of the properties which was 
listed as part of the millennium grants list of historic 
properties around the Nation which are in need of help.
    Mr. Kingston. Well, I feel strongly that the folks in 
Colorado ought to take care of that. You don't even have 
anything from Georgia on here that I can tell. I am going to 
talk to my friend Greg Paxton. I think you know Greg.
    Mr. Hertfelder. Absolutely. One of my best friends. I think 
if you read a little further down the side you will find----
    Mr. Kingston. We will have to work on him. It is okay.
    Mr. Hertfelder [continuing]. Several Georgia projects.
    Mr. Kingston. I don't see any. But we work closely with you 
guys and I do appreciate your work.
    Mr. Hertfelder. It has got Resaca Battlefield, Mount Zion 
Baptist Church, Ma Rainey House.
    Mr. Kingston. Where is that? And how do you do Mount Zion 
Baptist Church when the----
    Mr. Hertfelder. We asked the State to--in fact, I can give 
you----
    Mr. Kingston. Is that an active church?
    Mr. Hertfelder. Yes.
    Mr. Kingston. Now the Secretary of the Interior told me 
that the First Amendment prohibits Federal funds going to 
preservation of a church.
    Mr. Hertfelder. Not for the Historic Preservation Fund. And 
there were some legal rulings about that. As long as the 
Federal monies are not used for any religious object and that 
the public has access once the monies are expended to the 
church--in other words, it is open so that they can go see 
where the work was done--it is permissible to use historic 
funds for historic churches.
    Generally, they are used for the architecture of the 
church, to restore a steeple or to keep the foundation solid or 
something like that. Or to repair stained glass windows. 
Something that everyone can see and appreciate. And often 
churches are, of course, key landmarks in a community, part of 
the town square or, you know, important to the whole community.
    Mr. Kingston. You have stuff built in the 1920's in Hawaii?
    Mr. Hertfelder. That is not even historic. [Laughter.]
    Mr. Kingston. Okay. Listen, I appreciate everything and I 
would like to talk to you about a specific church if you are 
the person to help us.
    Mr. Hertfelder. Sure. No problem.
    Mr. Kingston. And we will be touch with you. But thanks a 
lot.
    Mr. Hertfelder. May I add one more comment? Off my original 
topic. I just wanted to say that the State historic 
preservation officers also support the various requests for 
full funding this year for the Land and Water Conservation 
Fund. It is important to realize that there are many types of 
resources and, especially, in developed areas, resources have 
multiple values, both natural and cultural. And, working at the 
State level where I have my experience, I have found that when 
there were resources available for the Land and Water Fund, 
that we were able to preserve a much broader variety of 
properties for everyone's benefit.
    Mr. Kingston. Tell Paxton that the President's budget got 
two votes on the House Floor.
    Mr. Hertfelder. I am sorry?
    Mr. Kingston. The President's budget got two votes on the 
House Floor.
    Mr. Hertfelder. It is a start. [Laughter.]
    Mr. Kingston. That's a start.
    Mr. Hertfelder. I will say hello to Claudia, too, if that 
is okay with you.
    Mr. Kingston. We really enjoy working with you guys.
    Mr. Hertfelder. Thank you.
    Mr. Kingston. We really appreciate all the help you give 
us. So thank.
    [The statement of Mr. Hertfelder follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                   ENDANGERED SPECIES/FOREST SERVICE


                                WITNESS

KIM WALLEY DELFINO, U.S. PUBLIC INTEREST RESEARCH GROUP
    Mr. Kingston. Okay. Kim Walley Delfino from U.S. PIRG.
    Ms. Delfino. Good afternoon. My name is Kim Delfino and I 
am a staff attorney with the U.S. Public Interest Research 
Group. And I thank you for the opportunity to testify on our 
recommendations for funding priorities for the Department of 
Interior, U.S. Forest Service, and Department of Energy's 
Fiscal Year 2000 budget.
    U.S. PIRG is the national lobbying office for the State 
PIRGs. PIRGs are nonpartisan, nonprofit, environmental and 
consumer organizations. And we work on these issues in more 
than 35 States. U.S. PIRG is working to increase funding for 
our parks, forests, coastal areas, and wildlife. At the same 
time, to cut funding for what we call polluter pork programs. 
These are programs of Federal spending and subsidies that 
destroy the environment at taxpayer expense.
    Back in January, U.S. PIRG, along with Friends of the 
Earth, Taxpayers for Common Sense, and the Concord Coalition 
released the Green Scissors Report which I will leave for you 
and your staff.
    This report goes through 72 wasteful, environmentally 
destructive programs that, if they were eliminated, would save 
taxpayers $51 billion. U.S. PIRG also supports the 
recommendations of the Public Lands Funding Initiative, which 
is a compilation of budget information that is endorsed by a 
number of organizations: sporting, recreation, and 
environmental organizations.
    Today my testimony is going to focus on the Department of 
Interiors Endangered Species Programs and the Land and Water 
Conservation Fund.
    Mr. Kingston. And, also, I am going to kind of wave to you 
when we are down to one minute.
    Ms. Delfino. Sure. That would be great. And I will talk 
very quickly. And the U.S. Forest Service's Wildlife and 
Habitat programs. I am also going to focus on a number of 
polluter pork programs highlighted in the Green Scissors 
Report: The Department of Interior's mining program; the Forest 
Service's commercial timber sale program and road-building 
budget, off-budget funds for timber program; and DOE's Clean 
Coal Technology and coal and oil research and development 
programs. And, given the fact that I am covering so many 
issues, I am going to be extremely brief in my recommendations 
and you can refer to my testimony for any kind of context or 
background information.
    Okay, to begin with, under the Department of Interior's 
Special Wildlife Service, Endangered Species Program. This is 
an issue I actually worked a great deal on. Unfortunately, ESA 
funding has been chronically inadequate. We support the 
administration's budget request. It has some good increases in 
there. However, if the administration is really going to 
fulfill its ESA obligations, it really does need some 
substantial increases: a $17 million increase for candidate 
conservation; a $20 million increase for listing program; $140 
million for consultation; $108 million for recovery; and $134 
million for Habitat Conservation Plan land acquisition because 
the administration has used the HCP program quite a bit.
    LWCF funding. We, as a number of organizations have already 
testified here, recommend full funding for both the Federal and 
State side LWCF programs.
    Mining. We support the continued moratorium on the practice 
of patenting public lands. We also support the provision in the 
President's budget that calls for the mining industry to 
finally begin paying royalties on the $2 billion to $3 billion 
of minerals that were extracted every year from public lands. 
And, also, an end to the mining industry tax break called the 
percentage depletion allowance, which cost taxpayers about $100 
million every year. Finally, we support the creation of an 
abandoned mine cleanup fund. There are about 500,000 abandoned 
and polluting mines nationwide, 70 of which are superfund 
sites.
    Moving on to the Forest Service. This is a program that is 
a prime example of polluter pork. It is a program where you 
could make some really unique and beautiful areas. We are an 
organization that believes that the timber sale program is 
fatally flawed. The GAO has recently released a report in which 
they found that, between 1995 and 1997, the timber sales 
program lost $1 billion. We recommend ending subsidies for the 
commercial timber sales program by cutting the appropriations 
for timber sales management.
    In addition, we also recommend abolishing the Forest 
Service off-budget funds, the KV or Knutsen-Vandenberg funds, 
brush disposal and salvage funds, and returning that money back 
to the U.S. Treasury. We think that those funds create and 
incentive to log, and we would like to see those brought online 
and do restoration and reforestation activities through 
appropriated funds.
    And, finally, we support the administration's proposal to 
stabilize payments to States and counties. We think that the 
current situation causes--the way it is currently linked up 
with gross national forest receipts creates an incentive for 
schools and counties to support excessive logging levels.
    Going to the roads programs, the Forest Service, we have 
almost 400,000 miles of roads. The latest Forest Service 
assessment has found that there is a $8.4 million backlog on 
road maintenance and decommissioning. Given that there is just 
not enough money right now for forest maintenance, we believe 
there should be no more money appropriated for forest road 
construction, and instead, a $100 million increase for forest 
road maintenance and decommissioning.
    Rather quickly, also, the administration has included a 
proposal to increase the Forest Service's threatened, 
endangered, and sensitive species research fund by $10 million. 
We fully support that. It is a fund that is chronically 
underfunded.
    Then, quickly moving on to the DOE fossil energy programs, 
the clean coal technology program, we think that is a program 
that has already cost us $2 billion. We recommend no more funds 
are spent on that program. And coal and oil research and 
development, again, we also recommend terminating those 
programs. They cost us about $172 million every year, and 
simply just subsidize further production of fuels that 
contribute to serious health threats and environmental damage.
    I really thank you for the opportunity to testify today. I 
hope I was able to keep it under the time limit. I am happy to 
answer any questions.
    Mr. Kingston. You did a good job. And will you leave your 
green----
    Ms. Delfino. Yes.
    Mr. Kingston. I don't know that our office received one of 
these this year. I'm sure they did.
    Ms. Delfino. You should have.
    Mr. Kingston. But usually we get one. So, and I always like 
to read it. And sometimes we are with you and sometimes we are 
not.
    Ms. Delfino. And we appreciate it when you are with us.
    Mr. Kingston. I would like to see PIRG sometime pick on a 
liberal group. It always seems that it's a left-winger.
    Ms. Delfino. No. We are non-partisan. We are----
    Mr. Kingston. Yes, I know how non-partisan you are.
    Ms. Delfino. And we have some very interesting allies 
with----
    [Laughter.]
    Mr. Kingston. I am here to say you are refreshing compared 
to most of the PIRG people I've met. It is non-partisan as long 
as you are leaning left, I think.
    I mean, can you tell me one conservative group that you 
are--or one liberal program. For example TAG grants, are you 
after them in the name of pork----
    Ms. Delfino. Excuse me.
    Mr. Kingston. TAG. What does TAG stand for? Technical 
Assistance Grants.
    Ms. Delfino. I'm not familiar with that program. I don't 
know----
    Mr. Kingston. It's a program where you get a public group 
who wants to follow a national priority pollution cleanup. And 
the group just happens to be closely aligned with an 
environmental group, but it's a different pot. So they can do 
all kinds of political activity and say that this is non-
partisan. But I would just like to see a group like yours say, 
okay, this is pork; let's call it what it is. And go after 
something like that.
    I think it would give you a lot more credibility on the 
Hill. But then, again, I know Mr. Nader doesn't come by and see 
me very often. [Laughter.]
    Ms.  Delfino. He doesn't visit us all that often either. 
[Laughter.]
    Mr. Kingston. You still get the confiscatory dues from 
college students, don't you?
    Ms.  Delfino. Pardon me.
    Mr. Kingston. You still get dues from college kids, right?
    Ms.  Delfino. We do have--part of our fees do come from 
student fees.
    Mr. Kingston. And they are mandatory, right?
    Ms.  Delfino. No. Most of them actually----
    Mr. Kingston. Or it's a reverse checkoff.
    Ms.  Delfino. Yes. Most are not mandatory anymore. They 
are----
    Mr. Kingston. Is that right? Has that changed in the last 
couple of years?
    Ms. Delfino. It's been probably more than 10 years.
    Mr. Kingston. I mean I certainly think PIRG has a great 
spot, as with any other group, but to take money from college 
kids and use it for PIRG agenda, to me is a little underhanded.
    Ms. Delfino. Well, every year we end up having to run 
referendums on campuses and have to--so it's not like these 
students----
    Mr. Kingston. There's a lawsuit about it right now. I think 
at the University of Minnesota on dues.
    Ms. Delfino. University of Wisconsin.
    Mr. Kingston. Wisconsin?
    Ms. Delfino. Yes. It is the Supreme Court----
    Mr. Kingston. Is that going to affect you all?
    Ms. Delfino. What?
    Mr. Kingston. Is that going to affect you all?
    Ms. Delfino. Actually, no, because that is a challenge with 
respect to mandatory fees. And we don't have mandatory fees at 
the University of Wisconsin.
    Mr. Kingston. It's actually foggy on PIRG, but it is a 
debate that I think its time has come in terms of what student 
activities go to and all that.
    Ms. Delfino. Well, I mean, not surprisingly, we think that 
students should be able to use a portion of their fees for 
advocacy. You may disagree on that.
    Mr. Kingston. No. I think so, but I think they should pro-
actively have to check it rather than pro-actively have to 
exempt themselves, which do you want to on record----
    Ms. Delfino. I am not the fee----
    Mr. Kingston. Do they have that at California-Davis?
    Ms. Delfino. Yes. Actually, it wasn't there when I was 
there. They established a chapter on campus the year after I 
left. I actually didn't know this PIRG when I was in college.
    Mr. Kingston. Well, thank you very much for your testimony, 
and stay in touch with the committee on these things.
    Ms. Delfino. Okay. And I will go back and check out that 
TAG program.
    Mr. Kingston. I would love to know your opinion of that.
    Ms. Delfino. Okay. Thank you.
    [The statement of Ms. Delfino follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         FOREST LEGACY PROGRAM


                  LAND AND WATER CONSERVATION SERVICE


                                WITNESS

NICK WILLIAMS, COORDINATOR, MARYLAND ENVIRONMENTAL TRUST
    Mr. Kingston. Thanks. Okay. Nick Williams, Maryland 
Environmental Trust. A one-page testimony. This is a record.
    Mr. Williams. Keep it short. Good afternoon. I am with the 
Maryland Environmental Trust. We are a statewide land trust, 
and we also serve the function of assisting local non-profit 
land trusts--local land trusts--in Maryland. There are 44 of 
these now, up from about 8 to 10 years ago.
    I would just like to make a few comments about forest land 
in Maryland, the threats to that land, the activities that are 
already taking place in Maryland to preserve those forests, and 
the point of the testimony is to support the $50 million figure 
for the Forest Legacy Program, in particular.
    Maryland is about 43 percent forest land, about 2.7 million 
acres. Those lands have both economic and environmental values, 
especially on the lower Eastern Shore of Maryland, where the 
forest-product industry is the second largest employer in that 
region. But beyond economics and the jobs that are provided by 
the forest industry, there is also, of course, multiple 
resource protection values to protecting forests, for the 
watershed protection aspects, for habitat protection, for 
scenic value protection, and, in particular, to protect the 
waterways that lead to the Chesapeake Bay.
    The local land trusts in Maryland and various State 
programs have been trying to preserve forests through any 
number of programs and initiatives. But there is no program on 
the Maryland side or local program that is specifically 
targeting forests. We do have an agricultural land preservation 
program in Maryland. There is a new program under Governor 
Glendening's Smart Growth Initiative, which is called the Rural 
Legacy Program. It preserves various kinds of rural resource 
lands, including forest land, but doesn't specifically target 
forests.
    There is also the State's land acquisition arm, Program 
Open Space, which has traditionally bought the forest lands for 
State forests. So there is a number of programs out there along 
with the private local land trusts that can buy land with 
private money or accept donations of conservation easements. 
There's a lot of choice for landowners in Maryland.
    We think that the Forest Legacy Program, having made an 
initial start in Maryland, would be a very good fit with these 
other programs. That by working with these other programs, 
there would be considerable leverage, a factor that people have 
been stressing here again and again.
    The State of Maryland in the first round of Forest Legacy 
has already put in more than 50 percent matching amounts, way 
beyond the required 25 percent. All the Forest Legacy easements 
that have been acquired in Maryland with Federal dollars or 
with State dollars have been adjacent to existing State parks, 
State forests, or land already under private conservation 
easements or agricultural easements.
    So there is not only leverage in terms of dollars, there is 
leverage in terms of acres as well, sort of a larger total 
resource mass that is being protected.
    I think that the program has generated some interest in the 
first round. Now landowners are lining up in the counties where 
the seven designated rural--sorry--Forest Legacy areas exist. 
And they are coming forward with offers to protect these 
forests and these watersheds and other resources.
    The opportunity is there for stretching dollars by working 
with land trusts and Maryland programs. And we would like to 
see round two and future rounds supported by this means, 
supporting the $50 million for Legacy.
    Mr. Kingston. Mr. Williams, what has kept the Eastern Shore 
from being relatively undeveloped so far. Is it just that it is 
hard to get to?
    Mr. Williams. That is certainly part of it. I also say that 
there is a lot of private land conservation activity happening, 
especially on the Eastern Shore and now more on the lower shore 
as well.
    Mr. Kingston. What is the population of Maryland?
    Mr. Williams. Let's see. I want to say about 5 million. 
That's an estimate.
    Mr. Kingston. Okay. Well, thank you very much for your 
testimony. And we certainly appreciate the conciseness. Forest 
Legacy is a popular program.
    Mr. Williams. Thank you.
    [The statement of Mr. Williams follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       BUREAU OF LAND MANAGEMENT


           ARTHUR CAHART NATIONAL WILDERNESS TRAINING CENTER


                                WITNESS

SUE GUNN, DIRECTOR OF BUDGET AND APPROPRIATIONS, THE WILDERNESS SOCIETY
    Mr. Kingston. Okay. Sue Gunn, the Wilderness Society, 
director of budget and appropriations.
    Ms. Gunn. The Wilderness Society would like to thank you 
for continuing to have this public forum. Today I would like to 
speak about the national wilderness preservation system, which 
consists of about 104 million acres, about four and a half 
percent of our American Lands, an area about the size of the 
State of Montana. And we also estimate there is probably twice 
as much land that could be designated as wilderness in the 
United States, and about 10 percent of that now is sitting 
before Congress in various bills for designation.
    The two issues I would like to speak about are inconsistent 
practices in management of the wilderness system and also the 
lack of dedicated funding. And these two issues are truly 
linked.
    As it stands right now, the Forest Service and BLM have 
budgetary line items for their wilderness programs, but they 
are housed underneath the recreation program. And so therefore, 
as the year progresses, often their funding gets redirected to 
other issues, and they have problems with the funding making it 
to the ground for concerns and real use.
    And on the other hand, Fish and Wildlife Service and the 
National Park Service have no budgetary line items for 
wilderness. And therefore their programs are vague to say the 
very least. None of the programs have directors of wilderness 
or a staff member that is dedicated exclusively to this issue.
    Mr. Kingston. Ms. Gunn. Let me interrupt you a second. 
Should they have them? Were they originally supposed to have 
it? Because I do think more of National Park Service having 
wilderness land than Bureau of Land Management.
    Ms. Gunn. And that is----
    Mr. Kingston. And I am only asking. I have no idea----
    Ms. Gunn. I think that it has evolved to the point where 
they do need them. And that is what I am going to recommend in 
this testimony. And I am going to speak to the Park Service in 
a little bit. So let me kind of work my way to that because 
they do have some serious problems.
    But I think the difference in the way the various agencies 
deal with this issue creates administrative challenges and also 
a potential to erode public trust because you have got 
different management actions for the different agencies. So 
what I am going to recommend today is the establishment of line 
items for the budget for Fish and Wildlife Service, Park 
Service, for sufficient funding for staff on the ground need 
for training.
    I also think we need an interagency coordinating group to 
develop common guidelines and policies and to develop and 
implement a ecosystem monitoring program to see how our 
wildernesses are doing and trying to maintain them. That would 
fall under the auspices of such a coordinating council.
    Let me go right to the Park Service because of your 
interest. They should be a world class leader in wilderness 
because they manage the most lands in the United States, the 
most lands in the world. Right now they have one full-time and 
one part-time staffer and a budget less than $500,000. Seventy-
three percent of all the parks have wilderness, and they are 
just not dealing with it.
    And so we recommend a line item of about $9.8 million to 
establish a director of wilderness, a coordinator in each 
region, a coordinator in the 75 parks that have wilderness 
statuses, training for all these folks. In Fish and Wildlife 
Service, the law enforcement officers have training annually. 
And in many of these other agencies people are just totally 
untrained on wilderness. And allow them to complete their 
wilderness management plans and also develop educational 
outreach and monitoring programs.
    And this is really analogous with what needs to be done in 
the Fish and Wildlife Service, only to the tune of about $6.1 
billion, or about two-thirds of what the Park Service needs.
    Also, the Forest Service we recommend an increase of their 
funding for research for $5 million, which is above what the 
President has requested at $3.81 million, and also $50 million 
for their wilderness management program.
    And at the same time, BLM, we recommend almost doubling of 
their funding to $30 million for their wilderness program and 
realize that that is a big number and would suggest you do that 
incrementally over the next three to five years. But the need, 
we feel, is great.
    And we appreciate the opportunity to speak about this.
    Mr. Kingston. Let me just kind of mention a concern I have 
about wilderness, is it does get to be so inflexible as to what 
you can and cannot do. You mentioned the Okefenokee Swamp. And 
you know right now you can go through that with a 15-horsepower 
motor--I think it is an electric motor.
    Ms. Gunn. The Park Service takes those boats through there, 
right?
    Mr. Kingston. No. No. You can rent them or you can--the 
Park Service does it. But you can do down there and rent it for 
30 minutes or an hour. Now, under wilderness, you know, you 
really can't do that. And the problem is, you know, John Q. 
Public really isn't going to penetrate that swamp in a----
    Ms. Gunn. A canoe?
    Mr. Kingston. Yes. In a canoe.
    Ms. Gunn. Unless you go out for a four or five days.
    Mr. Kingston. Yes. And most people don't have that time. 
And then, you know, there is an unfairness question because you 
know not everybody can do these things. And then, you know, for 
example, hiking in the wilderness. The handicapped are totally 
excluded. They can't do it. Period. They can't access that 
without some, you know, golf cart or something. And then the 
Wilderness Society that I have a lot of respect for, does not 
try to be a tie-breaker with the National Park Service to say, 
okay, let's take this road out of wilderness or let's do this 
trail so that small children and families with children can 
have some more access to the wilderness.
    And then, you also put in here public education, which I 
think is key, but when people can't get to it, they don't 
really want to be educated about it because it is academic to 
them.
    Ms. Gunn. Right. I guess, you know, it is sort of where 
you----
    Mr. Kingston. I know you sat on the committee. So you have 
seen these battles.
    Ms. Gunn. Yes. I mean it is where you see us on the various 
issues. I mean I think the education is the value of the 
pristine wilderness as opposed to maybe some of the more 
scientific or natural resource education pieces where you can 
get out in the generic Park Service as opposed to going into 
remote locations. I mean we really value the fact that there 
are places that are pristine and, unfortunately, handicapped 
people cannot get to every place. But there are a lot of things 
that I can't do that a big, strong man can do. So I mean, we 
are not all intrinsically equal.
    Mr. Kingston. But let's say you have a thousand acres. To 
allow some access for handicapped or for small children to me 
in that thousand acres you could do it, but on an environmental 
organization like you guys who just about philosophically have 
to be academically pure because if you don't, if you compromise 
in Maine you're going to have to compromise in California. It's 
going to come back to haunt you.
    But it is still, you know, to me as a member of this 
committee, I have a little reluctance to designate anything 
more as wilderness only because I know what it does. It denies 
people access to it.
    Ms. Gunn. I took out, I think it was my 2-year-old son on a 
six-day backpacking trip into the Sawtooth Wilderness in Idaho. 
I mean, these are doable things if you really have a passion 
for it. The question is what level of passion do people have to 
experience remote wilderness and how far they are willing to 
go. And there are different grades of that.
    Mr. Kingston. You know, my 13-year-old doesn't have a 
passion for learning the play the piano, but if I can start him 
out slowly with chopsticks though, I might get him interested 
in Bach before he dies. And that is what you have to do.
    You have to kind of pull these people in there and let them 
know just what----
    Ms. Gunn. All right.
    Mr. Kingston. I do appreciate what you all do.
    Ms. Gunn. Thank you.
    Mr. Kingston. Thanks, Ms. Gunn.
    Mr. Kingston. Okay. The testimony of Terry Duggan, who is 
the mayor of Dubuque, Iowa, is going to be submitted to the 
committee.
    [The statement of Ms. Gunn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         FOREST LEGACY PROGRAM


                    LAND AND WATER CONSERVATION FUND


                                WITNESS

ANNIE HOAGLAND, VICE PRESIDENT, GREAT RIVERS LAND TRUST
    Mr. Kingston. And next we have Anne Hoagland with the Great 
Rivers Land Trust, vice president.
    Ms. Hoagland. Hello. I am Annie Hoagland, and I am with the 
Great Rivers Land Trust. And we are located about a half an 
hour's drive north of St. Louis, Missouri. I want to thank you 
for giving us the opportunity to come and tell you about our 
Forest Legacy project.
    Illinois is not known for its woodlands, but we do have 
some, along the Mississippi River. We have about 20,000 acres 
of mature hardwoods, and we have a project area that is located 
at the confluence of the Mississippi, Missouri, and Illinois 
rivers.
    It is a particularly beautiful area, and we have a 
spectacular panorama of the river. We have lost a lot of 
industry. We have had a lot of flooding, and so our scenery and 
our tourism have become important industries in our area.
    Where we are, we have a four-lane scenic highway that runs 
beneath a towering limestone bluff and the river. You see the 
confluence of all these great rivers and it's a particularly 
pretty area.
    Our river road was designated as a national scenic byway 
and is being marketed as such. And we have a new bridge that 
has been built across the river to St. Louis. Consequently, we 
have intense development pressure that has come upon our area. 
We have in this beautiful panorama a key piece of property that 
was along the riverfront, along this beautiful drive along the 
Mississippi River, and it was a crucial part of the panorama. 
And it was under intense development pressures.
    The owners had lost their source of income due to the new 
lock and dam. They were no longer to have income from fleeting. 
And so they had no income on the property, and they were 
vulnerable to the development pressures.
    We approached the owners and talked with them about giving 
conservation easements, and worked with them to go to our State 
to get a State grant. We were able to do that. They donated a 
little bit of the property.
    We took that State grant and we used the Forest Legacy 
Program to get the rest of the funding for the conservation 
easement. They did donate the bluff face of their property, and 
they were willing to forgo the development dollars in order to 
preserve the beautiful timberland and environmentally sensitive 
tract of property and also a key piece of this scenic byway 
that is a panoramic view.
    In this instance, the government got a tremendous bargain. 
And using the Forest Legacy Program our land trust did initiate 
the whole process. We did a lot of the work for the State. We 
did a lot of the appraisal work. We did a lot of the surveying 
work. We did most all of the paperwork. And we are going to be 
managing the property.
    We are on the easement as a third-party enforcement right 
so that we will save the government a lot of money in this.
    As a consequence of getting this property, adjacent 
property owners have now donated some property. We have 
probably, if I had realized it was important to your committee, 
we would have been more keen on figuring this out, but we have 
probably turned what you have given us into three times what it 
was by donations and the ripple effect of what it has done in 
our area.
    And now we have protected this whole line, and our national 
scenic byway is going to remain that way in perpetuity.
    I want to thank you for funding this program in the past, 
and tell you that Illinois, while we don't have a lot of timber 
like you do in other parts of the country, it is very precious, 
it is very much part of the migratory route for many birds in 
the country, and we have approximately 20,000 acres, 10,000 of 
which we are still trying to find ways to preserve along the 
scenic corridor.
    So we urge you to give the $50 million to the Forest Legacy 
Program. A little land trust like ours will take it and run, 
and we will turn it into a whole lot more.
    And we appreciate the opportunity to be able to do so.
    Mr. Kingston. Well thank you, Ms. Hoagland. Who built the 
bridge, Missouri or Illinois?
    Ms. Hoagland. They jointly built the bridge.
    Mr. Kingston. And what was the purpose of it?
    Ms. Hoagland. Of building the bridge?
    Mr. Kingston. You said there's been a lot of development--
--
    Ms. Hoagland. The purpose of building the bridge was that 
the old bridge was very unsafe and----
    Mr. Kingston. So it was a replacement?
    Ms. Hoagland. It was a replacement bridge, although they 
are building bridges around St. Louis because they are out of 
development area and they are trying to--they are expanding and 
bursting at the seams along the east side of the river.
    Mr. Kingston. Okay. Well, thank you very much. Okay.
    Ms. Hoagland. Could I give you one of those to show you our 
area?
    Mr. Kingston. Yes. I would like to see the limestone 
bluffs.
    I was there about a year ago and would have liked to have 
known about that. That is beautiful.
    Ms. Hoagland. It's a wonderful program, and we hope you 
fully fund it.
    Mr. Kingston. Thank you very much. Is Keith Argow here? 
Okay. The hour is late, we won't ask twice. If any of you all 
know him, tell him to come up. [Laughter.]
    [The statement of Ms. Hoagland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                         FOREST LEGACY PROGRAM


                    LAND AND WATER CONSERVATION FUND


                                WITNESS

CHARLES R. NIEBLING, SOCIETY FOR THE PROTECTION OF NEW HAMPSHIRE 
    FORESTS
    Mr. Kingston. The Society for the Protection of New 
Hampshire Forest, Charles Niebling.
    Mr. Niebling. Thank you, Mr. Chairman. Good afternoon. And 
thank you once again for the opportunity to appear before the 
subcommittee. My name is Charles Niebling. I am policy director 
with the Society for the Protection of New Hampshire Forests. 
We are the oldest and largest conservation organization in the 
State of New Hampshire, founded in 1901. We have programs in 
land protection, conservation education advocacy and forestry.
    We own almost 31,000 acres of land on which we protect good 
forestry. So we practice what we preach. I have presented to 
you written remarks that cover a number of topics and issue 
areas. I'm going to restrict my comments, however, to two 
particular areas. First, the revitalization of the stateside 
program within the land and water conservation fund, and 
secondly and perhaps more importantly, the increase in funding 
for the very important Forest Legacy Program.
    First, the Forest Society strongly encourages restoration 
of funding for the LWCF stateside program. New Hampshire does 
not need significant Federal funding for new additions to our 
White Mountain National Forest or national wildlife refuges. We 
need funding and support focused on the State and local level.
    Stateside LWCF has had a very successful past in New 
Hampshire, funding over 600 open space and recreation projects 
in local communities. Unfortunately, as you are aware, the 
program has not been funded since 1995, and we certainly 
strongly support this program. We hope that you will consider 
allocating at least 40 percent of whatever the total LWCF 
appropriation is this year to the stateside program.
    We also support the creation of a State competitive grants 
program within the land and water conservation fund such as 
that envisioned in Senate Bill 446, the so-called Miller-Boxer 
Conservation Bill, and in the President's Fiscal year 2000 
budget proposal.
    The idea here is that funding would be made available to 
States on a strictly competitive basis and not keyed to the 
population of the individual States as stateside is. I'd like 
to focus particular attention on the role that the Federal 
Government can and should play in funding of conservation 
easements on private lands.
    We have actively supported the Forest Legacy Program since 
its authorization in the 1990 Farm Bill. Forest Legacy has 
struggled to gain the support of this committee, but more and 
more conservation advocates, and I might add more and more 
conservatives, are recognizing that Federal funding assistance 
for conservation easements is an idea whose time has come.
    Conservation easements permanently protect private forest 
lands from development. Importantly, easements keep land on the 
tax rolls, contributing timber to local rural economies. The 
Federal Government assumes no ongoing stewardship and 
management expenses. And, I might add, no payment in lieu of 
tax obligations as well.
    We are asking the subcommittee to support the President's 
request for $50 million for Forest Legacy. A significant 
increase to be sure, but one that is desperately needed in the 
rapidly urbanizing Northeast, and especially New Hampshire, the 
fastest growing State in the Northeast.
    Finally, Mr. Chairman, I would like to ask your support for 
requests of the highly respected National Fish and Wildlife 
Foundation for a $15 million appropriation through the U.S. 
Forest Service State and private forest budget to leverage 
private funds toward the purchase of conservation easements on 
working forest lands in the Northeastern U.S.
    The future of land conservation in the Northeast, for which 
there is very broad-based public support, lies less in large 
fee public purchases and more in the protection of public 
values on private lands through conservation easements.
    Thank you for the opportunity to testify.
    Mr. Kingston. Thank you, Mr. Niebling. I think you have a 
lot of good ideas. And I certainly agree with your philosophy 
on conservation easements. Have you been working with USDA on 
WHIP at all, Wildlife Incentives Program--Wildlife Habitat 
Incentives?
    Mr. Niebling. We have not. I am familiar with the program. 
It did receive a small amount of funding in New Hampshire in 
the last fiscal year. I believe the Audubon Society of New 
Hampshire, which is more wildlife oriented, and the New 
Hampshire Fish and Game Department have been more actively 
involved in that.
    Mr. Kingston. That might be something you want to look at 
also. But thank you very much for your time.
    Mr. Niebling. Just real quickly. I realize you can't see 
what a Legacy project looks like on the ground in New 
Hampshire, but here are two maps of two projects that we are 
desperate to get going, either through the Forest Legacy 
Program or through the very innovative idea that the National 
Fish and Wildlife Foundation has put forth to the committee.
    And these are two extraordinary properties that the 
communities want to see retained in private ownership. The 
private landowners are interested in an easement. And we want 
to keep them as working forest lands.
    Thank you very much.
    Mr. Kingston. Work hard. I know with four kids, you have 
to.
    Mr. Niebling. I have four kids, too.
    Mr. Kingston. I know. That is why I was saying that.
    [The statement of Mr. Niebling follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                                WITNESS

MARY COULOMBE, AMERICAN FOREST AND PAPER ASSOCIATION
    Mr. Kingston. All right. Mary Coulombe, is that pronounced 
right?
    Ms. Coulombe. Close.
    Mr. Kingston. American Forest and Paper Association.
    Ms. Coulombe. Hi.
    Mr. Kingston. Hi.
    Ms. Coulombe. Good afternoon, Mr. Chairman. My name is Mary 
Coulombe, and I am the director of timber access and supply at 
the American Forest and Paper Association. I am presenting my 
testimony today on behalf of the association's member 
companies, association's allied groups.
    I submitted a much longer testimony, and I am just going to 
hit on a few key points. First I would like to thank you for 
inviting us to testify. And we welcome this opportunity to work 
with subcommittee to address the sustainability of our national 
forests. Our members are committed to sustainable forestry for 
all forest lands, public and private.
    Mr. Chairman, AF&P is extremely disappointed in the 
President's budget proposal for fiscal year 2000. Their budge 
does not adequately address the crisis that is occurring in our 
national forests. The Forest Service has identified that there 
are 40 million acres at high risk of catastrophic wildfire and 
another 26 million acres of national forest that risks from 
dying from insect and disease. It is apparent that much more 
must be done in dealing with the catastrophic conditions on our 
national forests.
    Healthy forests are important to us all, and unfortunately 
not all our national forests are healthy.
    Restoration of our national forests is essential. It's time 
that the Forest Service comes forward with an aggressive 
program to start dealing with this crisis.
    Chief Dombeck has spoken frequently of the need to restore 
the health of the land. However, he has failed in this budget 
request and in his performance planning under GPRA to address 
the growing restoration backlog in a meaningful way. Rather, 
his budget request increased funding for further land 
acquisition, land we believe that will add to or could add to 
the existing restoration backlog.
    In addition, AF&P supports Congressional efforts to bring 
Federal spending under control and make agencies more fiscally 
efficient. In regards to the national forest system, we believe 
that restoring and maintaining the health of our national 
forests must be the top priority of the Forest Service and that 
a major tool available today is active forest management.
    As the subcommittee is aware, the Forest Service forest 
management program is continuing to fall. A $30 million 
decrease in funding is proposed for the forest management 
program in Fiscal Year 2000. This drastic reduction does not 
represent a sustainable multiple use approach to Federal forest 
management.
    And more importantly, it does not recognize the inter-
relationships of managing the timber resource to important 
wildlife habitat improvement, forest health, biodiversity, and 
other values.
    The administration is also proposing to make the Forest 
Service trust funds part of the annual appropriations process. 
The trust funds were set up to improve the capabilities of the 
Forest Service to be responsive and timely in dealing with land 
management needs.
    The funds are not the problem and should be retained as 
they are. The Forest Service needs to better manage these funds 
and can do this under existing authorities.
    In regards to Forest Service research, AF&P supports the $4 
million increase for the Forest Inventory and Analysis Program. 
However, the appropriation should be exclusively for 
implementing the forest inventory and analysis annual inventory 
system as mandated by Congress in the research title of the 
Farm Bill.
    The National Association of State Foresters proposes an 
additional $4 million in State and private forestry accounts 
for forest inventory and monitoring. AF&P supports this 
recommendation with the caveat that these funds be used 
exclusively by States for collecting core field variables.
    Mr. Regula [presiding]. We are changing shifts here.
    Mr. Kingston. I have to go to a Kosovo hearing that started 
10 minutes ago. So that is why I am leaving. But I appreciate 
your group, and I am familiar with a lot of them. Thank you.
    Ms. Coulombe. Thank you.
    Mr. Regula. Okay. Well, thank you, Mr. Kingston.
    Okay. Go ahead.
    Ms. Coulombe. Okay. Just a couple more comments. In regards 
to State and private forestry. The Forest Service State and 
private forest programs provide several critical and unique 
services to the Nation's private landowners. Of these, there 
are few programs such as forest health management and 
cooperative fire protection accounts that are vitally important 
to keeping our forestry resource healthy.
    Cooperating with the States on fire protection as well as 
insect and disease treatment is necessary in order to protect 
homes and private lands from suffering the consequences of 
inadequately managed, unhealthy conditions on Federal lands.
    AF&PA supports the increases in these two programs as 
proposed in the President's budget.
    In conclusion, AF&PA encourages the members of the 
subcommittee to consider the immensely valuable resources of 
the national forests as assets that provide values tangible and 
intangible for the people today and for our children tomorrow. 
The purpose and mission of the Forest Service has not changed 
over these last hundred years, and it should not be changed by 
executive action with the agreement of Congress.
    The President's budget proposal reflects a real and serious 
trend away from the mission and purpose. It fails to provide a 
budget that will realistically protect the most fundamental 
part of the forest, the trees, from further damage and 
devastation from wildfire, insects, and disease, and does not 
provide adequate funding to protect another important asset, 
forest roads.
    Thank you, Mr. Chairman. And I would be welcome to answer 
any questions you might have.
    Mr. Regula. Well, it is a real challenge to manage the 
forests, and there is a changing a mission because recreation 
has become a big item. I asked earlier why there was so much 
land for sale from the pulpwood industry in the Northeast. They 
say they are getting their paper, I guess, from overseas or 
from offshore somewhere. Their machinery is antiquated, and 
they don't want to invest in new.
    Ms. Coulombe. It is very hard for the forest products 
industry in today's environment to be competitive.
    Mr. Regula. Well I can understand. The regulations almost 
make it impossible. And obviously people who can export to the 
United States don't have to cope with those same burdens.
    Ms. Coulombe. That is correct. And we are very concerned. 
Thank you, Mr. Chairman.
    Mr. Regula. Okay. Thank you for coming.
    [The statement of Ms. Coulombe follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                     U.S. FISH AND WILDLIFE SERVICE


                         U.S. GEOLOGICAL SURVEY


                                WITNESS

GARY TAYLOR, LEGISLATIVE DIRECTOR, INTERNATIONAL ASSOCIATION OF FISH 
    AND WILDLIFE AGENCIES
    Mr. Regula. International Association of Fish and Wildlife 
Agencies.
    Mr. Taylor. Thank you, Mr. Chairman. I am Gary Taylor, 
legislative director of the International Association of Fish 
and Wildlife Agencies. And I appreciate the opportunity to 
share with our perspectives on the Fiscal Year 2000 budget 
requests for the Interior and related agencies.
    As you know, all 50 State fish and wildlife agencies are 
members of our association. We have submitted to the 
subcommittee our association's detailed recommendations for the 
agencies under your jurisdiction. But let me briefly highlight 
today here only two areas of interest and concern to the 
association.
    We do appreciate the support from this subcommittee in the 
past, and in recognition of the tight fiscal constraints we are 
operating under this year, have made measured recommendations 
for modest increases to only a few programs.
    First, I would like to highlight the migratory bird program 
in the U.S. Fish and Wildlife Service. The association supports 
the $2.8 million increase requested in the Fiscal Year 2000 
budget but remains concerned that the base budget for the 
management of migratory birds is still below an adequate level.
    Although the service has identified migratory birds as a 
priority, migratory bird management remains significantly 
under-funded. Inflation and increased operating costs have 
escalated, and any enhanced funding in recent years has been 
earmarked. Additional funding is needed to facilitate meeting 
program objectives for migratory bird conservation.
    As you know, migratory birds are an international resource.
    The association therefore recommends an additional increase 
of $1.5 million be added to the base to address this need. 
Specifically, non-game migratory bird populations need 
additional monitoring to ensure that pro-active management of 
declining species precludes having to rely only on the 
Endangered Species Act as a last-ditch conservation effort.
    The association therefore further recommends an additional 
$1 million be directed annually toward non-game migratory 
birds.
    Acting now to conserve many of these declining species will 
prevent them from becoming endangered. This just makes good 
biological sense and good common sense.
    My other comments today relate to the budget request of the 
Biological Resources Division of the U.S. Geological Survey. 
The association is deeply troubled by the proposed Fiscal Year 
2000 budgets for BRD. This budget proposes to transfer control 
of $37 million from BRD to the U.S. Geological Survey for 
activities that clearly address the mission of the Biological 
Resources Division. And yet the budget provides no net increase 
in BRD's spending.
    The proposed Fiscal Year 2000 budget for BRD also continues 
to reflect an emphasis on meeting needs identified by the 
Department of Interior Land Management Bureaus, units of the 
Government that manage only 20 percent of the land area in the 
United States. Biological needs for the 80 percent of the land 
areas managed by the States are largely ignored.
    We suggest that Congress make it clear to BRD that meeting 
the research needs on the 80 percent on the non-Federal land 
area should also be a priority.
    The association finds the proposed transfer of $3 million 
from BRD control to USGS for department support and place-based 
studies plus the transfer of an additional $23.7 million for 
facilities to be of particular concern.
    We have reminded BRD in the past that over 80 percent of 
the programs now within the Biological Resources Division were 
originally in the U.S. Fish and Wildlife Service and were 
closely aligned to meeting the needs of State fish and wildlife 
agencies.
    For Fiscal Year 2000, while it appears that the $13.3 
million are being programmed for activities of importance to 
States, it is certainly possible that USGS could use those 
funds for other purposes.
    Our association recommends that these funds remain within 
the BRD budget along with the $23.7 million for facilities that 
is also proposed for transfer to the USGS.
    Mr. Chairman, thank you as always for the opportunity to 
share our perspectives with you. And I would refer you to our 
written material for more detail on these agencies.
    Mr. Regula. Well, as you know, we have a tough budget year. 
At least it is headed that way. The work you do is important.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Regula. It's good to have the States' share, and I 
assume you serve as a clearinghouse of innovative ideas.
    Mr. Taylor. We do indeed, and, as you know, Mr. Chairman, 
the States are largely the frontline managers of fish and 
wildlife within their borders. We have jurisdiction for those 
species Congress has given----
    Mr. Regula. What you do is keep them from reinventing the 
wheel.
    Mr. Taylor. Well, we would like to also to get out ahead of 
the endangered species curve by being able to react to early 
warning signs of decline and address the life needs and habitat 
requirements of species before they have to be put on the list. 
And some of the----
    Mr. Regula. Well, if you can deal with 50 States, you can 
disseminate this information. I assume you have a monthly 
publication that goes out to the States?
    Mr. Taylor. We often communicate everyday with all of our 
50 State fish and wildlife agencies--certainly every week.
    Mr. Regula. Well, what you are doing is very important. 
Thank you.
    Mr. Taylor. Thank you.
    [The statement of Mr. Taylor follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                       HISTORIC PRESERVATION FUND


                         NATIONAL PARK SERVICE


                                WITNESS

SUSAN WEST MONTGOMERY, PRESIDENT, PRESERVATION ACTION
    Mr. Regula. Preservation Action.
    Ms. Montgomery. I am Susan West Montgomery, president of 
Preservation Action. And thank you for the opportunity to speak 
with you today about the historic preservation fund. 
Preservation Action is the national grassroots lobby for 
historic preservation.
    I am lucky. My job gives me the opportunity to visit 
communities all over the country and to work with individuals 
deeply committed to preserving their rich heritage. They use 
preservation as a means to re-inject economic stability and 
neighborhood vitality into their communities. They join 
environmentalists and others as stewards of our Nation's 
precious resources.
    As you know, the Federal Government has been a partner in 
these endeavors for more than 30 years. Through the Historic 
Preservation Fund, you underwrite the work of the State 
historic preservation offices and tribes and certified local 
government, ensuring their ability to carry out federally-
mandated preservation programs.
    These agencies are the backbone of preservation in this 
Nation. They give citizens and communities alike the tools they 
need to assess the cultural patrimony and then set out to make 
certain it thrives for generations to come.
    Last year, Mr. Regula, you initiated funding for the 
millennium grant. I cannot tell you how much support and great 
optimism this program has generated nationwide. Most important, 
the millennium grants have brought national attention to the 
work of preserving America's great treasure, which in effect is 
the work of the Historic Preservation Fund.
    We were extremely heartened by the Fiscal Year 1999 
appropriations, which represented a $32 million increase in the 
fund. And thank you for your efforts in this regard.
    Mr. Regula. Thank the taxpayers.
    Ms. Montgomery. And the taxpayers, certainly. [Laughter.]
    In 2000, we hope you will not only maintain this level but 
indeed fully fund the Historic Preservation Fund. This may seem 
like an audacious request, especially in this time of budget 
constraints, especially those posed by the balanced budget 
agreement. And we certainly understand that you are laboring 
under these constraints.
    But we are convinced that the Historic Preservation Fund 
stands out as a model of efficiency and effectiveness. We are 
also buoyed in our request by recent actions on the part of 
Congress and the administration to explore opportunities to 
directing more offshore-oil-lease revenues toward resource 
programs, protection programs, including the Land and Water 
Conservation Fund and the Historic Preservation Fund.
    We believe that full funding for the HPF is not only 
justified, it is essential for ensuring the success of all 
these resource protection plans.
    First, the Historic Preservation Fund doubles and triples 
Federal dollars. And I know that you have heard this over and 
over again, but it is true. In addition to the services it 
receives from the States, the Federal Government also benefits 
mightily from the attendant economic consequences of historic 
preservation.
    Every Federal dollar translates into millions of dollars in 
State and tribal matching funds. The rehabilitation tax credit 
in 1998 alone has leveraged more than $2 billion in private 
investment, created over 40,000 jobs, and bolstered the tax 
base of communities large and small, rural and urban 
nationwide.
    The HPF makes good fiscal sense. And I know that you are a 
supporter of the historic Home Ownership Assistance Act. And 
this similarly will generate private investment in historic 
resources. And that is really what the historic preservation 
program is all about, putting people to work on behalf of these 
resources, not just the Federal Government.
    Secondly, the Historic Preservation Fund sustains 
communities. Livability and smart growth may be the latest 
catch phrases of environmental conservation, but they are what 
historic preservation has always been about. Preservation seeks 
to maintain, restore, and reuse--recycle, if you will.
    While we can't force people to stay in historic 
neighborhoods and use existing infrastructure, activities that 
would for certain curb suburban sprawl, protect habitat, and 
save the environment, we can, through historic designation, tax 
incentives, and good planning give them reasons to do so.
    Specifically, we endorse the $50 million appropriation to 
support the core State and local programs, and $10 million for 
tribal preservation offices and grants.
    These programs have an impressive track record. They have 
turned Federal money into restored houses, reopened businesses, 
and revitalized communities.
    We hope you will consider the full testimony we have 
presented, and thank you very much.
    Mr. Regula. Thank you. Of course, part of preservation is 
to have a good maintenance program, and that is one of the 
things we have been emphasizing in this committee. And so when 
we have so many good things to do, it gets tough to get it all 
done.
    Thank you.
    Ms. Montgomery. Thank you.
    [The statement of Ms. Montgomery follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, April 13, 1999.

                             FOREST SERVICE


                        STATE AND FIRE PROGRAMS


                                WITNESS

GARY L. HERGENRADER, PRESIDENT, NATIONAL ASSOCIATION OF STATE FORESTERS
    Mr. Regula. Well, you are the one we have been looking for, 
the National Association of State Foresters.
    Thank you for coming. Tell us your story.
     Mr. Hergenrader. Mr. Chairman, my name is Gary 
Hergenrader. I am the State forester of Nebraska and president 
of the National Association of State Foresters.
    Mr. Regula. Do you have a lot of forests in Nebraska?
    Mr. Hergenrader. Not as many as we would like.
    Mr. Regula. Are you achieving more growth than you are 
cutting?
    Mr. Hergenrader. We are about on an even basis right now. 
We are cutting just about as much as we are growing.
    Mr. Regula. I belong the National Arbor----
    Mr. Hergenrader. The National Arbor Day Foundation?
    Mr. Regula. Right.
    Mr. Hergenrader. I'm a trustee with them.
    Mr. Regula. Are you?
    Mr. Hergenrader. Yes, sir.
    Mr. Regula. Well they seem to do good work. I get some 
trees. I'm a tree planter myself. I live on a farm, and I have 
planted thousands of them. I like to support the foundation's 
work.
    Mr. Hergenrader. We think they do a good job.
    Mr. Regula. Yes. We need more groups like that. Go ahead.
    Mr. Hergenrader. I would like to thank you for 
accommodating our testimony today. I understand that took some 
doing on your part, and I appreciate that. I also want----
    Mr. Regula. Well, you are at the end of the list.
    Mr. Hergenrader. One advantage at being at the end of the 
list is there aren't very many hecklers in the audience who 
might want to disagree with what you have to say.
    Mr. Regula. It has thinned out a little. [Laughter.]
    Mr. Hergenrader. I also understand that you have expressed 
some concerns about State and private forestry programs in USDA 
Forest Service. And I will try to address those concerns.
    Mr. Regula. Well, summarize as much as you can.
    Mr. Hergenrader. You have asked why it is appropriate to 
provide funding for the State and private forestry programs 
when some States are running surpluses and when maintenance 
backlogs are apparent on the national forests.
    Mr. Regula. That is exactly my position.
    Mr. Hergenrader. The answer is that there is major interest 
in the management of non-federal forests, and that State and 
private forestry programs are in our view the most appropriate 
expression of that interest.
    Since the early 1900's, there has existed a formal 
cooperative relationship between the Federal Government and 
States to redeem the public's interest in State and private 
forest land. That cooperative relationship has not only 
endured, but it has been strengthened over time to address not 
only fire protection, which was the original agreement, but 
many other public values as well. And that collaboration has 
weathered the ups and downs of budget cycles, both in federal 
and State.
    In my view, it exhibits one of the best examples of 
Federal-State cooperation I know of.
    Mr. Regula. I think it is a good partnership, I know in 
Ohio the nursery in Delaware gets Federal help. I have gotten 
thousands of trees from them myself. You can buy the seedlings.
    Mr. Hergenrader. We have a similar program.
    Mr. Regula. I was going to ask you if you have a program 
where landowners can purchase seedlings.
    Mr. Hergenrader. Yes; we do. It's been in existence since 
1926.
    Mr. Regula. Those programs have done a lot to stimulate 
reforestation.
    Mr. Hergenrader. They provide the source of supply.
    Mr. Regula. Yes.
    Mr. Hergenrader. We recognize that you are operating under 
budget constraints. We ask that you consider the increases NASF 
is seeking are minor compared to the magnitude of the job to be 
done and the rest of the Forest Service budget.
    The Forest Service is directly responsible for managing 
less than 20 percent of the forested acres in the United 
States. Yet they spend over 90 percent of their budget on those 
acres.
    State and private forestry programs are the contact points 
between the Forest Service and the other 80 percent of the 
Nation's forested lands. What we are asking for is an increase 
that would bring us to a little less than 7 percent of the 
Forest Service budget to about 9 percent.
    Also in relation to non-Federal Forest in relation to the 
economy, the overall level of Federal investment in protecting 
and enhancing these resources is pretty small. The value of 
timber delivered to mills annually is over $19 billion, and 
that far exceeds the value of any one real crop. This does not 
take into account the values of watershed protection, wildlife 
habitat, and air quality.
    In addition, we firmly believe that the investments we are 
seeking can help lower Federal expenditures over the long run. 
Cooperative fire programs are a perfect example. Funding to 
help create and equip volunteer fire companies has dropped so 
low that in some areas, if a department receives assistance 
once, they are dropped from the list of eligible departments 
for 10 years.
    NASF is seeking an increase from $2 million to $10 million 
for that program. And this is how it could save Federal money. 
If a State forester is able to train and partially equip a 
volunteer fire department in a rural area, that department 
stands a much greater chance of being able to stop a fire at 
the initial attack stage. If they are successful, and 
particularly if the fire is near or would have burned over onto 
Federal land, then Federal fire-fighting forces, which are far 
more expensive, do not need to be called in.
    One large project fire prevented can save millions of 
dollars. And I will give you a recent example from my home 
State of Nebraska to illustrate this. In mid-March, a range 
fire driven by strong winds burned over 100,000 acres in 
Nebraska's Sand Hills. And this is the largest fire in recent 
Nebraska history.
    That fire burned over an expanse that covered more than 40 
miles. Before it was brought under control by volunteer fire 
departments, fire had forced the evacuation of a town in its 
path. In fact, the fire came within 50 yards of that town, 
killed several hundred head of cattle, destroyed fences, and 
burned up valuable forage for livestock.
    The wind was blowing from the west, and then turned to the 
north. Directly in its path lay the Nebraska National Forest, 
the largest hand-planted forest in the Nation and Bessie 
Nursery, the oldest continuously operating Forest Service 
nursery in the country.
    Had the volunteers not been able to turn the fire and 
suppress it, those national treasures could have been lost. 
These volunteers received wildfire training from the Nebraska 
Forest Service and used equipment from our Federal excess 
property program.
    We are not arguing that coop fires could prevent all 
project fires. Apparently that an investment of a few million 
dollars could easily reduce their number and save Federal 
dollars. All of this is bracketing the fact that in many areas, 
in many rural areas they are still coping with the changes in 
the 1996 Federal fire policy, which removed structural 
protection from the fire-fighting mission of the agency.
    Federal investments are needed to help these communities 
cope with these changes. As our priorities are as we have 
discussed with you in the past, cooperative fire protection, 
cooperative forest health protection, which has major 
implications in your district, Mr. Chairman, landowner 
assistance, urban forestry, and forest inventory. Each of these 
programs adheres to the principles we have shared in the past. 
They add value to private forests through incentives and non-
regulatory approaches. Each one is designed to protect forests 
and improve their contribution to social and economic well-
being while leveraging funds from the States, communities and 
small landowners.
    We are working with the Forest Service to ensure that each 
of these increases is geared toward accomplishing specific 
results and would be happy to share more information or answer 
any questions you have.
    Mr. Regula. Okay. Well, thank you very much. I'm pretty 
familiar with the programs, and a lot of this is predicated on 
what we have to distribute.
    Mr. Hergenrader. I understand.
    Mr. Regula. Probably at this moment, it looks like we are 
going to have a pretty skinny budget this year.
    Mr. Hergenrader. Everything is a matter or priority. We 
have told you what ours are, and we think they are important 
programs.
    Mr. Regula. Well, we try to balance it out as much as we 
can.
    Mr. Hergenrader. We understand. Appreciate the support you 
have given us in the past.
    Mr. Regula. Thank for coming.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. The meeting is adjourned. We have another list 
tomorrow.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                DEPARTMENT OF ENERGY: FOSSIL ENERGY R&D

                                WITNESS

GARY STYLES, MANAGER, PLANNING AND ANALYSIS, POWER SYSTEMS DEVELOPMENT 
    FACILITY, SOUTHERN COMPANY SERVICES, INC.
    Mr. Regula [presiding]. Okay, we are on the record. Let me 
say that we have a lot of witnesses today. We will have five 
minutes for each one. I would like you summarize your testimony 
and all of your statements will be made a part of the record in 
full.
    We will start this morning with the Southern Company 
Services. Mr. Styles.
    Mr. Styles. Thank you, Mr. Chairman.
    Mr. Regula. You are welcome.
    Mr. Styles. Thank you for giving me this opportunity to 
tell you about the Power Systems Development Facility in 
Wilsonville, Alabama. I would also like to express my 
appreciation for this committee's previous support for our 
important research. The fundamental purpose of the Power 
Systems Development Facility is to support the national program 
to assure competition from energy resources, and thereby, to 
keep electricity and energy prices low. The objectives of the 
Power Systems Development Facility, in conjunction with other 
DOE research projects and programs, are to reduce the technical 
risks, improve environmental performance, including a 25 
percent reduction in carbon dioxide emissions and reduce the 
cost of producing electricity from coal, our nation's most 
abundant fossil fuel resource.
    The Power Systems Development Facility also supports DOE's 
Vision 21 program.
    Power Systems Development Facility is the only facility in 
the world where all the components of an advanced coal-fired 
system can be tested in an integrated fashion at practical 
engineering scale prior to taking the risk and cost of 
commercial implementation. This facility and other DOE fossil 
energy research programs will help the U.S. maintain reasonable 
domestic energy prices.
    Recent economic studies, completed by the Electric Power 
Research Institute, the Department of Energy, and Southern 
Company, show that advanced research programs are successful, 
the capital cost of these systems can be reduced to less than 
$900 a kilowatt. Based on the latest EIA fuel cost estimates 
coal can regain its competitive advantage by as early as 2007 
if we can reduce the capital cost an additional $100 to about 
$800 a kilowatt.
    To support the continued operation of the Power Systems 
Development Facility, we request $20,000,000, or a $670,000 
increase above the Fiscal Year 2000 budget request be included 
in advanced and efficient power systems program in the U.S. 
Department of Energy, Fossil Energy budget.
    If you have any questions, I'll be glad to try to answer 
them.
    Mr. Regula. Your group has a central location where you 
test these different techniques. I assume part of your budget 
comes from the power industry.
    Mr. Styles. Yes, sir. It does. The power industry and other 
industrial participants, such as Foster Wheeler, M.W. Kellogg, 
Westinghouse, and several others--Peabody Coal Company is 
another participant.
    Mr. Regula. So you can do a project or projects for them, 
and they contract with you for that service?
    Mr. Styles. We don't do a project specifically for them. If 
we use their technology.
    Mr. Regula. The information you develop is available to 
every facet of the power industry?
    Mr. Styles. Yes, sir.
    Mr. Regula. It would seem to me the deregulation for the 
power industry will put increasing pressure on the industry to 
be competitive, and that will make what you're doing more 
important, certainly more necessary perhaps.
    Mr. Styles. Yes, sir. We think so. The--deregulation is 
forcing utilities to take a much shorter perspective.
    Mr. Regula. Right. Thank you very much. We have a vote on, 
so we are going to suspend the hearing for about eight or nine 
minutes and be right back.
    [The statement of Mr. Styles follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Recess.]
    Mr. Regula. Okay. We will get started again.
                              ----------                              

                                         Wednesday, April 14, 1999.

                   DEPARTMENT OF ENERGY: CONSERVATION


                                WITNESS

DAVID HAMILTON, POLICY DIRECTOR, ALLIANCE TO SAVE ENERGY
    Mr. Regula. Our next witness is the Alliance to Save 
Energy.
    Mr. Hamilton. Hi, Mr. Chairman.
    Mr. Regula. How are you?
    Mr. Hamilton. Okay, thank you. My name is Dave Hamilton. I 
am the policy director at the Alliance to Save Energy. I 
appreciate the opportunity to come and talk to you this 
morning.
    The Alliance is a bipartisan, non-profit coalition of 
environmental, government, business, and consumer leaders 
focused on improving the energy efficiency of the economy. And 
70 companies are currently--currently belong to the Alliance, 
and I wanted to submit a list of those companies and our board 
for the record.
    Mr. Regula. Thank you.
    Mr. Hamilton. And we appreciate the opportunity to talk in 
support of the President's request for the DOE Energy 
Efficiency Programs. The President's request applies for more 
than 20 percent increase in those programs, which is 
significant under any circumstances.
    Mr. Regula. Especially when we are probably going to have 
less money in our allocation.
    Mr. Hamilton. My next point was that especially in the 
context of the budget constraints and looking at some of your 
recent comments in the Post and pointing up the stark decisions 
that have to be made about, you know, how we spend Federal 
dollars and the endangerment of all sorts of varieties of 
domestic discretionary spending.
    In that context, we felt that it was--and in the context of 
a number of comments that were made on the floor of the House 
last year, we feel it is important to look at energy efficiency 
in a way that compares it on a straight up basis with other 
energy sources. And, you know, it is a hard thing to do, 
because you are talking about energy displaced rather than, you 
know, cubic feet of natural gas or gallons of oil. And so we 
have done some of that economic analysis, and the research 
director at the Alliance is putting together a report to be 
released later in the year. But we felt that some of those 
results were important to talk about with you now. You know, we 
usually come here and talk about energy efficiency--you know, 
it is clean, contributes to the economy, good for national 
security, good for international competitiveness. But, in fact, 
Mr. Chairman, we looked at 1973 to 1997, and in 1997 
specifically, energy efficiency was the highest produced 
domestic energy resource in the country, at 27.6 quads. That is 
28 percent of our energy comes from energy efficiency. You 
know, I heard one member on the floor last summer talk about 
energy efficiency as an esoteric energy source with kind of, 
you know, who has probably run the course of, you know, of its 
contribution to the economy.
    Mr. Regula. Well, I don't think that is true, because 
obviously we are much more energy efficient as a society.
    Mr. Hamilton. Right. Exactly.
    Mr. Regula. We get more miles per gallon traveled with our 
cars. Power plants are more energy efficient. I assume that is 
your mission.
    Mr. Hamilton. Right. Exactly. And during the 25-year period 
between 1973 and 1997, oil and natural gas led in total 
domestic energy production, but energy efficiency came in 
third. But during that period of growth in the economy, energy 
efficiency was responsible for providing two-thirds of the 
incremental growth in energy production that allowed for an 86 
percent increase in GDP. Most of the rest of that was 
structural changes in the economy, and 10 percent came from 
traditional energy sources.
    And these economic snapshots of efficiency show an energy 
industry that really spans the populace and the geography of 
the nation. But it is not an industry in the traditional sense 
that we think about it. You know, our--the roughnecks of the 
energy efficiency industry are, you know, families seeking to 
make their houses warmer and more comfortable. The miners are 
businesses looking to cut their costs. You know, energy 
efficiency is highly dispersed throughout the country, which 
has political implications that we deal with every year. You 
know, there is no energy efficiency patch. There is no--you 
know.
    Mr. Regula. Okay, we have about a minute left. Let me ask 
you a couple of questions. Do you agree that fossil energy 
research contributes to energy efficiency?
    Mr. Hamilton. Yes. As energy efficiency research 
contributes to fossil efficiency.
    Mr. Regula. All right. You say energy efficiency is a gain 
as such. How would you define energy efficiency?
    Mr. Hamilton. Energy efficiency is the replacement of the 
technology to displace energy, to lower energy consumption. So 
it's the displacement of energy use in a way that if you have a 
certain supply, and you get the same amount of production by 
using of that supply, you then have created the difference.
    Mr. Regula. So you are saying you are taking whatever the 
source might be and translating more of those components into 
useable energy, and it could span a whole wide variety. Now, 
would not energy efficiency include the ability to produce it 
more effectively, not only to use it more effectively?
    Mr. Hamilton. Well, I think when you talk about electricity 
and, you know, how to improve the efficiency of turbines, you 
know, there are--energy is produced and used at every stage.
    Mr. Regula. Right.
    Mr. Hamilton. You know, across the economy. So you can use 
it more efficiently at every stage that it is produced and 
used.
    Mr. Regula. In other words, you convert more BTUs from a 
lump of coal to light than you would otherwise, and that is the 
mission of your agency?
    Mr. Hamilton. Right.
    Mr. Regula. Thank you.
    Mr. Hamilton. Do I have 10 seconds to talk about programs?
    Mr. Regula. You really have 10 seconds.
    Mr. Hamilton. We have traditionally been very interested in 
analyzing and assessing DOE programs, and some of the ones we 
believe are most effective are Federal Energy Management 
program, which you gave a generous increase to last year; 
Energy Star, we believe is a very key lever for increasing 
public awareness of codes and standards. And thank you very 
much.
    Mr. Regula. Thank you.
    [The statement of Mr. Hamilton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

              DEPARTMENT OF ENERGY: ENERGY EFFICIENCY R&D


                                WITNESS

MICHAEL L. MARVIN, EXECUTIVE DIRECTOR, THE BUSINESS COUNCIL FOR 
    SUSTAINABLE ENERGY
    Mr. Regula. The Business Council for Sustainable Energy.
    Mr. Marvin. Thank you, Mr. Chairman. I am Michael Marvin, 
the organization's executive director. The Council was created 
back in 1992 by energy executives in the efficiency, renewable, 
natural gas and electric utility industry. We were trying to 
merge the idea of economy, environment, and national security.
    One of the things--one of the several issues that we work 
on is climate change. And whether we like it or not, it has 
become a major driver in the international energy markets, and 
certainly for us to maintain our ability to compete on the 
international level and maintain our market share. The energy 
R&D that this subcommittee provides for is critical. There are 
a number of business groups that work on climate change issues. 
There are not a lot of issues on which we all can agree across 
the spectrum. But one thing I think we all agree on is that the 
investment and the co-investment of the private sector and the 
public sector and increasing the efficiency, both of fossil and 
non-fossil technologies, is one of the most critical pieces of 
an overall strategy on climate change.
    One of the things the Energy Information Administration 
recently said that 60 percent of the greenhouse gases that this 
country is going to emit in the year 2010 will be emitted by 
technologies that have not yet been purchased. So when we talk 
about in terms of being able to affect things without command 
and control regulation, regardless of any protocol or non-
protocols, we can affect those. I mean, there are technologies 
that continue to be perfected, continue to increase in 
efficiency, even some very basic ones.
    Mr. Regula. Do you think the marketplace will be the most 
important component of making these things work?
    Mr. Marvin. Well, I think the marketplace is clearly--we 
need to ensure that the value of the efficiency is understood 
and recognized, and I think that is--some of the most important 
things that the government does--are things, as my colleague 
mentioned, on Energy Star, for example, increasing the 
education of the value to a consumer's pocketbook on these 
technologies. And the fact is that CO<INF>2</INF> savings may 
be ancillary to that, and that is okay. I am not offended by 
that.
    Mr. Regula. So what you are saying is let us accomplish 
reductions in CO<INF>2</INF>s by programs incrementally, and 
not try to deal with a crash program?
    Mr. Marvin. Well, I am not--well, it would get into 
definitional terms, but I think that the first and more 
important issue is going to be the R&D. Now, are there steps 
that we should take further? I mean, certainly there are 
varying opinions. I mean, there are certainly--the biggest 
variance comes in the protocol itself. We have advocated the 
use of market-based mechanisms, whatever those are, whether 
that be modest tax incentives or continued R&D.
    Mr. Regula. Will we have to implement them if we are going 
to remain competitive with the rest of the world even if they 
are not being driven by the same mantra that we are?
    Mr. Marvin. Well, I think that, frankly, from our 
perspective in looking, and we talk to our companies--the 
Enrons, the Honeywells, the Maytags, I mean, their concern is 
that as a result of an international focus on climate change, 
what you are going to get is increased efficiency, and an 
increasingly efficient product that, if the United States is 
not operating under the same terms, conditions, and priorities, 
that maybe we find ourselves in a less competitive process, 
because we have slightly less----
    Mr. Regula. But the efficiencies will reduce the cost of 
our products in the marketplace, won't they?
    Mr. Marvin. Exactly. And I think if that is not being 
driven in consort with Federal support as it is in Europe and 
Japan and elsewhere, then that is where we stand to have real 
problems. If I could just mention one program that I think my 
colleague mentioned within the Federal Energy Management 
Program, the Energy Savings Performance Contracting. You know, 
sometimes I feel like a kid in those few weeks before 
Christmas, anticipating that big day of ESPC's success may 
never come, but there are signs of the potential. And we have 
created the Federal Performance Contracting Coalition, which is 
a group of companies--Enron, Honeywell, Johnson Controls, 
Environs, et cetera--who have put their money where their mouth 
is. And our particular interest are ensuring the technical and 
contracting expertise within DOE and the focus on sufficient 
staffing, and you have been very generous and very supportive 
of that program. And we want to recognize and appreciate it. 
This is harder than any year since perhaps Graham-Rudman-
Hollings back 14 years ago, and I am sure glad I am on this 
side of the table and not on yours, but----
    Mr. Regula. It will be a difficult year. Thank you.
    [The statement of Mr. Marvin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

          DEPARTMENT OF ENERGY: FOSSIL ENERGY AND CONSERVATION


                                WITNESS

LEE CAMARA, PRESIDENT AND CEO, M-C POWER
    Mr. Regula. M-C Power.
    Mr. Camara. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Camara. Thank you very much for this opportunity to 
air. My name is Lee Camara, and I am the president and CEO of 
M-C Power Corporation, one of the current contractors in the 
DOE Fossil Energy Fuel Cell Program.
    Our first market entry, the market entry product that, you 
know, we are planning is an environmentally clean, high 
efficiency 500-kilowatt molten carbonate fuel cell power plant. 
To give you an idea, in the Chicago suburbs, where M-C Power is 
located, a power plant of that size could provide base load 
electrical needs for 150 to 200 homes.
    Mr. Regula. Would this be at a cost equal or competitive 
with conventional power?
    Mr. Camara. They will be--they will be very, very 
competitive with conventional power as long as you take it, you 
know, according to the price that the consumer pays. You know, 
base or central power generation in a large power plant, for 
example, you're talking about cost of electricity generation--
that are generating that power at two cents a kilowatt hour. 
However, once you take into consideration with cost of 
transmission.
    Mr. Regula. Right.
    Mr. Camara. And then the cost to distribution.
    Mr. Regula. That is all part of it.
    Mr. Camara. And then you compare, you compare the cost of 
power fuels of power plants with that cost----
    Mr. Regula. My question is are you reaching a point where 
you can deliver a kilowatt hour to a strip mall or to a farm or 
to a small factory with a fuel cell at a competitive cost to 
what they can get it off the high line?
    Mr. Camara. Yes, sir. We are. You know, as a matter of 
fact, we are going to, you know, in this program, we are going 
be fuel--putting some fuel tests out, you know, starting in the 
second half of 2001. We are going to put four of them, and in 
different applications, and you know they are exactly what, you 
know, the applications that you are talking about. You know--
hospital, you know, an office building. As a matter of fact, 
one of them is at a Federal building, GSA building, in Detroit, 
Michigan. And they have analyzed and they came to a conclusion 
that yes, that they will save money by putting one of our fuel 
tests in--you know, at this building in Detroit. In addition, 
to what is important because the quality of the power that 
comes in one the fuel cell power plants is extremely--you know, 
it is fantastic. And it is a government building where there is 
a lot of computer operations and, you know, it is--they 
offering of the quality of the power is very important to them.
    Mr. Regula. Well, another value, of course, is that there 
are no emissions.
    Mr. Camara. Correct. The emissions are extremely, extremely 
low and are insignificant. You know, heard about energy 
efficiency before, and about CO<INF>2</INF>, you know, 
CO<INF>2</INF> emissions, and the high efficiency of this 
thing----
    Mr. Regula. Now, are there not two kinds of fuel cells?
    Mr. Camara. You know, today on the development--today on 
the development, there is the solid polymer electrolyte fuel 
cell. That's on the energy efficiency. And then the reason the 
molten carbonate, which is M-C Power's technology----
    Mr. Regula. So you use the molten carbonate technology?
    Mr. Camara. Yes, exactly. We are a molten carbonate fuel 
cells power plants for stationary power.
    Mr. Regula. How are you financed since obviously you are 
not probably market--you are not in the market place yet. Does 
DOE help fund your research?
    Mr. Camara. Yes, sir.
    Mr. Regula. Does the private sector also contribute?
    Mr. Camara. Yes, sir. You know, according to the contract 
with DOE, you know, we have to cost share. I think that overall 
in this contract 32 percent of the cost is--comes up by 
industry. And we have, you know, the regulation, and, you know, 
the main supporters that we had were electric and gas 
utilities. And, you know, the regulation has had a significant 
impact in our ability to raise cost sharing. However, we are--
we fell behind in cost sharing, and we are at this point in 
time, we are back on a schedule. And, you know, we are looking 
forward to----
    Mr. Regula. Your message to us would be to continue to 
support these programs?
    Mr. Camara. Yes, sir.
    Mr. Regula. Okay. Thank you very much. Very interesting.
    Mr. Camara. Thank you.
    [The statement of Mr. Camara follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                              DOE PROGRAMS


                                WITNESS

BERNARD LEE, PRESIDENT, IGT
    Mr. Regula. IGT.
    Mr. Lee. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Lee. I am Bernard Lee, President of the Institute of 
Gas Technology.
    Mr. Chairman, the next 15 or 20 years, DOE predicts that 
because of market-driven choices or opportunities the U.S. 
reliance on natural gas will increase significantly. That 
potential growth in the economic use of natural gas will also 
bring cleaner air. We all know that. But the troubling news is 
that the U.S. funding for natural gas-related R&D is 
decreasing, potentially jeopardizing these expected gains in 
natural gas----
    Mr. Regula. Okay, now let us talk about that. What can we 
do? Are you suggesting there are ways that gas can be used more 
efficiently?
    Mr. Lee. Yes, and I will be reporting on two of those 
items.
    Mr. Regula. Okay.
    Mr. Lee. What I am suggesting to you, sir, is that we 
notice that the Fiscal Year 2000 budget for gas-related 
programs represented an overall nine percent decrease from the 
1999 level, which took the program back even below the Fiscal 
Year 1998 level. And these reductions happen to come at a time 
when the gas industry is experiencing significant cutbacks in 
private sector funding due to two factors: one, the utility 
deregulation, which is moving through the country; and the 
second is the change in the FERC order funding collected by 
GRI. And the impact to R&D people are already felt; therefore, 
we urge an increased Federal role in funding gas related 
programs that address the full range of gas technology from 
production through transportation infrastructure, all the way 
to gas utilization.
    Let me now focus on two specific DOE funded programs that 
IGT is working on, which we--in which we are making good 
progress.
    The first one is we continue to be a strong supporter and a 
participant in the strategic approach and technology content of 
the industries of the future, IOF program, in DOE's Office of 
Industrial Technology. This program targets the nine U.S. 
industries where energy use is the highest and most intensive, 
and a parallel, cross-cutting program where solutions can be 
applied to multiple application. We are currently involved in 
five of those nine areas--in petroleum, steel, forest products, 
glass, and sensors and controls. For Fiscal Year 2000, DOE has 
requested a slight increase in the industries of the future 
programs, increasing the funding for industry specific efforts 
but lowering the funding for the cross-cutting technologies. We 
urge you to maintain the request for the industry-specific 
portion, but restore the cross-cutting technology program to at 
least the Fiscal Year 1999 level.
    Mr. Regula. Okay. We are running out of time. A couple 
questions. Do you do the research involving the use of gas in 
all types of applications, i.e., electric generation, 
automobiles, natural gas vehicles? Does your research cut 
across the spectrum of gas usage?
    Mr. Lee. We only do research when we have funding to----
    Mr. Regula. I understand, but is that the mission if you 
had the money?
    Mr. Lee. If we had the money, indeed. We are very active in 
industrial applications. Some of the PEM fuel cell work we are 
doing are applicable to the transportation sector and, in fact, 
is supported by the transportation sector, as well as for small 
applications in homes and small commercial buildings----
    Mr. Regula. Fuel cells.
    Mr. Lee. Fuel cells and the PEM fuel cells, so-called 
polymer electrolyte membrane fuel cells, which is supported by 
DOE in which we are making some very, very good progress. We 
seek your continued support for both.
    Mr. Regula. Okay. Well, thank you very much.
    Mr. Lee. Thank you, sir.
    [The statement of Mr. Lee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                              DOE PROGRAMS


                                WITNESS

JARED O. BLUM, PRESIDENT, PIMA
    Mr. Regula. PIMA. Not here yet.
                              ----------                              --
--------

                                         Wednesday, April 14 ,1999.

                              DOE PROGRAMS


                                WITNESS

FRANK DERBYSHIRE, DIRECTOR, CENTER FOR APPLIED ENERGY RESEARCH, 
    UNIVERSITY OF KENTUCKY
    Mr. Regula. University of Kentucky.
    Mr. Derbyshire. Good morning, Mr. Chairman. Thank you again 
for hearing my testimony, and again I am representing the 
Kentucky Coal Council and the University of Kentucky Center for 
Applied Energy Research.
    I have described to this committee over previous years the 
work we started in about 1994----
    Mr. Regula. Do you focus on coal?
    Mr. Derbyshire. Yes, that is right.
    Mr. Regula. Okay.
    Mr. Derbyshire. And particularly, as you will hear on a co-
production concept to develop advanced coal-fired power 
generation. We started looking at this as a mechanism for 
accelerating deployment of advanced coal-fired power plants 
something like five years ago; and, at the same time, trying to 
satisfy, through that mechanism, the needs for low-cost 
electric power and environmental protection. Without going into 
detail, the idea basically involved using coal gasification as 
a keystone of an integrated plant that would co-produce added 
value products, such as chemicals and fuels together with 
electric power.
    Mr. Regula. In other words, you'd get these things out of 
the lump of coal?
    Mr. Derbyshire. Yes, one of them.
    Mr. Regula. Sulphur, for example.
    Mr. Derbyshire. Right. We are seeing sulphur as a product 
we would get anyway----
    Mr. Regula. How do you gasify it? Do you do it under 
pressure?
    Mr. Derbyshire. Yes. Yes.
    Mr. Regula. Like the old fashioned pressure cooker?
    Mr. Derbyshire. Basically, yes with steam and oxygen. There 
are different types of units around, but they all produce a 
synthesis gas, which can be cleaned and that can be used to 
produce power----
    Mr. Regula. Now, have you gone beyond an experimental 
program. Have you gone to a commercial application of this in 
any instance?
    Mr. Derbyshire. Well, I was about to just give you a brief 
background of where we have gone with this. Where we have taken 
it, because of our efforts to try to move this forward and also 
working with the Department of Energy, particular company, an 
independent power producer, called Global Energy, has agreed to 
build a privately-financed plant, 400-megawatt plant in 
Kentucky. This was announced by the governor of Kentucky, Paul 
Patton----
    Mr. Regula. And they sell the electricity goes to the 
consumer?
    Mr. Derbyshire. Right. They will sell power.
    Mr. Regula. Right.
    Mr. Derbyshire. What they are intending to do is gasify a 
mixture of coal and municipal waste, so, in a way, they are 
looking at----
    Mr. Regula. Okay.
    Mr. Derbyshire. Getting rid of another problem, too.
    Mr. Regula. Right.
    Mr. Derbyshire. And that drastically reduces the amount 
of----
    Mr. Regula. Now this would be a coal gasification plant?
    Mr. Derbyshire. Yes. Yes, it will, with power generation 
only at this stage. But they have put in a provision there to 
add on a unit, a Fissure Trop's synthesis unit. This is within 
the least----
    Mr. Regula. Will you use the gas to drive turbines or to 
heat water and do the conventional steam plant?
    Mr. Derbyshire. No, it will drive turbines.
    Mr. Regula. Okay.
    Mr. Derbyshire. It will be a combined cycle operation.
    Mr. Regula. And will you recapture it?
    Mr. Derbyshire. Well, a slip stream of that clean gas will 
then go into a chemical synthesis plant.
    Mr. Regula. Okay.
    Mr. Derbyshire. Now, the plant at the moment is not going 
to be a co-production facility, but it has this provision, and 
really the reason I am here today is to make you aware of this, 
that we have an opportunity with this, if you like, as a 
template to make a step forward to developing the type of fully 
integrated co-production, very versatile plants that DOE are 
projecting in Vision 21.
    Mr. Regula. Last question. I am speaking to the Coal Club 
at noon today. Can I tell them that there is a great future for 
coal?
    Mr. Derbyshire. Yes. Yes, you can. Definitely. [Laughter.]
    We do not have a choice, so we have got to find a way to 
use it cleanly and efficiently.
    Mr. Regula. Well, I appreciate your being here and helping 
write my speech. [Laughter.]
    Mr. Derbyshire. Okay. You borrow it from the testimony.
    Mr. Regula. Okay. Thank you.
    [The statement of Mr. Derbyshire follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                        DOE; USGS; OSM; BLM; FS


                                WITNESS

CONSTANCE D. HOLMES, SENIOR VICE PRESIDENT, POLICY ANALYSIS, NATIONAL 
    MINING ASSOCIATION
    Mr. Regula. National Mining Association. Boy, we are going 
to have a real speech when we get done here.
    Ms. Holmes. That's true. Thank you very much, Mr. Chairman, 
we appreciate the opportunity to be here, and I have to say we 
definitely agree with the representative of the University of 
Kentucky. There is a great future for the coal industry.
    Mr. Regula. How many years supply do we have? 200?
    Ms. Holmes. Way over 200--200 to 250 at current consumption 
levels?
    Mr. Regula. Are they reaching a point where it can be 
burned without serious emission problems?
    Ms. Holmes. Yes, we are, Mr. Chairman. And that really is 
one of the points of my statement. With the help of the 
Department of Energy and the DOE industry collaborative clean 
coal technology programs, we believe that we have gotten to the 
point where coal will be able to be used in a much more--with 
far less emissions than before.
    Mr. Regula. Right.
    Ms. Holmes. And that is really a very important program 
because it is a short--it will be put on line and we will be 
able to take advantage of the results of the clean coal 
technology program in the very near term as we put new 
generation capacity on line.
    Mr. Regula. You represent the drift mines, the deep mines. 
What part of the industry?
    Ms. Holmes. We represent the entire coal----
    Mr. Regula. The whole mining industry.
    Ms. Holmes. Yes, as well as the hard rock mining industry, 
Mr. Chairman.
    Mr. Regula. Oh, okay. So it goes beyond coal?
    Ms. Holmes. Yes, National Mining does go beyond the coal 
industry. We do have some concern about the DOE's request for 
rescission of $243 million----
    Mr. Regula. I do, too.
    Ms. Holmes. We think that that could jeopardize the 
entire----
    Mr. Regula. Because I helped start the Clean Coal Program 
initially.
    Ms. Holmes. Yes, yes. And so we do have that concern. That 
is very important to coal in the near term and in the long 
term, it is very important that we look at the Vision 21 
program that DOE is undertaking.
    Mr. Regula. Are most countries in the world, particularly 
the developing countries going to be dependent on coal?
    Ms. Holmes. Many of the large developing countries are, 
specifically China, specifically India, some of the most--the 
countries with the fastest growing population, if you will, 
fastest growing energy needs. And, of course, as we look out 
over time, the fastest growing emissions of carbon should those 
be a problem. We think that the technologies developed now in 
clean coal and then later on with the Vision 21 will be very 
applicable to helping those countries solve their environmental 
problems, as well as carbon emissions----
    Mr. Regula. And they will become more sensitive to 
environmental problems as they mature?
    Ms. Holmes. Yes. They definitely will be, and frankly we 
believe that they are becoming more concerned with the way that 
they may be affecting their own environment as they put their 
coal plants on.
    Mr. Regula. Do you have an opinion as to whether 
gasification is going to be more used in the future as a way to 
use the coal? That is, will it be gasified, rather than just 
being burned in a boiler?
    Ms. Holmes. Yes, we do. We do not think that coal will be 
burned as it has been in the past in the pulverized coal--you 
know, boiler--rather the technology the IGCCs, the PFBC and 
other technologies--first clean coal and then gasification with 
fuel cells. You combine that, and you are getting anywhere--and 
this under the Vision 21 program--between 60 and 80 percent 
efficiency with technologies that we hope are developed under 
their--the DOE's program for carbon sequestration. And you will 
be able to use coal very efficiently. It will be 
environmentally acceptable over the long-term. Costs will be 
reasonable, we hope, and we'll still have less than--far, far 
less carbon emissions should those emissions ever be a problem. 
And so we do support the DOE's Vision 21 program as carbon 
sequestration varies strongly.
    Mr. Regula. Is your association supported by the industry 
such as the PNH's of the world and the Caterpillar companies 
that manufacture the equipment?
    Ms. Holmes. Yes. Yes, we have not only the mining----
    Mr. Regula. Are they companies that produce coal and do 
mining generally?
    Ms. Holmes. But mining equipment manufacturers, and we have 
several of the boiler manufacturers----
    Mr. Regula. So you are really in support of the Clean Coal 
Program?
    Ms. Holmes. We absolutely. Always have been and will 
continue to be. Thank you. And the other program, of course, 
that we want to take time to very specifically express our 
appreciation for your support for the mining industry's 
participation in the Vision, industries of the future program, 
which we have started, and we will be continuing this year. We 
have issued our first solicitation that is due actually today. 
And so we are really excited about that, and appreciate your 
support.
    Mr. Regula. Thank you very much for being here.
    Ms. Holmes. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

   DEPARTMENT OF ENERGY: ENERGY EFFICIENCY AND FOSSIL ENERGY PROGRAMS


                                WITNESS

MICHAEL DICKENS, CEO, INTEGRATED BUILDING AND CONSTRUCTION SOLUTIONS
    Mr. Regula. Integrated Building and Construction Solutions.
    Mr. Dickens. It is good to be here. I would like to tell 
you a little more to the progress we have been making in the 
housing world. I represent IBACOS, an alliance between Carrier, 
General Electric, Owens Corning, Kohler--several of the large 
product manufacturers, all committed to bringing about better 
homes in America. We have a partnership with the Department of 
Energy that we helped create, called Building America back in 
the 1993, 1994 time, and we work to bring about systems----
    Mr. Regula. Do you help establish building standards? I 
know the construction industry is promoting standards to be 
used by contractors to make their buildings more efficient.
    Mr. Dickens. Yes, we help in a couple of ways. One is to 
lead and show a better, higher energy efficient way to build a 
home.
    Mr. Regula. Right.
    Mr. Dickens. And we have proven up to 50 percent and 60 
percent energy efficiency over today at the same cost to build 
as today and then work with some of the code agencies and the 
ASHRAES and the building officials to help implement those in a 
very tangible way. With builders, you need to both lead them, 
but then help them.
    Mr. Regula. I understand that.
    Mr. Dickens. And integrate them, because if it cost one 
penny more, the builder themselves will not--cannot implement 
them.
    Mr. Regula. Can they sell that to the customer, that you 
spend a little more, but you save lot?
    Mr. Dickens. With the right approach, they can. What we 
have done the last two years since I met you last was move 
through developers on the high, large-scale projects like 
15,000 home community next to LAX Airport; 2,600 home community 
in Tucson.
    Mr. Regula. They promote energy efficiency as a sales tool.
    Mr. Dickens. They actually market it directly to the 
consumer as a better home that less cost you--costs you 
thousands less per year.
    Mr. Regula. Right.
    Mr. Dickens. More durable. The utilities get involved. And 
I think that's really part of my message today that the 
Department of Energy is playing a phenomenal catalyst and 
integrator----
    Mr. Regula. Which of the DOE programs are you here to 
support?
    Mr. Dickens. The resident--the new residential buildings 
program within DOE, where they have pulled together Building 
America, the industrialized and manufactured housing, and now 
their program roll in Path, the new Federal program pulling 
DOE, EPA, HUD, NIST, and several other agencies together. It is 
a real--it is a very interesting program. DOE, I think, plays a 
leading role in that.
    Mr. Regula. When the Federal Government builds a building 
or when it supports a HUD project, do they factor in the 
results of what you are doing?
    Mr. Dickens. They are starting to. That's one of the things 
Dan Ricker----
    Mr. Regula. It seems to me they ought to be leading the 
way.
    Mr. Dickens. The other aspect of our program--we've always, 
since it started--at a more than one to one direct cost sharing 
with money from industry to DOE. And if you then account for 
the homes and the builders and the developers, and that is up 
to 10 to 1. So at relatively little dollars you are helping to 
allocate, we think we leverage it phenomenally in the industry, 
but more so I think DOE is playing a key catalyst role because 
the builder cannot, the developer cannot, the product 
manufacturer cannot----
    Mr. Regula. So you are pleased with the work they are doing 
at DOE?
    Mr. Dickens. Yes. And with the new alignment, I think, it 
is even getting better again, year by year. Thank you for 
supporting the past and keep it up.
    Mr. Regula. Okay. Thank you for being here.
    Mr. Dickens. Thank you.
    [The statement of Mr. Dickens follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                            ENERGY PROGRAMS


                                WITNESS

RICHARD BECK, ASSISTANT PROFESSOR, MIAMI UNIVERSITY
    Mr. Regula. Miami University. Is this Ohio or Florida?
    Mr. Beck. Ohio.
    Mr. Regula. Good.
    Mr. Beck. The original.
    Mr. Regula. Okay. Tell us about what you are doing.
    Mr. Beck. My name is Richard Beck. I am from Miami, as 
mentioned. And I am here on behalf of the Gateway to the Future 
Project. I wanted to thank you for establishing a ground 
station for an $850 million satellite that will be launched 
tomorrow that will be quite useful and for establishing the 
beginnings of a public access system so that taxpayers can get 
a return on their investment.
    Mr. Regula. This is an educational tool, right?
    Mr. Beck. In part--we have started a program called FAST, 
which basically uses the imagery from the USGS satellites as a 
focus for science studies by K-12 students and undergraduates 
at the university level. And we are also working on a public 
access system so people like farmers and developers and such 
can see what is going on in their environment and hopefully 
make good decisions.
    Mr. Regula. This would be one of the things that the 
fertilizer companies promote, is that right? We evaluate your 
land and tell you where to spread it heavy and where to spread 
it light?
    Mr. Beck. Right, and one of the easiest things to do with 
the LANDSAT-VII, which will be launched tomorrow, is to gauge 
the health of vegetation, such as corn crops and such, which 
helps you focus where you should put your fertilizer or 
additional irrigation water.
    Mr. Regula. Right. Are other States picking up on this?
    Mr. Beck. Yes, I have had inquiries from Texas, Virginia, 
Illinois, Washington, and several others.
    Mr. Regula. Do you see a growing commercial sector use of 
your technology?
    Mr. Beck. We hope so. We hope so. Given the fact that this 
program reduced the cost of the satellite data by 90 percent, 
the cost of the data is finally moving into the realm where any 
reasonable sized business could commercialize it.
    Mr. Regula. Tell me how Miami University plays into this. 
Do you do the research or do you actually operate the program?
    Mr. Beck. We do a little bit of the research. We operate 
some of the program. It is a consortium of eight universities 
so far. And it is expanding to other states.
    Mr. Regula. And Miami's the leader in this effort, is that 
right?
    Mr. Beck. Correct, particularly with regards to data 
distribution.
    Mr. Regula. Do you get support from the State through the 
legislature since it is a State university?
    Mr. Beck. Implicitly, yes. And I have spent much of this 
spring working on a proposal with the other universities to 
purchase some upgrades for infrastructure for research and 
teaching throughout the academic system in Ohio.
    Mr. Regula. One last question. We hear a lot about global 
warming. Will the LANDSAT technology be useful in evaluating 
what is happening in terms of CO<INF>2</INF> emissions and 
carbon sequestration?
    Mr. Beck. The LANDSAT satellite, with the correct 
calibration, can be used to gauge temperature changes in bodies 
of water--that sort of thing, which are indicators. It cannot 
see CO<INF>2</INF> per se.
    Mr. Regula. No, I understand. But you can see the impact of 
it.
    Mr. Beck. Absolutely. You can use the LANDSAT satellite to 
get a broad overview of changes of the landscape.
    Mr. Regula. Very interesting. Thank you very much.
    Mr. Beck. Likewise.
    Mr. Regula. We take a little pride in Ohio here.
    [The statement of Mr. Beck follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                            ENERGY PROGRAMS


                                WITNESS

J. ROBERT WOOLSEY, DIRECTOR, MARINE MINERALS TECHNOLOGY CENTER, 
    UNIVERSITY OF MISSISSIPPI
    Mr. Regula. Marine Minerals Technology Center, University 
of Mississippi. Tell me what you are doing?
    Mr. Woolsey. Well, sir, to start with we have a new name 
now. We are--that better reflects our services to minerals 
management service and that is the Center for Marine Resources 
and Environmental Technology, and that explains a little more 
about what we do. You will recall the other name more fit with 
our old Bureau of Mines had. But we are--continue to provide 
our window of access to applied academic expertise for minerals 
management service and Interior in general. But among those 
things, trying to find sand for beach replenishment and 
restoration. We--the big thing we are doing now is working with 
gas hydrates. And we are looking at--we have a cooperative 
program with the Navy, Navy Research, with the Department of 
Energy as well. And we are putting in a--some monitoring 
stations off the Mississippi coast in the oil and gas area 
there, and we are looking at primarily three things. Our group, 
with our expertise in acoustics and seismic, we are primarily 
looking at the tremendous problems they are having with the sea 
floor instability that relate to the breakdown of these 
hydrates. And it has caused tremendous problems to the oil 
companies here in this deep production well. They have lost 
over a couple hundred million just this last year.
    Mr. Regula. We have lost it in what form?
    Mr. Woolsey. Sea floor installations.
    Mr. Regula. In the machinery or the escape of the----
    Mr. Woolsey. Yes, equipment, when they are starting to put 
in templates, there was one lost last year--a whole template 
was lost in about 1,000 meters of water by one of their major 
companies.
    Mr. Regula. Because of the instability on the sea floor?
    Mr. Woolsey. The instability--this was an area that looked 
to be terra firma, and it turned out that it wasn't when they 
started driving piling. So there is a big problem with sea 
floor instability. There is a--you know, on the positive side, 
you know these hydrates represent a tremendous resource.
    Mr. Regula. Oh, yes.
    Mr. Woolsey. And then the third thing--you know, we were 
just talking--you were talking about warming, global warming, 
well, methane, you know is a much more critical gas to the 
greenhouse effect than CO<INF>2</INF>. They figure it is maybe 
five times more of an eventual problem.
    Mr. Regula. But it escapes.
    Mr. Woolsey. Escapes to the atmosphere.
    Mr. Regula. Then you have a problem.
    Mr. Woolsey. Then you've got a problem, and we are trying 
to put this long-term monitoring station down that is sort of a 
cooperative throughout minerals management service and USGS 
and, we are setting this up at about in connection with a 
couple of wall companies, out on the floor. And so that is 
where we--our most of our money this year will be going into 
this monitoring.
    Mr. Regula. Do you get funding from the oil industry?
    Mr. Woolsey. We are getting--we are doing the cooperative 
thing with a couple of oil companies, and they are giving us 
access to a site and helping us with the communications.
    Mr. Regula. And I assume our role would be to provide some 
funding through DOE?
    Mr. Woolsey. That is correct. It is--well, DOE and, I am 
specifically--our program is directly under Interior. And so 
DOE is involved in this, but----
    Mr. Regula. But also MMS?
    Mr. Woolsey. The Minerals Management Service is--it is a 
cooperative between that, and I am more or less representing 
the program that will be operated through Interior, and more 
specifically Minerals Management Service.
    Mr. Regula. But you deal with the marine portion of it.
    Mr. Woolsey. That is correct, and we provide a window of 
expertise. It is not just our group, but we have a group we 
call the Gulf of Mexico Gas Hydrate Research Consortium. And it 
embraces universities from Texas all the way over the Florida.
    Mr. Regula. Is the university near the Gulf?
    Mr. Woolsey. Yes, our--well, actually our university is in 
the northern part of the State, but we have our shop and 
facilities down in Biloxi, and also we have facilities at the 
Stennis Space Center there, you know, the big NASA base there. 
And that is where we work very closely with the Navy.
    Mr. Regula. Where you are located? Are there classrooms as 
part of your facility?
    Mr. Woolsey. Yes, laboratories, classrooms.
    Mr. Regula. Are part of the student programs for those that 
are majoring in these fields and such?
    Mr. Woolsey. That is correct. And we have international 
students coming in. We just had a big conference here two weeks 
ago. We had eight Russian scientists as well as scientists from 
the U.K. and Canada that were all experts in this field.
    Mr. Regula. A little side question here: With the Wall 
coming down, and perhaps a more open society, is there a 
greater flow of technical information, scientific information 
among the nation's of the world?
    Mr. Woolsey. We have a joint patent with Moscow State 
Mining University.
    Mr. Regula. Is that right?
    Mr. Woolsey. On a project that we have been working with 
over the years, and it looks like it is really going to have a 
lot of spin offs, and so we have had--the same way with an 
acousto optic spectrometer to measure these carbon gases, the 
methane and the associated gases that affect its freezing 
point, and its dissolution. And we have got a joint project 
trying to get this some really tremendous spectroscopy and we 
were just at Army Research Lab yesterday. They are working with 
us, too. Army Research Lab, this group in Russia, and 
ourselves.
    Mr. Regula. That is a vast improvement over the Cold War, 
isn't it?
    Mr. Woolsey. Mainly so, and even with these problems that 
are now missed, some of these Russian researchers say that this 
is not going to affect their interest in working with us.
    Mr. Regula. Thank you very much.
    Mr. Woolsey. Thank you, sir.
    [The statement of Mr. Woolsey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  USGS


                                WITNESS

RONALD E. SMITH, AMERICAN SOCIETY OF CIVIL ENGINEERS
    Mr. Regula. American Society of Civil Engineers.
    Mr. Smith. My name is Ron Smith and I am the President of 
the American Society of Civil Engineers GEO Institute, and we 
are pleased to be here today to present ASCE's views on the 
U.S. Geological Survey's proposed budget for Fiscal Year 2000.
    The parts of the budget we are most interested in--we have 
a broad interest--but most interested in are in the water 
programs and the earthquake programs--water representing both a 
resource and a hazard; earthquakes certainly a major natural 
hazard. USGS is the principal collector of----
    Mr. Regula. Do you like their work?
    Mr. Smith. Absolutely. They do good work, and they are the 
independent--single independent source that we have to rely on 
for so much in the area of highway design, for flood routing, 
for dams, for wastewater treatment facilities and the like.
    Mr. Regula. What you are saying is that your engineers, who 
are doing private sector projects, are using USGS as a 
information base.
    Mr. Smith. Private sector and public sector.
    Mr. Regula. Well, of course.
    Mr. Smith. Yeah, this whole range. Yes, that basic data 
that is projected in designing levies for flood protection, the 
whole range.
    Mr. Regula. So you would probably like greater support for 
USGS?
    Mr. Smith. Well, we certainly support the budget as it is 
proposed. And there is some places where we feel there are some 
decreases in funding from previous years. We are most concerned 
about the stream gauging issue. It has been somewhat decreased 
over past years, and it is a very central source of data, both 
for general civil engineering use or design of broad range of 
public infrastructure facilities. I think equally, so as not to 
lose the time on that issue, is the earthquake issue, because 
it is one that--you know, earthquakes are one of the most 
awesome natural hazards that people face. But, in fact, the 
recurrence period of these things often is so long, that we 
have not even lived in this country long enough to know where 
they all are. We think of California. But today, if I had to 
pick a city of most concern, it would be Seattle. The 
geologists and scientists are telling us right now and some of 
the work that USGS has done is that a magnitude eight to nine 
earthquake is possible, and is probable----
    Mr. Regula. Therefore, buildings designed for Seattle 
should factor that in?
    Mr. Smith. They should, and, in fact, if you want to really 
the case that is probably as a concern--that is an immediate 
personal problem.
    Mr. Regula. Sure.
    Mr. Smith. Think about what happened to Kobe, Japan in 
terms of the damage to its economy, to the economy of a western 
Japan by the shutdown of that port facility. Seattle is our 
major port facility in the northwest. Kobe was a 6.9. What is 
projected is an eight to nine. That is anywhere from 50 to a 
1,000 times greater.
    Mr. Regula. Do you feel that USGS does enough tying in with 
universities and with local government to share information?
    Mr. Smith. Yes, and in fact----
    Mr. Regula. In terms of monitoring what is happening.
    Mr. Smith. One of the programs that we want to make sure 
that are covered are some of the local cooperative programs 
between the State and regional actors to map--the only way--
again, let me say that one of the issues is they have to go in 
and find prehistoric. The Seattle incident is being based on 
the discovery of a prehistoric earthquake, before anybody was 
around who really knew what was going on--three hundred years 
ago, when they say a major earthquake.
    Mr. Regula. What would be the evidence of that?
    Mr. Smith. You find what we call sand boils. There is a 
thing called, a process called liquefaction. There are 
landslides, ancient landslides that you find. So people going 
around and doing detective work on land forms that exist. When 
I was coming along, or 10 to 15 years ago, it was presumed that 
the largest earthquake that ever occurred in the U.S., a series 
of three had occurred in the area of southeast Missouri, 
something called New Madrid area, right at the Tennessee 
border, and were projected to be 10.1 and 10.3, which pall by 
comparison to the Alaskan earthquake--large by comparison to 
the Alaskan earthquake. By studying those, by sending field 
crews out and studying the effects and the evidence, they have 
now downgraded those, and they said the real earthquake 
probably were in the order of a 7.3 to 7.8, as opposed to--that 
is a significant downgrading effect. But we are still very 
concerned that the middle part of this country, the central 
portion and the eastern portion, do not have the kind of 
investigations that we need. Like I say, we are very young 
country, and when you talk about----
    Mr. Regula. So we cannot even be comfortable in Ohio?
    Mr. Smith. Absolutely not. You know, people think of Boston 
as being a safe place. Boston has a known history. But yes, I 
actually spent a few years in Ohio, working on some nuclear 
power plants a few years ago, and there were certain earthquake 
zones in there we had to worry about.
    Mr. Regula. I was interested in them. I was in Tokyo last 
week and hadn't been there for 20 years. They have a lot of 
high rise buildings, so I have to assume that they have 
developed building technology that they feel is safe in spite 
of the threat.
    Mr. Smith. Well, what we find out each time we have one of 
these major strong motion events is that we have learned a lot, 
but there is probably more to learn. So, yes, I think the 
Japanese probably are right at the state of the practice right 
now. What will we learn out of the next one? I do not know. But 
we have to be, you know, pushing forward--too much at stake.
    Mr. Regula. Thank you very much.
    Mr. Smith. Thank you.
    [The statement of Mr. Smith follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                     USGS: WATER RESOURCES RESEARCH


                                WITNESS

JONATHON POTE, PRESIDENT, NATIONAL INSTITUTES FOR WATER RESOURCES
    Mr. Regula. National Institutes for Water Resources.
    Mr. Pote. Good morning, Mr. Chairman. My name is Jonathon 
Pote. I am President of the National Institutes for Water 
Resources, and I am director of the Mississippi Water Resources 
Institute. I am testifying for the National Institutes and the 
Institutes strongly support the U.S. Geological Survey and its 
work. We support its budget request as a minimum, particularly 
the Water Resources Division.
    The level of cooperation between USGS and the Institutes 
has increased dramatically in the past two years and both the 
program descriptions of the Institutes and the manner they are 
executed reflect that new level of cooperation.
    The core state-based program, which is called the Section 
104(b) program assures that all the States maintain the 
capability and expertise needed to solve their own water 
resources problem. The Water Resource Institutes use university 
scientists to conduct high priority State and regional and 
national research on water resources. Each one has an oversight 
committee that consists of State, local, Federal and members of 
the public, and they provide direction to each of the 
Institutes. The Federal support for the Institute program makes 
a national network and that guarantees that we have a certain 
amount of--number one, every university is involved, and 
second, we have a network that means I can get resources----
    Mr. Regula. So you share information?
    Mr. Pote. Yes. Exactly, and reduce duplication 
dramatically.
    Mr. Regula. Do you get private sector support?
    Mr. Pote. Yes, we do. In fact, I had--in the case of 
Mississippi, one of my large ones is a coal mine right now. We 
are doing the background work for that. But it is--an example 
of how the network works. In the State of Mississippi, the 
swine production, hog farms have begun to increase dramatically 
recently. The State was concerned to make sure that their 
standards were good for the State. I could immediately tap and 
get information from North Carolina and several other States, 
to start seeing what some of the outputs look like, and we made 
those so that they fit best with the State of Mississippi, even 
developed some funding to start monitoring it, and that 
monitoring was both us and industry. And the results are some 
management practices that both the academic group and the 
industry people support strongly.
    Mr. Regula. So an industry could call on you. You are based 
at the University of Mississippi?
    Mr. Pote. Mississippi State University.
    Mr. Regula. Mississippi State. And an industry, in this 
case, mining, can call upon you and contract with you to do 
work for them?
    Mr. Pote. Yes, they can. Our side of things would not be--
it would be--in that case, it was a joint USGS and Water 
Resources one, and we kind of do the research short-term 
things, and the things that take a long time commitment tend to 
fall to USGS. But we work very closely.
    Mr. Regula. You work with USGS? You work with communities 
because water, potable water, I think is getting to be a 
growing problem.
    Mr. Pote. It is, yes. And that is one where they nearly all 
of us sit on our States' water resources management planning 
commission.
    Mr. Regula. Right.
    Mr. Pote. And that means that they find me very early, and 
they ask me questions very early. But that is one where we--the 
amount of demand is definitely starting to exceed our ability 
to respond to it. And we are working hard to try to figure out 
better ways for us to come in and give them advice. We have an 
aging infrastructure, and we are having to respond to the fact 
that some of these systems are breaking down; meanwhile, of 
course, USGS's findings are saying the water--the aquifer 
levels are dropping, so we are looking at using surface water 
more than we were. That involves some new technology, and it 
is--there is plenty of work to go around for sure.
    Mr. Regula. Yes, but do you get into the practical side of 
making, say, surface water or stream water pure chemically?
    Mr. Pote. We--particularly on the new technology side, we 
do. One of the things for our State is that we use way too much 
groundwater. I only have one, Jackson State, the City of 
Jackson is the only State that depends on surface water as its 
primary source. We would like to see that change, and that 
means putting in reservoirs, starting at how you clean that 
water versus the groundwater, which is already in pretty good 
shape. Of course, issues of cryptosporidium are a big one right 
now, and so that is one that we have to take on. How do you 
monitor that? What are the technologies that you can use to 
actually get rid of it.
    The new, the 104(g) program, which is the newer program is 
strictly for things that cut across State boundaries and it is 
one that is guided by USGS and the Institute sitting down 
together and saying what are the priorities of these issues 
that are interstate issues.
    Mr. Regula. You are well satisfied with USGS as resource?
    Mr. Pote. We are. In fact, we work very closely with them 
continuously. I have an internship program where they train 
some of my students. And I am very appreciative of that----
    Mr. Regula. So you are here to support their budget?
    Mr. Pote. Very much so. In fact, in--my wording is at a 
minimum, so----
    Mr. Regula. Okay.
    Mr. Pote. But the--I do appreciate the chance to come in 
and testify. And we are grateful for your support for this 
program, and we believe that additional funds would produce 
major long-lasting benefits, and I appreciate your support of 
the USGS and their cooperation.
    Mr. Regula. Thank you.
    [The statement of Mr. Pote follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  USGS


                                WITNESS

LEE SAPERSTEIN, NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-
    GRANT COLLEGES
    Mr. Regula. The National Association of State Universities 
and Land Grant-Colleges.
    Mr. Saperstein. Mr. Chairman.
    Mr. Regula. Yes.
    Mr. Saperstein. I appreciate the opportunity to be here 
before. I am representing the Board on Natural Resource of the 
NASULGC group, some 200, 202 public universities in the United 
States. We appreciate your leadership in improving the 
scientific capabilities of our nation.
    The written testimony relates to USGS, the DOE R&D 
programs, and to the Mineral Management Service. We are 
concerned, because we believe that USGS needs to stay the 
course with good science, good science which is needed to 
understand the earth, its resources, its complexities, its 
ability to heal itself, and equally the harm that we can do to 
it. Good science, in turn, needs partnerships. It needs 
openness. And we are encouraged by a new relationship between 
NASULGC universities and USGS.
    Mr. Regula. You are an association of groups like the 
University of Mississippi, and Miami University.
    Mr. Saperstein. There are many of my colleagues in this 
room. Yes.
    Mr. Regula. So you are all very supportive of USGS.
    Mr. Saperstein. Yes. And as others have said, we are 
testifying in favor of the details--are in the testimony--of 
the budget, although we have some discussions of ups and downs 
within the internal units. We are concerned by some of the 
cuts.
    Mr. Regula. By representing the state universities, your 
association covers the spectrum of research things that are 
taking place in the university system?
    Mr. Saperstein. Absolutely. That's right.
    Mr. Regula. But it goes beyond water obviously.
    Mr. Saperstein. Oh, we have testimony in here for the 
Biological Resources Division, for example, because we have got 
fish and wildlife groups. We have got other natural resources--
--
    Mr. Regula. Is that working well as part of USGS?
    Mr. Saperstein. It is improving. We have met with the new 
director, and we have had pledges of support. We have talked in 
terms of how the collaboration between the State universities, 
who are dependent on the State taxpayers----
    Mr. Regula. Right.
    Mr. Saperstein. And the Federal Government can produce 
better science than either party working alone.
    Mr. Regula. Well, are you comfortable that we are not 
duplicating the work, because there is only one set of 
taxpayers, whether it is State, local, Federal--they are all 
taxpayers and what I always try to avoid is duplicating 
something at the State university that we are doing at USGS. Is 
there a sharing to avoid duplication?
    Mr. Saperstein. Absolutely. And what we are trying to 
pursue through NASULGC is better relationships between the 
State universities and the Federal agency, in this case USGS. 
So that we strengthen ourselves rather than compete.
    Mr. Regula. Do you promote cooperation internationally 
between a university in Ohio or Mississippi and the university 
system in Russia or the U.K.?
    Mr. Saperstein. To answer that question, I would relate 
personally yes, we do, all of our universities have 
international relationships. I would be less than candid if I 
said that there was a major initiative through NASULGC. We are 
working closely with the Federal agencies. Beyond that, I would 
have to say no.
    Mr. Regula. So your mission is basically to coordinate the 
State university system with the Federal agencies----
    Mr. Saperstein. Yes.
    Mr. Regula. To avoid duplication?
    Mr. Saperstein. Right. And that--and in the testimony 
includes the research and development division of DOE, as well 
as the Mineral Management Service.
    Mr. Regula. Right. Okay, well thank you very much.
    Mr. Saperstein. Thank you, sir. We appreciate the time.
    [The statement of Mr. Saperstein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  NEH


                                WITNESS

JOHN H. D'ARMS, THE NATIONAL HUMANITIES ALLIANCE
    Mr. Regula. National Humanities Alliance.
    Mr. D'Arms. Mr. Chairman, it is nice to see you again.
    Mr. Regula. And you.
    Mr. D'Arms. I am John D'Arms, President of the American 
Council of Learned Societies and testifying today on behalf of 
the National Humanities Alliance and its membership. Last year, 
I had a son and a daughter in Columbus, Ohio. This year, I 
still do, and if I am lucky in one week, there will be yet 
another citizen of that great State, who will be born a week 
from today.
    We want to express our very strong support for the NEH, for 
the President's request for $150 million in Fiscal Year 2000. 
It is a small increase, Mr. Chairman, but if it is granted, it 
would bring us back up a little of the way that--towards the 
$177 million that was part of the budget as recently as 1995. 
We are impressed by the energy and imagination of Bill Ferris, 
the new Chairman now--Chairman for over a year.
    Mr. Regula. I saw him yesterday.
    Mr. D'Arms. And he has been, I think, very patient and 
imaginative as an advocate. Our written testimony focuses on 
something of special interest to us all, the NEH contributions 
to humanities teaching. But that is all spelled out in the 
written testimony. And I thought I just might give one concrete 
example of how these summer institutes in the humanities really 
make an impact.
    I would like to mention Mary Barron, who is a language arts 
teacher in Osnaburg High School in your town of Canton, Ohio. 
Mary, along with 20 other Ohio public school teachers, a couple 
of years ago, got a small grant from NEH to participate in----
    Mr. Regula. Was it a Federal or State grant?
    Mr. D'Arms. No, this is a Federal grant?
    Mr. Regula. All right.
    Mr. D'Arms. NEH Federal grant. This did not come from the 
State councils, who are, of course, very much a part of what we 
care about.
    Mr. Regula. All right. I understand it.
    Mr. D'Arms. But it came from the NEH Summer Institutes 
program, so that she could participate in a master work seminar 
where the class studied films of classic works of literature--
films about those, alongside written interpretations of them. 
She--this was taught by a professor at Kent State for high 
school teachers. She was inspired by what she learned, and very 
eager to apply it when she got back to her language arts class 
in the fall. But her heart sank when she learned that Jeff 
Richards was going to be in this class. Jeff, a notoriously 
turned off and turned out student, tuned out student, though 
very smart. But these techniques that she learned helped Mary 
to show that it was exactly the hook that Jeff needed. He was 
transformed from being dangerously at risk to becoming on fire, 
excited by this tension between the films and the text and so 
on. And he excelled in the class, and he went on and graduated 
and went to the University of Chicago. Now, this is a very 
small example, and I confess I did not chose it entirely at 
random. [Laughter.]
    Mr. Regula. I am shocked.
    Mr. D'Arms. Not just of the value of this NEH Summer 
seminar, but it is also, it seems to me a pretty vivid reminder 
of the multiplier effect of this NEH support and of how humane 
learning extends across generations, from the scholarship of 
the past that inspired the professors at Kent State to the high 
school teacher, Mary Barron, who learned from professors and to 
the turned off student who caught fire in her classroom. And, 
Mr. Chairman, this humane learning, it seems to me, is just 
what the NEH is all about. We hope that you and your colleagues 
will help to enlarge and extend its reach.
    Mr. Regula. Well, thank you very much. We are going to have 
some tough budget decisions this year, so do not spend any 
increase----
    Mr. D'Arms. I am not going to spend it.
    Mr. Regula. For the moment.
    Mr. D'Arms. I am not going to yet spend it. But I hope you 
can do what you can.
    Mr. Regula. It is going to be tough going, I have to tell 
you. The budget we are going to adopt Thursday will not give us 
much wiggle room in terms of what is available.
    Mr. D'Arms. Well, yes.
    Mr. Regula. The President recommends these things, but he 
doesn't say how it is to be paid for.
    Mr. D'Arms. Of course. Of course.
    Mr. Regula. So it is easy to recommend as long as you are 
not writing the checks. And that is where we get in on it. We 
have to provide the checkbook.
    Mr. D'Arms. You have that tough spot, and we have the tough 
spot of having had a budget of $177 million in 1995, which is 
now way back to $110 million. And so the----
    Mr. Regula. But I think you are doing well with what you 
have.
    Mr. D'Arms. I think Bill is working very hard, and we are 
trying to make the best of it.
    Mr. Regula. He is coming out to our area one of these days, 
and is going to speak to the Rotary, which is what needs to be 
done. You have to educate the public on the value of these 
programs. That is part of the mission, I think.
    Mr. D'Arms. I think that is right. I think a Mary Barron 
and that student--I mean, that is a vivid kind of case.
    Mr. Regula. Right.
    Mr. D'Arms. And Bill is very good at telling those stories.
    Mr. Regula. Right. Thank you very much.
    Mr. D'Arms. Thank you.
    [The statement of Mr. D'Arms follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  NEH


                                WITNESS

FRANCIS LAWRENCE, ASSOCIATION OF AMERICAN UNIVERSITIES
    Mr. Regula. Association of American Universities.
    Mr. Lawrence. My name is Francis Lawrence, and I am 
President of Rutgers, the State University of New Jersey. And 
it is my pleasure to testify before you today to also support--
--
    Mr. Regula. I was in your program when I was in the State 
legislature, they used to take members to Florida for about a 
week.
    Mr. Lawrence. That's right.
    Mr. Regula. What was the name of the gentleman that ran 
that? Probably before your time?
    Mr. Lawrence. Probably before.
    Mr. Regula. He was a Rutgers sponsor to a very worthwhile 
program.
    Mr. Lawrence. They still talk about him. So we are also in 
support, as John was, of the $150 million increase. And as you 
mentioned, I am speaking on behalf of the AAU, the National 
Association of Land Grant Universities and ACE. And I am also a 
humanist. My academic field is French Literature.
    You know, I believe from a perspective of humanist that the 
United States, like all great nations possesses a culture of 
world-wide significance. It is a culture that we have to work 
on daily and improve. And if we are going to preserve and 
advance that culture, then I think we have got to protect 
America's place in the world. And I believe that NEH plays a 
vital role in that mission, preserving our national heritage, 
because it promotes areas like lifelong learning, strengthens 
our communities with the different programs that we have, and 
makes humanities available to all Americans and all of our 
colleges and universities.
    As I mentioned, I am in language and literature. But it is 
not just languages or literature, it is philosophy and history. 
They encompass a world of stories, an ongoing dialogue about 
meaning and value. I think more often than not humanities do 
play a big role on meaning and value. They represent endless 
human attempt to understand our world and our place in that 
world.
    More than any other set of disciplines--not it is true, I 
may be biased here, since I am a humanist--I believe the 
humanities embody the spirit of our civilization. I cannot 
emphasize enough the importance of the programs they currently 
have--under research and study in the humanities, which I 
believe provide a framework for clear thinking while producing 
good citizens and instilling in them respect for history. In a 
way, you know, the humanities are at the heart of what we are 
as Americans, whether we are improving writing skills, thinking 
skills, and so on. The investments by NEH have had an 
incredible impact, and I am sure you have before you the 
details on that. Whether it is fellowships that allow faculty 
to work during the summer on specific projects or I think what 
John mentioned earlier, locally, through the different seminars 
that we have, improving teaching, which is so vital in all of 
our academic institutions, a much more focus on the issue of 
teaching.
    But I want to give you two examples today that occur at 
Rutgers. First of all, NEH has made that crucial difference at 
Rutgers from the point of view of supporting our Thomas A. 
Edison papers project, which involves the collection, the 
selection, the editing and publications of the correspondence 
and the laboratory notes related to technical and business 
records of the nation's most prolific inventor. We have got it 
all there, and NEH has been supportive of this one for quite a 
while. And on another side, another program that we just 
completed after literally going at it year long was the grant 
to celebrate the centennial of the birth of one of Rutgers' 
most distinguished alumni, Paul Robeson, artist and citizen. 
There is a multi-media traveling exhibition, catalogue series 
of public programs on radio and television that premiered last 
year and we currently have an exhibit at the National Portrait 
Gallery, which interprets the major themes of American, 
African-American social, cultural, intellectual and political 
history by placing the life of Paul Robeson as an artist, as an 
intellectual, as an activist.
    Mr. Regula. Is some of this done with NEH money?
    Mr. Lawrence. Yes, it is, within the context of American 
history--not only NEH money but money from the university and 
private individuals since it is traveling coast to coast.
    Mr. Regula. So you see NEH as a possible seed money----
    Mr. Lawrence. What they have given us----
    Mr. Regula. Or a catalyst----
    Mr. Lawrence. We will be finished with that this year. But 
I thought it was a primary example of, you know, a major figure 
in the first half of the 20th century. So again, you know, NEH 
plays such an important role. It plays a great role in the area 
of state councils. And as good as they all--all of those 
programs are, we feel that we need to continue to support them 
at the highest level possible.
    Finally, I would say that through the NEH, we do something 
that we often don't do in other organizations. You can count 
community colleges, state colleges, private institutions, 
research universities, all honing in on those programs that are 
available through NEH in order to support, to nurture, our 
American heritage, to enhance education, bring humanities to 
the community, which does have an impact, as you were asking 
earlier, and to expand knowledge through scholarship. So we are 
in full support and we hope that in spite of the tough times 
you are going go through that you will weigh all of the 
different testimonies in this area, and that we will come out 
better than we are now.
    Mr. Regula. Okay. Well, that might be just staying where 
you are.
    [Laughter.]
    Thank you very much.
    [The statement of Mr. Lawrence follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  NEA


                                WITNESS

TERRY COFFMAN, ASSOCIATION OF INDEPENDENT COLLEGES OF ART AND DESIGN
    Mr. Regula. Association of Independent Colleges of Art and 
Design.
    Mr. Coffman. Hello, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Coffman. My name is Terrence Coffman, and I am 
president of the Milwaukee Institute of Art and Design in 
Milwaukee, Wisconsin. And I am also the Chair of the 
Association of Independent Colleges of Art and Design, which 
represents some 34 institutions, colleges of art and design 
that grant baccalaureate degrees and graduate degrees. We have 
over 50,000 undergraduate students in our institutions. Our 
combined budgets are somewhere in the nature of $600,000,000 a 
year, and we employ over 10,000 faculty and staff of which the 
majority of them are practicing professional artists and 
designers.
    Mr. Regula. Are your members pretty much independent? They 
are not part of a university?
    Mr. Coffman. No, we are all independent colleges of art and 
design. And we probably have well over 2,000,000, 3,000,000 
alumni over the last 20 years or so. And many of our alumni are 
artists of note, like Georgia O'Keefe and Grant Woods, who 
reflect, I think the spirit of America.
    Schools like the Rhode Island School of Design, the Art 
Center in California, the School of the Art Institute of 
Chicago are our members. In your own State, I believe Cleveland 
Institute of Art and the Art Academy of Cincinnati are members 
of our organization.
    There is a wonderful book that--called the Flowering Judas. 
It is by Katherine Anne Porter. And she states in the preface 
of her book that sometimes it seems like the artist's voice is 
nothing more than the worrying of a cricket in the grass. But 
it is an important voice. And I know that at times, it seems 
with all the things that are going on in the world around us 
that the voice of an artist may not be that important. But when 
you think about it, after everything is said and gone. After 
times of diminishment or neglect, the arts outlive governments. 
They outlive creeds. They are what she says are left when the 
ruins are cleared away.
    Mr. Regula. They are part of recorded history.
    Mr. Coffman. Well, they are, and they are very important, 
and when you think about any great society or a great culture, 
usually what comes to your mind first is the images of their 
art, their architecture. You think of Egypt and Rome and you 
think of Greece. It is those images that come to your minds.
    Sometimes people ask me to describe what an artist is or 
what he does. And I use a haiku poem that I think really tells 
about what special unique quality it is about the arts. And it 
goes like this. His brush abruptly leaps and flicks and swishes 
in across the page swim three fishes. And that is the gift that 
we have. The gift to create something from nothing, and I think 
it is a divine gift, a very special gift. And there's an 
obligation to nurture it, both by artists and non-artists 
alike. And that is why I am before you today in support of the 
National Endowment for the Arts.
    Mr. Regula. Do you think the changes we have made in the 
law affecting NEA have been constructive?
    Mr. Coffman. I do, and I would tell you that I am probably 
different than many of my colleagues. I will tell you that I am 
not speaking on behalf of the association as it relates to your 
question, but as an artist, a practicing professional artist, I 
believe the whole issue that related to individual grants to 
artists was of concern. It was a concern to me, and I agreed to 
with the decisions that were--that came about as a result of 
that. I think that anytime that you accept money as an 
individual artist, you are no different than when Michelangelo 
took some money from the Pope and he said, you know I don't 
like the way you put the archangel over here, and move him over 
there. When you accept funds under those conditions, you have 
to live with. And I think that that was a decision that I 
supported, but I was probably rare among artists and 
administrators.
    Mr. Regula. Well, in a way, we're doing it a favor in 
having those standards, because it avoids the kind of problems 
that you have been well aware of.
    Mr. Coffman. Yes.
    Mr. Regula. It has been very destructive in the legislative 
environment as one who has had to deal with this over the last 
several years. It has been tough going.
    Mr. Coffman. It has been and I agree with that decision. I 
think that the funds are more appropriate to institutions. And, 
you know, you look around this room, and I couldn't help but 
seeing a piece of sculpture in the back, and just over your 
shoulder, you know the Akron Museum. These are individual 
artists who may have been supported through institutions, 
through higher education, through museums. Those are 
appropriate resources, and I think that the new proposal that 
is before us now to increase the budget to about $152 million 
is an appropriate one. And I think that the Federal Government 
does have a role to play in the National Endowments and the 
arts in general in this country.
    Mr. Regula. Well, it certainly can be a stimulus, a 
catalyst, if you will. And it probably has been in some very 
constructive work.
    Mr. Coffman. Well, it has. You know, there are 
organizations, for instance, like Art Reach, which helps the 
elderly--wonderful programs that reach out to that community. 
There is a program in my State, and I think many states called 
Very Special Arts, which helps the physical and the cognitive 
folks with programs that stimulate them and get them moving and 
working and gives them a sense of direction. So those are 
programs that I think NEA has supported that are worthwhile.
    Mr. Regula. We are out of time, but let me ask you this. 
You have these colleges all over the country, correct?
    Mr. Coffman. Yes. Correct.
    Mr. Regula. Well, you can help us by having your members 
talk to members of Congress in their area and tell them how 
valuable this program is, because it takes 218 votes to pass 
these things. And, therefore, to get support for the NEA across 
the street, we need your members, wherever possible, and I 
assume you are the executive director.
    Mr. Coffman. Well, I am the chairman----
    Mr. Regula. Or the chairman. Get them to talk to their 
local members of Congress, and their United States Senators 
about the value of these programs.
    Mr. Coffman. And we do.
    Mr. Regula. That will be extremely helpful.
    Mr. Coffman. We do, and we will do a better job of it, and 
I thank you for your time.
    Mr. Regula. Thank you.
    Mr. Coffman. Bye.
    [The statement of Mr. Coffman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  DOE


                                WITNESS

KERRY SUBLETTE, DIRECTOR, CENTER FOR ENVIRONMENTAL RESEARCH, UNIVERSITY 
    OF TULSA
    Mr. Regula. University of Tulsa, Center for Environmental 
Research.
    Mr. Sublette. Thank you, Mr. Chairman. My name is Kerry 
Sublette. I am from the University of Tulsa, but I am here 
today representing actually the Integrated Petroleum 
Environmental Consortium, which is a consortium of four 
institutions--the University of Tulsa is just one. The 
University of Oklahoma, Oklahoma State University, and the 
University of Arkansas.
    As I said, we are a petroleum environmental research 
consortium.
    Mr. Chairman, historically, in my home state of Arkansas--
excuse me, of Oklahoma, and many other western states, oil and 
gas production has come from Indian land. And today, domestic 
oil and gas producers, I think are good stewards of the land. 
But unfortunately that hasn't always been the case. In the 
early days of oil and gas production, the culture was 
surrounding this early production was one of a lack of concern 
for the environment and a lack of concern of regulation.
    Mr. Regula. Right.
    Mr. Sublette. And this has resulted in a lot of problems 
that were generated decades and decades ago that are still with 
us today. And one of those problems, just as an example, and 
perhaps one of the most persistent and difficult problems to 
deal with is brine contamination, contamination of land by 
produced water brine, which results in scars on the land that 
are totally devoid of vegetation and highly eroded. In fact, I 
brought with me today, you have never seen one of these--saw 
them in photographs that you might----
    Mr. Regula. We have a lot of wells in my area, and so I am 
aware of the impact----
    Mr. Sublette. Good, good.
    Mr. Regula. It has had over the years.
    Mr. Sublette. Right. Well, many of the Oklahoma tribes and 
tribes in other western states have lands that are scarred by 
these brine scars. The problem with these brine scars is that 
they represent a continuous source of contamination of surface 
waters and ground waters because of the salt that is inherent 
and stored in these scars. And unfortunately, many of the 
Native American tribes in Oklahoma and, I assume elsewhere as 
well do not really have the resources in terms of trained 
personnel to know how to remediate these scars and this is 
really the only way to stop the continual contamination of 
surface waters and ground water.
    Mr. Regula. So the Center is doing research on how to deal 
with these problems.
    Mr. Sublette. Yes, sir. We certainly are. We certainly are. 
But what we would like to do is to help these Native American 
tribes and providing them with the knowledge of how to 
remediate these types of problems. But in addition to simply 
training them, what we want to do is to give them sufficient 
training that they can become self-sufficient and train others.
    Mr. Regula. Right.
    Mr. Sublette. That is why we call our program train the 
trainer.
    Mr. Regula. Right.
    Mr. Sublette. Now dealing--a lot of environmental problems 
are economically beyond the scope of Native American tribes. 
But in this case, it is not, because all that's needed. There 
is no highly sophisticated equipment or instrumentation. All 
that you really need is earth moving equipment, which they 
typically have for municipal projects.
    Mr. Regula. Do you get some help from DOE for your 
programs?
    Mr. Sublette. Yes, through the National Petroleum 
Technology Office, and we are also funded as an EPA research 
center as well.
    Mr. Regula. So you are here in support of the DOE budget?
    Mr. Sublette. Absolutely. Absolutely. And, with that type 
of funding, we work on innovative technologies for remediating 
these types of problems. But as I said, in this particular 
project I am talking about today, we want to help train these 
Native Americans to be self sufficient and solve these problems 
themselves.
    Mr. Regula. I noticed you say, train the trainers.
    Mr. Sublette. Right. Exactly. So, in that regard, we are 
requesting an appropriation of $750,000 to get this project off 
the ground. We think this--and if we can train one 
environmental specialist from every tribe, and then that person 
can turn around and train 10 others, then we have a pyramid of 
information that is flowing out, and hopefully we can get rid 
of problems like this, and stop them from continuing to pollute 
groundwater and surface waters.
    Mr. Regula. Thank you very much. We'll suspend the hearing 
while we vote.
    Mr. Sublette. Thank you.
    [The statement of Mr. Sublette follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                                  NEH


                                WITNESS

LESTER ABBERGER, FEDERATION OF STATE HUMANITIES COUNCILS
    Mr. Regula. Okay, we will reconvene the hearing. Our next 
witness is the Federation of State Humanities Councils. Lester 
Abberger. Is that right. A member of the board of Florida's 
Humanities Council, accompanied by Alan Boyd. And I am sure 
you're here to support your constituent.
    Mr. Boyd. Thank you very much, Mr. Chairman. I won't take 
any of his time. I just wanted to introduce him to you and the 
committee--a long-time friend of mine, former chairman of the 
Humanities Council in Florida. Now, here on NEH issues, Les 
Abberger.
    Mr. Regula. And you vouch for his testimony.
    Mr. Boyd. I'll vouch for his credibility. Thank you. 
[Laughter.]
    Mr. Regula. And do you have a Humanities Council in the 
State of Florida. I know you were in the legislature, and you 
always supported their efforts there, am I correct?
    Mr. Boyd. I have had a chance to work with Mr. Abberger on 
many occasions there.
    Mr. Regula. Okay. Well, thank you for coming over. Mr. 
Abberger, you are on.
    Mr. Abberger. Thank you, Mr. Chairman. I appreciate the 
privilege of speaking to you today on behalf of the State 
Humanities Councils, as Mr. Boyd said. I serve on the Board of 
the Florida Humanities Council. I am past chair of that board. 
I live in Tallahassee, Florida. I am senior vice president of 
Florida Water Services Corporation, and the MP Water Resources 
Group.
    I am here today to urge you to support funding levels 
requested in the President's Fiscal Year 2000 budget of 
$150,000,000 for the National Endowment for the Humanities. And 
as an element of that request, $39.13 million, for the NEH's 
Federal-State Partnership. As you well know, this $39.13 
million funds the activities of state humanities councils. 
There are literally thousands of examples I could cite to 
illustrate how Americans in every state have been educated, 
inspired, and enriched, by the public humanities.
    In my State, the Florida Humanities Council sponsored more 
than 900 public humanities programs last year, programs for 
school teachers, business leaders, elected officials, senior 
citizens, families, and many others.
    In the testimony, I submitted for the record, I have 
provided information and insights about some of the more 
innovative and effective programs in Florida and in other 
States.
    I would like to use my time this morning, however, to 
address, three important issues raised in the past by members 
of Congress about the work of the State Humanities Councils. 
Those issues are our contributions to meeting the nation's 
education challenges, our efforts to build collaborative 
partnerships with other organizations, and one that I know that 
has been a particular interest to you--our efforts to diversify 
our funding.
    Education is integral to the mission of State Humanities 
Councils, and each council has worked in the education system 
of its State to use the disciplines of the humanities to 
improve the quality of classroom teaching. In Louisiana, for 
example, summer humanities teacher institutes have reached a 
quarter of the State's middle and high school humanities 
teachers, who, in turn, teach more than 300,000 students each 
year. Similar programs in Florida, Illinois, and Minnesota, 
offer residential seminars that provide outstanding teachers 
with opportunities to recharge intellectually, network with 
other excellent teachers, and study with distinguished 
humanities professors.
    We are responding effectively also to the challenges of 
developing productive partnerships with other institutions and 
organizations. These partnerships maximize the impact of what 
we know are limited Federal resources. For examples, Councils 
in 22 states are now working with the Smithsonian Institution 
traveling exhibit service in a program known as museums on main 
street. Councils work with small towns to host high quality 
portable Smithsonian exhibits, and build humanities programs 
such as reading and discussion groups around them.
    In Florida, our council worked with the Leroy Collins-Leon 
County Public Library to develop an exhibit and humanities 
program about the life and legacy of our former governor, Leroy 
Collins. This program has been used in more than 60 public 
libraries in the last two years.
    We also have impressive results to report of our efforts to 
diversify and strengthen our funding bases. In Florida, like 
many other Councils we have rigorously and systematically 
analyzed our programs, explored new markets, and investigated 
areas of potential profitability.
    Nearly two-thirds of Councils now receive State funding. 
And although all Councils are working to build resources 
through memberships, corporate partnerships, foundation grants, 
State and local appropriations, and entrepreneurial ventures, 
the demand for our programs and services, as you know, far 
exceeds our ability to provide them.
    As one who has devoted considerable time and energy to 
fundraising for the humanities, I can tell you without 
equivocation that the Federal support you so generously provide 
is the linchpin of all other fundraising efforts.
    In closing, I would seek your careful and judicious 
consideration of our request to increase funding for the State 
Humanities Councils through the Federal/State partnership. 
Funding for our Councils has been level for much of this decade 
and while our purchasing power has eroded, demands and 
opportunities are increasing. We are meeting needs not only 
public programming, but also in teacher training, literacy, and 
reading. We are working collaboratively with other 
organizations and we have diversified and expanded funding from 
other than Federal sources. Each dollar put into the Federal/
State partnership goes directly to State Councils and into 
programs that directly serve your constituents. These are 
programs of enormous significance for the civic and cultural of 
our States and Nation.
    Thank you, sir.
    Mr. Regula. Thank you. Mr. Dicks?
    Mr. Dicks. I have no questions, but I want to compliment 
you on your good work for the humanities. It's very important, 
and we'll work with you on this issue.
    Mr. Abberger. Thank you, sir.
    [The statement of Mr. Abberger follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Thank you.
    Mr. Dicks. Mr. Chairman?
    Mr. Regula. Yes?
    Mr. Dicks. At this point, I would like to introduce the 
statement of Mr. Con Abnee, the executive director of the 
Geothermal Heat Pump Consortium into the record.
    Mr. Regula. Without objection, it will be made part of the 
record.
    Mr. Dicks. Thank you.
    [The statement of Mr. Abnee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                  DEPARTMENT OF ENERGY: FOSSIL ENERGY


                                WITNESS

ERIC SIMPKINS, DIRECTOR, BUSINESS AND GOVERNMENT RELATIONS, ENERGY 
    RESEARCH CORPORATION
    Mr. Regula. Energy Research Corporation? Oh, this is Energy 
Research. You're just getting your exhibits, okay.
    Mr. Simpkins. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Simpkins. I would like to thank you for the opportunity 
to give testimony before the subcommittee today.
    The ERC has testified before the subcommittee on behalf of 
the fuel Cell community for several years in our direct fuel 
Cell program. And I'm here to support the DOE Fossil Energy 
Fuel Cell budget for stationary applications.
    This year, as in previous years, I can report substantial 
progress in our program. And as I go through this, I invite you 
to ask questions at any point during my brief remarks.
    Our program is on track. Much of the development is 
complete as are technology demonstrations.
    Mr. Regula. Okay, let me ask you what is your source of 
financing? Is it the private sector plus what you get from DOE?
    Mr. Simpkins. We have funds derived from the DOE Fossil 
Energy Program, as well as from the electric utility industry 
for our demonstrations.
    Mr. Regula. So the utility industry is interested in what 
you're producing?
    Mr. Simpkins. Very much so.
    Mr. Regula. And you're in the field of stationary sources?
    Mr. Simpkins. That's correct.
    Mr. Regula. And do you have any support from the community 
that might use this technology, such as schools, probably strip 
malls? Is there an interest in it?
    Mr. Simpkins. We are gaining support in user sites and 
their communities, primarily hospitals and shopping centers. An 
area of your interest would be rural industries and large 
cooperative farms, very interested in processing waste 
materials, and I'll talk about that a little bit more.
    Mr. Regula. How close are you to being commercial? I assume 
you're still in the research phase?
    Mr. Simpkins. A year closer than we were last year. And it 
seems like a never-ending thing.
    Mr. Regula. Yes, that's what I'm trying to get at. Where do 
you see this thing becoming viable in the marketplace?
    Mr. Simpkins. Certainly, as with the other fuel cell 
developers that are Federally-funded, we will have pre-
commercial units available for field trials beginning a little 
bit later this year.
    Today, I want to advise you of three major developments 
with our direct fuel cell program. Previously, about two years 
ago, I reported the results of the Santa Clare Demonstration 
Project where we tested a 2-megawatt proof-of-concept fuel cell 
power plant which was successful. Since that time, the changes 
dedicated by that project have been incorporated into our 
hardware. And last month, we commissioned the largest ever 
direct fuel cell power plant, which is now operational at our 
corporate headquarters in Danbury, Connecticut. This is not an 
artist's conception, as we used to show in the past, but now an 
actual photograph of an operating pre-commercial power plant. 
This is the design of the fuel cell stack which is incorporated 
in this enclosure, which will be used for our commercial 
plants. The rest of the plant is a power plant simulator.
    Mr. Regula. Well, how many megawatts?
    Mr. Simpkins. This is a 250-kilowatt power plant.
    Mr. Regula. Kilowatt.
    Mr. Simpkins. On a per stack basis, it generates twice the 
electricity that we did three years ago with the stacks in 
Santa Clare, California.
    Mr. Regula. What could that fuel, a home or a business?
    Mr. Simpkins. A 250-kilowatt power plant would provide 
electricity for upwards of 150 homes.
    Mr. Regula. Oh, really? Well, then you're close to 
commercial?
    Mr. Simpkins. The second thing I wanted to mention to you 
today, Mr. Chairman, was that ERC, my company, and the M2 
Division of Daimler-Chrysler, our European partner, had 
initiated the field trials program within which three field 
trials will be contracted in Germany starting later this year. 
One is to be conducted in the United States starting the 
beginning of next year. And we're in negotiations for 
additional field trials in the U.S. as well.
    Mr. Regula. Something like that?
    Mr. Simpkins. All will be 200-kilowatt class, direct fuel 
cell energy plants, most of which will be operated in a grid-
connected mode and several of which will be operated using both 
the electricity and the heat that these things generate.
    Mr. Regula. I'm curious, is there research going in places 
other than the United States in fuel cell development?
    Mr. Simpkins. Certainly, primarily in Europe and in Japan.
    Mr. Regula. To your knowledge are most of them at about the 
same level of progress as this program is in the United States?
    Mr. Simpkins. Most of those programs offshore, which are 
funded by their governments, are substantially behind our 
technology development at this point in time. But they are also 
funded at a higher level than the U.S. Federal programs.
    Mr. Regula. Well, you mean a higher level of Federal money. 
But if you take into account that you probably get more private 
sector support than they do in some of these other locales, the 
total budget may be as much. Do you think?
    Mr. Simpkins. I couldn't speak to private sector support in 
offshore programs, but certainly their government support is at 
a higher level than ours.
    These field trials will be conducted in Europe and the 
United States. We will establish operational experience as well 
as confidence in how to operate and maintain these energy 
plants.
    The third thing that I wanted to discuss is that the cost 
of producing the direct fuel cell energy plant has been since 
the time we were developing those stacks for the Santa Clare 
demonstration been cut in half. And we expect that by the time 
we're done with the field trial program, that we will again cut 
the cost of these things in half.
    Mr. Regula. I'm interested is Daimler-Chrysler more 
interested in application for motor vehicles or are they 
interested for a subsidiary program that they would develop to 
market this for stationary applications?
    Mr. Simpkins. Chrysler is interested in both programs.
    Mr. Regula. Both, but you're only in the stationary part?
    Mr. Simpkins. That's correct.
    Mr. Regula. Very interesting.
    Mr. Simpkins. Finally, Mr. Chairman, future buyers of the 
direct fuel cell plant, including members of our fuel cell 
commercialization group established to pull our product into 
the marketplace are planning for applications that were never 
dreamed of when we started this program. A number of niche 
markets have been identified and we have projects now ongoing 
in most of these, including using animal waste to generate gas 
and digesters to fuel our fuel cells. Similarly, with land fill 
gas, which would otherwise be a pollutant and greenhouse gas, 
called coal-bed-methane; we have tested our system using coal-
bed-methane gas and found that all of these opportunity fuels, 
as we might call them, work very well with fuel cell 
technologies.
    I would conclude by saying that bipartisan support has 
propelled the stationary fuel cell program through many years 
of study, experimentation, and testing. Today, as we're on the 
threshold of market entry with an affordable product, the 
continued support of the subcommittee is needed to complete the 
task. We sincerely appreciate the work of the subcommittee and 
the Department of Energy in behalf of the stationary fuel cell 
program and ask that the subcommittee fully fund the fuel cell 
program as defined in our cooperative agreements with the 
Department of Energy in Fiscal Year 2000.
    Mr. Regula. Thank you.
    Mr. Simpkins. Thank you, Mr. Chairman.
    [The statement of Mr. Simpkins follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

              DEPARTMENT OF ENERGY: STATE ENERGY PROGRAMS


                                WITNESS

RICHARD SEDANO, CHAIRMAN, NATIONAL ASSOCIATION OF STATE ENERGY 
    OFFICIALS
    Mr. Regula. The National Association of State Energy 
Officials.
    Mr. Sedano. Good afternoon now, Mr. Chairman, it's a 
pleasure to be here. My name is Richard Sedano, and I live in 
Montpelier, Vermont. I run the Vermont Department of Public 
Service, and I'm also the Chair of the National Association of 
State Energy Officials. And I'm an old power plant engineer and 
be happy to talk about power with you.
    NASEO is an organization of 53 out of the 56 States and 
American territories plus industry affiliates. And, today, I'm 
here to testify on behalf of NASEO in support of funding for 
the State Energy Program administered by the U.S. Department of 
Energy's Office of Energy Efficiency and Renewable Energy. 
Specifically, I am testifying in support of no less than the 
request contained in the President's Fiscal Year 2000 budget 
for State grant programs, including $37 million for the State 
Energy Program and $154 million for weatherization assistance 
and for the budget request levels for the Competitive Energy 
Partnerships.
    Each year, NASEO comes before this subcommittee to discuss 
the successes of the State Energy Offices and this year is no 
exception. But, first, Mr. Chairman, I would like to remind the 
subcommittee of the importance of having a strong State Energy 
Office system to support the DOE programs that are funded by 
this subcommittee.
    Requests for assistance to the State Energy Offices 
continue to increase and we share that challenge. Many of the 
efficiency initiatives in corporate R&D programs that have 
historically been funded by utilities and the industry have 
evaporated due to electric industry restructuring. And the 
State Energy Offices are feeling the pressure to support the 
continuation of these activities. The number of States that 
have passed electricity restructuring legislation is headed 
toward 20, while others have acted through public service 
commissions. And most other States are considering electric 
utility industry changes, as well as Congress and the FERC, as 
you know.
    Now as part of this change, franchise utilities compete 
with non-utility generators on commodity prices while public 
benefit programs, such as energy, RD&D, energy efficiency, 
renewable energy, fossil energy R&D, and low-income programs 
have all suffered. This is a gap that must be filled in order 
to meet national, State, and local needs. The State Energy 
Offices, such as my own, have been filling that gap albeit with 
diminished resources.
    In a restructured environment, energy efficiency, and 
Fossil Energy R&D Programs must adapt to the changing reality 
of the new electric utility industry in which franchise 
utilities are no longer major technology deployment partners. A 
long-term strategic plan of the type you seek to build by 
prioritizing research, development, and deployment 
appropriations must include provisions for this changing 
industry structure.
    At the State level, the types of activities we are planning 
must also take into consideration these new trends, and we hope 
to work with you, Mr. Chairman, to recognize the importance of 
coordinating energy RD&D with energy deployment activities.
    The type of programs we have successfully implemented 
include linking DOE's industrial programs with our State 
activities in those industries and in those industries in our 
States. States are also a great source of financing for schools 
and hospital energy efficiency retrofits. In Vermont, my office 
works with the State Superintendent's Association to address 
energy efficiency opportunities in public schools. The 
objective is to obtain long-term benefits and develop sound 
management practices and by working with the superintendents, 
we are able to gain quick and widespread approval for the 
program and ensure responsiveness to local needs.
    NASEO also strongly supports the so-called special projects 
known as Competitive Energy Partnerships. These competitive 
projects provide matching funds to States in a variety of areas 
within buildings, transportation, and industry and allow State 
Energy Offices to conduct joint activities with industry and 
other partners. At your request, this is the first year that it 
is separately funded out of each division's accounts within 
DOE. And from our perspective, the special projects programs 
have been a dramatic success.
    In conclusion, I would like to remind the subcommittee of 
the critical role that State Energy Offices play in the 
delivery of energy efficiency programs and a variety of other 
energy programs in spite of the relatively small Federal 
investment in the program. Our success is based on our ability 
to directly meet the needs of taxpayers, small business people, 
farmers, and industry. We support at least the request of $37 
million in funding for the State Energy Programs for Fiscal 
Year 2000, and we think that is a small price to pay for 
continued success.
    And thank you for listening.
    Mr. Regula. Do your State agencies share information? Do 
you have a clearinghouse?
    Mr. Sedano. We have a lot of meetings. We have our 
organization, NASEO itself, which is constantly putting out 
information about what we're all doing. We meet regularly on 
broad industry topics, as well as focused topics. For example, 
we just recently in California had a focused discussion about 
how to make the oil recovery industry more efficient. And 
whenever we see an opportunity to focus in on it----
    Mr. Regula. You do have information sharing?
    Mr. Sedano. Oh, absolutely.
    Mr. Regula. And you try to avoid duplication wherever 
possible? There is no use reinventing the wheel in Texas if it 
has already been invented in Oklahoma.
    Mr. Sedano. In Vermont, we're really good at stealing other 
people's good ideas and just applying them and that's my 
philosophy, sir.
    Mr. Regula. Okay, that's good. Thank you very much.
    Mr. Sedano. You're welcome.
    [The statement of Mr. Sedano follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                             NEA; NEH; IMLS


                                WITNESS

EDWARD H. ABLE, JR., PRESIDENT AND CEO, AMERICAN ASSOCIATION OF MUSEUMS
    Mr. Regula. The American Association of Museums.
    Mr. Able. Good morning, Mr. Regula.
    Mr. Regula. Good morning.
    Mr. Able. How are you, sir?
    Mr. Regula. Good.
    Mr. Able. Mr. Chairman, I'm Ed Able, president of the 
American Association of Museums, and I would ask that my entire 
testimony be included in the record?
    Mr. Regula. Without objection.
    Mr. Able. The Federal cultural agencies have provided 
invaluable assistance to museums from A to Z, art museums and 
aquaria to youth museums and zoos. I urge you and the committee 
to bolster this effort by funding the National Endowment for 
the Humanities, the National Endowment for the Arts at the 
levels requested by the President. In addition, I encourage you 
to increase the budget of the Office of Museum Services to $40 
million. This would accommodate the President's request for new 
technology initiatives, as well as the museum community's 
request for $6 million to boost other major programs. As my 
time is limited, I'll focus my attention on the importance to 
museums of the Office of Museum Services General Operating 
Support Grants.
    Over the last 10 years, Mr. Chairman, the museums have 
witnessed a huge increase in attendance. For example, the 
California Science Center had over two million visitors last 
year. Titanic, the Exhibition, drew about 5,000 visitors a day 
in St. Petersburg, Florida. The Field Museum of Natural History 
in Chicago served over 40,000 visitors in two weeks for a 
dinosaur exhibition. This is not simply a blockbuster 
phenomenon. American museums now enjoy 865 million visits a 
year compared with around 600 million only a decade ago.
    Mr. Regula. Do most of them charge admission fees?
    Mr. Able. All of them are charging basically something, 
Chairman, but very little, not nearly enough to cover the cost.
    That's 2.3 million visits a day and represents more than 
the annual attendance at all amateur and professional sports, 
movies, and performing arts. This is not just at our biggest 
museums either. For example, the Telfair Museum of Art in 
Savannah, Georgia has doubled its attendance over the last four 
years. People are visiting because museums are reaching out to 
communities and families. They've become what The Washington 
Post called ``the new town square,'' offering everything from 
community forums to education. In short, museums are succeeding 
because they're meeting real community needs.
    To demonstrate how OMS supports this outreach, I turn back 
to the Telfair Museum. A 1998 General Operating Support Grant 
supported research into what the people of Savannah wanted from 
that museum. According to the museum, this grant will help take 
its community service to a whole new dimension.
    Museums welcome their popularity with enthusiasm. However, 
all this success is placing unprecedented demands and strains 
on our infrastructure. The main reason for establishing OMS in 
1976, and I'm quoting from the founding legislation was: ``To 
ease the financial burden borne by museums as a result of their 
increasing use by the public.'' And that's never been more true 
than today. While the Generating Operating Support Grant cannot 
be used for construction or renovation. It can be used to meet 
infrastructure needs. For example, Utah Museum of Natural 
History is hiring additional security guards to meet the 
demands of increased attendance. They're also using GOS funds 
to eliminate an insect infestation in a part of their very 
important ethnographic collection.
    There are also skyrocketing demands on museums to support 
the formal education system, a subject in which I know the 
chairman has particular interest. We know from a recent OMS 
survey that over 74 percent of museums report an increase in 
the number of students, teachers, and schools served in the 
last five years. Museums are spending approximately $200 
million a year on school programs and are providing four 
million hours of educational programming. Museums use GOS funds 
to support their education missions, including expanding 
geographic outreach. For example, the Museum of New Mexico will 
use it's General Operating Support Grant to circulate its 
education van throughout the State. According to the museum, 
this program would not have happened without IMLS funding which 
attracted funding from five additional sources.
    Technology has also brought museums popularity and 
challenges. Before the advent of the digital age, museums were 
only able to share their collections with the public in 
teaspoon amounts to on-site visitors. Now, however, museums are 
developing extensive interactive exhibits and applying new 
technologies to increase their accessibility. A General 
Operating Support Grant will allow the Sheldon Museum and 
Cultural Center in Haynes, Alaska to enter their entire 
collection on computer for access by the public. The Hood 
Museum of Hanover, New Hampshire is using part of its GOS for 
digitization so that any student or faculty member at any time 
can now access the collection by the Internet. Such examples 
only begin to scratch the surface because fewer than 10 percent 
of the Nation's museums have websites. But 90 percent of the 
Nation's teachers believe that using the Internet boost student 
achievement, particularly in the area of object-based learning.
    The President's budget calls for $5 million for OMS to make 
museum resources part of the National Digital Library of 
education, as well as for $7.6 million for OMS national 
leadership grants for museums, including museums online.
    We've made great strides in U.S. libraries in terms of 
information access and navigation. To be effective partners 
with our library colleagues, it's critical to make the same 
advances for museum collections if we're to maximize their 
potential impact on education.
    While needs have increased, the OMS has shrunk despite an 
exemplary record. This has meant that the General Operating 
Support Program could fund only 20 percent of applications in 
Fiscal Year 1998 versus 26 percent in Fiscal Year 1995 and down 
from a high of 46 percent in Fiscal Year 1981. So the proposed 
$40 million is modest relative to the demonstrated demand. 
Funding all the recommended applications for General Operating 
Support would cost a mere $65 million.
    And I should mention that besides GOS, smaller OMS programs 
provide critical funding for conservation, professional 
development, and leadership initiatives. It also funds a 
critical program to improve individual museum standards and 
performance in the museum assessment program, which has been 
widely used in your own museums in the State of Ohio.
    The public's expectations of museums are higher today than 
ever before. And they're likely to continue to rise. Museums 
are facing the challenge to meet and exceed those expectations. 
I urge you to answer this challenge and partnership with us.
    In closing, Mr. Chairman, let me make one brief point. We 
are painfully aware that in your subcommittee budget, there are 
a lot of very worthy and needy mouths to feed. So you should 
know that a number of us are working as best we can to assure 
that your entire subcommittee budget receives the support it 
needs in the entire Congress.
    Mr. Regula. Thank you, and that will be the challenge.
    Mr. Able. It certainly will, sir. Thank you.
    Mr. Regula. We have seen a lot of opportunity on the 
horizon yet. So we try to be fair in allocation of the 
resources. The committee will be recessed until 1:30.
    [Recess.]
    [The statement of Mr. Able follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

           DEPARTMENT OF ENERGY'S CERAMIC TECHNOLOGY PROGRAM


                                WITNESS

MAXINE SAVITZ, PH.D., ALLIEDSIGNAL, INCORPORATED
    Mr. Peterson [presiding]. The hearing is brought back to 
order. We will now hear from Maxine Savitz, AlliedSignal, 
Incorporated?
    Ms. Savitz. Thank you, Mr. Peterson. I'm pleased to be here 
and I've provided a formal statement for the record, and I 
would like to just give a brief oral statement to tell you some 
of the successes that we've had recently as a result of the 
Department of Energy's program in collaboration with 
Government, industry, and national labs, particularly Oak Ridge 
National Laboratory.
    And this committee has really been a long-term support of 
efficiency R&D and we're very grateful for that and also 
particularly for turbine technology and ceramic technology. And 
we realize that even with budget surpluses, it's limited funds 
and you have budget caps. But we wanted to assure you that in 
addition to asking you for funding, AlliedSignal is making an 
investment itself. In the last few years, we've spent over $45 
million in development of ceramic technology and the 
manufacturing process.
    I'm going to show you some of the parts that we've made 
today and have actually flying in airplanes and also some 
development parts to bring you up-to-date. The first one is a 
seal that is on a Learjet. It goes on our 731. These are all 
silicon nitride and on the main shaft engine and it solved a 
reliability problem. And the metal part is inserted so it will 
run on the shaft. Other materials, other than silicon nitride 
just got demolished after 700 hours, and it was warrantied for 
2,000. Silicon nitride has now been retrofitted on over 5,000 
engines, two million hours of flight time. And that 
technology--the basis for it was developed under the 
Government's funding. All the commercial products have been 
done on our own.
    Another one, if you fly on a 737 or an Airbus or the 777, 
the starting pumps have ceramic parts that are there to enable 
fast starts for when the silicon nitride is cold. And you can 
throw--I wouldn't say throw it on the table because you'll dent 
the table, but you can drop and clamp them together if you 
want. They are very strong and not like teacups or anything 
like that. And you can just sort of bang them together and 
clank them.
    This is a new product that this August that went into the 
manufacturing of FRAM oil filters on the production line. The 
previous material was eroding away after two months and have 
down-time in the fabrication, and ones like that have been 
working since August. So the whole lines are being retrofitted.
    Under the Department's program, we've had some really good 
successes on the ceramic turbine engine demonstration program. 
The most recent one, this is the biggest part of silicon 
nitride and that's a seven inch wheel that runs in a gas 
turbine that goes on either industrial applications--if that 
were out of metal, it would be three times as heavy. So I 
didn't cart that across the country. It has passed a 1,000 
hours of tests. It spins at over 40,000 RPM and all made in one 
piece, replacing this sort of individual blades this size and 
having to have metal parts in compliant layers. So a much 
simpler part. And it's the same blade but, as you can see, 
since it's in one part, didn't need this metal and actually 
would be cheaper than some of the metal parts because even 
metal blades are inserted individually. And that's now going to 
go into a 10,000 hour field testing at a plastics facility to 
remove volatile organics along with providing electricity and 
steam. So it's a real success to the DOE program.
    It was run against some nozzles and these have gone under 
2,500 hours of testing and are now going to be field tested in 
five 757s, 767s to be in real service and then could 
potentially go into service.
    Under the Advanced Technology Program that is funded by--or 
Advanced Turbine Systems Program funded by DOE, we've made some 
blades that Solar has tested, 950 hours in Bakersfield. You can 
feel how smooth the blades are. There are 63 of those in a ray 
of those. And these have been made for Allison, some nozzles. 
Again, there are 57 of these and they're about to be field 
tested at a natural gas processing facility in Alabama this 
summer. And so you circle them around, raise the temperature, 
also very erosion-resistant. So those have been very important 
programs, and we're making a lot of progress.
    There's also been some funding from Department of Defense 
in looking at some bigger structures for rocket propulsion 
technology. And what we've learned from that will be able to be 
applied to the DOE program for structural parts.
    And last year, this committee appropriated $3 million for 
continuation of the Ceramic Technology Program to look at in 
situ technology, materials, life prediction, gelcasting work 
done at Oak Ridge, at industries, such as ourselves, and 
universities. And I'm pleased that this year the administration 
has requested the money to be continued, and we hope you will 
continue the support of it. These funds are very important as 
we look towards the industrial applications where we have 
30,000 to 40,000 hour of life requirements now versus formerly 
3,500 hours, if you look at some of the transportation 
applications. And we're looking at different environments where 
we have more steam and we want to see how do we make sure these 
ceramics last for that amount of time. And the materials really 
enable the higher temperatures for the small turbines, 
particularly microturbines, which are starting to get 
introduced by AlliedSignal and other engine companies in the 
U.S. These are things that are like 50 kilowatts to 500 
kilowatts, and a 75-kilowatt unit is enough power for a 
McDonald's. A 300 or 400 type of unit would be good for a 
hospital or an office complex. But they're currently only 30 
percent efficient. And in order to be 40 percent efficient, one 
would need ceramics to go the higher temperature.
    And the Department is requesting starting a microturbine 
program in the Fiscal Year 2000 budget, there's $2.5 million 
for it. It complements the ceramic technology. We would like to 
see that be $5 million to enable two, at least two microturbine 
companies to proceed and really demonstrate the technologies 
needed, be it ceramics, advanced compression, bearing 
technology, and really be able to move at a rate so that we 
become the leaders.
    In closing, I want to thank the committee for your 
continued support and the momentum that you've helped to 
create.
    Mr. Peterson. We thank you very much. Appreciate your 
testimony.
    I want to remind all the witnesses, that these are five 
minute presentations and I may give you the high sign when 
you're getting close to the end.
    [The statement of Ms. Savitz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

       DEPARTMENT OF ENERGY'S MOLTEN CARBONATE FUEL CELLS PROGRAM


                                WITNESS

JOHN NIMMONS, MANAGING DIRECTOR, ALLIANCE TO COMMERCIALIZE CARBONATE 
    TECHNOLOGY
    Mr. Peterson. Next, we will hear from John Nimmons, 
managing director of Technology for Alliance to Commercialize 
Carbonate Technology.
    Please proceed.
    Mr. Nimmons. Good afternoon, Mr. Peterson, and thank you 
for the chance to speak with you this afternoon. My name is 
John Nimmons. I'm appearing here today as the managing director 
of the Alliance to Commercialize Carbonate Technology, also 
known as ACCT. Carbonate technology refers to molten carbonate 
fuel cell technology, which is one of several that the 
Department of Energy has been funding for some time.
    The advantages of molten carbonate is it's extremely 
efficient, about twice as efficient as conventional generation, 
extremely clean, and it produces a high temperature heat stream 
that can be used for co-generation.
    The focus of ACCT is to help bring the molten carbonate 
technology into commercial markets at an early date. And our 
primary focus is M-C Powers, molten carbonate technology, 
although we also follow the progress of other fuel cell 
technologies in which our members are interested.
    Our members include some of the world's leading gas and 
electric utilities from the U.S., Canada, Europe, and South 
America. That's a membership list, which is also appended to 
the testimony. We also include non-regulated affiliates, energy 
service providers, natural gas pipelines, engineering firms, 
manufacturing firms, and research organizations. What they have 
in common is an interest in the molten carbonate fuel cell 
technology and in helping it into the market so that they can 
buy it, use it, or make it available to their customers.
    Because we've submitted written testimony, I won't repeat 
all that here, but I would like to briefly make four points:
    The first is that our ACCT members want this technology. 
Many of them have been involved with us now for four or five 
years. They've identified significant markets for it. They 
believe that it's the right kind of technology for restructured 
electricity markets and for the kind of environmental concerns 
we're facing in the 21st century. They have chosen to support 
it because they like what the technology can do and they're 
convinced that M-C Power and its development team are capable 
of getting it into the market.
    The second I wanted to make is that ACCT members are 
convinced that M-C Power's cost targets are realistic in terms 
of the kinds of markets that these will be targeted for, and 
that it will have a very competitive cost of energy when it 
gets into the market in about the year 2001 or 2002. As an 
example of that, we're working with King County, the 
metropolitan area of Seattle, which has some of the lowest 
electric rates in the country. They are committed to a 1-
megawatt demonstration of this over the next few years. And 
they're putting in about $2 million of their own money as Puget 
Sound Energy is also putting in probably some over $1 million. 
And these are the lowest rates in the country, so they feel 
that they can be competitive in that area.
    The third point is that ACCT believes that the development 
team is making good progress in equipment design and testing 
and in attracting interest in its demonstration program over 
the next couple of years and attracting private sector 
investment in the company, which is needed to take it beyond 
the DOE funding and into the market. I think in Mr. Camara's 
testimony this morning, Lee Camara, the president of M-C Power, 
indicated that they're in negotiations now with two major 
investors to help them through the next couple of years and to 
begin to wean them off of the DOE funding and that's a very 
positive development.
    And, finally, we think that continued progress over the 
next two years and into the market depends on stable and 
predictable funding from the Department of Energy. Our members 
are in there for the long-term. They're putting in their own 
funds and they very much hope that the Department will continue 
to fund it into the market.
    And I would be happy to answer any questions you might 
have.
    Mr. Peterson. Thank you very much. We appreciate it. Right 
on time.
    [The statement of Mr. Nimmons follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

              DEPARTMENT OF ENERGY: FOSSIL ENERGY PROGRAMS


                                WITNESS

BEN YAMAGATA, EXECUTIVE DIRECTOR, COAL UTILIZATION RESEARCH COUNCIL
    Mr. Peterson. Next, we will hear from Ben Yamagata, 
executive director of Coal Utilization Research Council. Is Ben 
here? Welcome.
    Mr. Yamagata. Thank you, sir. I'll take my 5 minutes, Mr. 
Chairman, and get the heck out of here.
    Mr. Peterson. All right.
    Mr. Yamagata. I appreciate the opportunity to testify here 
this morning, this afternoon. My name is Ben Yamagata and I 
represent a group called the Coal Utilization Research Council, 
which is a group of public and private entities that are 
interested in the long-term use of coal in an efficient and 
cost-effective environmentally-acceptable manner.
    With your permission, I thought maybe I would use these 
worksheets here to try and emphasize the points that I want to 
make during this brief time with you. First of all, this bar 
chart that I think you're looking at is an attempt to depict 
for you the fact that coal, which is about 56 or 57 percent of 
the resource-base for electric generation in this country 
today, is not expected to decrease by very much over the next 
several decades, as a matter of fact, as a basis for the fuel 
that we'll use to produce electricity. I think that the things 
that may change that relate to Environmental Protection Agency 
regulations and also CO<INF>2</INF> emission reductions if 
they're adopted. The important point to make here is that 
technology is the key to preserving the coal option.
    If I can move you to the second chart here, and I think 
this point from the chart is really to make a very simple point 
and that is that coal is going to be used throughout the world. 
More importantly, it's going to be used in places like India 
and China. If you look at the 2015 time frame, more than half 
or nearly half of the coal that is going to be used in the 
world is going to come from those developing countries. It 
seems to me that those who support Kyoto like CO<INF>2</INF> 
emission reductions must support better coal technology, which 
in turn with increased efficiency will lower the amount of 
CO<INF>2</INF> that otherwise would be emitted into the 
atmosphere in those countries where we know that coal is going 
to be used.
    The third chart seeks to depict for you in this bar chart 
the increases in efficiency that we hope to get with better and 
better coal-based technologies. Our organization is estimated, 
as an example, that if we can commercialize advanced coal-based 
technologies and widely deploy those technologies around the 
world, as much as one-quarter of all of the CO<INF>2</INF> 
reductions required under the Kyoto protocol that would be 
emitted if you were using regular coal technology today, one 
quarter of all the CO<INF>2</INF> reductions required from the 
developed countries would not be emitted by using new 
technologies.
    For coal to remain competitive, a competitive source of 
energy in the future, I think it's essential that the 
Government and industry undertake targeted and sustained 
research and development technology programs to increase the 
efficiency of coal, to make coal a viable source of clean fuels 
and chemical feedstocks, and to reduce the environmental 
impacts of coal.
    What we've tried to do in the context of our organization 
is to develop a technology road map. Each one of these little 
red bubbles, Mr. Chairman, is an attempt to indicate a 
technology and/or a process in the chain of technology 
development that will lead us to coal-based energy plants that 
can compete with the price of natural gas generated electricity 
and that will emit near zero emissions.
    I want to take this opportunity to also note specifically 
that our organization strongly endorses the goals of DOE's 
Vision 21 project, and we support the Department's efforts to 
establish programs to achieve the goals sought by Vision 21. I 
can report to you that the CURC and DOE are working closely 
together to ensure the implementation of Vision 21 and to make 
sure that it is consistent with the CURC's technology road map. 
We're pleased with the progress being made and look forward to 
our continuing discussions with the Department.
    Finally, if I may draw your attention to the first page of 
the handout which notes the five recommendations of our 
organization that we would ask the committee to consider. And 
without going into great detail at all because I think the 
bullets probably set out what we're recommending. Spend time 
looking at high-efficiency generation technologies. There is a 
need to coordinate activities between the EE programs or energy 
efficiency and the fossil energy offices, particularly as it 
relates to materials development with respect to steel alloys, 
ceramics, and other advanced materials. That type of 
demonstration or rather development program ought to also look 
towards larger power plant applications. We've also indicated 
that China and India are important new markets for these 
technologies, and we would ask you then to take a look at the 
type of technology of programs that are required for the 
development for these advanced technologies.
    And I thank you for your time and attention.
    Mr. Peterson. You're welcome, thank you very much.
    Mr. Dicks. We'll read your statement carefully then.
    Mr. Yamagata. Thank you, sir. It's the same thing I say all 
the time.
    Mr. Peterson. Right, I believe it.
    [The statement of Mr. Yamagata follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                DEPARTMENT OF ENERGY: FOSSIL ENERGY R&D


                                WITNESS

DALE L. KEAIRNS, AMERICAN INSTITUTE OF CHEMICAL ENGINEERS
    Mr. Peterson. Next, we'll hear from the American Institute 
of Chemical Engineers, Dale Keairns.
    Dale, welcome.
    Mr. Keairns. Thank you.
    Mr. Peterson. Please proceed.
    Mr. Keairns. I'm pleased to appear before you today 
representing the American Institute of Chemical Engineers. 
AICHE is a non-profit, professional association of more than 
57,000 chemical engineers.
    I'm here to present AICHE's recommendations for the Fiscal 
Year 2000 funding for the Department of Energy's Energy 
Conservation and Fossil Energy R&D Programs. We recommend that 
Congress provide $176 million for DOE's Office of Industrial 
Technologies and $407 million for the Fossil Energy R&D 
Program.
    AICHE believes that the Federal Government must maintain a 
strong and effective investment in energy R&D if we are to meet 
vital national needs. Federal support for energy R&D furthers 
our Nation's competitiveness, job growth, environmental 
protection, and quality of life. It also is an integral element 
of the national strategy to reduce greenhouse gas emissions.
    If we look at energy conservation R&D, we strongly support 
increased funding for DOE's energy conservation R&D activities. 
With DOE's conversation R&D program, AICHE believes the 
industrial sector of R&D should receive priority. We recommend 
that Congress provide $176 million for DOE's Office of 
Industrial Technologies. That would be an increase of 6 
percent. OIT's Industries of the Future Program gets high marks 
for leveraging resources and advancing innovative technologies 
through cooperative R&D with the Nation's most energy intensive 
industries. AICHE is pleased to play an active role with OIT 
and others to implement the Vision 20/20 program for the 
chemical industry. Vision 20/20 promotes a chemical technology 
research agenda that stimulates collaborative research programs 
and helps develop and demonstrate innovative technologies 
beyond the risk tolerance and horizons of the chemical industry 
today.
    If we look at fossil energy R&D, we are disappointed that 
the administration has proposed to cut DOE's Fossil Energy R&D 
Program by 5 percent in Fiscal Year 2000. It is important to 
keep in mind that fossil fuels are in many ways the lifeblood 
of our economy, as the U.S. depends on fossil fuels for about 
85 percent of the energy we consume. Instead of cutting these 
programs, we urge you to increase the Fossil Energy R&D Program 
by 6 percent to $407 million.
    Within DOE's Fossil Energy R&D Program, AICHE believes that 
coal R&D should receive priority. Coal is the Nation's most 
abundant fossil energy resource and about 56 percent of the 
electricity in the U.S. is generated from coal. Thus, Congress 
should provide $130 million for coal R&D.
    While Federal support for coal has drawn opposition given 
its carbon intensity, we must recognize that DOE supported 
technology has made significant opportunities for coal to be 
cleaner and continued advances to further reduce its 
environmental impacts are needed. In addition to the 
substantial environmental benefits of DOE's coal R&D 
activities, the program can lead to reductions in the cost of 
electricity, increased international demand for U.S. 
manufactured power-generating technologies, and decreased 
environmental compliance costs.
    In conclusion, meeting the Nation's energy needs while 
improving the environment will require long-term commitment to 
fossil energy and energy conservation R&D. While energy 
efficiency R&D has drawn much attention, the Nation is expected 
to remain dependent on fossil fuels for decades to come. The 
professionals of AICHE look forward to continuing to provide 
our expertise to further technologies that will make energy 
production cleaner, cheaper, and more efficient.
    I thank you for this opportunity, and certainly would be 
glad to answer any questions.
    Mr. Peterson. We thank you.
    Mr. Keairns. Thank you.
    [The statement of Mr. Keairns follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

              DEPARTMENT OF ENERGY: FOSSIL ENERGY AND USGS


                                WITNESS

DAVID R. APPLEGATE, DIRECTOR OF GOVERNMENT AFFAIRS, AMERICAN GEOLOGICAL 
    INSTITUTE
    Mr. Peterson. Next, we will hear from American Geological 
Institute, Dr. David Applegate. David, you're on.
    Mr. Applegate. Great, thanks a lot. I appreciate this 
opportunity to testify this afternoon. I'm director of 
Government Affairs at American Geological Institute. We're a 
federation of 34 different societies, geoscience societies 
representing geologists, geophysicists, and over 100,000 earth 
scientists. I'm a geologist myself. And I might add, it's a 
pleasure to appear before you. I'm a native of Chambersburg, 
Pennsylvania and I had the opportunity to do my first 
geological field work in the Olympic National Parks.
    Mr. Peterson. Well, you've got it covered.
    Mr. Applegate. Absolutely. You all couldn't have shown a 
better time.
    My remarks are going to focus on the U.S. Geological Survey 
and the Department of Energy's Fossil Energy R&D Program. But 
AGI also urges the subcommittee to fund geoscience activities 
at the Mineral Managements Service, BLM, the Forest Service, 
and the Smithsonian Institution. In particular, we support the 
National Park Service's Geologic Expertise for Resource 
Protection Initiative, which will improve that agency's ability 
to integrate geoscience information into resource management, 
interpretation, and park planning.
    It was not long ago that geoscience related agencies under 
the subcommittee's jurisdiction faced the most serious 
budgetary challenge in their history, and in several cases, 
outright elimination. This challenge came even as this Nation 
faced a wide-range of important problems requiring geoscience 
information and expertise for earthquakes, floods, landslides, 
water pollution, contamination from waste disposal, and 
reliance on unstable sources of foreign oil and minerals. 
Fortunately, this subcommittee and Congress as a whole 
ultimately recognized the value of Federal investments in 
geosciences which continue to pay back large dividends.
    The central mission of the USGS is to provide reliable, 
objective earth science information and data and analysis of 
hazards, resources, and the environment from a national 
perspective. Virtually every American citizen and every 
Federal, State, and local agency benefits either directly or 
indirectly from USGS products and services.
    AGI encourages the subcommittee to support the President's 
overall request for the USGS. And we're particularly pleased 
that for the first time in several years, the administration 
has requested an increase for the National Cooperative Geologic 
Mapping Program, which is something this subcommittee has had 
to restore funding for repeatedly. This important partnership 
between the USGS State Geological Surveys and universities 
provides the Nation with fundamental data for addressing 
natural hazard mitigation, environmental remediation, land use 
planning, and resource development.
    In supporting the overall request, we also the subcommittee 
to careful scrutinize the distribution of the increase, and 
particularly address reductions for the Geologic Division in 
areas of coastal studies, mineral resources, and energy 
resources. Science at Interior has decreased 20 percent in 
constant dollars since 1994, considerably more than any other 
Federal agency or department. Scientific activities at Interior 
should be strongly supported as a wise investment in the future 
health of this Nation's citizens, environment, and economy.
    Last year's landslides and flooding brought on by the 
strong El Nino effect are powerful reminders of the need to 
reduce the impact of natural hazards. Investing in research to 
better understand geologic hazards produces societal benefits 
and returns that extend to such areas as housing, 
transportation, commerce, agriculture, communications, and 
human health and safety. AGI strongly supports the requested 
increases for real-time earthquake and flood warning systems. 
And, particularly, the subcommittee is to be commended for 
commissioning a study of the Nation's stream-gaging system. And 
the resulting report highlights the need to maintain long-term 
baseline information and support modernization.
    Turning briefly to DOE's programs, continued research on 
fossil energy is critical to America's future. Societal 
benefits of this research extend to such areas as economic and 
national security, job creation, capital investment, and 
reduction of the trade deficit. It is particularly important 
when it comes to long-range research with broad benefits. In 
today's competitive markets with all the mega-mergers and 
whatnot, the private sector is focusing dwindling research 
dollars on shorter-term results in highly applied areas, such 
as technical services. In this context, DOE support of fossil 
energy research is very significant, both in magnitude and 
impact compared to that done in the private sector.
    AGI asks the subcommittee to grant DOE's request. These 
funds are a small fraction of DOE's total budget, but they 
represent an important investment in this Nation's future, 
programs making significant contribution to development of new 
technologies required for cost-effective, efficient development 
of U.S. oil and gas resources. And the Federal money spent on 
these programs goes to support laboratories and improve 
information dissemination. The money doesn't go into corporate 
coffers, but helps American business stay in business by giving 
them a technological edge over their foreign competitors.
    Thank you very much.
    Mr. Peterson. We thank you.
    [The statement of Mr. Applegate follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

 OFFICE OF SURFACE MINING: ABANDONED MINE RECLAMATION/RURAL ABANDONED 
                              MINE PROGRAM


                                WITNESS

DAVID WRIGHT, VICE PRESIDENT, NATIONAL COALITION FOR ABANDONED MINE 
    RECLAMATION
    Mr. Peterson. Our next witness is David Wright, vice 
president, National Coalition for Abandoned Mine Reclamation.
    David, you are on.
    Mr. Wright. Mr. Chairman and members of the committee, 
comments presented today are on behalf of the National 
Coalition for Abandoned Mine Reclamation are directed Title 4 
of the Surface Mine Control and Reclamation Act of 1977. In 
particular, the comments address the need for funding the Rural 
Abandoned Mine Program, the RAMP program, administered by the 
United States Department of Agricultural, National Resources 
Conservation Service.
    I would like to thank the committee chairman, Ralph Regula, 
and members of the Appropriations Subcommittee for providing 
this opportunity to speak on behalf of the National Coalition 
for Abandoned Mine Reclamation. My name is David Wright, and I 
am currently the vice chairman of that organization. I've 
worked in the Ohio coal mining industry for about 27 and a half 
years and am president of the Ohio Mine land Partnership, 
representing citizens of Ohio and those impacted by past mining 
problems.
    Our mission is to provide national leadership in reclaiming 
our Nation's abandoned mine lands. I'm here today to ask the 
committee to support an appropriation of $25 million for the 
Rural Abandoned Mine Program for Fiscal Year 2000. As you know, 
these funds come from a tax on coal mined each year. The 
company that I work for pays about $1.75 million to the 
Reclamation Fund. The RAMP share reclamation fund receives in 
excess of $30 million each year and has for the past several 
years.
    If appropriated, these funds will be used to reclaim 
abandoned mine lands in small communities severely impacted by 
past mining. These funds will be used on sites that have not 
been and is not expected to receive assistance from the 
Abandoned Mineland Program. The funds will be used in a total 
watershed effort, not on a fragmented approach as may have been 
done in the past. These funds will be used in partnership with 
other programs, working at the grassroots level to benefit 
small communities and individual landowners. Many of these 
communities remain economically depressed due to the past 
mining scars on the land and the off-site impacts on water 
quality.
    This is not only a reclamation issue or a water quality 
problem. It is more about working with other programs at the 
local level to solve resource concerns based on a watershed 
plan developed at the local level. It's about helping people to 
improve the quality of their community for economic growth and 
improving the quality of life for now and in future years. It's 
time to put these funds to work at the local level for the 
purpose which they have been paid.
    I ask you to give this your strongest consideration as one 
tool to improve our smaller communities. And I will answer any 
questions that you might have?
    Mr. Peterson. Thank you very much.
    Mr. Dicks. Thank you. Good testimony.
    [The statement of Mr. Wright follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                          DEPARTMENT OF ENERGY


                                WITNESS

W. RICHARD OTT, PROVOST, ALFRED UNIVERSITY
    Mr. Peterson. Next, we hear from Richard Ott, provost, 
Alfred University.
    Good afternoon, welcome.
    Mr. Ott. Good afternoon, thank you. I would like to thank 
you for providing me the opportunity to appear before you today 
and for the encouraging language which was contained in the 
Fiscal Year 1999 Interior Appropriations bill. I would also 
like to ask that the full text of my statement be included in 
the record, if that's all right?
    Mr. Peterson. Without objection.
    Mr. Ott. And I'll summarize the summary of my comments.
    Mr. Peterson. We will appreciate that.
    Mr. Ott. I'm from Alfred University. It's located in 
upstate New York, and I'm program coordinator for the Center of 
the Engineered Conservation of Energy. And if you'll permit me 
an acronym, EnCo. We're probably best known for the New York 
State Center for Advanced Ceramic Technology and for the NSF 
University-Industry Center for Glass Research.
    Alfred is currently focusing its expertise and resources on 
the national energy security goals and to help the U.S. retain 
its leadership in the development of emerging technologies in 
the building, manufacturing, and transportation sectors.
    Advanced energy efficient technologies can reduce our 
Nation's dependence on oil, as well as reduce greenhouse gas 
emissions from all three of these sectors.
    We are now in the third year of our implementation of a 
comprehensive energy conservation and efficiency R&D initiative 
that takes advantage of our internationally-recognized 
expertise in ceramic engineering and materials science, and our 
location in the ``ceramic corridor'' in upstate New York, a 
region comprised of industries and academic talent in this area 
of materia science and ceramic engineering. This initiative is 
consortial. It involves industrial partners, State and local 
agencies, and recognizing the national focus of EnCo's 
research, the Federal Government.
    A core component of the EnCo initiative is whole building 
integration. Our target is to create a research program 
building on current strengths, which will be complemented by a 
``living laboratory'' that will be used by the consortium to 
research, develop, deploy, and validate the next generation of 
manufacturing, industrial, architectural, and transportation 
technologies. In short then, we're looking at a building. We're 
promising designs and technologies that can be tested and 
demonstrated at full-scale. And then through close interaction 
with start-up companies, it is our hope that the incubators in 
Corning and Alfred will permit transfer of the technology to 
the private sector.
    The EnCo living laboratory will then be both a test-bed for 
the application for emerging energy conservation and production 
technologies and a training facility for industrial personnel 
and Government officials. And it's this marriage of materials 
technology and applied industrial and academic research where 
we believe the discoveries and innovations take place. And EnCo 
will function as a facilitator of that process.
    Alfred University researchers have been involved in this 
process for a long time. They're regularly asked to assist in 
improving energy efficiency in the manufacturing of glass 
through a DOE project with the Alfred Center for Glass 
Research. Novel approaches to glass melting have been 
developed, which hold promise of reducing the energy costs 20 
percent. In addition, we are working quadrupling glass 
strength, which has potential for 75 to 80 percent reduction in 
energy costs.
    There has been growing support from State and local sources 
for EnCo. NYSERDA has just completed a building pre-design 
study for us and that study has prompted DOE to explore how the 
EnCo project can be used as a case study that highlights the 
benefit of early collaboration. And we are working with the 
NETI at the University of Massachusetts to identify high-impact 
regional industries of the future.
    So I would like to conclude with the specifics of our 
request and that's for a Federal partnership. The essential 
component for our success in this effort is our ability to 
effectively test and deploy technologies as they're created, 
and what we need to do that is to have a ``smart building'' or 
a flexible laboratory to make that happen. This project will be 
roughly a $24.7 million project. We have raised and have 
commitments for about $14.7. We are looking for about $10.4 
million and specifically Federal assistance in the amount of 
$2.5 million in Fiscal Year 2000.
    Thank you.
    Mr. Peterson. Thank you.
    Mr. Dicks. Thank you.
    [The statement of Mr. Ott follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

           DEPARTMENT OF ENERGY: INDUSTRIAL ENERGY EFFICIENCY


                                WITNESS

MERRITT C. KIRK, EXECUTIVE DIRECTOR, INDUSTRIAL TECHNOLOGY AND ENERGY 
    MANAGEMENT, SCIENCE CENTER UNIVERSITY CITY
    Mr. Peterson. Next, we will hear from Merritt C. Kirk, 
executive director of Industrial Technology, Science Center 
University and Energy Management.
    Mr. Kirk. Thank you. I appreciate this opportunity to 
testify about the Industrial Assessment Center Program. 
Industrial Assessment Centers at 30 universities across the 
country utilize teams of engineering faculty and students to 
provide assessments which help small- and mid-size 
manufacturers to conserve energy, reduce their waste, and 
improve their productivity. These manufacturers become more 
competitive in the global marketplace as a result of 
implementing the cost-saving measures recommended by the IAC 
teams. The hands-on industrial experience enhances the 
educational process for the participating engineering students 
and the universities interact with local industry to maintain a 
practical orientation in their engineering curricula.
    I ask that the subcommittee continue its support of this 
worthwhile program. The amount requested for Fiscal Year 2000 
is about $8.3 million.
    Let me summarize for you some of the points that I have in 
my written testimony, and I'll talk about some of the key 
benefits and accomplishments of the program.
    Since its inception, more than 8,000 plant assessments have 
been performed. Manufacturers have realized cost savings in the 
order of $900 million. More than 18 million barrels of oil 
equivalent energy has been conserved. Greenhouse gas emissions 
have been reduced by about three million metric tons of carbon 
equivalent. In addition, more than 2,000 engineering or 
engineering technology students have been trained in efficiency 
improvement methods and processes that they then carry into the 
industrial workplace upon graduation. Nearly 100 faculty, 
engineering faculty, have participated in this program, and 
they incorporate their real-world experience into the classroom 
instruction for class after class of graduates.
    The assessments have provided business opportunities for 
energy service companies, equipment manufacturers, and vendors 
and suppliers to the tune of $2 to $10 for every Federal dollar 
invested in the program. On average, the cost savings generated 
from the implemented IAC recommendations have provided 
manufacturers with pay-backs of about one year on their 
implementation investments. As a result of implementing the 
recommendations, the Federal Government receives additional 
income taxes that exceed the Federal investment within two 
years.
    Existing IACs can serve States--have approximately 120,000 
small- and medium-sized plants in the contiguous United States.
    I hope that this subcommittee will help make it possible 
for many of the remaining thousands of manufacturers to be 
served in the future by continuing the support for the program.
    Thank you.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Kirk follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

       DEPARTMENT OF ENERGY: OFFICE OF TRANSPORTATION TECHNOLOGY


                                WITNESS

JAMES W. PATTEN, EXECUTIVE DIRECTOR, EXHAUST AFTERTREATMENT, CUMMINS 
    ENGINE COMPANY, INC.
    Mr. Peterson. Next, we will hear from James Patten, 
executive director, Exhaust Aftertreatment, Cummins Engine 
Company.
    Mr. Patten. Good afternoon.
    Mr. Peterson. We welcome you.
    Mr. Patten. Cummins is U.S.-owned and independent 
manufacturer of diesel engines located in Columbus, Indiana. 
And we're the world's largest produce of engines above 200 
horsepower and the second largest producer of engines over 50 
horsepower in the diesel world. Our testimony today is to 
support the administration's budget request for the Department 
of Energy, Office of Transportation Technology, both the heavy-
duty and light-duty area. In the light-duty area, particularly 
the part of PNGV that supports the diesel research for 
automobile engines.
    There are really two major problems that face the 
transportation industry today and one of them is exhaust 
emissions, oxides and nitrogen in particular; and the second is 
fuel consumption and the CO<INF>2</INF> emissions that are 
associated with the high fuel consumption.
    The diesel technology that has been developed in the first 
year and a half or so of the Sport Utility Vehicle Program at 
the Department of Energy has been effective in transferring 
technology from heavy-duty to medium- and light-duty personal 
transportation kinds of applications. And it has already been 
demonstrated in these programs, there are really three of them, 
that you can reduce fuel consumption by more than 50 percent in 
trucks and sport utility vehicles and automobiles, that sort of 
transportation system.
    These three programs also have some emissions targets that 
are intermediate between sort of currently state-of-the-art 
technology now and where California would ultimately like to 
go, and they're about equivalent to the initial PNGV targets. 
And at least our program has already met some of those 
emissions objectives.
    So the message that is coming out of this technology work 
is that emissions from diesel engines can go much lower in NOx 
and particulates. Clearly, the potential to meet the ultimate 
clean vehicle standards for personal transportation that 
everyone would like to see happen. This technology that is 
developed in the medium- and light-duty programs also transfers 
directly to heavy truck, agricultural, rail, construction, 
logging, marine, mining, any other place that diesel engines 
are used, which is basically where any small power generation 
system is used.
    At the same time that this work has been going on first 
around heavy trucks and then sport utility vehicles, the 
partnership for the next generation vehicles folks, both in the 
car companies and in the Office of Transportation Technology 
concluded that diesel power is really the prime path of the 
next generation automobile because it's the only way to get the 
fuel consumption targets in step with the automobile 
development plans. However, diesel emissions here must really 
be dramatically reduced if it's going to be a viable strategy.
    The DOE has also supported through this same office 
critical National Laboratory work in the basic sciences around 
combustion, emissions chemistry, catalysts, and measurement 
technology. Cummins feels that the administration's budget 
request is very much in step with DOE's program assessment and 
with the industry's needs and ability to deliver. And this is 
really the first time this has ever happened, when this 
community of technology and policy evaluators has been exactly 
in step with what the needs are. The only suggestion that 
Cummins would make to the administration's budget request is 
that there be some thought given to some capital funding 
strategy to keep the national laboratory capabilities fresh and 
world-leading as times go one, and that's really not in place 
right now.
    We have a long history as a company of collaborating with 
the Department of Energy and over the last many years, Cummins, 
and the other diesel companies as well, have reduced emissions 
of oxides of nitrogen by more than 90 percent, in particulates, 
it has been more than 70 percent. And DOE in their 
collaborative works with us can own a share of that 
advancement. DOE and particularly Cummins have also engaged 
National Laboratories as team members and virtually all of the 
work that we've done is collaborative.
    So, in summary, Cummins believes that the administration's 
budget request reflects the needs and it's something that ought 
to be supported. We're also taking a step this year, and 
Loretta has asked us in the past, to link the various DOE 
programs together and help make sure that that happens and make 
the links between the automobile industry and the heavy-duty 
industry and that's been done. And we're just now beginning a 
thrust to link the Department of Defense activities to the DOE 
activities.
    So thank you very much.
    Mr. Peterson. Thank you.
    [The statement of Mr. Patten follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

       DEPARTMENT OF ENERGY: ENERGY EFFICIENCY AND FOSSIL ENERGY


                                WITNESS

RICK MORROW, SOUTHERN CALIFORNIA GAS COMPANY, CHAIRMAN, AMERICAN GAS 
    COOLING CENTER
    Mr. Peterson. Next, we have Rick Morrow, American Gas 
Cooling Center, Incorporated.
    Mr. Morrow. Good afternoon.
    Mr. Peterson. Welcome.
    Mr. Morrow. I'm Rick Morrow and I'm vice president of 
Southern California Gas Company. It's a subsidiary of Sempra 
Energy. And I'm here today to testify on behalf of the American 
Gas Cooling Center. It's an association of natural gas 
utilities, manufacturers, and others that are interested in 
promoting natural gas cooling as an alternative enhancement to 
the air conditioning and space conditioning needs. And the 
Center serves, I would say about 150 utilities, 50 equipment 
manufacturers, and over 100 national and international 
organizations.
    Today, we really believe that it is important to continue 
the focus on developing the natural gas cooling technologies. 
They're at a point where they are starting to break through, 
they're starting to provide value, and product is starting to 
enter the market through the efforts of the associations and 
those that have been spending a considerable amount of time 
focusing on developing this technology. And we believe the need 
is stronger than ever to continue this focus on developing gas 
cooling technology in an energy industry which is converging 
rapidly and restructuring rapidly, where customers want choice. 
They want choice on the type of fuel they use in order to get 
the maximum value to them.
    We are specifically requesting the subcommittee to provide 
a total of $12 million to the Department of Energy's Building, 
State, and Community Programs to co-fund natural gas cooling 
research, development, and demonstration. This is a $1 million 
increase over the budget as it currently stands.
    The reasons that it's being requested are driven primarily 
from the deregulation and convergence that is going on in the 
energy industry, and the demand from customers that they have 
choice on the fuel and technologies they use. And with energy 
prices changing, particularly in the electric side in some 
areas frequently, some times hourly, the need and the 
flexibility to swing on and off electric to use gas where it 
makes more economic sense is a strong value to customers. So 
hybrid technologies that can use both gas and electric are 
important for the industry and that's something that needs to 
be pursued.
    The latest generation of high-efficiency turbines, you have 
probably read much about the high-efficiency turbines that are 
being developed and fuel cell technologies and such, are really 
going to be important as distributed power takes its place in 
the energy industry. I think there is going to be a real 
important focus on this as we move forward to recover the waste 
heat from these distributed technologies and the continued 
research development activities are necessary to make that 
happen.
    We are working with the Department of Energy's Road mapping 
process to incorporate these combined cooling, heating, and 
power systems into what they call CCHP systems into new and 
existing buildings. And we believe we can achieve about 40 
percent improvement in energy efficiencies.
    We're also developing technologies for residential markets, 
GAX technologies, which are absorber technologies that are 
actually going to be pilot tested in several developments 
around the U.S. that we're real excited about, but we need to 
continue the pressure on the technology development to move 
these technologies to the point where they're reliable and 
useable by the customers.
    Numerous other projects, including desiccant technologies, 
very important for particularly those areas where they have 
high humidity and natural gas has proven to be of good value in 
recharging the desiccants to bring that technology to buildings 
with high humid conditions.
    So with that, I would like to close and, again, requesting 
that a budget of $12 million be set for the natural gas cooling 
technology development and advancement. We've come along way, 
and we feel we still need to go further in order to make these 
technologies a reality in the marketplace and to meet the 
customer needs that have been expressed.
    Mr. Peterson. Thank you very much.
    Mr. Morrow. Thank you.
    [The statement of Mr. Morrow follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

       OFFICE OF SURFACE MINING: ABANDONED MINE RECLAMATION FUND


                                WITNESS

MATT GARLAND, THE ASSOCIATED GENERAL CONTRACTORS OF AMERICA
    Mr. Peterson. Next, we'll hear from Matt Garland, The 
Associated General Contractors of America.
    Matt.
    Why don't we suggest that those that are ready to go next 
get in the front seat because we're on a tight schedule here? 
Trying to maximize our efficiency.
    Matt, proceed.
    Mr. Garland. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Matt Garland. I am vice president 
of a small construction company out in Wyoming that I own with 
my brother. The name of the company is Hot Iron and we're based 
in Gillette. We are a member of The Associated General 
Contractors of America, and I'm the former president of the 
Wyoming AGC.
    I'm pleased to provide testimony today regarding the 
Abandoned Mine Reclamation Trust Fund. In the past 14 years, 
I've been personally involved in reclamation of 11 different 
AML sites. All of these sites pose a threat to health and 
safety of the public. It gave me a real sense of accomplishment 
and contribution to the community by reclaiming these mine 
sites.
    Coming from Gillette, which is the country's largest coal 
producing area, Powder River Basin, I can personally vouch for 
the fact that the Abandoned Mine Reclamation has a positive 
environmental benefit. Since 1977, the AML program has 
collected monies to reclaim abandoned mine lands under the 
Surface Mining and Control Reclamation Act. However, like many 
Government trust funds, it is more committed it seems at times 
to collecting user fees than spending these fees for the 
purposes for which it was collected.
    It is no longer enough to collect the revenue from the coal 
industry. It is time to spend the money on coalfield 
restoration and the residents of the coalfield communities. 
This is why the AGC of America believes that an appropriation 
of $270 million is needed. Annual receipts for 1998 were $272 
million. This is predicted to increase to $308 million by the 
year 2000. The President's budget for State grants is only $177 
million, with a $34 million increase for administrative costs, 
for a total of $211 million.
    The AML program has several far-reaching. They create jobs 
not only in Wyoming, but other States that are the 23 different 
States that receive the money. Those being: Pennsylvania, 
Texas, Utah, Virginia, West Virginia, Montana, Louisiana, to 
name a few. In Wyoming right now, there are 41 projects, 12 of 
which are of high priority or hazardous projects that could 
endanger health and safety. Reclaiming this land would provide 
good jobs that will keep our talented young workforce at home.
    AGC supports increased funding for the successful Abandoned 
Mine lands AML Fund or Mine Reclamation Program. We believe a 
minimum of $270 million should be appropriated annually to meet 
the Nation's environmental needs. The AML program directs fees 
levied on mining operations to restore the abandoned mine to 
the original pristine condition. This program allows the Nation 
to benefit from coal production, knowing full well that the 
environmental impact of mining at each of these sites would be 
successfully mitigated after the mining operations cease. This 
program works to protect the public health and create job 
opportunities. For every $1 million spent reclaiming abandoned 
mine sites, 59 jobs are created.
    Therefore, what we would like to just in a nutshell say and 
spit out today is the money is collected. We would like to see 
it earmarked back the way it was intended to be and not put 
back into build a trust fund and just release the money, the 
full $270 million of money taken in.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Garland follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

               DEPARTMENT OF ENERGY: GAS TURBINE RESEARCH


                                WITNESS

WILLIAM DAY, CHAIRMAN OF GAS TURBINE ASSOCIATION
    Mr. Peterson. Next, we'll hear from William Day, chairman 
of the United Technologies Corporation, Gas Turbine 
Association.
    Mr. Day. Thank you for the promotion, but I'm not chairman 
of United Technologies. I'm chairman of the Gas Turbine 
Association. That was a slight mis-print in there.
    Mr. Peterson. All right.
    Mr. Day. I'm with Pratt & Whitney, which is part of United 
Technologies. And I'm here to give you the collective thoughts 
of the gas turbine manufacturers relative to the DOE budget for 
Fiscal 2000. You have the full text of our recommendations, and 
I'll just hit a few of the highlights briefly.
    What we would like to do is recommend four key actions for 
DOE in Fiscal 2000. These are all public/private partnerships 
of the type that Congressman Regula referred to at his luncheon 
speech. And I'll first list them and then give you some more 
details about them.
    First of all, funding for the Advanced Turbine Systems 
Program or ATS, which is an ongoing DOE program, we recommend 
that that be funded at $73.1 million, which is the same as the 
administration's request.
    Secondly, funding for a Flexible Gas Turbine Systems 
Program, which is a new program, at $10 million in Fiscal 2000.
    Third, funding of Microturbine development at $8 million.
    And, finally, continuing the technology development of gas 
turbine/fuel cell hybrid combinations at $10 million.
    And those are summarized there in the box on the page that 
you're looking at right there.
    I might add, these recommendations have been endorsed by 
the IGTI or International Gas Turbine Institute, which is the 
gas turbine branch of ASME, the American Society of Mechanical 
Engineers.
    The reason for this work is that we need to take immediate 
action for current energy R&D efforts if we're going to have 
these advanced technologies available to meet the upcoming wave 
of new demand, both domestically and in export opportunities.
    Currently, gas turbines provide the highest efficiency and 
lowest capital cost of any power generation system in use today 
with extremely low emissions. That is illustrated in this 
chart, which shows the relative emissions between gas turbines 
and coal-fired steam plants for NO<INF>X</INF>, SO<INF>2</INF> 
and CO<INF>2</INF>, significantly low emissions in all 
categories and significantly lower capital costs. Gas turbines, 
in fact, have been estimated by the Energy Information Agency 
to provide some 81 percent of the new generation in this 
country over the next 10 years or so.
    The Advanced Turbine Systems Program, which is the first of 
the programs I mentioned, already has been yielding some 
benefits. For example, the Siemans Westinghouse unit in 
Lakeland, Florida already has a major component, the 
compressor, from that gas turbine and many manufacturers have 
advanced thermal barrier coatings already in use.
    Secondly, beyond the ATS program, we need to fill the gap 
in the 30- to 150-megawatts size power plant range for a mid-
size gas turbine program. This gas turbine will be optimized 
for the on peak and intermediate load market requirements, as 
well as improving the efficiency and economics of modern coal-
fired steam plants without the expense of a full re-powering. 
This would produce the lowest cost of electricity in the 500 to 
5,000 hours a year range. We recommend that this program be 
launched now in Fiscal 2000 with a $10 million funding request.
    A third area for emphasis is the microturbines without 
outputs of generally less than 1 megawatt. An example of this 
is a unit about the size and shape of a beer keg that produces 
25 kilowatts of power in a hundred gallons an hour of hot 
water, useful particularly in small commercial establishments. 
And this avoids the necessity for additional transmission line 
use. Microturbines are in their infancy, and we strongly 
support of this under the energy efficiency side of DOE for $8 
million.
    And then, finally, the Gas Turbine Fuel Cell Hybrid 
Program, we're recommending funding for this at $10 million in 
addition to the fuel cell itself. This is largely needed for 
the adaptation of the gas turbine to fit within that system.
    With this portfolio of funding of gas turbine programs, we 
will enhance the economic growth of the U.S. while helping meet 
the reduced emissions that we all want.
    Thank you.
    Mr. Peterson. The Chair thanks the gentleman.
    [The statement of Mr. Day follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

   DEPARTMENT OF ENERGY: FOSSIL ENERGY AND ENERGY EFFICIENT PROGRAMS


                                WITNESS

DAVID O. WEBB, SENIOR VICE PRESIDENT, POLICY AND REGULATORY AFFAIRS, 
    GAS RESEARCH INSTITUTE
    Mr. Peterson. And we will now hear from David Webb of Gas 
Research Institute. And may I again remind those who are going 
to be speaking next to move to the front row so we can keep 
moving forward.
    The gentleman is recognized.
    Mr. Webb. Good afternoon, Mr. Chairman. I'm David Webb, 
vice president of the Gas Research Institute, and I appreciate 
the opportunity to testify today to present GRI's views and 
recommendations of the Fiscal Year 2000 budget for gas-related 
research in the Fossil Energy and Energy Efficiency Programs of 
the Department of Energy. GRI generally supports the 
administration's request for these programs. However, we are 
concerned that the gas-related budget request is $21 million 
less than appropriated last year, at the same time that the 
administration is advocating greater use of natural gas to 
address some of our environmental issues. GRI has recommended 
an increase of $7.5 million in four specific areas to 
strengthen the natural gas-related research programs.
    GRI is a R&D management organization for the natural gas 
industry and we have over 330 member companies and manage about 
$160 million program on their behalf. We also co-fund about $20 
to $30 million of research a year with the Department of 
Energy. Therefore, congressional actions on the DOE gas-related 
budget does have a direct impact on GRI and our programs.
    As we go forward, we feel that the role of the Federal 
Government in funding R&D is critical as a basis for decision-
making by industries who compete in an ever-increasing 
competitive world. No single company or group of companies can 
afford the cost and risks associated with development of many 
of the new emerging energy technologies because the benefits 
are broad and primarily flow to all of the consumers, not just 
the companies involved in the research. Therefore, in times of 
declining industry budgets for research, Government funds 
should be used primarily for investments that are expected to 
yield broad public benefits. The Government must continue to 
have the primary role and responsibility for funding and 
managing fundamental, long-term, basic research in energy 
because private companies, which are market-driven cannot 
capture the economic benefits of much of this research. Society 
continues to receive large and continuing benefits from 
fundamental research. Therefore, the Government role in funding 
is critical to meet national goals and objectives.
    However, both Government and industry have a joint 
responsibility to plan, conduct, and fund applied R&D to meet 
the Nation's energy goals. Industry should be brought in early 
to assist in the planning, financing, and management of applied 
research. In partnership of private industry, Federal 
Government-sponsored R&D accomplishes several goals. Two 
primary ones are that it leads to a ready path for 
commercialization because industry is already involved and 
invested some of their funds; and it eliminates costly 
duplication of research.
    While GRI and the Natural Gas RD & D Initiative are 
supported in the DOE Fiscal Year 2000 budget request for gas-
related research, there are several areas where GRI would 
recommend additional funds in order to strengthen the natural 
gas program. These adjustments, if incorporated in the Fiscal 
Year 2000 budget, would receive the support and co-funding of 
GRI and the natural gas industry.
    The following recommendations are made:
    Development of laser-drilling technology, an increase of $1 
million in the Fossil Industry Program. Experimental results 
with Air Force lasers have indicated there is potential to 
increase the rate of penetration more than 10 times, which 
would revolutionize the drilling industry. GRI proposes a joint 
industry/Government initiative in a two-year program to 
investigate the potential of laser drilling.
    In the Industrial Program and the Energy Efficiency, there 
are three specific recommendations:
    Microturbine Power Generation, we would recommend an 
increase of $2.5 million;
    Advanced Reciprocating Engine Systems, we would recommend 
an increase of $2 million;
    And in Superboilers, we would recommend an increase of $2 
million. The Nation's commercial industrial boilers are aging. 
Over 80 percent of these boilers were purchased prior to 1978, 
with the bulk of the purchases in the 1960's. A joint industry/
Federal Government program would seek to provide over 50 
percent improvement in efficiency over today's installed units.
    In summary, Mr. Chairman, GRI encourages the subcommittee 
to support the administration's total request of gas-related 
research for approximately $225 million, plus the GRI 
recommendations for an additional $7.5 million as shown in the 
following table. These additions would still result in lower 
gas-related funding in Fiscal Year 2000 than approved by 
Congress for Fiscal Year 1999, but will provide much-needed 
research in order to address the needs for a secure, efficient, 
and clean energy future.
    Thank you very much.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Webb follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                    DEPARTMENT OF ENERGY: FUEL CELLS


                                WITNESS

SY A. ALI, DIRECTOR, ADVANCED INDUSTRIAL PROGRAMS, ROLLS-ROYCE ALLISON 
    ENGINE COMPANY
    Mr. Peterson. Next, we'll hear from Dr. Sy Ali.
    Mr. Ali. Ali.
    Mr. Peterson. Do you want to say that again?
    Mr. Ali. Ali.
    Mr. Peterson. Ali, okay. Rolls Royce, Allison Engine 
Company.
    Mr. Ali. Thank you, Mr. Chairman. What I have done here is 
prepare a few charts.
    Mr. Peterson. Good.
    Mr. Ali. Showing the highlights of my testimony. I 
appreciate this opportunity. I'm here to support the DOE 
initiatives: Vision 21 and 20/20 pertaining to three key 
complementary projects, which would provide a product with 
clean, high-efficiency, and would enhance this Nation's 
competitiveness. The three programs that I'm alluding to are 
the fuel cell/gas turbine hybrid system, where there will be a 
field test for a 1-megawatt system, and design and development 
initiation for the larger 20-megawatt system. The other program 
is the Industrial ATS for distributor generation. And this is 
included in the DOE's Office of Industrial Technologies. This 
is the lowest cost, near-term application for distributor 
generation. And additional support for the development of 
ceramic microturbine under the Office of Industrial 
Technologies, cross-cutting technology budget. And this would 
extend the co-generation application for smaller sizes.
    The justification for congressional support is based on the 
DOE mission, which is to develop cost-effective, clean, high-
performance technologies and products to protect the 
environment and the Nation's economic competitiveness, maintain 
the U.S. technological leadership in fuel cell hybrids, 
advanced gas turbines, and ceramic microturbine technology, to 
reduce global carbon emissions, and create high-skill jobs, 
enhance exports, and reduce the Nation's electric bills.
    In terms of quantifying some of this, in fact, it appears 
that there's a potential of saving annual electric bills up to 
$40 billion from the current level and resulting in saving of 
$14 billion in not needed additional generation technologies.
    Along with that, there is a potential to reduce the cost of 
manufactured products, which would enhance the competitiveness 
of this country. The fuel cell/gas turbine hybrid is capable of 
generating efficiencies even in the 1-megawatt size range, 
which would be comparable to a full combined cycle gas turbine 
systems of 300-megawatt size. The power cost in terms of cents 
per kilowatt hour for a 20-megawatt hybrid would be comparable 
to a CCGT, a combined cycle gas turbine, or better. And the 
emissions of nitrogen oxides are much lower than most power 
generation systems.
    The industrial ATS would provide system efficiency 
improvements 15 percent better than current systems, with 
NO<INF>X</INF> emissions under 9 PPM, and the cost of power 10 
percent, at least 10 percent below the current systems. The 
ceramic microturbines are very high-efficiency, low carbon 
emission systems.
    I have a schematic attached of the fuel cell/gas turbine 
hybrid where two of the DOE's projects of key programs, the 
Fuel Cell Program and the Advanced Gas Turbines Programs, are 
combined to generate efficiencies in the 70 percent plus range.
    I would like to leave with the recommendation to the 
committee to urge support in Fiscal Year 2000 for the fuel 
cell/gas turbine hybrid at a level of $25 million, which would 
include the field testing of 1-megawatt system and the design 
and development of the 20-megawatt hybrids where DOE intends to 
go forward with multiple projects. And continued funding of the 
Industrial ATS at the level of $31.3 million within the 
distributer generation budget. And ceramic micro-turbine 
development at a $5 million level. Thank you very much.
    [The statement of Mr. Ali follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

        NATIONAL ENDOWMENT FOR THE ARTS, AMERICANS FOR THE ARTS


                                WITNESS

MICHAEL HIGHTOWER, COUNTY COMMISSION OF FULTON COUNTRY GOVERNMENT, 
    ATLANTA, GEORGIA
    Mr. Peterson. Thank you very much. We are going to shift 
gears from energy to the arts, so first we have Michael 
Hightower, a county commissioner of Fulton County, Atlanta 
Georgia, Americans for the Arts.
    Mr. Hightower. Thank you, Mr. Chairman, and good afternoon. 
I want to first thank you and the committee for allowing me to 
come today to share my feelings. My name is Michael Hightower 
and I am a county commissioner of Fulton County, Georgia, which 
includes the City of Atlanta, and nine other cities surrounding 
the Atlanta area. I am also representing the National 
Association of Counties, Mr. Chairman, for which I have served 
as president, a past president of that association, and also 
representing the Americans for the Arts. So I want to thank you 
for not just today, but also the hospitality given to me when I 
was at Hershey, Pennsylvania in your State shortly after I was 
elected.
    Mr. Peterson. Oh.
    Mr. Hightower. Today very briefly--and I want to just tell 
you--I come to you because today before your subcommittee is a 
request by the President's Fiscal Year 2000 budget of $150 
million for the National Endowment for the Arts. And, of that 
amount, $50 million of this budget would found a new NEA 
program entitled Challenge America, which would significantly 
enhance the available funding for arts programs for youth. As 
an elected leader in my community for nearly 20 years now, both 
on the county and city levels, I am sure that you will concur 
about the plight of our young people. And that is why today I 
want to share with you the highlights of the project entitled 
YouthARTS that has had a dramatic impact in my community in 
deterring delinquent behavior and giving our kids hope for the 
future.
    Three years ago, the NEA and the Department of Justice took 
the lead in funding the National Evaluation Project so that 
local arts agencies and cultural institutions across the nation 
would be able to design smaller arts programs to better reach 
at-risk youth in their local communities. YouthARTS projects 
was developed as a national test model to rigorously evaluate, 
document, and disseminate best practice models and lessons 
learned of year-round after-school programs designed to work 
with youth at-risk. One of the primary goals of this project 
was to ascertain the measurable outcomes of preventing youth 
from getting involved in delinquent behavior by engaging them 
in community-based arts programs.
    For three years--I would emphasize--the local arts agencies 
in three diverse communities--they had evaluators who did the 
pre-work and also they assembled control groups. So they did 
some pre and post assessment. These communities included, of 
course, Portland, Oregon; San Antonio, Texas; and my community 
of Fulton County, Georgia, which includes Atlanta and nine 
other surrounding cities. For example, in Fulton County, our 
arts council developed a partnership with the Fulton County 
Juvenile Court to serve truant status offenders ages 14 to 16 
in our Art at Work program.
    And I will just briefly share with you, Mr. Chairman, 
members of the committee, an example of our mosaic tiles that 
were done by youth at-risk. So they are translating deviant 
behavior to positive change. In order to provide a community-
based comprehensive arts program for youth at-risk, the local 
arts agencies at these test sites, partnered with their local 
schools, PTAs, and juvenile courts to provide change.
    I want to just give you four specific examples as I move 
on, which will tell you why this is important. These sites told 
us that there are four measurable outcomes that came as a 
result. Number one, they significantly decreased their 
frequency of delinquent behavior. Two, they increased their 
communication skills. Three, they improved their ability to 
work on tasks from start from finish. And, four, the number of 
youth incurring new court referrals was dramatically reduced. 
So, as you can tell, this had measurable outcomes, not just 
these things we hear here and there.
    I would just conclude by giving you some examples of the 
numbers of outcomes. And in my county of Fulton County, 
Georgia, we saw 86 percent of youth participating in these 
programs couldn't communicate effectively on the front end and 
only 29 percent at the end. So from 86 to 29 percent difference 
is an example of how we saw change.
    And I know the time is short. I would conclude by just 
saying we also have a kit which was done by the NEA and the 
Department of Justice which allows best practices to be shared 
throughout the country with a diskette that is included with 
consent forms. These are clear examples of why it is important 
for us to have continued funding.
    In conclusion, Mr. Chairman and members of the committee, 
the NEA's new Challenge America program would infuse up to $50 
million to fund these types of proven arts programs. I would 
add that many times you hear about the U.S. Conference of 
Mayors and NACO in the counties. We are now saying there is an 
America outside of the urban core. Counties represent urban 
America also. Thank you.
    Mr. Peterson. Thank you very much.
    [The statement of Mr. Hightower follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

               NATIONAL ENDOWMENT FOR THE ARTS, DANCE USA


                                WITNESS

STUART PIMSLER, FOUNDER/DIRECTOR, STUART PIMSLER DANCE AND THEATER
    Mr. Peterson. To stay on time here, we now will hear from 
Stuart Pimsler.
    Mr. Pimsler. Pimsler.
    Mr. Peterson. Pimsler, from Dance USA who is going to dance 
for us. No. [Laughter.]
    Mr. Pimsler. I could do that, too, as well. I would love to 
do that.
    Mr. Peterson. Wake us all up.
    Mr. Moran. Mr. Chairman, let me just thank Mr. Hightower. 
It is nice to see you again after testifying on behalf of the 
Auto Choice Reform bill as well. You did a great job and 
another excellent job in presenting today. Thanks. Nice to see 
you again, Mr. Hightower. Excuse me, Mr. Chairman.
    Mr. Peterson. Please proceed.
    Mr. Pimsler. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Stuart Pimsler. I am the founder 
and artistic co-director of Stuart Pimsler Dance and Theater, 
which is based in Columbus, Ohio.
    I come before you today as an artist, a parent, and 
advocate, and to speak on behalf of Dance/USA and the American 
Arts Alliance in support of the National Endowment for the 
Arts. I urge you to appropriate $150 million for this agency 
this year.
    As an artist who is often inspired by life and memory and 
how the past informs the present, I can't help but be attracted 
to this particular day for myself. My company and I, which has 
toured throughout the U.S. and abroad, only years ago performed 
at the Kennedy Center for the Performing Arts. It is nice to 
see that picture over there reminding you of the importance of 
the arts in this country.
    I also, before I became an artist, spent time in D.C. as an 
attorney. That is, I went to law school at Catholic University. 
I was glad to see that there are a number of attorneys on the 
committee. I was hoping that maybe more than would be present, 
because I know they would find a lot in common in terms of my 
background and your background. Anyway, maybe you could pass 
that on to them. [Laughter.]
    Mr. Peterson. As a non-attorney, I will be glad to.
    Mr. Pimsler. Okay, good. [Laughter.]
    Mr. Moran. And I think we have far too many attorneys in 
the Congress. [Laughter.]
    Mr. Pimsler. So this is a perfect segue for what I was 
going to say. Feeling that there were too many attorneys in 
D.C. after working at the Equal Employment Opportunity 
Commission as a investigator of race and discrimination claims, 
I decided that I also wanted to study modern dance. And, to the 
chagrin of my family, I decided that I was going to leave the 
law profession. I took the bar in New York, passed, and decided 
that I was going to have to start a dance company.
    And the reason for that ironically is the same impulse that 
attracted me to wanting to be a lawyer, it is the same impulse 
that continues to connect me to being an artist. That is, I was 
very interested in wanting to be involved in a profession where 
I would be affecting change every day with people and in 
communities. And I have been very fortunate in my career to be 
able to be a part of a community now of artists who are working 
in communities beyond the stage, doing work that goes beyond 
what we oftentimes think of as art for art's sake, although I 
must say that I think that is fine in and of itself.
    The work that I have been doing for the past 25 years is 
work in communities. I have had the pleasure of working with 
high school wrestling teams, of working with children and their 
parents, of working with the elderly. And, of late, I have 
started a program called Caring for the Caregiver.
    It is a program that involves the national health care 
community. I work with doctors, nurses, hospice therapists, 
counselors and bring them together under two different 
programs. One is movement workshops. And what we do with them 
is what we would do with professionals or nonprofessionals. We 
bring them together. We ask them to talk about their workplace, 
to talk about the issues that come up in their workplace, the 
loss of patients, the stress of disease. And how they process 
or don't process those particular issues. The other part of our 
program is actually creating performance work with them, 
putting these people on stage.
    The work goes beyond the art that happens on stage in that 
many times when we leave--and particularly in a project that we 
have been doing across the United States right now called Out 
of This World: the Life After Life project which, I should 
mention, has been supported by the National Endowment for the 
Arts. And it has allowed us to take this across the United 
States. What we leave after the performance is over is an 
infrastructure whereby health care professionals can work with 
artists in those communities to continue to find outlets for 
the kinds of emotional stress in their workplace.
    In conclusion, what I would like to say is that I am just 
one part of a community of artists that is working with other 
kinds of people that have been marginalized, people that have 
been incarcerated, people with disabilities, the elderly. And 
our work is going into communities and providing outlets and 
healing for these people as well as creating art. So I urge you 
with all my heartfelt passion to provide support for the 
National Endowment for the Arts this year. Thank you very much 
for your time.
    Mr. Peterson. The Chair thanks you.
    [The statement of Mr. Pimsler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

             NATIONAL ENDOWMENT FOR THE ARTS, OPERA AMERICA


                                WITNESS

WES McCUNE, TEACHER, JOHN ADAMS ELEMENTARY SCHOOL
    Mr. Peterson. And, at this time, to keep rolling here. I am 
going to ask Representative Moran if he wants to introduce the 
next witnesses who are from his district.
    Mr. Moran. Thank you very much, Mr. Chairman. We have, on 
behalf of the National Endowment for the Arts funding, students 
from John Adams School. And I understand that we have Mr. 
McCune who will present testimony. He is the teacher of these 
very fine students. It is nice to have them come. And let me 
not take their time.
    Mr. McCune. Thank you.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. McCune. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Wes McCune and I teach music at John 
Adams Elementary School in Alexandria, Virginia. I am honored 
to have this opportunity to testify in support of the National 
Endowment for the Arts on behalf of OPERA America and the 
American Arts Alliance. I am here today with four of my fourth 
grade students, Aida Bengussie, Trashun Floure, Becky Lehr, and 
Mark Mendel to express our support for increased funding of the 
NEA and the new Challenge America initiative.
    For the past two years, our school has partnered with the 
Washington Opera to create and produce original student opera 
through Opera America's specially developed curriculum Music, 
Words, Opera. The first year's opera was based on the ancient 
civilizations of Africa and Egypt, underscoring the multiethnic 
backgrounds of the students. This year's opera deals with the 
history of the State of Virginia and the City of Alexandria as 
it celebrates its 250th anniversary.
    In my written testimony, I touch upon the many positive 
benefits this programs provides for my students, their 
classmates, their families, and the community. Rather than 
repeat what I have already said in writing, I want the students 
to speak--or rather sing--for themselves.
    This aria with chorus comes from Act 1 of Torpedo, an 
original opera of my students' creation. President Woodrow 
Wilson has just authorized the building of the torpedo factory 
in Alexandria, Virginia. This aria promises jobs to workers who 
see the building under construction. The chorus of workers 
question the validity of such a project now that World War I 
has ended. Mr. Chairman and members of the subcommittee, I hope 
listening to this brief aria brightens your day as much as 
creating and singing it has brought to the lives of all those 
involved.
    I urge you to show your support for this program and the 
countless others that benefit students and their families by 
increasing the NEA's appropriations to $150 million. Thank you 
and, without further ado.
    [Students sing.]
    [Applause.]
    Mr. Peterson. Thank you very, very much. That was the 
highlight of the day.
    [The statement of Mr. McCune follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Peterson. We are at recess, momentarily, while we vote.
    [Recess.]
                              ----------                              

                                         Wednesday, April 14, 1999.

                          DEPARTMENT OF ENERGY


                                WITNESS

LANDIS KANNBERG, PROGRAM MANAGER, ENERGY DIVISION, BATTELLE MEMORIAL 
    INSTITUTE AND CHAIRMAN OF THE ENERGY COMMITTEE OF THE COUNCIL ON 
    ENGINEERING OF THE AMERICAN SOCIETY OF MECHANICAL ENGINEERS
    Mr. Regula [presiding]. We have the American Society of 
Mechanical Engineers.
    Mr. Kannberg. I'm following a particularly difficult act 
here, but----
    Mr. Regula. You are not going to sing an opera for us? 
[Laughter.]
    Mr. Kannberg. I am afraid that wouldn't help my case at all 
if I were to do so. [Laughter.]
    Good afternoon, Mr. Chairman. My name is Landis Kannberg 
and I chair the Energy Committee of the Council on Engineering 
of the American Society of Mechanical Engineers. I will not be 
addressing the National Endowment of the Arts, despite the 
title of our organization nor will I be addressing, as was 
mentioned earlier, the number of attorneys in Congress.
    Mr. Regula. You'd better be careful on that one. 
[Laughter.]
    Mr. Kannberg. What I would like to talk on are some 
important issues for our future relative to energy. ASME is an 
international engineering society with 125,000 members focused 
on technical, educational, and research issues. Our energy 
committee consists primarily of members representing eight 
technical divisions that focus specifically on energy 
technology and resources. We have provided written testimony 
that addresses more thoroughly our views on Federal energy 
investments.
    Mr. Regula. Yes, that will be made a part of the record.
    Mr. Kannberg. But today, I would like to highlight some of 
those views for the subcommittee. In particular, I would like 
to leave you with the following key messages. First, energy 
research and development is a critical facet of our national 
agenda. Federal investments provide the primary means to 
address future energy needs. Second, concerns over global 
climate change should be met by research and development 
investment and an energy portfolio that includes fossil energy 
and energy efficiency technologies in combination with other 
energy technologies. Third, we believe that fossil energy has 
been neglected by the administration Budget Commission and 
should be funded above their proposed levels. And, fourth, 
energy efficiency R&D provides such a broad range of benefits 
that justifies the level of investment proposed by the 
administration.
    Fossil fuels have been the mainstay of the world's energy 
supplies for the past 150 years. Globally, energy use is likely 
to triple or quadruple in the next 100 years to meet growing 
world populations and associated economic aspirations. Fossil 
fuels will provide the bulk of this energy use, at least 
through 2050, under virtually any scenario that is envisioned. 
In light of growing concerns about global climate change, the 
Energy Committee supports R&D and the technologies that could 
be used to address climate change and particularly those which 
also increase energy efficiency. Such technologies should be 
important elements of the Federal R&D investment portfolio.
    I will not discuss all the investments of the DOE fossil 
and energy conservation. We specifically suggest the following. 
In the area of fossil energy, we suggest, first, an increase of 
$50 million to $100 million for the Vision 21 program, with a 
special focus on carbon sequestration. Second, an increase in 
investment in advanced materials, which make a more efficient 
use of fossil fuels and reduce emissions. Third, deployment of 
clean coal technologies to reduce carbon emissions and increase 
competitiveness of U.S. manufacturing, particularly abroad. 
Fourth, continued Federal investment in the next generation of 
gas-driven power systems.
    Fifth, an increase of $10 million in fuel cell R&D budget. 
The administration proposals in this area which would basically 
reduce funding will particularly be disappointing to us. We 
hope that they will be reversed.
    Sixth, an increase in Federal investment in methane hydrate 
R&D and oil technology programs for small producers. Seventh, 
DOE Office of Fossil Energy should be charged with coordinating 
governmentwide carbon sequestration initiatives.
    In the area of energy conservation, we offer the following 
suggestions. First, there should be continued emphasis on 
developing more efficient transportation vehicles, including 
development of new materials for vehicular applications and 
increased attention to alternative fuels which are lower in 
carbon intensity and which emit fewer pollutants.
    Second, funding should be increased for research in 
systemic energy efficiency improvements in the industrial 
sector, primarily through the Office of Industrial 
Technologies. We would allocate a minimum of $180 million in 
total for the activities of this office, which is consistent, 
we believe, with investments in other worthy energy efficiency 
application areas.
    Finally, we endorse, strongly, the continued and enhanced 
cooperation among the offices of Transportation Technologies, 
Industrial Technologies, and Fossil Energy.
    Having provided these recommendations, I want to again 
thank you and the committee for the opportunity to present 
these views and I would be pleased to answer any questions.
    Mr. Regula. Thank you. I think you have covered some 
important aspects of the energy budget and we will be very 
sensitive to your concerns. Thank you.
    [The statement of Mr. Kannberg follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                          DEPARTMENT OF ENERGY


                                WITNESS

DONALD E. KESKI-HYNNILA, DIRECTOR, ADVANCED LIGHT DUTY ENGINEERING, 
    DETROIT DIESEL CORPORATION
    Mr. Regula. Detroit Diesel.
    Mr. Keski-Hynnila. Mr. Chairman and members----
    Mr. Regula. I would like to advise all of you that your 
full statements will be made a part of the record. In the 
interests of time, obviously, we have to summarize.
    Mr. Keski-Hynnila. Mr. Chairman and members of the 
subcommittee, good afternoon. My name is Don Keski-Hynnila. I 
am the director of Advanced Light Duty programs at the Detroit 
Diesel Corporation. I would like to thank you for the 
opportunity to be here today to urge your support of DOE's 
request of $71.5 million budget for Fiscal Year 2000, Office of 
Heavy Vehicle Technologies programs.
    There are two major programs within the scope of the budget 
that DD feels are especially important to support. The first is 
the $18.5 million request for support of the continuation of a 
light truck diesel program. The second is a new program for 
development of advanced technologies for heavy truck diesels.
    I would like to share with you, rather than slides and 
songs, our annual report, which features on the front cover--
no, my arms can't reach far enough across it, but it features 
on the front cover our four-liter diesel engine which was--that 
is correct and about three pages in--which was developed under 
the DOE Light Truck Engine program. This program has generated 
an extremely high level of interest at Detroit Diesel with 
Roger Pinsky and his staff and really throughout the 
organization mainly because of the significant milestones that 
we have been able to achieve with the engine in the past year 
and a half of development.
    This engine was designed from a clean sheet of paper to a 
running prototype in a record 228 days. This is benchmark for 
us and perhaps it sets a----
    Mr. Regula. It is a totally new engine?
    Mr. Keski-Hynnila. It is a totally new, clean-sheet design, 
starting from September----
    Mr. Regula. The CS 40.
    Mr. Keski-Hynnila. It is the bottom----
    Mr. Regula. The Delta.
    Mr. Keski-Hynnila. Here we go, the Delta engine.
    Mr. Regula. All right. What would this be for? Pick-up 
trucks, delivery trucks.
    Mr. Keski-Hynnila. Light trucks and sport utility vehicles. 
So they are in a GVW range of 5,500 to 8,500 pounds.
    Mr. Regula. Right. Is there a competing engine? Well, 
number one, is this in the market?
    Mr. Keski-Hynnila. It is not on the market yet. We have 
only started this--we are into the first 1.5 years of a 5 year 
program with DOE to develop this technology.
    Mr. Regula. The technology you are developing, will it be 
open to the marketplace? It wouldn't be subject to patents of 
any kind would it? You know, if the taxpayer is paying for part 
of the cost of development, it should be----
    Mr. Keski-Hynnila. I would have to refer back to the 
contract to see the details of that. I can't answer that off 
the top of my head. Sorry, but I can certainly get an answer to 
that.
    Mr. Regula. Yes, I would like to know.
    Mr. Keski-Hynnila. I'll make a note of it and provide that 
answer to your staff.
    Mr. Regula. Is there a light diesel engine? I know that 
General Motors had real problems at one point where they tried 
to do it. It seems like Mercedes is about the only one that has 
had any success with diesel engines for automobiles.
    Mr. Keski-Hynnila. In the automotive marketplace, there is 
a history here that is a challenge for us to overcome to 
penetrate into the market, especially in this category. People 
do recall the diesels of 15, 20 years ago and the noise, the 
smoke, the reliability issues that were associated with them. 
The targets of this program are to overcome those past 
perceptions with the--I am sorry.
    Mr. Regula. So you feel that you could deal with the 
emissions problem?
    Mr. Keski-Hynnila. This is one of the biggest challenges of 
the program and really the focus of our program in the coming 
years. We have been able to demonstrate already being able to 
achieve DOE's goals for CO hydrocarbons and particulates, but 
NO<INF>X</INF> is still a significant challenge for the program 
and it does require the development of very complex 
technologies in the coming years. This is the reason we are 
strongly supporting continued development in that area.
    Mr. Regula. Are you doing anything else with DOE other than 
the Delta?
    Mr. Keski-Hynnila. With DOE we are also working on the HEV, 
1.46 liter, high-speed, direct-injection diesel engine for 
Chrysler Corporation, as part of the PNGV program.
    Mr. Regula. That is not on this list, though.
    Mr. Keski-Hynnila. That is correct. It is referenced in the 
automotive section.
    The other area that I would like to touch on is the unease 
in the heavy duty truck segment. New Federal emissions test 
protocol of future standards require aggressive development of 
technologies to avoid degradation of fuel economy. Some 
estimates are saying that the new emissions protocol, which 
take effect in the year 2002, can impact fuel consumption by as 
much as 5 to 10 percent.
    DOE's program proposal is to use a three-step approach to 
abate that problem. The first step is to develop those 
technologies that meet the currently mandated standards and 
maintain fuel economy. The second two steps involve improving 
fuel efficiency by up to 10 percent while targeting the 
emissions goals that will be laid out in future years, for 
example in 2008 emissions standards. These are critical areas.
    Another area that is quite important to the enablement of 
those technologies that will help us to achieve the low 
emission targets that are anticipated is that of fuels. 
Advanced after-treatment technologies are expected to be 
required to achieve the increase in these stringent emission 
standards, both on the light truck and the heavy truck side. In 
the past, utilization of three-way catalysts to achieve 
required emission standards on the gasoline side required the 
removal of lead and reduction of sulphur. In a similar manner, 
the advanced after-treatment technologies that are being looked 
at for diesel engines rely on significant improvements in fuel 
quality, especially the reduction of sulphur content. This is 
truly an enabler towards the next steps of emissions reduction.
    Mr. Regula. We are running out of time here.
    Mr. Keski-Hynnila. Okay. In closure, I would like to say 
that the fuel-efficient diesel engine development for the U.S. 
market is essential for reducing our dependency on foreign 
petroleum while addressing mounting environmental concerns. The 
light truck engine program and the heavy truck engine programs 
are essential towards meeting these goals. For these reasons, 
DDC strongly urges the support of DOE's budgetary request of 
$71.5 million for DOE's OHTV programs.
    Mr. Regula. Thank you.
    [The statement of Mr. Keski-Hynnila follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS


                                WITNESS

AL HEAD, EXECUTIVE DIRECTOR OF ALABAMA STATE COUNCIL ON THE ARTS, 
    NATIONAL ASSEMBLY OF STATE ARTS AGENCIES
    Mr. Regula. National Assembly of State Arts Agencies.
    Mr. Head. Back to the arts again. Hello, good afternoon, 
Mr. Chairman. My name is Al Head. I am executive director of 
the Alabama State Council on the Arts and I here today 
representing the National Assembly of State Arts Agencies, a 
collective voice of State arts agencies throughout the country. 
I am also here to really express our support for the $150 
million that has been recommended for the National Endowment 
for the Arts for this coming fiscal year.
    The $150 million represents an increase that I think has 
been outlined pretty well for you all this year in some very 
specific areas. Chairman Bill Ivey has developed a program and 
an outline where the new monies in question are specified and, 
really, the Assembly and the States are very much behind that. 
These initiatives called Challenge America break out into five 
particular areas: arts and education, youth at risk, cultural 
preservation, community arts partnerships, and improved access 
to arts for all Americans. Of this money, the new money, the 
States are in line for 40 percent of that. This will translate 
into $11.7 million as part of $225,000 that we have been asked 
to talk about how that would impact our particular States.
    And, again, these are areas that are very consistent with 
State priorities and I would like to spend just a few minutes 
telling you about how some of these areas of increase would 
have an impact in Alabama. In arts and education, for example, 
we would propose and would plan to expand a very successful 
rural touring program to schools throughout the State. With 
additional monies, we could reach 4,000 to 6,000 additional 
students in areas that have very little access to the arts 
otherwise.
    We also have planned initiatives in the area of workshops. 
In partnership with the African-American Arts Alliance in 
Alabama, we are working to design specialized workshops for 
emerging groups in areas such as board development, grants 
writing, audience development and marketing and overall 
administration and management. Under youth-at-risk we have what 
we think is a real model project with the Alabama Writers Forum 
and the Department of Youth Services where a writer who will go 
into three different detention centers and work with these 
students in creative writing. An anthology will be published 
and some really marvelous work comes out of that.
    Under cultural preservation, we have been working with the 
Alabama Shakespeare Festival for a couple of years and we would 
really like to expand a program dealing with the Southern 
Writers Project where the work of Alabama playwrights and 
fiction writers are translated to the stage. The topics are 
indigenous to Alabama and Southern culture.
    Under the community arts partnership area, here again, we 
work very actively with a group in the State called Design 
Alabama that works with communities in the State providing 
design and planning assistance to communities that have certain 
design problems and issues where they need a great deal of 
assistance.
    I think all of us know that government is very much a 
junior partner in supporting the arts throughout the country. 
We are aware that the private sector provides the bulk of 
support, as it should be. A little bit of money at the right 
time in the right place makes a huge difference. Federal money, 
State money can certainly stimulate and leverage local money in 
very important ways and that is something that we work very 
hard at at the State level and there is an important Federal 
role there that is carried out by the endowment.
    New money makes it possible to do more than the status quo. 
I think that new money empowers people and organizations to 
solve old problems, reach new audiences, create new work, teach 
new concepts, save valued traditions, and build communities. 
And we are very optimistic that these new monies will help us 
do that.
    Two weeks ago, we had a series of town meetings throughout 
Alabama. A program director from the National Endowment came 
down and Jim Hearney with Senator Sessions' office came down. 
And we moved throughout the State talking about Federal and 
State support. The turnout was very strong. The enthusiasm was 
great. We heard a lot of new ideas. We heard a lot of 
opportunities. And we were genuinely asked for support and what 
we could do.
    We are prepared at the State level to come forward with 
expanded support for the arts. We are in hopes that you all 
will find a way, at the Federal level, to also expand support 
for the Endowment. With the millennium coming up, I think it is 
very appropriate and it is very timely and we have got the 
cultural resources and creative spirit out there that very much 
deserves our support. Thank you very much.
    Mr. Regula. Thank you for your testimony.
    [The statement of Mr. Head follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS


                                WITNESS

BILL RAUCH, ARTISTIC DIRECTOR, CORNERSTONE THEATRE COMPANY, AMERICAN 
    ARTS ALLIANCE
    Mr. Regula. American Arts Alliance.
    Mr. Rauch. Good afternoon, Mr. Chairman. I am honored to 
have this opportunity to testify in support of the NEA on 
behalf of Theatre Communications Group and the American Arts 
Alliance. My name is Bill Rauch and I run a small theater 
company called Cornerstone. We work in Los Angeles and across 
the nation. We bring together people face-to-face to create 
community-based theater and, in the process, we build bridges 
across difference of racial, economic, and religious 
backgrounds.
    Back in 1986 when I cofounded Cornerstone, all 11 of the 
founding members shared a frustration with who theater 
audiences were and, more to the point, who they weren't. We had 
a hunch that, in the process of creating work for audiences who 
didn't normally go to the theater, not only would we build a 
more populous audience for the arts but that we, in turn, would 
become better artists. And, in order to make this exchange as 
deep as possible, we developed the idea that is still at the 
heart of Cornerstone 13 years later. We put community-based 
artists on stage and backstage alongside our company's 
professionals. We create a play that is set, that examines and 
celebrates the community, and we offer all performances on a 
pay-what-you-can admissions basis, giving back a portion of 
those proceeds so the community can keep on doing theater.
    We started out by selecting small communities which were 
isolated by sheer geography and from Maine to Florida, from 
Nevada to West Virginia, we have learned first hand about the 
power of the arts to change lives. Let me very quickly tell you 
very quickly about a few of these people.
    Edret Brinston was a high school track star in Port Gibson, 
Mississippi. It is a town of 2,000 on the Mississippi. Edret 
had failed his State literacy test twice and he was going to 
get a certificate of attendance but not a diploma that spring. 
To the horror of some community residents, we cast this young 
man as Romeo in our bi-racial production. But we had no choice. 
He was the best actor. Of course, he went on to learn his lines 
faster than anybody else. He was a brilliant Romeo. And, with 
the renewed confidence, he passed the State literacy test and 
graduated to a standing ovation that spring.
    Ron Temple is the largest grain farmer in the tiny farming 
community of Norcatur, Kansas. He stands six foot, nine inches 
tall, so the largest in every since of the word. And he had 
never been in a play before, but we cast him in the leading 
role in a Moliere comedy. He turned his farm over to his sons-
in-law, spent 12 hours a day rehearsing, memorizing his lines.
    And today he teases me that I ruined his life. He went on 
to found--this is in a town of 220 people--the Norcatur Arts 
and Humanities Commission. And it, in turn, has inspired the 
founding of 5 other community theaters in northwestern Kansas. 
In fact 19 out of the 20 communities that we have worked with 
have gone on to found their own theater companies. Ron has 
directed up to three shows a year, testified to the State 
senate on the importance of rural arts, and served on our 
board. And now Norcatur, Kansas, is known in local tourism 
brochures for its theater and culture. [Laughter.]
    Mr. Regula. How about wheat and corn?
    Mr. Rauch. I have also seen firsthand the power--Well, 
that, too. We had Milo wallpaper on the set of our play.
    I have also seen firsthand the power of theater to change 
lives of entire families. In 1994, we cast a young girl named 
Stephanie Escobar in the Latino neighborhood within Watts. This 
is a quickie. And Stephanie's mom hung out during rehearsals. 
Before long she was made the assistant stage manager. The 
second play we did in Watts, both daughters were on the crew 
and mom was still working on it. By the time we got to our 
culminating production, the father decided he was missing out 
on a good thing. He was a bus driver by day, but a secret 
percussionist by night and he joined the show's band and 
proudly told us that theater was the first activity that his 
entire family could participate in together. Now all five 
members of the family are members of the newly founded Watts 
Village Theater Company and the son is studying to be a sound 
designer in college.
    Without the support of the NEA, we would literally not have 
been able to transform the lives of tens of thousands of other 
ordinary citizens.
    Mr. Regula. How do you feel about the changes we have made 
over the last couple of sessions in requirements of eliminating 
individual grants, for example, and adding the education 
components?
    Mr. Rauch. The focus on community and access is what we 
founded the company to do. So that I am incredibly supportive 
of. I believe in the individual artist and so, of course, I 
would love the individual artist to be supported, but the focus 
on community and, especially, the proposed Challenge America 
program is right in line with everything I believe in, 
everything I have been working toward.
    Mr. Regula. Thank you very much.
    Mr. Rauch. Thank you.
    [The statement of Mr. Rauch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                    NATIONAL ENDOWMENT FOR THE ARTS


                                WITNESS

JOE JEFCOAT, DIRECTOR, PENN STATE UNIVERSITY CENTER FOR THE PERFORMING 
    ARTS, ASSOCIATION OF PERFORMING ARTS PRESENTERS
    Mr. Regula. Association of Performing Arts Presenters.
    Mr. Jefcoat. Good afternoon, Mr. Chairman. I would like to 
thank you for this opportunity to testify in support of the 
National Endowment for the Arts on the behalf of the 
Association of Performing Arts Presenters and the American Arts 
Alliance. My name is Joe Jefcoat and I am the director of the 
Center for Performing Arts at Penn State University and State 
College.
    Our location, nestled in the mountains of Central 
Pennsylvania, is an important consideration when developing 
arts programs for our community. Soon after moving to State 
College four years ago, I had my first local identity crisis. 
It was late in the afternoon, prior to a concert, and the 
artists were nowhere to be found. After several nervous hours 
word finally arrived, the artists had appeared as scheduled. 
The only problem was one of location. He had appeared at the 
University of Pennsylvania in Philadelphia. [Laughter.]
    Not at the University Park location of Penn State. Tales 
began to fly of other artists who had earlier mistakenly landed 
in far away places like College Park, Maryland, as well. 
[Laughter.]
    Hence I would like to present to you the map of the State 
of Pennsylvania. [Laughter.]
    You will notice here, Pittsburgh, Ohio. Here, Philadelphia, 
New Jersey. And located here in the center of the State is an 
educational and cultural haven which is referred to locally--
and I am sure if Congressman Peterson was here would confirm--
as Happy Valley.
    We have a county population of about 125,000, but have the 
distinct pleasure of having a cornucopia of professional, semi-
professional, and avocational arts organizations: a symphony, a 
chamber orchestra, 4 community theaters, a summer equity 
theater, a classical music festival, a contemporary arts 
museum, 3 historical societies, 3 science museums, just to 
mention a few. These organizations add immeasurably to the 
vitality of our community. Surveys reveal that the bustling 
cultural environment is one of the top five reasons people 
enjoy living in Centre County. And it is one of the attributes 
that attracts business and industry to Central Pennsylvania.
    It is surely not easy for these organizations. Our 
community does not have big corporations, foundations, or 
individual wealth that are available in larger cities. In a 
State that, according to the last data I saw, was 47th in State 
support to public education, the Center must development 
strategic partnerships both locally and nationally, to stay 
afloat financially.
    The Federal Government has an important role to play in 
assisting communities such as ours build access to the entire 
artistic repertoire for our citizens. The National Endowment 
has a history of providing resources, services, and expertise 
to communities across the nation. Our market has become 
increasingly global and our leadership is even more important.
    The Center presents 30 to 35 visiting artists each year and 
more than 100 performances by community-based artists annually. 
In addition, the Center provides free classes, lectures, and 
discussions, all open to the public. The Center works in 
collaboration with the central intermediate team unit of the 
State Department of Education and public schools throughout 
Clinton, Clearfield, Blair, Mifflin, and Huntington counties in 
the development of curricula-based programs and study materials 
for our schools.
    I would like to emphasize the importance of Federal funding 
for touring companies based in our major cultural centers. Many 
of these artists are national treasures. They are not limited 
by State borders or local resources. They bring unique 
perspectives to communities across America. They bring us ideas 
and images not readily available in our own communities.
    Part of my career as an arts administrator I taught in the 
public schools of the Deep South and in New York. I have seen 
the contributions that arts make in the lives of children, 
youth, and young adults. The arts have been proven to enhance 
cognitive development, build self esteem, instill discipline, 
encourage teamwork, develop communications skills, diminish 
racial stereotypes, and improve problem solving. As the total 
amount of factual information explodes, the ability to think, 
manipulate, and apply knowledge is the key to our future.
    Mr. Regula. Okay. I think your time is up. We will put your 
statement in the record.
    Mr. Jefcoat. Okay, sir.
    Mr. Regula. I understand you support the NEA. [Laughter.]
    Mr. Jefcoat. Very much so. I think this is $150 million for 
our allocation is surely a small investment to make for such an 
enormous return.
    Mr. Regula. Thank you.
    Mr. Jefcoat. My sincere thanks.
    [The statement of Mr. Jefcoat follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

                          DEPARTMENT OF ENERGY


                                WITNESS

GERALD P. HUFFMAN, DIRECTOR, THE CONSORTIUM FOR FOSSIL FUEL 
    LIQUEFACTION SCIENCE
    Mr. Regula. Consortium for Fossil Fuel Liquefaction 
Science. You are not supporting the NEA, I gather. [Laughter.]
    Mr. Huffman. No. No, I am not going to sing or anything 
else.
    Mr. Regula. Okay.
    Mr. Huffman. I appreciate the opportunity to testify. And 
my name is Gerald Huffman and I am the director of the 
Consortium for Fossil Fuel Liquefaction Science. We are a 
research consortium with members from five universities: the 
University of Kentucky, which is my home; West Virginia 
University; University of Pittsburgh; Auburn University; and 
the University of Utah. With me today are several of my 
colleagues, mostly back there in the second row. Irving Wender 
from the University of Pittsburgh, Dick Baijura and George 
Fumich representing West Virginia, and John Owens----
    Mr. Regula. You conduct research at all these places?
    Mr. Huffman. At all these places.
    Mr. Regula. And you don't duplicate it?
    Mr. Huffman. No. That is one of the advantages to being 
coordinated.
    Mr. Regula. Are you supported by the private sector?
    Mr. Huffman. We do have some support from the private 
sector. We have had support in the past from a number of 
companies: Chevron, Mobile. We currently do have some support 
from Chevron.
    Mr. Regula. Liquefaction. So you are talking, about 
principally coal, I assume.
    Mr. Huffman. No, we have worked on coal in the past. At the 
current time, our focus is on C1 chemistry. And the primary 
feedstock of C1 chemistry is natural gas or synthesis gas, 
which can be produced by gassifying coal or biomass. But 
natural gas is the principal feedstock and the approach that we 
favor is converting natural gas into methanol and then using 
that as a feedstock to make ultraclean, high-efficiency 
transportation fuels.
    One of the earlier testifiers mentioned diesel. Diesel fuel 
will be a point of emphasis in our program. There is a lot of 
concern, as you probably know, over airborne particulate matter 
at this time. The diesel fuels that we make will be ultraclean 
and should produce significant reductions in particulate 
matter.
    Mr. Regula. Why would you want to liquefy natural gas? Why 
not just burn it as such?
    Mr. Huffman. Because one reason is we don't have any 
petroleum. That is one reason. We need domestic sources of 
transportation fuel. Another reason is that much of the natural 
gas is remote. For example, in Alaska.
    Mr. Regula. Do you liquefy it to transport it?
    Mr. Huffman. If you transform it to a nice liquid form, 
then it fits well into our transportation infrastructure.
    Mr. Regula. I thought up in Baltimore there was a facility 
for LNG, to bring it over here and reconfigure the gas.
    Mr. Huffman. That is really compression.
    Mr. Regula. But that didn't work too well, did it?
    Mr. Huffman. No. What we are talking about are chemical 
processes to chemically transform the molecules into the more 
complicated compounds that make up transportation fuel. So 
these are catalytic chemical processes that would be carried 
out and elevated----
    Mr. Regula. Can you produce it at a marketable cost? That 
was the problem in Baltimore, I think.
    Mr. Huffman. I think we can. Yes. I think--we all believe 
that C1 chemistry will become a significant source of 
transportation fuel.
    Mr. Regula. C1 chemistry is transferring it from a gas----
    Mr. Huffman. From a gaseous stage to a liquid stage.
    Mr. Regula. Okay, well thank you very much. It is an 
interesting concept.
    Mr. Huffman. Thank you.
    [The statement of Mr. Huffman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

        DEPARTMENT OF ENERGY: RESEARCH AND DEVELOPMENT PROGRAMS


                                WITNESS

RITA L. CASTLE, ISSUES ANALYSIS MANAGER, CORPORATE PUBLIC AFFAIRS, 
    CATERPILLAR, INC.
    Mr. Regula. Caterpillar, Inc. Are you going to burn some of 
this liquid natural gas?
    Ms. Castle. We may. Nice to see you.
    Mr. Regula. Okay.
    Ms. Castle. Thank you very much for having us here to 
express our support along with our colleagues from Detroit 
Diesel for the $71.5 million programs budgeted for the 
Department of Energy's Heavy Vehicle Technology program. We 
would like to focus--although Caterpillar has program areas in 
several niches, if you will, in the Department, we would like 
to focus on two: the Light Duty program and the Heavy Duty 
program. And rather than repeat some of what my colleagues said 
earlier, let me just make a couple of observations about the 
importance of each one of the programs.
    With regard to the Light Truck Engine program, this is a 
program that is targeted for a 50 percent improvement in 
vehicle miles per gallon, while a very significant improvement 
in both NO<INF>X</INF> and particulate emissions, which we have 
heard some reference here this afternoon. These, combined 
challenges are very, very significant for our industry, as you 
might imagine, but we believe have enormous paybacks in terms 
of fuel efficiency to our economy.
    Referencing the 50 percent, if there were a 50 percent use 
of diesel in sport utility vehicles, which we talked about 
earlier, this could translate to a $9.2 billion annual savings 
in fuel economy, which goes right to the Department of Energy 
mandates from Congress. It would also expand the use of 
alternative fuels used in transportation because diesel 
technology can virtually combust any fuel, including various 
types of soybean oil and all kinds of alternative fuels. We 
have been doing it for years.
    And it is also going to provide the U.S. economy and U.S. 
companies with job security and, hopefully, the creation of new 
jobs because we will be more competitive with our European 
counterparts who have been doing a fair amount of work in 
diesel research and in diesel improvement.
    The second program is a new program. It is a new line item, 
$5.5 million for the Heavy Truck Engine program. This is 
designed to meet the new Federal emissions test procedures, 
which have become far more aggressive. This is in the 2002 time 
frame, which could cause between a 5 and 10 percent fuel 
penalty for Heavy Duty Trucks. So, again, we are going right to 
the bottom line, right to DOE's mandate for national energy 
conservation and fuel economy.
    The DOE has worked closely with all the three engine 
manufacturers you have heard from this afternoon in crafting 
these programs. And, as we have said before, it really 
addresses the real-world technology challenges through 
leveraging the public and the private resources to meet our 
national goals. If I may answer your question that you 
addressed to my colleague, Mr. Keski, about who owns the 
technology and if it can be shared, the answer is it certainly 
can be and would be shared. All of these programs, the 
manufacturers have to make the technologies available to anyone 
who wishes to use them. So we thank you very much.
    Mr. Regula. Okay, do you have an engine? Are you working on 
one like the Delta that would compete?
    Ms. Castle. We are working not necessarily on a Delta 
engine, but we are working on some of the important components 
that would go into an engine such as fuel-injection systems, 
turbocharging. We are maximizing the individual technologies 
that could be used in a variety of engines.
    Mr. Regula. Are you sharing any technology with offshore 
companies such as Germany or France?
    Ms. Castle. Not at the present time. Actually, our 
partnering in this DOE program is with Ford.
    Mr. Regula. So they look forward to the development of the 
diesel engine for the Light Truck industry and SUVs and so on?
    Ms. Castle. They do, very much so. In fact we heard earlier 
today at a workshop over in Alexandria that the Department of 
Energy is very much encouraging the wider use of the diesel 
engine because of its incredible fuel economy and its 
efficiencies.
    Mr. Regula. Will this engine smoke?
    Ms. Castle. It will not. Our new diesel engines in the 
heavy trucks do not smoke either.
    Mr. Regula. Well, that is good.
    Ms. Castle. It is indeed.
    Mr. Regula. You see that smoke and they just----
    Ms. Castle. We don't want to see the smoke.
    Mr. Regula. That doesn't sell very well.
    Ms. Castle. Yes.
    Mr. Regula. Okay. Thank you very much.
    Ms. Castle. Thank you, Mr. Chairman.
    [The statement of Ms. Castle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

         DEPARTMENT OF ENERGY: FOSSIL ENERGY/ENERGY EFFICIENCY


                               WITNESSES

RICHARD A. BAJURA, DIRECTOR, NATIONAL RESEARCH CENTER FOR COAL AND 
    ENERGY, WEST VIRGINIA UNIVERSITY
GEORGE FUMICH, PROGRAM ADVISOR, NATIONAL RESEARCH CENTER FOR COAL AND 
    ENERGY, WEST VIRGINIA UNIVERSITY
    Mr. Regula. West Virginia University.
    Incidentally, I purchased at a charity auction, the 
privilege of going to Arizona and running your big bulldozers.
    Ms. Castle. Excellent. When are you going to do that?
    Mr. Regula. Well, I haven't decided yet. I have to get in 
shape. [Laughter.]
    Mr. Bajura. Good afternoon, Chairman Regula. I am Dick 
Bajura with West Virginia University's National Research Center 
for Coal and Energy and my colleague is George Fumich, a 
program advisor and a former assistant secretary for fossil 
energy. We appreciated your comments at lunch today about the 
importance of fossil fuels in our energy future and wanted to 
offer some observations regarding fossil energy programs and 
programs in energy efficiency.
    We are distressed to see that the administration this year 
recommended $9 million less than your committee appropriated 
last year for fossil energy programs. And, also, a level of $31 
million lower than the PCAST report, which is the 
administration's own report on the challenges of the----
    Mr. Regula. We may remedy some of that.
    Mr. Bajura. Appreciate that.
    Vision 21 is a program we strongly support. With 
sequestration, I believe we can have zero emissions. We believe 
that we need a vigorous approach to this program and want to 
recommend an additional $9 million for sequestration research.
    Mr. Regula. Now when you say sequestration, you are 
capturing the carbon.
    Mr. Bajura. Capturing the carbon.
    Mr. Regula. Is there an emissions mechanical device in the 
emissions? Or where do you capture it?
    Mr. Bajura. It can be several ways, sir. Some systems use 
only carbon dioxide or carbon and hydrogen, in which case you 
get water and carbon dioxide and that is directly captured. 
Others use a means systems and other kinds of technology to 
capture the carbon in a chemical solution. Once it is captured, 
then it has to be disposed and that can be done any number of 
ways.
    We believe that would be a future application that will 
help us to use fossil energy in an environmentally friendly way 
in the future.
    We also recommend that the Vision 21 program be supported 
at a higher level. We are recommending $25 million. I know that 
is a lot of money and your committee is strapped, but we really 
believe that this program should be supported at a higher 
level.
    Mr. Regula. Do you think that the energy efficiency and 
fossil energy budgets ought to be about equal?
    Mr. Bajura. I don't want to get involved in that, Mr. 
Chairman. [Laughter.]
    Mr. Regula. It has nothing to do with Kosovo. [Laughter.]
    Mr. Bajura. I understand that. Well, we have observed that 
fossil energy and energy efficiency are working cooperatively 
and we do want to commend the two.
    Mr. Regula. It seems to me they go hand-in-hand.
    Mr. Bajura. They have many programs that overlap and we 
commend the cooperation. We have also noticed cooperation 
between the Office of Science and the Office of Fossil Energy 
and the Sequestration Initiative. And those are things that we 
would like to see happen in the future. We also believe that 
fossil energy should be the governmentwide lead on carbon 
capture and sequestration research. I think that would give us 
the best bang for our buck to ensure that everybody is working 
cooperatively.
    Mr. Regula. Would you agree that fossil fuels will be a 
major source of energy for as far as the eye can see?
    Mr. Bajura. Yes, sir. Right now, if you look at what are 
our options if we don't have nuclear on the horizon and if we 
don't have any more hydro, which is tapped out, and we are 
using about as much biomass as we have, there is not much left 
except for the 1 percent that is the solar and wind. Although 
we believe that those programs will provide good results and 
increase energy in the future, they are still not going to 
replace the fossil ones. So we would request your continued 
support of the fossil fuels.
    You supported in the past coal mine methane research which 
I believe can show that this can be economically produced to 
have energy or fuels result from what would be a waste gas. I 
would encourage your continued support this year so it would at 
least go through the selection process that the committee 
identified.
    We also think the oil and gas programs of the Department 
are worthwhile and worth supporting, particularly methane 
hydrates, which is a source of vast energy. We believe the oil 
and gas program is focused on small producers, which will help 
us to maintain employment in the oil fields and also help our 
balance of payments.
    Mr. Regula. Do you get into efforts on enhanced oil 
recovery?
    Mr. Bajura. Yes. And, of course, one of the applications of 
CO<INF>2</INF> capture could be enhanced oil recovery. In West 
Virginia, for example, we have a lot of wells, 25,000, that 
have been lost and they have to reclaim them and make them 
environmentally safe, another important application.
    The Petroleum Technology Transfer Council that you support 
is a very good way to work throughout the country and----
    Mr. Regula. Well, it appears a lot of the product in the 
average well is left in the ground for many reasons.
    Mr. Bajura. Yes, there is. In West Virginia, we believe 
tertiary oil recovery can be important for us to continue 
producing. We also believe deep gas would also be a way of 
getting an additional resource.
    Mr. Regula. Okay. Well, thank you very much.
    Mr. Fumich. Mr. Chairman, can I answer that question?
    Mr. Regula. Yes, certainly.
    Mr. Fumich. I would say that if you gave energy efficiency 
and renewables what they are asking for--and I know that maybe 
that is not possible--I would even give more to the Office of 
Fossil Energy. [Laughter.]
    Mr. Regula. That is fairly clear. [Laughter.]
    Mr. Bajura. Thank you, Mr. Chairman.
    Mr. Regula. You bet.
    [The statement of Mr. Bajura follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

         DEPARTMENT OF ENERGY; INDUSTRIAL TECHNOLOGIES PROGRAMS


                                WITNESS

RANDOLPH J. GUSCHL, THE COUNCIL FOR CHEMICAL RESEARCH
    Mr. Regula. Okay, The Council for Chemical Research.
    Mr. Guschl. Mr. Chairman, my name is Randy Guschl and I am 
currently the chair of the Council of Chemical Research's 
Government Relations Committee. I am also director of Corporate 
Tech Transfer and Education at the E.I. DuPont de Nemours and 
appreciate this year not having to follow an impressive speaker 
for the NEA. Last year it was quite an experience following 
some of those speakers. They had great stories.
    I am appearing today to urge Congress to fund the 
Department of Energy's OIT. The Office of Industrial Technology 
has requested $171 million which is a 3 percent increase over 
the Fiscal Year 1999 budgeting, which is a modest increase 
which funds the OIT's Industries of the Future. CCR's 
membership includes most of the major chemical companies, 
industries, universities, and government labs that conduct 
research in chemistry and chemical engineering and we feel the 
efforts by the government entities like the OIT provide 
substantial leveraging by catalyzing productive interactions 
between those three parts of our research enterprise.
    We feel that leveraging is very important in getting 
competitive, innovative technology in place and we are 
particularly interested in energy R&D because the chemical and 
its allied industries are very major users of the energy you 
were talking about with the other speakers.
    Mr. Regula. Do you get support from the private sector?
    Mr. Guschl. Yes, in fact all these programs are leveraged 
programs where the private sector matches the government 
programs to do things together. That is the main thrust of the 
CCR is to have----
    Mr. Regula. And you have a fairly good cross section of the 
affected industries?
    Mr. Guschl. Yes. And, in fact, DuPont is one company, but 
the other chemicals and materials companies work with the seven 
OIT industries that are listed, which include mining, glass, 
ceramics, chemicals. I guess we want to stress that the OIT 
budget, which is a part of the $171 million is a very 
significant part of our nation's basic science technology 
program as well. And as we look at the growth in the NIH and 
NSF budgets, we have to keep also building on the other basic 
platforms that are behind it and we think the OIT budget is a 
part of that and that is why we are supportive of that.
    We think these lead to pre-competitive, high-risk, cost-
shared--there is the part you are looking for--industry-driven 
technologies which puts the ownership of these programs where 
it belongs, in the private sector. But we don't all have the 
resources that the national labs have that we can work with in 
a leveraged way.
    And I have already mentioned that we feel this is a leading 
interface for the major process industries which use up most of 
the energy in industry that you are talking about, other than 
automobiles. And that includes chemicals, aluminum, mining, 
forest products, steel, metal casting, glass, and agriculture. 
And the OIT mission is to help these sections realize 
substantial improvements in energy efficiency, which leads to 
even larger increases in waste reduction, which has to be a 
concern to all of us.
    We feel every industry could improve by having better 
energy efficiency in energy consumption which, again, leads to 
waste reductions which are very important; reducing capital 
costs; making us more competitive in the global economy. And, 
like most industries, the research in the chemical industry is 
primarily directed at near-term production and profitability 
issues and we wonder who is going to do the long-term research 
to deal with the days when the fossil fuels aren't as abundant 
and worry about the next generations afterwards. And we think 
it starts right now.
    Mr. Regula. Okay.
    Mr. Guschl. I just wanted to close, though, in saying that 
we think sustainability is an important part of it here and 
that is why we support the $171 million budget and thank you 
for the time.
    Mr. Regula. Thank you.
    [The statement of Mr. Guschl follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

 NATIONAL ENDOWMENT FOR THE ARTS/NATIONAL ENDOWMENT FOR THE HUMANITIES/
  INSTITUTE OF MUSEUM AND LIBRARY SERVICES: OFFICE OF MUSEUM SERVICES


                                WITNESS

JOHN SCHAEFER, FOUNDER, CENTER FOR CREATIVE PHOTOGRAPHY, ASSOCIATION OF 
    ART MUSEUM DIRECTORS
    Mr. Regula. Next, Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman. I am very pleased to 
welcome to the witness stand John Schaefer, who happens to be 
the president of the Research Corporation in Tucson, Arizona, 
but also is here to testify on behalf of the Association of Art 
Museum Directors and the American Arts Alliance. Dr. Schaefer, 
when he was president of the University of Arizona, founded the 
Center for Creative Photography in Arizona and it is an 
organization which we are really very proud of. I have their 
brochure here. You will notice a photograph.
    Mr. Regula. Oh, yes.
    Mr. Kolbe. All the Ansel Adams archives are at the 
University of Arizona Center for Creative Photography as well 
as many others. It is tremendous. As he put it, the literature 
of the 20th century is in our photography. But I just wanted to 
say that by way of introduction. He is here to testify for the 
budgets of NEH and NEA, and I am very pleased to welcome my 
friend and colleague from Tucson.
    Mr. Schaefer. Thank you, Congressman Kolbe and Mr. 
Chairman. It is a pleasure for me to be here and have an 
opportunity to speak to you about the arts budget. I am 
president of the Research Corporation which is America's oldest 
science foundation and the second oldest foundation in America, 
but I am not here to speak on behalf of science, although I am 
a member of the Council of Chemical Research. I am here to 
speak on behalf of the arts.
    One of the great things that happened in my life was in 
1975 when Ansel Adams and I worked together to start the Center 
for Creative Photography. The reason we did that was, as 
Congressman Kolbe said, a strong belief that photography really 
is the literature and language of our time. It has had a 
tremendous impact on America and on our culture. The national 
park system, which comes under the Interior Department, really 
is a creature of photography. It was the photographs of William 
Henry Jackson in the 1870s and 1880s of Yellowstone, the 
photographs of Muyerbridge and Watkins of the big trees in 
Yosemite that led Congress to create those places and set them 
aside in perpetuity for the American public and the world at 
large.
    As a matter of fact, in 1940 or so, Harold Dickeys 
commissioned Ansel Adams at the royal sum of $2.00 a photograph 
to take those three photographs that on the wall there and they 
are a part of, I think, American culture and American heritage. 
So it was nice to see those as I walked in.
    Photography has an incredible impact on our society as 
well. One thinks back, for example, to earlier in this century, 
the end of last century, of children working mills, 8-year-old 
children working 14-hour days, having all kinds of horrific 
accidents. Photographs of Louis Hind stimulated the conscience 
of America and led to congressional changes in those laws.
    Mr. Regula. I would say photographs today from Kosovo are 
influencing----
    Mr. Schaefer. Those are my next lines, actually. 
[Laughter.]
    No, in our own lifetime, the war in Vietnam came to a close 
because of images that were being bombarded on the American 
public, day in and day out. And, very recently, photographs 
from Kosovo pricked our conscience and caused us to take a 
stand. The plight of immigrants was recorded by Jacob Rees at 
the turn of the century and their situation changed, 
consequently, as a result of that.
    The Center for Creative Photography at the University of 
Arizona is really the largest storehouse in the world of 
photographic memorabilia, archives, and negatives. It is, in a 
real sense, the American photographic album. It contains images 
that remind of places as they were, places that we want to 
keep. It reminds us of events in the life of this country that 
we would like to forget but shouldn't forget. It pricks our 
conscience and makes us want to live up to the dreams that the 
founders of the country had. And it deserves your support.
    In the last few years, the Endowment has given well over 
$100,000 to the Center. Those funds have been supported more 
than two or threefold by contributions, matching contributions, 
from the public. And I would ask you to do the best you can. I 
will ask you to do better than you possibly can for the budget 
for the Endowment. It is an investment in America's past and 
America's future. Thank you very much.
    Mr. Regula. Thank you. Do you have any questions, Mr. 
Kolbe.
    Mr. Schaefer. And when you come to Arizona to drive that 
tractor, stop off at the Center for Creative Photography. 
[Laughter.]
    Mr. Kolbe. We will make sure that he does stop and that 
really is a very exciting place to see, and Dr. Schaefer, we 
are very pleased to have you here. You contribute so much in so 
many different ways with your and your wife's support of the 
arts in Tucson; your work as the president of the university; 
and now, of course, your work on behalf of science as president 
of the Research Corporation. We are very grateful.
    Mr. Schaefer. You are going to hear from the American 
Symphony Orchestra League in a moment. She is on that board so 
pay attention to them as well. [Laughter.]
    Mr. Kolbe. Thank you very much.
    Mr. Regula. Okay. Thank you.
    [The statement of Mr. Schaefer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

         DEPARTMENT OF ENERGY: ADVANCED TURBINE SYSTEMS PROGRAM


                                WITNESS

PETER CARROLL, SOLAR TURBINES
    Mr. Regula. Solar Turbines.
    Mr. Carroll. Mr. Chairman, my name is Peter Carroll. It is 
a pleasure to be here today. Thank you very much.
    I wrote you a letter on the 24th talking about 
appropriations allocations for the Department of Energy and 
then you had some testimony today that follows up on that. I 
would like to hit some highlights of some of those programs and 
begin with a little report on where we are on some ceramics 
activity. The ceramics combustion liner being developed under 
the CFCC program has over 5,000 hours and it is operating in an 
ARCO's facility where it supports enhanced oil recovery. And 
the power generation is sold on a grid, the heat goes down the 
well to bring up the heavy oil.
    And that technology will be moving into Malden Mills, the 
polartech mill in Lawrence, Mass, where we will put that into 
their two gas turbines that are now installed. They will put in 
during shutdown this summer. Those two units will be in an 
operational application and will be lowest emitting gas 
turbines of that size in the world. They are being permitted to 
15 parts NO<INF>X</INF>, so that is a real technology 
breakthrough and a real statement to speak in behalf of 
ceramics.
    What I wanted to talk to you about today was a slightly 
different subject and I think investment in R&D is important. 
We do a lot sometimes, maybe even too much. This money belongs 
to taxpayers. What we don't spend a lot of time on is 
regulatory reform. I wanted to touch on that for a second. The 
DOE funding right now is focused principally on, as you know, 
R&D.
    The Energy Policy Act of 1992 required the separation or 
deregulation of the utility industry. That restructuring 
process is probably the largest single factor to affect the 
electrical industry since the development and deployment of 
nuclear energy after the end of World War II. Such a 
significant factor has yet to receive the kind of attention at 
the Department of Energy that it ought to receive. It is just 
you don't have that level of attention to it. The President has 
not yet produced a bill, although there are seven issues in 
Congress.
    And I would like to give you some examples of why it is 
going to be difficult to get new technologies out into the 
market. If you wanted to deploy cogeneration whether it be a 
reciprocating engine, gas turbine, a dual-fired boiler system, 
whatever it might be, you would have to go through this kind of 
a reform list of applications. Now this requires the local 
activity, State activity, regional activity. Four pages of 
this. This is a tremendous expense.
    So what we have done is we have allowed technology to 
develop alternatives to large central power plants and we have 
built around those central power plants concurrently a cocoon 
of regulations and procedures and we have not changed those and 
we need to do that. So that is an area that needs to be 
changed.
    In the utility restructuring process right now, people will 
not use ATS technology, they won't use gas-fired engine 
technology as long as the utilities control standby charges, 
exit fees, stranded asset recovery, access fees, interconnect 
rules, system safety rules, and, where there are both gas and 
electric utilities, they control natural gas access.
    Mr. Regula. Will deregulation change that?
    Mr. Carroll. No, we need to change the rules. Deregulation 
is going to go from a regulated monopoly to an unregulated 
monopoly.
    Let me give you another example because it is important to 
bring in the EPA into this process. In California, region 
nine--and I will be very brief--region nine, which is San 
Francisco Bay, has established a NO<INF>X</INF> level of 2.5. 
They did that based upon one site demonstration of an after-
cleanup device. It's trade name is SKONO<INF>X</INF>. The State 
energy commission would like to site a large 60 percent 
efficient combined-cycle, state-of-the-art, GE gas turbine at 3 
parts NO<INF>X</INF> and they can't do it. I did a little 
calculation and if this room represented the gas volume of that 
gas turbine, the different between 3 parts and NO<INF>X</INF> 
and 2 parts NO<INF>X</INF> as a cube of nitrous and gas, about 
2.5 inches, outside. And they are fighting over that. And I 
think unless we get some regulatory change, we are not going to 
see the technologies get out into the marketplace.
    Mr. Regula. Well, there ought to be uniform standards.
    Mr. Carroll. Oh, yes.
    Mr. Regula. Otherwise, you have to build equipment for 
every situation and, obviously, that drives up costs. It must 
be a real nightmare to try to get certified in some of these 
jurisdictions.
    Mr. Carroll. It is very expensive to impossible, in many 
cases. In the Malden Mills facility, it took 10 years to get a 
permit to put in the cogeneration facility and only because the 
owner of that plant kept--after the plant burned down, he kept 
the employees on the payroll and was the ABC man of the week. 
He got notoriety out of that by this administration. When the 
administration went to him and said what can we do for you, he 
said one thing, get me a gosh darned permit for that 
cogeneration plant. And that is what we did.
    So what we would ask of you is, as you did last year when 
you asked the Department of Energy to pay attention to combined 
heat and power, ask them to put more focus on it. There should 
be a senior officer in the Department of Energy charged with 
bringing in the EPA, OMB, and working with the States to see 
that we change the rules and the technologies that you are 
investing in to get it out in the market. Thank you very much, 
sir.
    Mr. Regula. Well, you are right. And all these noble goals 
will be meaningless if we don't make the regulatory environment 
practical.
    [The statement of Mr. Carroll follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

  DEPARTMENT OF ENERGY: ADVANCED TURBINE SYSTEM/SOLID OXIDE FUEL CELL


                                WITNESS

FRANK BEVC, EMERGING TECHNOLOGY FOR SEIMENS WESTINGHOUSE POWER 
    CORPORATION, SIEMENS WESTINGHOUSE POWER CORPORATION
    Mr. Regula. Siemens Westinghouse.
    Mr. Bevc. Chairman Regula, staff members. Being the next-
to-the-last presenter, I understand the need to make my 
comments brief, so I will try to do that.
    Mr. Regula. It would be appreciated. I have several more 
appointments I have to meet.
    Mr. Bevc. I do want to take a moment just to express our 
appreciation, again, for the opportunity to present our 
thoughts. It took three days worth of public testimony and the 
number of presenters that you have seen is a great task for 
anyone to endure.
    Mr. Regula. And a challenge.
    Mr. Bevc. And we really appreciate it. My name is Frank 
Bevc. I am an engineering manager with Siemens Westinghouse. 
Those are two very familiar names in the electricity producing 
industry and we combined our operations last August. Our 
headquarters is in Orlando, Florida, and we have factories in 
North Carolina, South Carolina, Texas and Alabama, just over 
the border in Hamilton, Ontario. We have sales offices in every 
State and service personnel in every State in the Union, so we 
are very much familiar with producing electricity and all of 
the technologies: coal and natural gas, hydro, solar, and 
others.
    I can really summarize our testimony in just two words and 
that is efficiency and partnerships. Efficiency in the sense of 
we waste about two-thirds of the energy input of coal and 
natural gas in producing electricity these days with our 
installed power generation equipment and----
    Mr. Regula. In other words, you only get a third of the 
BTUs transferred into electricity.
    Mr. Bevc. Yes. If you take all of the power plants in the 
United States, the average efficiency of converting the energy 
in coal and natural gas into electricity is----
    Mr. Regula. What is the most efficient?
    Mr. Bevc. The most efficient is the new technologies that 
we are developing in our partnerships with DOE, that is the ATS 
program, the fuel cells, and the clean coal technologies that 
are coming out of the clean coal program.
    Mr. Regula. I am familiar with the one in Tampa, but is 
there a power plant that is a model for getting the most out of 
a lump of coal in terms of BTU transferred to electricity?
    Mr. Bevc. The four demonstrations, the clean coal 
technology, gassification demonstrations, I think, as a class 
of coal-fired power plants, are a step in the way to the kinds 
of efficiency that would be used.
    Mr. Regula. Which do you think would get you there quicker? 
Gassification, coal gassification, or more efficient boilers?
    Mr. Bevc. I believe that more efficient boilers would still 
have post-combustion clean up devices that would detract from 
their efficiency. So I think gassification----
    Mr. Regula. Gassification is probably the future.
    Mr. Bevc. Well, gassification is the power of the future, 
but the price of natural gas has dropped and the price 
differential between the two is such that the technology of 
choice, fossil technology of choice, near-term is certainly 
natural gas combined cycle plants. And that is our latest joint 
achievement----
    Mr. Regula. Tell me, combined cycle, what does that mean?
    Mr. Bevc. That means that the natural gas is burned in a 
gas turbine.
    Mr. Regula. Okay.
    Mr. Bevc. A waste heat from the gas turbine is steam 
forced--
    Mr. Regula. Okay, you recapture it.
    Mr. Bevc. And that combined cycle within the ATS program 
will get over 60 percent conversion efficiency from natural gas 
to electricity. So that is the next generation that we are 
working with DOE in partnership.
    Mr. Regula. Do you agree that we are going to be dependent 
on fossil for as far as the eye can see?
    Mr. Bevc. Yes, very much so. And on our installed power 
generation base. The power plants that exist right now. So 
making them better and continuing developing a balanced 
portfolio----
    Mr. Regula. Is Siemens into retrofits, then?
    Mr. Bevc. Yes, very much so.
    Mr. Regula. To make a power plant--bring it up to speed, so 
to speak, in terms of the standards?
    Mr. Bevc. Yes and Siemens is not a boiler manufacturer.
    Mr. Regula. Oh, I understand.
    Mr. Bevc. We are a turbine manufacturer, essentially. So 
we, indeed, derive almost half of our sales from making today's 
power plants more efficient and better economic producers.
    Mr. Regula. Do you market to other countries?
    Mr. Bevc. Of course. Siemens Westinghouse is all over.
    Mr. Regula. I know it is an international company. But what 
I guess I am asking is are other countries upgrading their 
boilers or setting standards that require upgrades?
    Mr. Bevc. The most, I guess, telling comment I can make to 
that is really with regard to China and that is Siemens 
Westinghouse has a joint venture with the Shanghai Machinery 
Works in China. And there the Chinese homemade turbines have an 
efficiency of perhaps somewhere in the 16 to 18 percent range. 
By applying our technology in partnership with the Chinese, and 
just standard steam turbine technology, with standard kind of 
boiler plants, we are able to--and exporting equipment from the 
United States, by the way--able to increase that average 
efficiency of their plants or of the new equipment coming out 
of their factory and our factories to the 32, 33 percent range.
    So even with conventional technologies, by exporting a 
conventional U.S. technology and forming an international 
partnership, I think we are able to have a major impact on 
their situation.
    Mr. Regula. Okay. Well, thank you very much.
    [The statement of Mr. Bevc follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 14, 1999.

            DEPARTMENT OF ENERGY: ENERGY EFFICIENCY PROGRAMS


                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR, AMERICAN COUNCIL FOR AN ENERGY-
    EFFICIENT ECONOMY
    Mr. Regula. Our last witness for today, American Council 
for an Energy-Efficient Economy. Tell us something we haven't 
heard so far this afternoon. [Laughter.]
    Mr. Geller. Okay. Well since I got here about 15 minutes 
ago. [Laughter.]
    Mr. Regula. Oh, I see. I am sorry about that.
    Mr. Geller. Well, I too will try to be brief as having the 
honor of being the last witness today. I am Howard Geller, the 
executive director of the American Council for an Energy-
Efficient Economy. I thought I would focus my comments today on 
DOE's Office of Building Technologies, known as OBTS. DOE has 
requested a $49 million increase in the buildings programs, 
excluding the weatherization and the State energy office 
grants, just the R&D activities in the building sector.
    Mr. Regula. And this would be just to develop technology on 
building efficiency?
    Mr. Geller. A whole range of efforts. I think you have 
heard about the Building America program. This includes 
appliance standards, building codes, work on windows----
    Mr. Regula. Why do they need so much of an increase?
    Mr. Geller. The wide range of technologies that go into 
making buildings energy efficient means that you need quite a 
broad program. It isn't like a turbine technology where there's 
one major technology. You have the building envelope, the roof, 
the insulation, you have the heating system, the appliances, 
windows----
    Mr. Regula. What does your organization do?
    Mr. Geller [continuing]. And there is relatively little R&D 
going on in making buildings more energy efficient.
    Mr. Regula. Okay. What is the role of your organization?
    Mr. Geller. Our organization is a nonprofit group that is 
doing analysis, advocacy, services to the energy profession, 
publications, conferences, workshops. We have been around about 
20 years now and are generally, you know, working with the 
Congress and your staff. We played a role in the Energy Policy 
Act and the appliance standards that were signed into law by 
President Reagan about 12 years ago.
    Mr. Regula. You say you are working to promote an energy-
efficient economy.
    Mr. Geller. Right.
    Mr. Regula. Would that include the ability to produce or to 
transfer BTUs from one medium to another? In other words 
production of power? Does that get into your areas also?
    Mr. Geller. Yes, we are very involved on the energy supply 
side as well as the energy use side. We have been working with 
companies like solar turbines to promote combined heat and 
power, to work on addressing these wide range of barriers that 
Peter Carroll identified. We are participating in some of these 
programs. About 10 or 15 percent of our revenues are from the 
Department of Energy. We help them implement programs like the 
Combined Heat and Power Challenge, to be perfectly honest with 
you. We are not doing R&D ourselves, but we work closely with 
the national labs and all these companies that are involved in 
trying to make more efficient power plants, more efficient 
vehicles, appliances, and so forth.
    Mr. Regula. Would you characterize your organization as a 
disseminator of information?
    Mr. Geller. That is a good way of characterizing us. We 
wear different hats. We are doing advocacy as we are doing 
today, but a lot of what we do is to collect information, 
disseminate information. We have consumer guides, this sort of 
thing.
    Mr. Regula. Do you get private financing at all? I assume 
you are a 501(c)(3).
    Mr. Geller. That is correct. 10 or 15 percent comes from 
DOE, but 85 or 90 percent comes from other sources, so we are 
involved working with utilities, working with companies, 
selling services, selling publications. We are a small business 
promoting energy efficiency.
    Mr. Regula. I have heard so many of these different 
organizations which seem to have an overlapping function. Now 
do you each have a niche? Because, obviously, you go to the 
same support base for funding.
    Mr. Geller. Yes, I think there is pretty good distinction 
between what we do and some of the other organizations do. We 
all have our niches. I think you heard from the Alliance to 
Save Energy, which is the one other major 501(c)(3) working on 
energy efficiency and we work together and are careful not to 
duplicate each other.
    Mr. Regula. That points out to me that you do not mention 
fossil energy programs in your testimony. Wouldn't that be part 
of energy efficiency? Isn't fossil fuel used in a more 
efficient way?
    Mr. Geller. I decided to focus on the building sector in my 
comments. I realize one has very limited time and I picked one 
area to focus on this year. I would be happy to talk further to 
you and your staff about fossil.
    Mr. Regula. You do get involved in----
    Mr. Geller. Yes.
    Mr. Regula [continuing]. The more efficient use of fossil 
fuels?
    Mr. Geller. As I said, we are active in that area, 
particularly with respect to promoting greater use of combined 
heat and power. Can I make a few comments about the building 
sector.
    Mr. Regula. Okay.
    Mr. Geller. Thank you. Okay. I wanted to present to you and 
the subcommittee today a report that we completed back in 
January reviewing five of the successful initiatives in the 
building sector from the 1990s.
    Mr. Regula. This is standards, building standards.
    Mr. Geller. No, it is technologies and standards. I will 
list the five are the solar-controlled low-E window film 
technology; compact flourescent lamps for halogen torchieres 
light fixtures; the Building America program, which you have 
heard about; the alternative refrigerants work; and the 
building standards and guidelines. So those are four 
technologies in one areas, as standards.
    Mr. Regula. Would you have compliance people, companies, as 
members then, since you talk about better standards?
    Mr. Geller. Yes, we have, for example, corporate sponsors 
of our conferences. We kind of hold what we believe is the 
premier conference in the energy efficiency field and some 
companies, a Maytag or a Whirlpool, Carrier, those companies do 
provide modest contributions for our conferences. So we are 
working with those companies.
    I just wanted to note that these are five examples of 
successful programs in the buildings area where DOE worked 
collaboratively with the private sector to introduce new 
technologies or new policies, in the case of building codes, 
that are saving energy and saving money for consumers, on a 
large scale. And the new activities, the roadmapping activities 
of the OBTS program, should help expand these collaborations 
between DOE's labs and the private sector, thereby yielding 
even greater energy and economic savings in the future.
    We believe that the buildings programs deserve a 
significant increase and should not be treated less favorably 
than the industrial or the transportation programs.
    And let me conclude by noting a couple of areas within the 
buildings program that we think should be priorities within 
that office. One is the lighting and appliance standards work.
    Mr. Regula. Okay.
    Mr. Geller. Where DOE is planning to complete three very 
important rulemakings in Fiscal Year 2000 that could save 
billions of dollars for consumers and obviate the need for 
quite a few large power plants.
    The second priority area would be the fuel cells in the 
buildings R&D program which is an extremely promising advanced 
technology. It is one of these fuel conversion technologies 
that would put a combined heat and power system in your 
basement where you are generating electricity, generating your 
heat, in, potentially, a very cost-effective and 
environmentally friendly manner.
    And, last, the Energy Star program. I want to put in a plug 
for that. I know it is one where there is some controversy and 
some question about DOE's role. We have followed it closely and 
we will testify that DOE is playing a valuable role in 
educating consumers in reducing the barriers to the adoption of 
new technologies. There are barriers like solar turbines talked 
about multiplied by 10 in the residential market where there 
isn't the awareness. There are rush purchases when your old 
refrigerator conks and you know the ice cream is melting. You 
need that kind of activity to make it easy for consumers to 
identify a high-efficiency product.
    Let me stop there and thank you for your time.
    Mr. Regula. Okay. Would work with the consumer products 
industry?
    Mr. Geller. We are working with the auto industry. We are 
working with companies like Solar Turbines. We are working with 
appliance companies. We have industry specialists, 
transportation specialists, utility specialists, and building 
specialists on our staff. There is a lot of ground to cover, as 
you know.
    Mr. Regula. You don't have to answer, but you would equate 
fossil energy with efficiency in the terms of DOE's 
responsibilities?
    Mr. Geller. We are supportive of fossil programs----
    [Laughter.]
    Mr. Geller [continuing]. That are working on improving 
efficiency and reducing emissions. Clearly, most of our energy 
is coming from fossil fuels today and will be for many years to 
come and, in this country, in China, in India, there is a big 
difference between a state-of-the-art natural gas combined 
cycle power plant and a dirty old coal-fired plant. You know, 
there are ranges of performance.
    Mr. Regula. I understand.
    Mr. Geller. And we should be working on improving the 
performance and that is an important activity of DOE that is 
funded by the Interior.
    Mr. Regula. That is a good answer. [Laughter.]
    Mr. Regula. Thank you. The committee is adjourned.
    [The statement of Mr. Geller and additional written 
testimony follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abberger, Lester.................................................   575
Able, E.H., Jr...................................................   600
Abnee, Conn......................................................   583
Adkins, L.J......................................................   938
Ali, S.A.........................................................   684
Alvey, Karen.....................................................    31
Apfelbaum, Sharon................................................    45
Applegate, D.R...................................................   632
Bajura, R.A......................................................   751
Barnett, J.A.....................................................   391
Beard, D.P.......................................................    66
Beck, Michael....................................................   202
Beck, Richard....................................................   521
Beetham, M.B.....................................................   107
Bendick, Robert..................................................   248
Bennett, Matt....................................................   339
Bevc, Frank......................................................   776
Bird, Lila.......................................................   924
Blockstein, D.E..................................................   413
Blum, J.O........................................................   504
Bogle, J.C.......................................................   178
Bonkovsky, James.................................................     1
Bradshaw, Mike...................................................   147
Brown, Molly.....................................................    38
Camara, Lee......................................................   492
Campbell, F.T....................................................   196
Carr, D.W., Jr...................................................   407
Carroll, Peter...................................................   770
Castle, R.L......................................................   745
Coffman, Terry...................................................   564
Colopy, Michael..................................................     6
Conrad, G.E......................................................   930
Cooley, P.R......................................................   471
Coulombe, Mary...................................................   307
Cruickshank, Dr. M.J.............................................   934
D'Arms, J.H......................................................   553
Day, William.....................................................   672
Delfino, K.W.....................................................   276
Derbyshire, Frank................................................   504
Dickens, Michael.................................................   516
Dillingham, Tim..................................................   376
Duggan, Terry....................................................   459
Duncan, Roger....................................................   841
Ebel, J.E........................................................   907
Enzler, Jerry....................................................   459
Erickson, Gary...................................................   190
Espy, J.J., Jr...................................................   387
Fanning, John....................................................    53
Faul-Zeitler, Roberta..........................................886, 919
Franklin, T.M....................................................   395
Fritz, E.C.......................................................   441
Fumich, George...................................................   751
Gangloff, Deborah................................................   121
Garland, Matt....................................................   666
Geller, Howard...................................................   782
Geringer, Jim....................................................   372
Goergen, Michael.................................................    90
Golan, Jay.......................................................     1
Gordon, Steve....................................................    19
Gunn, Sue........................................................   288
Guschl, R.J......................................................   758
Guse-Noritake, J.R...............................................   451
Haines, Kyle.....................................................    25
Hall, Jason......................................................   463
Hamilton, David..................................................   479
Hayes, Justin....................................................    60
Hayes, Lark......................................................   407
Hazard, H.E......................................................   241
Head, Al.........................................................   721
Henderson, Ed....................................................   401
Henley, J.S......................................................   383
Hergenrader, G.L.................................................   325
Hertfelder, Eric.................................................   269
Hightower, G.J...................................................    53
Hightower, Michael...............................................   690
Hirsh, June......................................................    53
Hoagland, Annie..................................................   295
Hocker, Jean.....................................................   261
Holder, Gerald...................................................   744
Holmer, Steve....................................................    84
Holmes, C.A......................................................   437
Holmes, C.D......................................................   510
Hoscheck, Doug...................................................   348
Huffman, G.P.....................................................   739
Jackson, James...................................................    53
James, Sharpe....................................................   429
James, Ted.......................................................   409
Janger, S.A......................................................   903
Jefcoat, Joe.....................................................   733
John, Ismael.....................................................   900
Johnson, Carolyn.................................................   921
Jordan, Joy......................................................    31
Judd, Joe........................................................    31
Jungwirth, E.L...................................................   141
Kannberg, Landis.................................................   708
Keairns, D.L.....................................................   626
Keski-Hynnila, D.E...............................................   714
Kightlinger, Alan................................................   207
Kirk, M.C........................................................   649
Klasss, D.L......................................................   791
Kuhn, R.E........................................................   449
Lawrence, Francis................................................   559
Lea, George......................................................   228
Lee, Bernard.....................................................   498
Lee, Dr. Robert..................................................   814
Leonard, Donna...................................................     6
Lopez, Elsa......................................................   379
Mahler, Andy.....................................................   362
Markham, Dan'l...................................................   164
Marshall, Gwen...................................................    13
Marvin, M.L......................................................   486
McCune, Wes......................................................   702
Meilleur, Dr. B.A................................................   397
Moe, Richard.....................................................   128
Montgomery, S.W..................................................   320
Moore, Berrien, III..............................................    00
Morrow, Rick.....................................................   661
Mosman, J.D......................................................   799
Nease, Janice....................................................   938
Niebling, C.R....................................................   301
Nimmons, John....................................................   614
Oberndorf, M.E...................................................   912
Ott, W.R.........................................................   643
Overbey, M.M.....................................................   879
Pacelle, Wayne...................................................    77
Page, Christopher................................................   472
Patten, J.W......................................................   655
Paul, Ellen......................................................   413
Perschel, Robert.................................................   171
Peter, Neptali...................................................   900
Pimsler, Stuart..................................................   696
Poage, Rev. Dr. Ben..............................................   925
Pote, Jonathon...................................................   540
Powell, Kay......................................................    72
Probart, Suzanne.................................................   147
Rauch, Bill......................................................   727
Rees, C.H. ``Ted'', Jr...........................................   845
Rice, D.M........................................................   158
Rippey, Mike.....................................................   401
Roberts, M.J.....................................................   829
Rosen, Dr. Barry.................................................   882
Sampson, Donald..................................................   417
Samuels, C.A.....................................................   857
Saperstein, Lee..................................................   547
Savitz, Maxine...................................................   607
Schaefer, John...................................................   764
Schwindt, Francis ``Fritz''......................................   447
Sebastian, Carol.................................................   235
Sedano, Richard..................................................   593
Seitz, J.S.......................................................   832
Sharkey, A.G., III...............................................   793
Sigmon, Neal.....................................................    96
Silver, Scott....................................................   366
Simpkins, Eric...................................................   586
Smith, Maj. Gen. S.B.............................................   803
Smith, R.E.......................................................   534
Snodgrass, R.D...................................................   214
Sparrowe, R.D....................................................   335
Sprouse, Randy...................................................   938
Steinbach, T.E...................................................   135
Stevens, Christine...............................................   102
Stockman, Vivian.................................................   911
Story, G.E.......................................................   442
Styles, Gary.....................................................   473
Sublette, Kerry..................................................   570
Taylor, Daniel...................................................   379
Taylor, Gary.....................................................   314
Thornton, Wanda..................................................     6
Tierney, J.W.....................................................   744
Tindall, B.S.....................................................   114
Tobin, David.....................................................   221
Torsella, J.E....................................................   178
Venable, Jim.....................................................    45
Wald, J.H........................................................   926
Ward, J.H........................................................   356
Ward, P.J........................................................   358
Webb, D.O........................................................   678
Weiner, D.R......................................................   928
Wender, Irving...................................................   744
Werner, Gary.....................................................   254
Werst, W.H., Jr..................................................   861
Whalen, J.E......................................................   185
Williams, Nick...................................................   284
Wirtz, Gene......................................................   916
Woolf, S.W.......................................................   407
Woolsey, J.R.....................................................   527
Wright, D.V......................................................   897
Wright, David....................................................   638
Yamagata, Ben....................................................   620
Zimmerman, G.R...................................................   374


                               I N D E X

                              ----------                              

                       Natural Resource Programs

                                                                   Page
Accomack County, VA..............................................     6
Adopt-A-Stream Foundation (w/103 other groups)...................   453
Alice Ferguson Foundation, Inc...................................    72
American Association of Museums..................................   463
American Forest and Paper Association............................   307
American Forest..................................................   121
American Lands Alliance..........................................    84
American Rivers..................................................    60
American Sportfishing Association................................   467
Appalachian Mountain Club........................................   135
Audubon-California...............................................   379
California Industry and Government Coalition.....................   352
Carnegie Hall....................................................     1
Center for Marine Conservation...................................   403
Center for Plant Conservation....................................   397
City of Fredonia, AZ.............................................    33
City of Gainesville, FL..........................................   425
City of Kanab, UT................................................    32
City of Miami Beach, FL..........................................   422
City of Newark, NJ...............................................   429
Coachella Valley Mountains Conservancy...........................    45
Colorado River Basin Salinity Control Forum......................   391
Colorado River Board of California...............................   374
Colorado River Water Conservation District.......................   449
Colorado Water Conservation Board................................   342
Columbia River Inter-Tribal Fish Commission......................   417
Cooperative Alliance for Refuge Enhancement......................   221
Dallas Trees and Parks Foundation................................   147
Defenders of Wildlife............................................   107
Deep Creek Open Space Coalition..................................   235
Doris Day Animal League..........................................   241
Endangered Habitats League.......................................   202
Endangered Species Coalition.....................................   370
Friends of Back Bay..............................................    38
Friends of Carter Barron Amphitheatre............................    53
Fronterra Audubon Society........................................   196
Great Rivers Land Trust..........................................   295
Heartwood........................................................   362
Highlands Coalition..............................................   376
Intermountain Forest Industry Association........................   190
International Association of Fish and Wildlife Agencies..........   314
J. Whalen Associates.............................................   185
Kane County, UT..................................................    31
Kern County, CA Valley Floor HCP.................................   409
Klamath Forest Alliance..........................................    25
Land Trust Alliance..............................................   261
Lane Council of Governments......................................    19
Maine Coast Heritage Trust.......................................   387
Maryland Environmental Trust.....................................   284
Mayors of the Upper Mississippi River............................   443
Mississippi River Interpretive Center............................   459
Montezuma County, CO Board of County Commissioners...............   442
Napa County, CA..................................................   401
National Association of Conservation Districts...................   437
National Association of State Foresters..........................   325
National Audubon Society.........................................    66
National Conference of State Historic Preservation Officers......   269
National Constitution Center.....................................   178
National Fish and Wildlife Foundation............................    96
National Network of Practitioners................................   164
National Recreation and Park Association.........................   114
National Trust for Historic Perservation.........................   128
National Volunteer Fire Council..................................   207
Natural Resources Defense Council................................   356
Northern Forest Alliance.........................................   171
Ohio & Erie Canal Corridor Coalition.............................   158
Outdoor Recreation Coalition of America..........................   443
Pacific Rivers Council...........................................   451
Partnership for the national Trails Systems......................   254
Pittsburgh Parks Conservancy.....................................   421
Preservation Action..............................................   320
Public Lands Foundation..........................................   228
Riverside County, CA.............................................    45
Society of American Foresters....................................    90
Society for Animal Protective Legislation........................   102
Society for the Protection of New Hampshire Forests..............   301
Southern Environmental Law Center................................   407
State of Wyoming.................................................   372
Texas Committee on Natural Resources.............................   441
The Garden Club of America.......................................   383
The Humane Society of the United States..........................    77
The Nature Conservancy...........................................   248
The Ornithological Council.......................................   413
The Wilderness Society...........................................   288
The Wildlife Society.............................................   395
Tree New Mexico..................................................   147
U.S. Park Police Labor Committee.................................   358
U.S. Public Interest Research Group..............................   276
Upper Mississippi River Basin Association........................   455
Watershed Research and Training Center...........................   141
Western States Water Council.....................................   447
Wildlife Management Institute....................................   335
Wild Wilderness..................................................   366
World Wildlife Fund..............................................   214
Yukon River Drainage Fisheries Association.......................   345

                       Energy and Other Programs

Air-Conditioning & Refrigeration Institute.......................   845
Alfred University................................................   643
Alliance to Commercialize Carbonate Technology...................   614
Alliance to Save Energy..........................................   479
AlliedSignal Inc.................................................   607
American Anthropological Association.............................   879
American Arts Alliance.........................................727, 892
American Association of Museums..................................   600
American Council for an Energy-Efficient Economy.................   782
American Geological Institute....................................   632
American Institute of Chemical Engineers.........................   626
American Iron and Steel Institute................................   793
American Museum of Natural History...............................   888
American Public Power Association................................   825
American Society of Civil Engineers..............................   534
American Society of mechanical Engineers.........................   708
American Symphony Orchestra League...............................   875
Appalachian-Pacific Coal Mine Methane Power Company..............   822
Associated General Contractors of America........................   666
Association of American Universities.............................   559
Association of Art Museum Directors..............................   764
Association of Home Appliance Manufacturers......................   857
Association of Independent Colleges of Art and Design............   564
Association of Performing Arts Presenters........................   733
Association of Systematics Collections.........................886, 919
Bethlehem Steel Corporation......................................   829
Biomass Energy Research Association..............................   791
California State Teachers' Retirement System.....................   799
Caterpillar, Inc.................................................   745
Center for Applied Energy Research, U. of Kentucky...............   504
Center for Environmental Research, U. of Tulsa...................   570
Center for Marine Resources and Environmental Technology.......527, 934
Citizens Coal Council............................................   921
City of Virginia Beach, VA.......................................   912
Close Up Foundation..............................................   903
Coal River Mountain Watch........................................   938
Coal Utilization Research Council................................   620
Concerned Citizens' Coalition....................................   911
Consortium for Fossil Fuel Liquefaction Science..................   739
Council for Chemical Research....................................   758
Cummins Engine Company, Inc......................................   655
Dakota Resource Council..........................................   916
Dance USA........................................................   696
Detroit Diesel Corporation.......................................   714
Electric Vehicle Association of the Americas.....................   833
Energy Research Corporation......................................   586
Enewetak/Ujelang Local Government Council........................   900
Federal of State Humanities Councils.............................   575
Fuel Cell Power Association......................................   811
Fulton County, GA................................................   690
Gas Research Institute...........................................   678
Gas Turbine Association..........................................   672
General Electric Power Systems...................................   837
Geothermal Heat Pump Consortium..................................   583
Hydrocarbon Technologies, Inc....................................   797
Industrial Assessment Center Program.............................   649
Institute of Gas Technology......................................   498
Integrated Building and Construction Solutions...................   516
Interstate Mining Compact Commission.............................   930
Kentucky Appalachian Ministry....................................   925
M-C Power Corporation............................................   492
Miami University.................................................   521
Museum of Discovery and Science..................................   882
National Assembly of State Arts Agencies.........................   721
National Association for State Community Services Programs.......   866
National Association of Counties.................................   690
National Association of Energy Services Companies................   849
National Association of State Energy Officials...................   593
National Association of State Universities and Land-Grant 
  Colleges.......................................................   547
National Coalition for Abandoned Mine Reclamation................   638
National Corn Growers Association................................   818
National Humanities Alliance.....................................   553
National Institutes for Water Resources..........................   540
National Mining Association......................................   510
National Research Center for Coal and Energy, West Virginia 
  University.....................................................   751
Natural Gas Industry's RD&D Initiative...........................   807
Natural Resources Defense Council................................   926
Ohio Mineland Partnership........................................   897
Opera America....................................................   702
Petroleum Recovery Research Center...............................   814
Petroleum Technology Transfer Council............................   853
Rolls-Royce Allison Engine Company...............................   684
Seimens Westinghouse Power Corporation...........................   776
Solar Turbines, Inc..............................................   770
Southern California Gas Company..................................   661
Southern Company Services, Inc...................................   473
The Business Council for Sustainable Energy......................   486
United States Advanced Ceramics Association......................   861
Urban Consortium Energy Task Force...............................   841
Water Information Network........................................   924
Western Research Institute.......................................   803
Weston Observatory of Boston College.............................   907

</pre></body></html>
